<html>
<title> - FORESTRY</title>
<body><pre>[Senate Hearing 113-349]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-349

                                FORESTRY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   TO

   RECEIVE TESTIMONY ON THE FOLLOWING BILLS: S. 1784, THE OREGON AND 
  CALIFORNIA LAND GRANT ACT OF 2013; and S. 1966, THE NATIONAL FOREST 
                    JOBS AND MANAGEMENT ACT OF 2014

                               __________

                            FEBRUARY 6, 2014






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 _______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-999 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     9
DeFazio, Hon. Peter A., U.S. Representative From the 4th District 
  of Oregon......................................................    11
Dombeck, Mike, Board Member, Trout Unlimited.....................    87
Ellis, Steven A., Deputy Director for Operations, Bureau of Land 
  Management, Department of the Interior.........................    15
Franklin, Jerry F., School of Environmental and Forest Science, 
  University of Washington.......................................    40
Georg, Clint, Partner, Saratoga Forest Management................    97
Leiken, Sid, Commissioner, Lane County, OR.......................    75
Matz, Mike, Director, U.S. Public Lands, The Pew Charitable 
  Trusts.........................................................    49
Miller, Andrew, President/CEO, Stimson Lumber Company, Portland, 
  OR.............................................................    46
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     7
Riddle, Dale, Senior Vice President, Seneca Sawmill Company, 
  Eugene, OR.....................................................    68
Risch, Hon. James, U.S. Senator From Idaho.......................    38
Robertson, Doug, Commissioner, on Behalf of the Association of 
  O&C Counties...................................................    55
Stevens, Sean, Executive Director, Oregon Wild...................    58
Tidwell, Hon. Thomas, Chief, Forest Service, Department of the 
  Interior.......................................................    23
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................   107

                              Appendix II

Additional material submitted for the record.....................   127

 
                                FORESTRY

                              ----------                              


                       THURSDAY, FEBRUARY 6, 2014

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee will come to order. We have a 
busy forestry agenda this morning.
    But with Senator Murkowski's leave, I have just a few 
comments to make on another matter. I think we both know it is 
always a challenge to definitively predict the schedule here in 
the U.S. Senate. But it does appear that this morning is going 
to be my last hearing as chair of the committee. I just want to 
offer up a couple of big thank-you's and make a couple of 
comments about the last year.
    On the thank-you front, Senator Murkowski, I just want you 
to know that I believe you are essentially the gold standard 
for how you go about trying to promote principled 
bipartisanship, and particularly bipartisanship on difficult 
issues.
    Everybody knows you can be bipartisan if you just want to 
stand around and issue press releases. But to take core 
principles, principles that I think, in our discussions, both 
of us know we have, and still find common ground, that is 
something of a lost art. I just want to say thank you for all 
of that this morning.
    I'm going to have some more to say about Senator Murkowski 
in a minute.
    When Oregonians honored me with the opportunity to 
represent them in the Senate, I made a beeline for this 
committee. I did so because I believe getting natural resources 
policy right represents what is best about our country: wise 
use of our treasured lands, air, and water so there are 
sustainable good-paying jobs for our people and protection for 
the environment.
    Without delivering a filibuster, I just want to mention a 
few things that happened on our watch, Senator Murkowski. The 
first is we gave a big boost to renewable energy with a 
hydropower law projected to generate 60,000 megawatts of clean 
renewable power. We actually moved Government toward that sweet 
spot in terms of natural gas, where we take this energy source, 
50 percent cleaner than the other fossil fuels, and make sure 
that it was available to boost our key industries, and at the 
same time help the environment, particularly getting renewables 
into a base-load power.
    We also, together, funded rural schools, police, and parks. 
We wrote a bipartisan plan for dealing with nuclear waste after 
years of gridlock on that issue. As you and I have talked 
about, after 5 Congresses and 3 Presidents failed to figure out 
what to do about the Government's enormous stockpile of helium, 
we produced a law that works for our vital American industries 
and for taxpayers.
    All told, based on what our staffs are telling us, no other 
committee during our watch has passed out more bipartisan 
legislation.
    Now, for everybody who's listening in, I want it understood 
that it's my view that Senator Landrieu and Senator Murkowski 
are going to do an outstanding job of building on the common 
sense that I see from the members of this committee every time 
that I'm in this room. It's going to be an honor, Senator 
Murkowski, to continue to sit next to you and Senator Landrieu 
as we deal with these important issues.
    I think by way of wrapping up, it's a thank-you for a great 
ride, an exciting ride where I think we did what we were sent 
here to do, which was try to make good policy in a polarizing 
time. I think people also know that you and I swap ideas on 
subjects we don't take up in this room, and I know we're going 
to continue that as well.
    So, as I'm going to hear this weekend at town hall meetings 
in southern Oregon, we always come back to forestry policy. I 
have some comments to make on the O&C legislation. But let me 
turn this over to you for any statement you'd like, since I've 
consumed a little extra time.
    [The prepared statement of Senator Johnson follows:]
Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota, 
                         on S. 1966 and S. 1784
    Thank you, Chairman Wyden and Ranking Member Murkowski, for holding 
this hearing on forest management. As you know, forest management and 
forest products play an important role to the economy and communities 
of the State of South Dakota and many other states across the country. 
I appreciate your efforts to improve the management of forest lands and 
support crucial rural jobs across our country.
    As you know, the pine beetle epidemic has struck the Black Hills of 
South Dakota hard. Roughly a third of the beautiful forests for which 
the Black Hills are named have been affected. The Forest Service, 
private forest land owners, and forest products companies need to have 
the tools to treat the land and process the wood in a timely manner if 
we are to get ahead of the curve on this epidemic. Though tremendous 
work has been accomplished in response to the pine beetle, we simply 
must accelerate the treatment and restoration of these lands.
    Because of the significance of the Black Hills National Forest to 
the economy and quality of life in western South Dakota, I would like 
to focus my remarks specifically on the National Forest Jobs and 
Management Act (S. 1966).
    I agree with the bill's goals of improving the certainty in forest 
products supplies, strengthening the associated jobs supporting rural 
economies, and streamlining the process of getting access to forest 
products from our public lands.
    However, it is important that these goals be met through 
responsible policies and programs that protect our nation's water, 
land, fish, and wildlife and the legacy of our public lands.
    The 2014 Farm Bill contains several provisions I supported that 
take strong steps to do just that. The Good Neighbor authority that 
Senator Barrasso and I have worked to expand, the insect and disease 
treatment areas that was piloted in the Black Hills, the permanent 
reauthorization of stewardship contracting, and the permanent exemption 
of silvicultural activities from Clean Water Act permitting all improve 
the ability to responsibly bring wood products to market. With the 
recent passage of the Farm Bill, we need to give these tools time to 
work.
    I have concerns that S. 1966 proposes to prioritize and streamline 
timber sales on our national forests by reducing or eliminating 
provisions that help to make sure that the sales and subsequent harvest 
activities are carried out responsibly and consistently with the 
established multiple uses of national forest system lands. The bill 
designates timber management areas based on forest plan designations 
that may be a decade or more out of date, and it limits the opportunity 
of land managers to reassess those designations due to changed 
conditions. Additionally, as introduced, the bill effectively 
eliminates alternatives to be analyzed under NEPA, so that an 
appropriate range of alternatives will not be known to the public or 
decision makers. While limits on NEPA reviews may accelerate projects, 
the public input process and consideration of alternatives helps bring 
about better decision-making and can reduce conflict among different 
users of our national forests. Finally, I am concerned that S. 1966 
would establish a binding arbitration process in lieu of court review 
that requires an arbitrator to select one of the submitted proposals 
without modification and without any process to determine whether they 
are within the scope of the NEPA analysis or the authority and 
resources of the national forest.
    In closing, I support the stated purposes of S. 1966 but have 
reservations about the approach taken in the bill. The Mountain Pine 
Beetle Response Project in the Black Hills National Forest has shown 
that the Forest Service is capable of undertaking landscape-scale 
planning and adapting its management to changing conditions. I believe 
we can build upon this approach, and I look forward to working with the 
Chairman, the Ranking Member, Senator Barrasso and the rest of my 
colleagues to improve forest management and the responsible use of wood 
products from our forest lands.

    Senator Murkowski. Mr. Chairman, before we get to the 
substance of the issues that we have before us, and again, in 
this committee we take up good, substantive stuff. Not to 
suggest that other committees don't roll up their sleeves and 
dig into it, but I think that through your leadership and 
guidance, and working with you, we have gained a reputation in 
this body for being the committee that works, the committee 
that really operates with a process that is respectful of one 
another, our issues, and the policies that we have put forward.
    We have taken some relatively controversial issues, and we 
have had good, constructive dialog. Mr. Chairman, when we 
started off last year, I had been kind of operating with the 
hope that if the Republicans were successful that I might be 
sitting in your chair and holding that gavel. In anticipation 
of that, I worked with my staff pretty aggressively to build my 
framework, my Energy 20/20.
    All throughout that process, you were there, not being 
critical and willing to come out in opposition to things that 
you didn't even know where I was going to be coming from. You 
sat back, and you said, ``This is great stuff! Because this 
will help us begin that dialog.''
    As you know, I have said many, many times that 115 pages of 
Energy 20/20 can be distilled into one bumper sticker: ``Energy 
Is Good.'' Mr. Chairman, you have made that true, but you've 
also expanded that so that I can honestly say that energy is 
fun. We have had a good time working on some great, meaty 
issues.
    I'm going to miss Wyden Wednesday. This is the time that we 
gather every Wednesday morning for at least an hour to talk 
about calendar, to talk about policy, to talk as leaders in the 
energy sector here in this Senate about what we can build. That 
commitment to a working relationship has been incredibly 
important to me.
    But I think it goes beyond what you have built with your 
ranking member here. I think every member of this committee 
feels that you have gone the extra step to seek out their 
opinions, to see if we can't work out the differences. Whether 
it was how we dealt with North Carolina beaches and turtles or 
how we deal with nuclear waste issues, you have made a very 
concerted effort to make sure that every member, majority and 
minority, is heard and heard fully.
    So, I thank you for the guidance that you have given this 
committee. I'm pleased for you that you can move to another 
committee and give that leadership there. But I will miss the 
collaboration that you and I established. I'd also like to 
acknowledge your staff, who has worked extraordinarily well 
with our side. I'm going to miss them, too. So we may have to 
be doing some borrowing here.
    But I will look forward to continuing to work with you on 
not only energy issues, but on so many of those other areas 
where we can take areas of controversy and say, ``This is 
important to address. Let's begin the discussion. Let's begin 
the dialog.''
    Final point, you have made mention in hearings past, when 
you're talking about LNG and the prospect for export. Exports 
can be a pretty controversial issue around here. You've made 
the connection that, well, they're not like Oregon blueberries. 
Mr. Chairman, when I had my blueberry smoothie this morning, I 
was thinking about you and your willingness to have a graham 
cracker dipped in LNG with me when you came to Alaska.
    [Laughter.]
    Senator Murkowski. So I'll continue eating blueberries, 
thinking about you. I don't know that I'm going to ask you to 
do any more LNG graham crackers. But I think that was just yet 
another example of your willingness to meet me halfway in 
understanding the issues that are important to my State and to 
others around the country. So, thank you for your leadership.
    The Chairman. Beyond being overly kind, I think it's 
appropriate, as we begin to hear from the witnesses, that as a 
Williamette grad, you do have Oregon blueberries in that 
special place.
    Senator Murkowski. That's true.
    The Chairman. We appreciate it.
    Let's go now to the O&C bill. We're also going to be taking 
up Senator Barrasso's bill, the O&C bill, S. 1784. Then later, 
we'll hear from Senator Barrasso about his bill, S. 1966, the 
National Forest Jobs Management Act.
    I think it is fair to say that, with respect to the O&C 
Lands Act of 2013, we Oregonians feel these lands are truly 
unique both in their legal status and their history. It really 
goes back to the middle 1930s and the 1937 O&C Act.
    That Act established a checkerboard of public lands mixed 
in with private land. The Bureau of Land Management now 
oversees O&C lands with a unique mandate for forest management 
that exists nowhere else in our country. I think it's fair to 
say folks in these 18 Oregon counties feel like they have been 
hit by a wrecking ball. Unemployment is high. The newspapers 
are full of stories about crimes going unpunished because law 
enforcement doesn't have the manpower to respond.
    These counties need jobs in the woods, in the mills, and 
for plumbers and restaurants and small businesses that are so 
vital to the rural Oregon economy. Instead, folks in these 
communities feel that they have nowhere to turn.
    I want to spend just a moment talking about how we actually 
got to this point. My own take is a big part of it is the 
conversation about managing these lands has now been 
monopolized by the ideological extremes who seem allergic to 
the idea of a compromise. The answer always seems to be 
cutting, clear-cutting away the old growth, or blocking even 
responsible timber harvest.
    It's my view that neither of these extremes are a long-term 
winner for our State. That's why leaders from the forest 
products sector, from recreation, from conservation groups, and 
local officials stood up with me and Governor Kitzhaber in our 
State capital when I rolled out recently a fresh vision for the 
O&C lands.
    Our legislation ends the stop-everything approach that has 
paralyzed forest management, and at the same time it 
acknowledges the days of billion-board-foot clear-cuts are not 
coming back. The approach substantially increases the timber 
going to our mills. It creates certainty for our working 
families, certainty for our counties, and certainty for every 
employer who's going to invest in the future of our rural 
timber communities.
    By doubling the harvest compared to the average harvest of 
the last decade, these communities can save the jobs that 
they've got now and create more. Assuring future decades of 
reliable harvests that averaged 300 and 350 million board-feet 
per year will give employers confidence they can grow their 
businesses and provide more good-paying jobs.
    In working with the best scientists in the Northwest, 
including Dr. Jerry Franklin, who's going to testify today on 
behalf of himself and Dr. Norm Johnson, the priority was to 
make timber harvesting as ecologically friendly as possible. 
Ironclad protections for clean drinking water, wildlife, and 
Oregon salmon in this bill stems from discussions that were 
held with many conservation groups.
    This is legislation that I believe can pass both houses of 
the Congress and actually be signed into law by the President. 
Our forests, our counties, and our mills cannot keep waiting 
while lawyers for both sides litigate away. Forest management 
has been stalled so thoroughly it is virtually fossilized.
    My bill amends the law that established these unique 
Federal lands to make clear how O&C lands are to be managed in 
the future. First, the bill puts approximately half of the O&C 
land into a forest-emphasis area, and the other half into a 
conservation-emphasis area, so there is no question where 
sustainable timber harvests are the priority and which areas 
will be permanently conserved.
    In timber-emphasis areas, the bill rules out the 
controversial sales that are most likely to end up in court. It 
creates the first-ever legislative ban on harvesting old growth 
on the O&C lands. Critically, the bill tells the natural 
resources agencies to offer timber sales according to harvest 
that mimic natural processes.
    In addition, the bill streamlines an environmental review 
process that in many cases has bogged down timber harvesting to 
the point of stagnation. It does that while maintaining--while 
maintaining carefully our country's bedrock environmental laws.
    The point of this legislation is to bring together all of 
the stakeholders at the outset and come up with a plan for 10 
years of timber harvests that will be approved at the start. So 
instead of dealing with dozens of individual studies, foresters 
will have the certainty that the harvest can proceed without 
some group parachuting in out of nowhere and throwing up last-
second roadblocks.
    I want it understood that Oregonians have the right to be 
heard when they disagree with forestry policy, but every tree 
should not get its own lawsuit. Advocates for this bill are 
especially proud of its conservation gains. The bill creates 
87,000 acres of wilderness and 160 miles of Wild and Scenic 
Rivers. In all, it will permanently conserve over 1 million 
acres of O&C lands.
    An essential element of the bill is strong protections for 
streams and watersheds. We were able to have the good fortune 
of working with one of the Northwest's foremost water resource 
experts, Dr. Gordon Reeves, to establish the first-ever 
legislative protections for the O&C streams. It includes 
special areas protected for recreation, which is an especially 
important part of our rural economies and is responsible for 
141,000 jobs in our State alone.
    Make no mistake about it: In Oregon and much of the 
country, recreation is going to be a powerful economic engine 
for the future. The reality is logging by itself does not 
address all of the economic challenges facing the O&C counties.
    So, we have made the judgment that there are two parts to 
the equation. For one, there is the safety net. In this room, 
back in 2007, Larry Craig and I wrote the bipartisan Secure 
Rural Schools Bill, and that got extended for 1 additional 
year. It's the helium legislation. Then there is this 
legislation, which is designed to get people back to work in 
the woods.
    Together, these approaches can get rural counties off the 
roller coaster that has produced so much uncertainty for our 
counties trying to fund police, roads, and other basic 
services.
    The bottom line with this bill is there will be more jobs 
for loggers, for millwrights and sawyers making lumber for our 
homes, and work for plumbers, hardware stores, and other small 
businesses needed to meet the demand for more goods and 
services in our rural communities. Most importantly, these are 
good-paying full-time jobs that offer an alternative to 
grinding underemployment in rural Oregon.
    Now, it's fair to say that not everybody gets what they 
want here. Not everybody gets what they believe they ought to 
get. But this is going to deliver what Oregon needs. It does so 
because it is designed to end the tyranny of the extremes. It 
ought to be a new day for the brave who are willing to try 
something new, and this committee is especially pleased to hear 
from some of those brave souls today.
    I want to make it clear I'm going to work in a bipartisan 
way with Senator Murkowski and all of our colleagues to quickly 
mark up this legislation and bring it to the Senate floor. 
Hundreds of hours went into working on this bill, and while 
I've always been open to suggestions, I want it understood 
we're going to move forward to this bill.
    I want to thank Govenor Kitzhaber, the Governor of our 
State, who has invested an enormous amount of time and effort 
into this issue. I'm very pleased that Congressman DeFazio, who 
represents most of the O&C counties, will be able to testify 
here as well. I want it understood that I'm looking forward to 
working with all of our colleagues in the House, and I'll have 
more to say about Congressman DeFazio's good work in a moment.
    I also want to turn to S. 1966 before recognizing Senator 
Murkowski for her comments. This is the National Forest Jobs 
and Management Act. This legislation has a number of striking 
similarities to Title I of H.R. 1526. The administration has 
issued a veto threat against H.R. 1526 when it passed the House 
last fall.
    I'm anxious to hear from Senator Barrasso and others on it. 
My concern is, as it has always been with those kinds of 
approaches, that we would reignite the timber wars in our part 
of the United States.
    Finally, as Senator Murkowski and I have indicated in past 
meetings, she and I are going to be working very closely 
together to find bipartisan, collaborative approaches to 
addressing these issues on a national level. Senator Heinrich 
has some very good ideas on this topic as well. Suffice it to 
say there are a lot of us on this committee who share Senator 
Murkowski's view that we have to work on these issues on a 
national level as well.
    Last point I'll make is we're going to be spending a lot of 
time in addition dealing with the greatest threat to national 
forest management, which is the absolutely untenable situation 
with fire funding. That's why Senator Crapo and I, along with 
Representatives Simpson and Schrader in the House, have 
introduced bipartisan legislation to deal with funding these 
fires.
    This idea that would neglect, as you and I have talked 
about, Senator Murkowski, the preventive efforts in the forest, 
and then you have these massive infernos, and the bureaucracy 
then raids the prevention fund to put out the fire--that seems 
foolish even by Washington, DC, standards. So, we are committed 
to changing that as well.
    Finally, I'm very appreciative of the good work that was 
done by Senator Stabenow on the Farm Bill. The Farm Bill 
includes provisions on national forest management to promote 
stewardship contracting. We have the chief here, who has been 
an eloquent advocate of that. I'm also pleased that that bill 
includes Senator Barrasso's Good Neighbor Authority that we 
dealt with here.
    I so appreciate all our Oregon witnesses making the trek 
back here. I understand you got the usual delays in Chicago and 
other faraway spots. So we appreciate your coming.
    With that, let me turn to Senator Murkowski for any opening 
statement she'd like to make.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I'll be quick 
in my remarks this morning.
    The bills that we have before us today, I think we 
acknowledge, address the critical topic of management of our 
Federal timberlands. In addition to the description that you 
have given of your bill and the background on that, I 
appreciate your willingness to work to include Senator 
Barrasso's bill in this hearing as well, and then his work to 
really prepare the bill to accommodate a more accelerated 
schedule. So, I'm pleased that we were able to work together to 
make it happen today.
    Just a quick mention on process before my comments with 
regards to the respective bills. We noticed this hearing a week 
ago. It's been in the works for sometime prior to that. So I 
think everyone has been on notice that this was going to be on 
deck for us here as a committee. But we only received testimony 
from the administration on both of these bills very late last 
evening. The Forest Service got us its testimony at 5:40 p.m. 
The BLM testimony wasn't submitted until 8 o'clock.
    This makes it tough, Mr. Chairman. This isn't constructive 
to a committee process that--I think most folks heard that we 
were just lauding, we can do our work, but we do need to have 
that input from the administration in a timely manner. So I 
would certainly hope that we're going to improve that.
    Turning to the bills first, Mr. Chairman, I know that the 
management of the Oregon and California lands in your State is 
a very important issue to you. Very early on, as we talked 
about issues to bring before the committee, you clearly 
indicated to me that this was a level of priority for you. It 
was back last summer.
    When we were talking about those obstacles that get in the 
way of active management of our forests, you had indicated that 
this was something that you had been working on for some time. 
So, it's good to be able to have it here before the committee.
    As I understand it, in Oregon, on the O&C, at issue is the 
management of more than 2.4 million acres of timberlands that 
were, by statute, to be managed for permanent forest production 
under the principle of sustained yield. That mandate was upheld 
in Federal court.
    But yet, despite that mandate, it's not happening. I think 
you know, because we've had this discussion, we've got a 
similar mandate in Alaska; we're not seeing the timber harvest 
levels increase either. So I clearly know your frustration and 
desire to try to legislate a better result.
    Like you, I think we know that it is about certainty within 
the industry. It's about jobs for the people who live in these 
communities, and not just about raising revenue for the 
counties. So, lots of good reasons for how we can do better 
when it comes to the management aspect.
    This bill also seeks to modernize existing Federal laws, 
including NEPA, to provide certainty that timber harvests will 
occur and end the vice grip litigation has had on the harvest. 
I do appreciate the acknowledgement that these laws need 
modernizing. Certainly, from all the press accounts, the debate 
has already begun about whether or not these provisions would 
work, what levels of timber harvest and revenue the bill would 
generate, and the appropriate management regime for these 
lands.
    So, given the good panel of witnesses that we have before 
us today, given the level of interest that we're seeing with 
just folks who are here to listen, I think that probably that 
debate is probably going to continue here today.
    The other bill that we have before us, Senator Barrasso's 
National Forest Jobs and Management Act, would launch a 
national pilot to accelerate the pace and scale of timber 
harvest on the acres already identified in existing forest 
management plans as suitable for such harvest. The bill would 
expand concepts already reflected in the Healthy Forest 
Restoration Act to streamline NEPA compliance and reduce the 
cost and time of planning.
    The bill also introduces arbitration as an alternative 
dispute resolution process to the courts, where I think we all 
know we've seen a lot of good projects die when they get to the 
courts. So, I think it is fair that we have both measures 
before us here today. They both raise critical issues that I 
think deserve our attention.
    As we noted at the outset, this could very well be your 
last hearing. Based on your comments, I have to believe it is. 
So I think it is appropriate that we should be taking up a 
topic that is so important to you and those that you represent. 
So I'm looking forward to hearing from our witnesses today and 
further discussion about the importance of timber management on 
our Federal lands.
    The Chairman. Thank you, Senator Murkowski, and thank you 
again for giving me this opportunity to have this 
extraordinarily important Oregon issue aired today. I'm very 
appreciative.
    Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman. I also want to 
welcome Clint Georg, who's going to be testifying a little 
later today, and I want to thank you, Senator Wyden, for 
scheduling this hearing. I look forward to hearing more about 
your O&C Bill. I am pleased we're hearing my bill, the National 
Forest Jobs and Management Act. As chairman, I'm appreciative 
that you've prioritized forestry-related issues. I appreciate 
your emphasis on these critical issues and hope you're going to 
continue to be engaged as a senior member of this committee.
    The committee has talked at length about how our national 
forests' health is declining. The forests are dangerously 
overgrown and suffering from severe disease and insect 
infestation. We've discussed the increasing severity of 
wildlife fire and the escalating costs of suppression. You 
mentioned that in your opening remarks. We've talked about how 
increased soil erosion, loss of wildlife habitat and species 
and economic opportunities are the result of this.
    The committee recognizes timber harvest is a good thing. We 
need to get the cut-up to help our forests and communities get 
healthy again.
    We've heard testimony about how chronic high unemployment 
and the resulting financial crisis is hurting rural communities 
around America. We have seen sawmills close down. We've seen 
them lay off employees. The committee has examined how the 
National Environment Policy Act and Endangered Species Act are 
preventing needed forest management. We've observed how the 
high cost of compliance with NEPA and the Endangered Species 
Act Regulations are draining forest service budgets, they're 
preventing dollars from being spent actually improving forests.
    We've heard countless testimony of litigation preventing 
desperately needed forest projects. That's why I introduced 
this bill, the National Forest Jobs and Management Act. The 
primary purpose of the bill is to solve the forest health and 
rural community crisis.
    The administration estimates that between 65 and 82 million 
acres of national forest lands are in need of treatment, 
between 65 and 82 million acres. My bill only directs the 
Forest Service to treat a small percentage of that, 7.5 million 
acres, over 15 years. So it's a fraction of what we need to do. 
This acreage only represents about less than 4 percent of the 
national forest system in total.
    So, to avoid resource conflicts about where timber work 
should be done, my bill limits the projects to lands already 
identified in forest plans as suitable for timber production. 
The bill builds on the bipartisan approach of the Healthy 
Forest Restoration Act by identifying high-priority lands for 
management, then utilizes streamlined procedures to comply with 
Federal environmental laws, including NEPA.
    The bill allows forest projects to be developed and managed 
from the cooperative middle, not the radical extreme. It 
applies the forest service objection's process to resolve 
disputes early on. If disputes can't be resolved, the bill 
provides arbitration as a new avenue for a timely independent 
review of an agency decision. Legislation also provides 
counties with an extra 25 percent of the revenue collected from 
the forest projects.
    Additionally increasing active management creates needed 
wildlife habitat, which enhances recreational hunting and 
wildlife viewing. These are important economic drivers in many 
States, including Wyoming. I'd like to submit for the record 
letters from the Ruffled Grouse Society, the Rocky Mountain Oak 
Foundation, the Boon and Crocket Club, and the National Wild 
Turkey Federation.
    The Chairman. Without objection. So ordered.
    Senator Barrasso. Thank you, Mr. Chairman.
    You know, this committee has studied these issues, now time 
to act before it's too late to save our treasured national 
forests and the local communities around them.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Congressman DeFazio, you have been very patient. I just 
want, by way of, you know, introducing you, to make sure that 
it's understood both in Oregon and in the Congress that there 
is no one better qualified to talk about the need for a 
permanent solution for the O&C counties than Congressman 
DeFazio.
    Not a day goes by when he doesn't have his sleeves rolled 
up trying to find a solution to the crisis facing the rural 
communities in his district. Congressman DeFazio's fourth 
congressional district has the most O&C acres in the State.
    Suffice it to say, I think I mentioned this, Peter, that my 
last round of town meetings, I remember being in Corvallis late 
afternoon, early in the evening, when people said I was cutting 
too much. Then the next morning, I was in Eugene for another 
town hall meeting, and they said I wasn't cutting enough. I 
think that pretty much is what you deal with every single day.
    So, we welcome your remarks. On a personal level, I just 
want you to know how much I appreciate the chance to work with 
you on this. Folks understand at home that we're having a lot 
of discussions about trying to build this and welcome any 
remarks you'd like to make.

 STATEMENT OF HON. PETER DeFAZIO, U.S. REPRESENTATIVE FROM THE 
                     4TH DISTRICT OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman, and I look forward to 
continuing to work with you on this issue and hopefully get a 
final resolution this year. Thanks for your leadership by 
introducing a Senate version, and thanks for inviting me to 
this hearing today.
    When I ran for Congress in 1986, BLM was logging 1.53 
billion, B, billion board-feet a year, about 10 times the 
current level of harvest. They were clear-cutting irreplaceable 
old growth. They were logging on steep slopes. We had 
destabilization. We had degradation of streams and threats to 
drinking waters.
    Logging 1.53 billion board-feet in irreplaceable old growth 
helped put the spotted owl on the endangered species list. In 
1986 when I ran, I said that level of harvest was 
unsustainable. It was. It continues to be out of step with the 
environmental and social values of most Oregonians.
    In the 1990s, we tried to reform forest management in the 
Pacific Northwest with something called the Clinton Northwest 
Forest Plan. I opposed that plan, too. I didn't think it would 
solve the fundamental problem in western Oregon, permanently 
protecting old growth and conservation values while ensuring a 
predictable, sustainable supply of timber that's necessary to 
support rural communities and basic county services.
    Unfortunately, I was right. The pendulum has now swung the 
other way. Timber harvests on the O&C lands are down 80 to 90 
percent, a reduction beyond anyone's wildest imagination, and 
not necessary to protect critical environmental values. Old 
growth still lacks protection.
    Due to the lack of a predictable timber supply, the last 
remaining mill in Josephine County, a family owned business for 
90 years, recently closed its doors. They laid off 88 people in 
a rural community with a population of less than 2,000. 
Josephine County is 70 percent owned by the Federal Government, 
surrounded by Federal forests in need of management; and yet, 
the mill had to close for lack of timber supply.
    Current management of the O&C lands has also left rural 
counties whose budgets are statutorily linked to these lands on 
the cusp of insolvency. In some counties, there's little or no 
law enforcement. In fact, a year-and-a-half ago, news reports 
encountered the devastating story of a woman in Josephine 
County who was assaulted and raped by an ex-boyfriend. He was 
standing on the doorstep trying to break down the door while 
she was on the phone with the 911 dispatcher, who said they 
don't have anybody to send.
    The status quo: bankrupt counties, 15 to 20 percent real 
unemployment, one out of every 4 people on food stamps, 25 
percent of the school-aged children growing up in poverty, 
unhealthy forests, lack of opportunity. That's not what 
Oregonians want, either.
    It's time to move away from the extremes, from the swinging 
pendulum, to find and legislate a reasonable and balanced 
solution. Chairman Wyden, I know together, working with the 
rest of the delegation and the Governor, we can do that. You 
and I, together with the Governor and members of the 
delegation, have agreed to principles: predictable revenues to 
help counties provide basic services, meet their State-mandated 
responsibilities; a sustainable, uninterrupted timber supply to 
create good-paying jobs, support the local infrastructure; and 
significant, lasting conservation victories like protection for 
old growth, drinking water, and imperiled species.
    On the House side, Congressman Walden, Congressman 
Schrader, and I took our best shot at a balanced plan. It's not 
the bill any one of us individually would have written. But 
it's one that we could ultimately agree on and compromise, and 
one that we believe was consistent with the principles that I 
just enunciated earlier. It did manage to pass the House of 
Representatives.
    Our solution used the trust concept. Mr. Chairman, you've 
made it clear that a trust concept cannot pass the Senate and 
would likely face opposition from the Obama administration. I 
still think there's benefits to it. It's a pretty simple 
approach, but I acknowledge the political reality, and I 
believe our agreed-upon principles can be legislated through a 
different construct along the lines of the construct you've 
proposed in your O&C legislation.
    I believe we'll need to work on changes to the bill in 
order to get the level of revenues and harvest we need for 
jobs, employment, and county revenues. We're going to need to 
expand the land base. We need to look at the public domain 
lands, the management of the controverted lands, and other ways 
to creatively move through this issue.
    The harvests need to be geographically dispersed to provide 
for the remaining local infrastructure so we don't neglect the 
management needs of our forests in southwest Oregon, which are 
more fire prone, and opportunities for litigation over 
scientifically sound, sustainable timber projects needs to be 
reduced.
    A huge priority for me and the Governor is a more coherent 
policy for protecting our rivers, streams, and aquatic 
features. In the House bill, we were able to secure language to 
dedicate 5 percent of net revenues to protecting rivers and 
streams on neighboring private lands by purchasing easements 
from willing landowners to create continuous riparian buffers 
on private and Federal lands, since the O&C lands are a 
checkerboard.
    This is something that is supported by industry, the 
counties, Governor Kitzhaber, who's committed to matching the 
dollars with State money. If we're going to pass a bill into 
law, everybody at the table needs to know what they're getting.
    We need reasonable certainty. The counties need to know the 
range of revenues they can expect so they can plan accordingly. 
Local businesses in the timber industry need to know what 
timber supply can be expected so they can build viable business 
plans. The general public and conservation community need to 
know that iconic, irreplaceable, natural treasures will be 
protected and conserved for future generations.
    Certainty is going to require compromise. Congress is not 
going to solve all the counties' financial problems. But we can 
pass a bill that creates jobs, provides a reasonable level of 
revenues, and gets rural economies growing again. Who knows? 
Maybe if real unemployment dropped below 15 to 20 percent, 
which is the real rate in my rural counties, the voters would 
vote to pass ballot measures to build on the revenues coming 
from the Federal lands to have more funding for public safety, 
public health, and other critical services.
    Congress can't and won't legislate a 1986 timber plan. But 
Congress can and should pass a timber plan that increases the 
volume to a meaningful level. The House and Senate bills 
propose to increase timber harvest to 30 to 40 percent of 
historic levels. That's not unreasonable, it is achievable, and 
can be done protecting environmental values.
    Finally, more conservation groups need to come to the table 
and engage constructively in the legislative process. We have 
better science, data, information, and experience than when the 
Northwest Forest Plan was adopted. Because we lacked this 
information, the Northwest Forest Plan adopted very 
conservative protection measures that should be revisited. 
Thanks to work being done by scientists at Oregon State, we now 
know that one-size-fits-all riparian protections can, in some 
cases, be reduced without sacrificing ecological or aquatic 
function.
    We now know that some terrestrial and wildlife goals of the 
Northwest Forest Plan have not been met. The lack of 
regeneration harvests in O&C lands has led to a deficiency in 
early seral-stage forests, which support numerous species of 
plants and animals, including elk and deer. Two of the gang of 
4 who wrote the Northwest Forest Plan, one of whom is going to 
testify here today, have proposed cutting-edge science that 
address this ecological issue and to improve forests' 
resiliency and health in the long term.
    Questioning the motives of esteemed scientists, the same 
scientists who wrote the Northwest Forest Plan, many 
conservation groups like to tout and defend endlessly 
challenging and litigating modest scientific demonstration 
projects sponsoring misleading and downright false billboards 
and advertisements back home to scare the general public and 
flat-out refusing invitations to join with diverse stakeholders 
to build a balanced Oregon plan for a uniquely Oregon problem. 
Those things aren't going to work.
    These same people are advocating for the status quo. But 
the status quo has failed us. It's failed the children of these 
counties, who have walked up to their county library looking to 
check out a book from a school, for a school project, to find a 
locked door. It has failed the sheriff's department, who have 
been served--the sheriffs have been served pink slips because 
the Federal Government couldn't live up to its obligation.
    It's failed the justice system, which has been forced to 
turn a blind eye to criminals as they walk out the doors of the 
county jail due to a lack of available beds. The status quo has 
failed victims of horrific violence who have dialed 911, 
desperately looking for help, only to be told, ``There is no 
help coming.''
    This is it. This is the best and maybe the last opportunity 
to fix the crisis in Southwest Oregon before counties 
completely dissolve. Once they dissolve, we don't know how to 
get them back. The delegation wants to move forward. Oregon 
wants to move forward. We need a long-term solution to stop the 
endless forest wars that are undermining our rural communities, 
our counties, and the health of our forests.
    We can do this. Together, I know we can, Mr. Chairman. We 
need to get it done this year. Thank you.
    The Chairman. Congressman DeFazio, I think you've given an 
excellent statement, and it is very constructive both in terms 
of the substance and the tone. I think much as you have 
discussed, we ought to just say, this is going to get done this 
year. I mean, we'll never have a better opportunity. This has 
been the longest-running battle, practically, since the Trojan 
War. I mean, you and I can remember debate after debate after 
debate.
    Oregonians deserve the kind of solution that our delegation 
is talking about, which is getting the harvest up in a 
sustainable way and protecting our treasures and protecting our 
counties. You know, when we wrote that law back in, you know, 
2000, we thought that would be a lifeline for rural 
communities, and it has been.
    But even with it, just as you've said, there has been so 
much hurt. So in addition to the safety net, which we're going 
to continue to try to find creative ways to fund, we've got to 
get people back to work in the woods.
    I think what you have said this morning gives us a chance, 
once more, to change the conversation from one that has been 
monopolized, dominated by these ideological extremes, who seem 
just allergic to the word ``compromise,'' and get back to what 
Oregonians do best, which is to find ways that people can make 
a living in rural communities, protect our treasures, and fund 
basic services like you've talked about with respect to the law 
enforcement needs.
    So, if any of my colleagues have any questions for my 
colleague from Oregon, we can do that. Or we can excuse you at 
this time.
    All right. Thank you very much. It's been very helpful, 
your presentation.
    Mr. DeFazio. Mr. Chairman, just one quick anecdote.
    The Chairman. Of course.
    Mr. DeFazio. I ran into Jerry Franklin, who you've invited 
to testify. He had first written, I believe his first public 
presentation on new forestry, which has evolved considerably 
since he conceived it, was at a conference I sponsored as a 
freshman member of the House, because there was such 
controversy over our forests.
    I said, ``Let's figure out a way how we can bring together 
people and agree.'' So what I did was I sponsored a 
conversation. I said, ``We'll put it so far in the future it 
will be unimaginable.'' The conference was called Our Forests 
in the Year 2010.
    [Laughter.]
    Mr. DeFazio. The idea was if we looked way out to the 
future, we would be able to agree on what we would want them to 
look like out in the future and go forward.
    Jerry testified there, and now he's still working the 
issue.
    The Chairman. You and I are determined not to have another 
conference in 2030 that would address problems that are going 
to get resolved in 2014. I thank you very much. You've been 
very helpful.
    Mr. DeFazio. Thank you, Mr. Chairman.
    The Chairman. All right. Our next panel will be witnesses 
from the administration. Steve Ellis, who is Deputy Director of 
Operations, Bureau of Land Management, and Chief Tom Tidwell 
with the Forest Service. As they come forward, just by way of 
another quick comment, we're so pleased to have Steve Ellis 
here.
    Gentlemen, just please, be seated.
    He's still got his ranch in Baker. We're glad that he's 
kept that. I think some of his family is still there. 
Previously, he was a forest supervisor on the Wallowa-Whitman 
National Forest. He's been one of our very best forest 
supervisors. We're really pleased to see him here today.
    I also want to thank the chief, Chief Tidwell, for all the 
help that he's given. Chief, I got a little bit of an update on 
the eastern Oregon front, and what is going on with Ochoco and 
the folks there, I think is going to be a model for the kind of 
forestry that we need that gets the harvest up in a sustainable 
way in eastern Oregon. It simply couldn't have happened without 
you practicing good forestry.
    So we're very glad that both of you are here. Why don't we 
begin with you, Mr. Ellis, given the interest in BLM? Then 
we'll have the chief. We'll put your prepared statements into 
the record in their entirety. If you can, perhaps you can 
summarize your key views. There seems to be a special place in 
heaven for those who can summarize their views.
    [Laughter.]
    The Chairman. We'll make your prepared remarks a part of 
the record.
    Mr. Ellis, welcome.

 STATEMENT OF STEVEN A. ELLIS, DEPUTY DIRECTOR FOR OPERATIONS, 
     BUREAU OF LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Ellis. Chairman Wyden, ranking Member Murkowski, 
members of the committee, thank you for the opportunity to be 
here today. I'm Steve Ellis. I'm Deputy Director for 
Operations, and I'm here for the department to testify on S. 
1784, the Oregon and California Land Grant Act.
    This is a complex bill concerning the BLM managed lands in 
western Oregon known as the O&C lands. My oral statement will 
briefly summarize our written testimony.
    S. 1784 would establish new designations and principles for 
the management of O&C forest lands, transfer into trust status 
on behalf of two tribes, and amend the Coquille Restoration Act 
and establish new conservation designations in western Oregon.
    The Department appreciates the Chairman's work in 
developing this legislation and views it as a continuation of 
discussions about improving the management of these western 
Oregon lands. We support many of the goals of the bill, we 
supports Title III, and would like to work with the sponsor and 
the committee on amendments to Title I and II.
    We have concerns with the bill as it's drafted. We are 
committed to continuing to work with the sponsors to address 
them and further develop the proposal. We are encouraged by the 
ongoing discussions among the stakeholders.
    The 1937 O&C Land Act placed 2.2 million checkerboard acres 
of Oregon and California and Coos Bay Wagon Road land grants 
under the jurisdiction of the Department of the Interior. In 
addition to these O&C lands, the BLM manages over 200,000 acres 
of public domain forest in western Oregon. BLM's management 
involves complex legislative frameworks and resource management 
goals, including the predictable and sustainable yield of 
timber, endangered species habitat, clean water, and recreation 
opportunities.
    The BLM is revising the 1995 Resource Management Plans that 
govern management of the O&C lands. We have actively sought 
engagement from stakeholders and the public and will continue 
to strive for a cooperative approach on the complex issues of 
these lands.
    Title I of S. 1784 provides guidance for managing forestry 
and conservation emphasis areas. We share the goals of 
providing a sustained yield of timber while protecting older, 
complex forests in support of conservation for threatened and 
endangered species. While we support many of the goals in Title 
I, we have concerns with the language and would like to work 
with you to address these.
    We are concerned that there's a lack of clarity in the bill 
about the relationship and potential inconsistencies between 
this bill and other environmental laws and authorities. We are 
also concerned about the timeframes and some of the deadlines 
in the bill. We would like to work with you on these and other 
issues.
    Title I also provides for numerous conservation 
designations, including the expansion of the Cascade-Siskiyou 
National Monument, several Wild and Scenic Rivers, and a number 
of other designations. We'd like to work with you to clarify 
the management goals and the boundaries of these special areas.
    Title II would provide that roughly 32,000 acres of BLM 
managed lands would be held in trust for the benefit of two 
tribes. The BLM welcomes the opportunity to work with Congress 
on the transfer of lands into trust status and supports the 
goals of this title. We would like to work with you to address 
various issues, including access rights and timber harvest.
    This title would also amend the Coquille Restoration Act to 
provide for changes in management of the Coquille Forest. We 
support this modification.
    Title III would establish new wilderness and Wild and 
Scenic River designations in Oregon. The bill would enlarge the 
Wild Rogue Wilderness and extend the Rogue Wild and Scenic 
River. It would establish a Devil's Staircase Wilderness and 
would designate the Molalla River and Table Rock Fork as part 
of the Wild and Scenic River system.
    The department supports this title, which would conserve 
and protect these special places, which are treasured both 
locally and nationally.
    Mr. Chairman and Ranking Member, we want to thank you again 
for your hard work in developing this proposal. We look forward 
to working further with you on a committee to address the 
concerns we have with this bill as drafted and to accomplish 
our shared stewardship goals for BLM managed lands in western 
Oregon.
    [The prepared statement of Mr. Ellis follows:]

Prepared Statement of Steven A. Ellis, Deputy Director for Operations, 
         Bureau of Land Management, Department of the Interior
    Thank you for the opportunity to discuss the views of the 
Department of the Interior on S. 1784, the Oregon and California Land 
Grant Act of 2013. The bill concerns the 2.2 million acres of Revested 
Oregon and California Railroad and Reconveyed Coos Bay Wagon Road Grant 
Lands (the O&C Lands) in western Oregon administered by the Bureau of 
Land Management (BLM).
    S. 1784 would establish new designations and principles for the 
management of O&C forest lands (Title I), transfer certain lands into 
trust status on behalf of two tribes and amend the Coquille Restoration 
Act (Title II), and establish new conservation designations in western 
Oregon (Title III). Due to the complexity of the bill and the issues it 
addresses, the Department of the Interior's testimony summarizes the 
views of the Administration on each title of the bill.
    The Department appreciates the Chairman's work in developing this 
legislation and views it as a continuation of discussions about 
improving the management of these western Oregon lands. The Department 
supports many of the goals of the bill, supports Title III, and would 
like to work with the sponsor and the Committee on substantive, 
clarifying, and technical amendments to Titles I and II. The Department 
has previously testified on many of the ideas contained in the 
provisions in Title II and Title III. We have concerns with the bill as 
drafted, but we are committed to continue working with the sponsor to 
address concerns and we are encouraged by the ongoing discussion 
between stakeholders. We look forward to working with the sponsor and 
the Committee to further develop the proposal.
                  management of o&c lands / background
Current BLM Management of O&C Lands
    The O&C Lands Act of 1937 placed 2.2 million checkerboard acres of 
Oregon and California Railroad and Coos Bay Wagon Road grant lands 
under the jurisdiction of the Department of the Interior. Under the O&C 
Lands Act, the Department of the Interior manages the O&C lands for 
``the purpose of providing a permanent source of timber supply, 
protecting watersheds, regulating stream flow, and contributing to the 
economic stability of local communities and industries, and providing 
recreational facilities.'' The Act also provides that the 18 O&C 
counties receive yearly payments equal to 50 percent of receipts from 
timber harvests on O&C lands in these counties.
    After the historic highs of the late 1980s, timber harvests and the 
associated payments to counties decreased significantly in the mid-
1990s due to many factors, including business cycles, changes in 
logging practices, and a better understanding of conservation 
requirements for threatened and endangered species such as the Northern 
Spotted Owl, Coho Salmon, and Marbled Murrelet. The 1994 Northwest 
Forest Plan was developed by Federal agencies and scientists in 
consultation with the public and industry to be a balanced, long-term 
management plan striving for a stable supply of timber along with 
protection of fish and wildlife habitat for 24.5 million acres of 
Federal forest, most of which is managed by the U.S. Forest Service, 
and the majority of which occurs in western Oregon, western Washington, 
and northern California. The BLM's western Oregon Resource Management 
Plans were amended in 1995 (1995 RMPs) to incorporate the Northwest 
Forest Plan management guidelines and land use allocations.
    In addition to the O&C lands in western Oregon, the BLM manages 
212,000 acres of public domain forests and other acquired lands within 
the boundary of the Northwest Forest Plan. The Department of the 
Interior continues to manage the O&C lands under the 1995 RMPs and the 
guidance of the Northwest Forest Plan, along with management 
recommendations derived from the 2011 Northern Spotted Owl recovery 
plan and 2012 Final Critical Habitat Rule, as well as a number of court 
decisions. The BLM's timber management program involves complex 
legislative frameworks and resource management goals, including 
providing a predictable and sustainable yield of timber and other 
forest products vital to rural communities, maintaining endangered 
species habitat and recovering populations, providing clean water, 
restoring fire-adapted ecosystems, and providing recreational 
opportunities. In the last three years, the BLM in western Oregon has 
offered approximately 620 million board feet of timber from O&C lands 
and generated over $60 million dollars in timber receipts. These and 
other BLM-managed lands in western Oregon also provide outstanding 
recreational opportunities, with over 5 million visits per year to 
enjoy hiking, camping, hunting, and fishing.
Collaborative Approaches
    In western Oregon, the BLM strives to strike a balance between the 
need for a predictable and sustainable timber supply, provision of 
recreational opportunities and other non-timber products, and achieving 
conservation objectives, such as protecting older forests and aiding in 
the recovery of the Northern Spotted Owl and other threatened and 
endangered species. Despite decades of controversy surrounding these 
issues, many in Oregon continue to work hard to look for solutions that 
meet the needs of industry, rural communities, local governments, and 
the conservation of habitat, species, and water resources. As provided 
under Title II of the Secure Rural Schools Act, the BLM has 
collaborated with Resource Advisory Committees to prioritize and 
allocate funding for restoration projects.
    As part of the Administration's ongoing commitment to improve 
forest resiliency, aid in the recovery of the Northern Spotted Owl, and 
support economic opportunities for local communities in the Pacific 
Northwest, leaders from the FWS, BLM, and U.S. Forest Service met in 
2013 with employees from all three agencies to articulate a common 
vision and intent in approaching these goals. We are aware that during 
the past year, Governor Kitzhaber; Senator Wyden; and Representatives 
DeFazio, Walden, and Schrader have initiated efforts to better 
understand and address these multifaceted concerns. We are eager to 
engage with them on these issues and we appreciate both the challenges 
and the possibilities that result from collaborative efforts involving 
the wide range of stakeholders.
Resource Management Plans
    The BLM is currently revising the 1995 RMPs that govern management 
of the O&C lands. The BLM has actively sought significant engagement 
from the public and key stakeholders and will continue do so throughout 
this effort, striving for a cooperative approach to the complex issues 
associated with managing these lands.. The BLM in western Oregon is 
employing a series of collaborative approaches and meetings to engage 
over 25 formal cooperators and interested stakeholders during the 
current efforts to revise the RMPs. We have received positive feedback 
on these efforts. The revised RMPs will provide a management framework 
for O&C lands that furthers the recovery of threatened and endangered 
species, produces a reliable and sustainable yield of timber products, 
provides for clean water, restores fire-adapted ecosystems, and ensures 
diverse recreational opportunities. The BLM has completed public 
scoping as part of the National Environmental Policy Act (NEPA) process 
and used input derived during the scoping period to help craft the 
Purpose and Need for the planning effort. As the BLM moves forward in 
developing draft RMPs, it will consider public input as well as lessons 
learned from 20 years of experience implementing the Northwest Forest 
Plan, the BLM's ecological forestry pilot projects, and threatened and 
endangered species recovery plans and critical habitat designations 
from both the U.S. Fish and Wildlife Service (FWS) and National Marine 
Fisheries Service (NMFS).
                            s. 1784 title i
Management of O&C Lands
    Title I pertains to management of the O&C lands. This title 
allocates certain forest lands as ``Forestry Emphasis Areas'' and 
others as ``Conservation Emphasis Areas'' and provides guidance for the 
management of each area. The BLM shares the goals of providing a 
sustained yield of timber, establishing a large block network of older 
forest habitat, and protecting older, more complex forests in support 
of improved conservation of threatened and endangered species. The BLM 
understands that one of the goals of S. 1784 is to simplify management 
direction and environmental analysis for the O&C lands and we also 
share that goal. BLM believes that the goal of addressing management 
challenges in Western Oregon must be achieved collaboratively and with 
the best available science. However, rather than simplify management 
for the O&C lands, BLM is concerned that that the current draft of the 
bill could create increased complexity and uncertainty.
    In support of some of the same broad goals of Title I, in 2010, the 
Department of the Interior initiated four collaborative pilot projects 
applying the principles of ecological forestry in the BLM's Roseburg, 
Coos Bay, and Medford districts. These pilot projects have involved 
collaboration with resource professionals from the BLM, FWS, NMFS, and 
the Coquille Indian Tribe, as well as industry and the conservation 
community. The BLM is exploring the further application of ecological 
forestry principles in preparing ongoing timber sales while it 
undertakes efforts to revise its RMPs.
    Although the BLM supports many of Title I's broad policy goals, we 
have concerns with the language of Title I and the impacts of its 
implementation. We would like to highlight some of those concerns and 
we would like to continue to work with the sponsor and the Committee to 
address them.
    The BLM's management of the O&C lands, as well as public domain 
forests in western Oregon, is currently governed by a number of 
statutory and other requirements, including the National Environmental 
Policy Act (NEPA), the Endangered Species Act (ESA), the Clean Water 
Act, the O&C Lands Act of 1937, the Federal Land Policy and Management 
Act (FLPMA), and the relevant implementing regulations and plans. We 
are concerned that there is a lack of clarity about the relationship 
between the various statutory provisions in this legislation and other 
related laws and regulations. This could lead to duplicative analyses 
and planning efforts, disputes or confusion over appropriate BLM 
management actions, delayed compliance, and potentially increased costs 
of litigation. In addition, the Department is concerned that the very 
prescriptive management requirements will undermine flexibility 
necessary to manage in changing circumstances, use the best available 
science, engage the public, or achieve recovery goals for key 
threatened and endangered species. For these reasons and others, it is 
difficult for the Department to determine the full scope of the impact 
this bill would have on existing environmental laws, public involvement 
in, and sound management of, these lands and to provide comments on 
that basis.
    As drafted, the bill could be inconsistent with important 
protections provided by current laws for environmentally sound 
management of these lands and could reduce public involvement in the 
management planning process. The Department has concerns about 
provisions that are inconsistent with the species protections afforded 
by the ESA, such as the apparent allowance for certain projects to go 
forward in spite of a jeopardy determination by the FWS or site 
specific analysis.
    Additionally, the Department has concerns regarding the time frames 
established in the bill, including the timelines prescribed for 
compliance with NEPA--the cornerstone law guiding environmental 
protection and public involvement in federal actions. Many deadlines in 
the bill are not sufficient to allow for the necessary level of 
analysis, the public participation necessitated by the high level of 
public interest and involvement in these issues, and the complexity of 
the issues and information that must be analyzed. In our experience, 
mandatory deadlines can often result in incomplete or rushed analyses, 
increasing litigation risk and delay. We are also very concerned with 
using an environmental impact statement prepared for a large area as 
the only NEPA review for any subsequent site-or project-specific 
activity for a period of 10 years precluding consideration of changes 
on the ground that occur during that 10 year period. The 
Administration's concerns include: (1) the temporal and spatial scale 
of the EIS; (2) the limitation precluding consideration of more than 
two reasonable alternatives; (3) the limitation precluding 
consideration of impacts beyond specific authorized actions; (4) the 
limitations on the public's ability to review and challenge; and (5) 
the limitations on the consistency document that replaces a tiered, 
site-or project-specific, environmental review. These concerns cut to 
the very core of the ability to prepare a reasoned and considered NEPA 
environmental review. We would like to work with the sponsor and the 
Committee to ensure that the processes required under the bill allow 
for the necessary analyses and sequencing to produce environmental 
reviews for informed and defensible analyses and decisions.
    Finally, the bill does not incorporate direction for the 212,000 
acres of public domain lands that are found within western Oregon and 
currently managed under the Northwest Forest Plan guidance. The BLM is 
concerned that implementing different management direction on public 
domain versus O&C lands that are intermingled, ecologically similar, 
and have historically been managed under the same guidance could lead 
to confusion and further management challenges and associated costs.
    The Department has a number of substantive and technical concerns, 
and would like to work with the sponsor on clarifying amendments.
Revenue Distribution
    The Administration has a number of concerns with the language 
regarding revenue distribution as drafted and we look forward to 
working with the sponsor on clarifying amendments. Title I would depart 
from the historic formula of sharing revenues from O&C timber sales 
with the O&C counties and Treasury's General fund for the benefit of 
all taxpayers. Additionally, the bill caps receipts allocated to the 
General Fund at no more than $4 million and provides that money be 
taken from the U.S. Treasury and BLM administrative payments if a 
minimum county payment threshold is not met. BLM takes seriously its 
responsibility to the public as stewards of our nation's natural 
resources and ensuring that public resources on federal and Indian 
lands provide a fair return to the American people. As drafted, the 
bill may set an undesirable precedent by diverting receipts from the 
Treasury and thereby reducing the net return to taxpayers.
Conservation Designations
    Title I would establish or modify several conservation designations 
that would be included in the BLM's National Landscape Conservation 
System. Section 112 proposes to add approximately 2,050 acres to the 
Cascade-Siskiyou National Monument in southwestern Oregon. The Monument 
was established by Presidential Proclamation on June 8, 2000, and was 
later modified with the addition of wilderness and additional 
management direction by P.L. 111-11, the Omnibus Public Lands Act. The 
Monument's nearly 53,000 acres are a place of great biological 
diversity due to its location at the confluence of three converging 
mountain ecoregions--the Cascade, Klamath, and Eastern Cascade. The 
proposed additions would enhance this biodiversity and provide 
important habitat connectivity. The BLM generally supports the proposed 
additions, and would like to work with the sponsor to ensure 
consistency in management across the entire Monument and to consider 
any minor boundary modifications.
    Section 114 establishes a protective corridor for sections of the 
Pacific Crest National Scenic Trail where it travels through and 
adjacent to Cascade-Siskiyou National Monument. While the BLM generally 
supports these provisions we would like to work with the sponsor to 
improve consistency with the National Trails System Act, BLM policy, 
and BLM management objectives. Finally, section 103 would protect over 
50 miles of Oregon rivers with new designation as either recreational 
or scenic rivers under the Wild and Scenic Rivers Act. The BLM supports 
these designations.
    Title I also establishes a wide variety of designations, including 
two National Recreation Areas four Drinking Water Special Management 
Units, and the Illinois Valley Salmon and Botanical Area Special 
Management Unit. Additionally, the bill establishes Special 
Environmental Zones, Primitive Backcountry Special Management Areas, 
and Special Management and Research Areas. Many of these designations 
are new to BLM and it is unclear whether they will meet their stated 
conservation objectives. We would like to work with the sponsor on 
language that would clarify the management goals for each of these 
designation types. Likewise, we would like the opportunity to consider 
boundary modifications for manageability.
                     s. 1784 title ii, tribal land
    Title II of S. 1784 provides that approximately 14,804 acres of 
BLM-managed lands in western Oregon be held in trust for the benefit of 
the Confederated Tribes of the Coos, Lower Umpqua, and Siuslaw Indians 
and that approximately 17,826 acres of BLM-managed lands in western 
Oregon be held in trust on behalf of the Cow Creek Band of Umpqua Tribe 
of Indians. This title would also require the Department of the 
Interior to reclassify an equal number of acres of public domain lands 
as O&C lands to compensate for the loss of O&C lands transferred by the 
bills. Finally, Title II provides for an amendment to the Coquille 
Restoration Act.
    Many of the BLM-managed lands in this area have significance for 
nearby tribes. Both the Confederated Tribes of the Coos, Lower Umpqua, 
and Siuslaw Indians and the Cow Creek Band of Umpqua Tribe of Indians 
have expressed their desire to acquire culturally significant tracts of 
land in the region as well as forest lands to be managed for the 
financial benefit of tribal members. The BLM strongly believes that 
open communication between the BLM and tribes is essential in 
maintaining effective government-to-government relationships, and the 
BLM has a positive working relationship with the tribes in the area. 
The Department welcomes opportunities to work with Congress on the 
transfer of lands into trust status and supports the goals of this 
title. The BLM would like the opportunity to work with the sponsor and 
the Committee to address various issues related to the bill, including 
access rights, utility and facility encumbrances, and timber harvest.
    The bill would require the BLM to identify sections of public 
domain lands to be reclassified as O&C lands within 18 months. It is 
our understanding that the sponsor intends the bill to transfer or 
reclassify only BLM-managed lands. The BLM would like to work with the 
sponsor to clarify language in sections 206 and 216 accordingly. The 
timeframes provided in the bill to complete reclassification of public 
domain lands are insufficient considering the workload, staffing and 
costs involved. Additionally, the BLM is concerned that lands of 
approximately equal acreage, habitat condition, productivity, and land 
use allocation are unavailable for reclassification within the affected 
planning areas. The BLM would like to work with the sponsor on a 
timeline that would add flexibility and language providing specificity 
regarding the lands to be reclassified and their subsequent management.
    Because many of the lands to be taken into trust through this title 
have been identified for potential future timber sales, the BLM 
believes that the transfer of these lands into trust status would 
reduce the land base from which the BLM could offer timber sales, 
thereby reducing the quantities of timber that could be offered by the 
BLM in future timber sales and resulting in a potential reduction of 
timber revenues to the United States and to the O&C counties, and 
potentially impacting the BLM's implementation of the provisions in 
Title I.
Subtitle A, Oregon Coastal Land Conveyance
    The bill's Oregon Coastal Land Conveyance provisions (Title II, 
Subtitle A; introduced separately as S. 1414) provide that seven tracts 
of land currently managed by the BLM, totaling 14,804 acres, be held in 
trust for the benefit of the Confederated Tribes of the Coos, Lower 
Umpqua, and Siuslaw Indians (the Tribes). The bill directs all right, 
title, and interest of the United States to the identified lands, 
subject to valid existing rights, to be held in trust for the benefit 
of the Tribes. These parcels are located in western Oregon's Coos, 
Douglas, Benton, and Lane Counties, and include tracts such as the Coos 
Head, Talbot Allotment, and Umpqua Eden parcels, which are of 
particular cultural significance to the Tribes, as well as areas such 
as the Lower Smith River and Tioga tracts, managed for timber 
production. While the transfer would be subject to valid existing 
rights, we have concerns about access and withdrawal. Finally, the 
lands identified for transfer contain 6,236 acres of critical habitat 
for the northern spotted owl, as well as critical habitat for the 
marbled murrelet and other threatened species. The Department notes 
that transfer of these lands could impact recovery of these species, 
and would like to work with the sponsor to clarify language related to 
the protection of wildlife.
Subtitle B, Canyon Mountain Land Conveyance
    The bill's Canyon Mountain Land Conveyance provisions (Title II, 
Subtitle B; introduced separately as S. 1415) provide that 
approximately 17,826 acres of BLM-managed land in Douglas County, 
Oregon, be held in trust for the benefit of the Cow Creek Band of 
Umpqua Tribe of Indians (Tribe). The bill directs all right, title, and 
interest of the United States to the identified lands, subject to valid 
existing rights, to be held in trust for the benefit of the Tribe. The 
lands identified for transfer would be used to restore and expand the 
historic and economic base for the Tribe in southwestern Oregon. The 
parcels are scattered and interspersed with private lands, and include 
many areas popular with hunters, anglers, and campers. While the 
transfer would be subject to valid existing rights, the BLM has access 
concerns related to some parcels. These lands also include populations 
of the Federally-threatened Kincaid's Lupine and roughly 14,600 acres 
of critical habitat for the northern spotted owl. The Department notes 
that transfer of these lands could impact recovery of these species. 
The BLM would like to work with the sponsor to clarify language related 
to the protection of recreational, wildlife, and cultural resources.
Subtitle C, Coquille Restoration Act
    Subtitle C of Title II would amend the Coquille Restoration Act 
(P.L. 101-42) to provide for a change in management direction for the 
Coquille Forest. The Department supports this modification to the 
Coquille Restoration Act.
                  s. 1784 title iii, oregon treasures
    The BLM also manages many extraordinary lands in western Oregon 
that are proposed for conservation designation under this legislation. 
Title III of S. 1784 includes the following wilderness and wild and 
scenic river designations in Oregon: the Wild Rogue in southwestern 
Oregon (introduced separately as part of S. 353); the Devil's Staircase 
in southwestern Oregon (introduced separately as S. 352); and the 
Molalla River in northern Oregon (introduced separately as part of S. 
353). It also makes technical corrections to the Wild and Scenic Rivers 
Act (introduced separately as part of S. 353). The Department supports 
this title, which would conserve and protect these special places that 
are treasured both locally and nationally.
Wild Rogue Wilderness
    Over millions of years, the Rogue River, one of the initial eight 
rivers recognized in the 1968 Wild and Scenic Rivers Act, has carved 
its way through western Oregon's mountains. Dense, old-growth forests 
flank the Rogue providing habitat for forest-dependent species. The 
cold, clear waters of the river provide a home for Pacific salmon, 
steelhead trout, and green sturgeon. Recreationists drawn to the Rogue 
River watershed are a critical economic engine for local economies and 
include fishing, rafting and boat tours, and hiking and backpacking.
    The bill (Section 301) proposes to enlarge the existing Wild Rogue 
Wilderness by adding nearly 60,000 acres of land administered by the 
BLM and extend the existing Rogue Wild and Scenic River by adding 93 
miles of 35 tributaries to the wild and scenic river system. In 
addition, the bill withdraws 50 miles of 20 other Rogue River 
tributaries from land laws, mining laws, and mineral leasing laws and 
prohibits the Federal Energy Regulatory Commission (FERC) from 
licensing new water resource projects and associated facilities along 
these tributaries.
    The BLM supports this section of the bill. This wild and rugged 
area is largely untrammeled and has been influenced primarily by the 
forces of nature with outstanding opportunities for primitive 
recreation or solitude.
Devil's Staircase Wilderness
    The proposed Devil's Staircase Wilderness near the coast of 
southwestern Oregon is wild, reminding us of what much of this land 
looked like hundreds of years ago. A multi-storied forest of Douglas 
fir and western hemlock towers over underbrush of giant ferns, 
providing critical habitat for the threatened northern spotted owl and 
marbled murrelet. The remote and rugged nature of this area provides a 
truly wild experience for any hiker.
    Subtitle B of Title III proposes to designate over 30,000 acres as 
wilderness, as well as portions of both Franklin Creek and Wasson Creek 
as components of the Wild and Scenic Rivers System. In previous 
testimonies, the U.S. Department of Agriculture has supported 
legislation to designate Devil's Staircase as Wilderness as well as 
Franklin and Wasson Creeks as components to the Wild and Scenic River 
System. Our understanding is that USDA continues to support these 
designations. Additionally, the Department supports the designations 
that would be managed by the BLM, including approximately 6,830 acres 
of the proposed Devil's Staircase Wilderness and 4.2 miles of Wasson 
Creek.
Molalla Wild & Scenic River
    At an elevation of 4,800 feet, the Molalla River flows undammed for 
49 miles west and north until it joins the Willamette River, providing 
drinking water for local communities and important spawning habitat for 
several fish species. Within an hour's drive of the metropolitan areas 
of Portland and Salem, the Molalla watershed provides significant 
recreational opportunities for fishing, canoeing, mountain biking, 
horseback riding, hiking, hunting, camping, and swimming and draws over 
65,000 visitors annually.
    Section 321 of the bill proposes to designate 15.1 miles of the 
Molalla River and 6.2 miles of the Table Rock Fork of the Molalla as 
components of the National Wild and Scenic Rivers System. The 
Department supports these designations.
Corrections to the Wild and Scenic Rivers Act Section 322 of the bill 
        pertains to lands managed by the U.S. Forest Service, and the 
        Department defers to the Department of Agriculture on this 
        provision.
                               conclusion
    S. 1784 would modify and direct the BLM's management of the O&C 
lands for timber harvest and conservation purposes, transfer certain 
lands into trust status for the benefit of tribes, and establish new 
conservation designations in western Oregon. The Department does 
support the goals of transferring lands into trust status and modifying 
management of certain lands for the benefit of tribes and supports the 
conservation designations that would be made under Title III. 
Additionally, the Department supports the goal of identifying a 
collaborative solution to conflicting management goals in western 
Oregon and the Department looks forward to continuing to work with the 
sponsor, the Committee, and stakeholders to address concerns with the 
bill as drafted, and to accomplish our shared stewardship goals for 
BLM-managed lands in western Oregon.

    The Chairman. Mr. Ellis, I'll have some questions for you 
in a moment. But I do want to acknowledge at this time all the 
work that your staff did, an enormous amount of work that they 
did over the last few months to get our office what we needed 
to go forward with this draft. I'll have some questions in a 
moment, but I want people to know how much we appreciate the 
professionalism of the people that you all have at BLM.
    Chief, please proceed.

STATEMENT OF THOMAS TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT 
                         OF AGRICULTURE

    Mr. Tidwell. Mr. Chairman, first of all, I need to thank 
you for your support and leadership on this committee. We will 
miss you in the chairmanship, but look forward to continuing to 
work with you in your new role, but then also through this 
committee.
    So, Chairman, Ranking Member Murkowski, and members of the 
committee, thank you for the opportunity to be here to testify 
on S. 1966, the National Forest Jobs and Management Act of 2014 
that's sponsored by Senator Barrasso. We agree with the goals 
of this bill.
    But we cannot support it as it's currently written. We 
agree that we need to increase the pace of restoring the health 
of our national forests. As Senator Barrosso mentioned, we're 
on record of showing and knowing that there's over 65 million 
acres of our National ForestS that needs some form of 
restoration. Of that 65 million, there are at least 12 to maybe 
15 million that are going to require some form of mechanical 
treatment and timber harvest to be able to restore those lands.
    Over the last few years, we've been making good progress to 
build support for restoring the resiliency of our National 
Forest. Even though our funding for resource management has 
declined due to the transfer of funds to cover fire-suppression 
costs, we've been able to continue to increase the acres 
treated and timber harvested over the last 2 years. This has 
been accomplished through our collaboration and management 
efficiencies that have allowed us to overcome a reduction of 35 
percent in our staffing over the last 12 years.
    There are a few key components of the bill that we'd like 
to work with Senator Barrasso and the committee on. The first 
point is that we need to be careful to not restrict or limit 
our ability to address restoration at a landscape scale. We're 
having good success now looking at tens of thousands of acres 
under one analysis. Using an EA to document analysis could be 
limiting our ability to look at these landscape-level projects.
    We also need to include all the restoration in the 
analysis, and not just the biomass removal of the timber 
harvest. We agree that we must be able to provide some level of 
certainty to the industry and to our communities on the amount 
of restoration work that's going to be done, such as we've been 
able to accomplish with stewardship contracting authority. I 
cannot thank you enough for your support for giving us that 
authority.
    Second of all, we need to continue to improve our 
processes. We've done a good job to reduce our costs over the 
last 12 years. In fact, we have reduced our costs by 28 percent 
over the last 10 years. But we need to continue to improve on 
that. I'd like to expand the use of using designation by 
description so that we can focus on what's left on the land, 
not what needs to be removed.
    Following a strong collaborative process using focused 
NEPA, we can reduce the number of alternatives analyzed that 
can reduce the cost and save time, just like we have with the 
Healthy Forest Restoration Act. I appreciate that you 
acknowledge we need to use our pre-decisional objection 
process, and also be able to use authorities like the Good 
Neighbor Authority. Senator Barrasso, I too want to thank you 
for your work to be able to get that for us.
    The third point that I need to raise, it's essential that 
we honor public involvement in the management of our National 
Forests. If interest groups, local governments, if they believe 
that their opportunity to be involved is cut out or reduced, 
there's just going to be more controversy and delays.
    The arbitration proposal, it's interesting. But I need to 
make sure that it doesn't add more process. I also need some 
level of reassurance that an arbitrator would make a better 
decision than what the Forest Service does in conjunction with 
the public. We're willing to explore this idea of some type of 
maybe a nonbinding, reviewable arbitration on a trial basis. 
But it's definitely something we want to work with you on.
    Fourth, we also need to be careful not to create public 
distrust by reducing some of the regulatory agency's roles. 
Their role, to be able to concur with what our biologists 
determine and our biological assessments and evaluations, 
provides the public with that reassurance. I think we need to 
be careful not to lose some of that trust we've built.
    Then last, we need to have the resources to be able to do 
the work. Even with the efficiencies that S. 1966 would 
provide, it's still not going to be enough. We need to be able 
to have the resources to be able to increase the amount of work 
that's being done. We need to stop this annual transfer of 
funds every year to deal with fire costs.
    Mr. Chairman, I want to thank you and Mr. Crapo for your 
leadership to be able to put a stop to this disruptive practice 
of fire transfer and to provide additional funding to manage 
and restore our forests. I look forward to working with the 
committee to build on the new authorities in the 2014 
Appropriations Act, and the forestry title of the Farm Bill, to 
increase restoration of our national forests. Thank you.
    [The prepared statement of Mr. Tidwell follows:]

Prepared Statement of Thomas Tidwell, Chief, Forest Service, Department 
                             of Agriculture
    Chairman Wyden, Ranking Member Murkowski, and members of the 
Committee, thank you for inviting me here today to testify on the 
National Forest Jobs and Management Act of 2014 (S. 1966) sponsored by 
Senator Barrasso. With our many partners, Secretary Vilsack and the 
USDA Forest Service share your commitment to increase the pace and 
scale of forest restoration and management in our National Forests. 
Restored acres and timber volume is up on the National Forests and we 
must continue to invest in current management regimes and not lose 
focus on legislative changes that may only polarize and create more 
conflict. However, USDA cannot support the bill as it is currently 
written.
    We must manage and restore more acres to reduce the threat of 
catastrophic wildfire, to address insects and disease, and to restore 
the ecological health of forests for the benefit of all Americans. We 
greatly appreciate recent efforts in Congress to provide key 
authorities through the FY 2014 Consolidated Appropriations Act 
(highlighted below) that are essential in carrying out our work. The 
Forestry Title in the recently enrolled Farm Bill also includes 
additional tools that will assist the Forest Service, along with our 
partners, to improve the condition of the Nation's forests.
    We cannot address the management of the National Forests without 
addressing the fire budgeting challenge. The Forest Service and 
Department of the Interior have had to increasingly transfer money from 
non-fire programs to fight fires due to longer fire seasons and more 
acreage of forests and rangelands burning each year. But, this is not 
just a problem of fire borrowing during difficult fire years. The 
Forest Service once spent 10%-15% of its budget on fire--today we spend 
over 40%. As a result, over the long term, the Forest Service has had 
to shift resources away from forest management and other activities. We 
support efforts by Chairman Wyden, Senator Crapo and others to address 
this issue in a way that both ends the disruptive practice of fire 
transfers and provides resources to manage and restore our forests so 
they are more resilient to wildfire.
    S. 1966 aims to ``provide for the restoration of the economic and 
ecological health of National Forest System (NFS) land and rural 
communities.'' The Forest Service strongly agrees that more forest 
management and restoration work needs to occur, but cannot support the 
bill as it is currently written as it rolls back key environmental 
safeguards, diminishes public participation, sets artificial management 
targets in statute, and leads to potentially more conflict (including 
potentially more objections and challenges), not less, in regards to 
management of the National Forests. We are implementing the following 
approaches to increase the pace of restoring the health of our National 
Forests and Grasslands.
the agency is saving costs by gaining efficiencies in our environmental 
 review process under the national environmental policy act (nepa) and 
     other regulatory responsibilities and stewardship commitments
    We are identifying NEPA efficiencies by focusing on improving 
Agency policy, learning, and technology. These NEPA process 
improvements are designed to provide certainty and integrate the 
applicable review and permitting processes. This will improve the 
overall planning process to increase decision-making efficiencies and 
result in on-the-ground restoration work getting done more quickly, 
collaboratively, and across a larger landscape. The Agency has 
initiated a NEPA learning networks project to learn from and share the 
lessons of successful implementation of efficient NEPA analyses and 
develop and institutionalize a more integrated and predictable planning 
process that will provide for timely and better decisions. The goal of 
this effort is to ensure that the Agency's NEPA compliance is as 
efficient, cost-effective, and up-to-date as possible. Specifically we 
are looking at expanding the use of focused Environmental Assessments 
(EAs), identifying any additional categories of actions that may be 
appropriately excluded from documentation in an EA or an Environmental 
Impact Statement (EIS), and applying an adaptive management framework 
to the planning process whether a Categorical Exclusion, EA, or EIS is 
prepared in conjunction with other processes under statutory and 
regulatory regimes including the Endangered Species Act (ESA), Clean 
Water Act, and Clean Air Act.
    We are implementing Section 428 of the 2012 Consolidated 
Appropriations Act, which authorized the Agency to establish a pre-
decisional objection process for projects. Considering public concerns 
before a decision is made aligns with and strengthens our collaborative 
approach to forest management increasing the likelihood of resolving 
potential concerns, and resulting in better, more informed decisions. 
The Agency also believes the predecisional objections process will aid 
efforts to be more efficient with documenting environmental compliance 
and stewardship with the goal of providing better outcomes for our 
communities and our environment. We greatly appreciate the provision 
included in the FY 2014 Consolidated Appropriations Act and the 
recently enrolled Farm Bill which allow categorical exclusions to 
remain unencumbered by administrative procedures that are not 
commensurate with the nature of these decisions.
  the forest service is utilizing the collaborative forest landscape 
         restoration (cflr) program to restore large landscapes
    Currently, 23 CFLR projects are underway that emphasize restoration 
across large scale landscapes in order to reestablish natural fire 
regimes and reduce the risk of uncharacteristic wildfire. In addition 
to finding efficiencies in planning and treating larger landscapes, 
CFLR emphasizes collaboration. Through work with partners, land 
managers are able to leverage funding, knowledge, and support to 
accomplish additional work on the ground. In FY 2012, these projects 
exceeded the targets for the majority of performance measures. In 
addition to proposed projects under CFLR, we are developing and 
implementing broad-based, landscape scale, project planning whenever 
appropriate.
 the agency is completing restoration activities utilizing stewardship 
                  contracts and timber sale contracts
    In FY 2012, 25 percent of all timber volume sold was under a 
stewardship contract. Stewardship Contracting includes forest product 
removal (goods) and restoration projects (services), which are offset 
by the value of the goods. Further, stewardship contracting allows the 
Forest Service to use best value contracting to evaluate contractors' 
proposals. Stewardship contracting authorities enable the Agency to 
fund watershed and wildlife habitat improvement projects, invasive 
species removal, road decommissioning, and hazardous fuels reduction 
activities. This builds public support for forest management 
activities. The permanent reauthorization of stewardship contracting is 
critical to our ability to collaboratively restore landscapes at a 
reduced cost to the government by offsetting the value of the services 
received with the value of forest products removed. We greatly 
appreciate the provision included in the recently enrolled Farm Bill 
and FY 2014 Consolidated Appropriations Act to extend the Stewardship 
Contracting Authority.
 the forest service is conducting watershed restoration activities on 
             nfs and adjacent state and private forest land
    In 2000, Congress authorized the Forest Service to undertake a 
pilot program referred to as ``Good Neighbor'' in Colorado and granted 
authority for the program in Utah in 2004. This legislation authorizes 
the Forest Service to enter into cooperative agreements or contracts 
with state foresters to conduct certain watershed restoration 
activities--such as reducing hazardous fuels, addressing insect 
outbreaks, and improving drainage to prevent sediment from eroding into 
forested watersheds--on NFS land. Although projects are conducted by 
the State, projects on Federal land remain subject to our Federal 
management and stewardship responsibilities, many of which cannot be 
delegated to a tribal, state or local governments. The Forest Service 
greatly appreciates efforts by Congress to permanently extend this 
authority and expand its use to other states through the FY 2014 
Consolidated Appropriations Act and the recently enrolled Farm Bill.
             the agency is reviewing our business practices
    We are reviewing our business practices around timber sale 
preparation, specifically regarding designation of timber for harvest 
and accounting for merchantable volume, to determine how to reduce the 
cost to the government for selling timber.
S. 1996
    Title I of S. 1996 would authorize the Secretary of Agriculture to 
carry out covered projects (projects involving the management or sale 
of national forest material) in Forest Management Emphasis Areas (areas 
of national forest land in western forests that are identified as 
suitable for timber production in the forest plan). The bill would 
direct that timber sale contracts would be the primary means of 
carrying out covered projects and would set a target of 7.5 million 
acres to be treated over a 15 year period.
    S. 1966 would modify the process for NEPA compliance in carrying 
out covered projects, and could be read to modify the consultation 
process under the ESA by directing that the Forest Service make the 
determinations required under section 7 of the ESA. Covered projects 
would be subject to notice and comment during development of the EA and 
to a predecisional objection process. In lieu of seeking judicial 
review after completion of the objection process, S. 1966 would 
establish a fifteen year pilot program that requires the use of 
arbitration instead of judicial review as the sole means to challenge 
for a covered project in a Forest Management Emphasis Area (FMEA).
    The bill also contains other provisions relating to the 
distribution of timber receipts generated by covered projects and 
requires the agency to develop performance measures to evaluate whether 
targets for acres treated are achieved.
    We share Senator Barrasso's commitment to improving the management 
of the NFS. The Administration has a number of concerns with the 
legislation, as drafted, and cannot support it in its current form. We 
offer the following observations and concerns regarding S. 1966:

  <bullet> The mandate to identify, prioritize, and carry out projects 
        on 7.5 million acres lands identified as suitable for timber 
        production represents roughly a three-fold increase in workload 
        beyond our current restoration efforts and is beyond our 
        existing capacity. A significant amount of new funding would be 
        needed to accomplish the targets set forth in S. 1966 without 
        having to redirect funds from other essential programs and 
        initiatives within the Agency. In addition, S. 1966 prohibits 
        the Forest Service from reducing the acreage deemed suitable 
        for timber production in any subsequent forest plan revision 
        which would, among other things, reduce the agency's ability to 
        engage in adaptive management of the area based on the best 
        available science, particularly in combination with the target 
        harvest requirements;
  <bullet> The Forest Service is responsible for upholding numerous 
        Federal laws (e.g., Clean Water Act, Clean Air Act, National 
        Historic Preservation Act, and the ESA). Compliance with these 
        laws generally occurs in association with the NEPA process and 
        will require more time than the 180 day time limit (set forth 
        in S. 1966) to complete an EA or other appropriate environment 
        review under NEPA. As a general matter, the Administration 
        cannot support arbitrary deadlines in the NEPA process, as they 
        have the potential to constrain decision-making, lead to rushed 
        or incomplete analyses, and potentially lead to more litigation 
        and delay;
  <bullet> The provision regarding ESA consultations is unclear as to 
        what is intended. The provision could be read either as 
        authorizing Forest Service employees to make determinations 
        required under Section 7 of the ESA in lieu of the U.S. Fish 
        and Wildlife Service (FWS) and the National Marine Fisheries 
        Service (NMFS) as presently called for by the ESA, or as 
        requiring the Forest Service to use qualified individuals to 
        make those ESA determinations that are already within the 
        Forest Service's authority or responsibility under the ESA. To 
        the extent that S. 1966 is suggesting that the Forest Service 
        take over ESA compliance responsibilities from FWS and NMFS, it 
        is not clearly stated and, in any event may cause confusion and 
        controversy that could negate any efficiency gained. To the 
        extent the provision is only intended to require the Forest 
        Service to use qualified professionals to make ESA judgments 
        that are already within the Forest Service's purview under the 
        ESA, the provision is still ambiguous because it is unclear 
        what it meant by a qualified professional;
  <bullet> Further clarification is needed regarding the requirement 
        for indirect or cumulative effects analyses and the public 
        comment process as part of the EA. To the extent that this 
        portion of S. 1966 eliminates the typical NEPA requirement to 
        analyze the indirect and cumulative effects of a proposed 
        action, it will significantly diminish the nature and quality 
        of the information available to the public and the decision-
        maker;
  <bullet> The Agency fully supports collaboration with our partners 
        and stakeholders from all interest areas as one way to be more 
        efficient, through a shared understanding of the desired 
        condition, across the landscape. In some Forest Service 
        Regions, litigation remains a challenge we face in striving to 
        increase our restoration efforts. The Forest Service has 
        limited experience with arbitration and will need to complete a 
        technical and legal review relating to its use within the 
        Agency. As an initial matter, we have concerns with the 
        mandatory nature of Sec. 5 of S. 1966 and the lack of standards 
        to guide selection of and decision by an arbitrator. We are 
        also concerned with the strict limitations on the potential 
        remedy available to an arbitrator, the lack of reviewability, 
        and the very short timeframe during which arbitration must be 
        completed. That said, we are willing to explore the use of non-
        binding, reviewable arbitration (through a collaborative 
        approach) on a trial basis before implementing such a change 
        nationwide; and
  <bullet> Clarification is needed regarding the process to determine 
        location, extent and determination of lands that are suitable 
        for timber production in the designated FMEA.

    We have recognized for some time the importance of increasing our 
restoration efforts and continue to explore new and existing tools to 
become more efficient. We are making progress and need to continue 
investing in existing land management programs and tools included in 
the recently enrolled Farm Bill. S. 1966 could undermine many of those 
efforts. We want to work with the Chairman, Ranking Member, Senator 
Barrasso and other members of the Committee to build on the authorities 
provided in the FY 2014 Consolidated Appropriations Act and through the 
Forestry Title of the recently enrolled Farm Bill. We look forward to 
continued dialogue to identify ways to increase restoration efforts on 
the National Forest System.

    The Chairman. Chief, thank you very much. Just so you know, 
we so appreciate the leadership that you've shown on this 
stewardship contracting issue. I can tell you, every single 
town meeting that I've had in eastern Oregon, this has come up. 
This has been a top priority of the county commissioners. So we 
thank you for it.
    I also want to note that Senator Merkley, my colleague in 
the Oregon delegation, pitched very hard for this as well.
    Mr. Ellis, with respect to the O&C legislation, S. 1784, my 
understanding is not only is the BLM in Oregon not meeting the 
timber targets established in the resource plan, I guess, your 
allowable sale quantity, but they're largely focused on 
thinning harvest, and that there are limited places that rely 
on timber from thinning.
    Is continuing to rely on just thinning those harvests going 
to produce a sustainable approach? What are the implications 
for running out of volume just by dealing with those harvests?
    Mr. Ellis. Mr. Chairman, two things. First of all, I should 
mention that in 2014, this fiscal year, BLM plans to offer 231 
million board-feet of timber, which is about 25 million board-
feet above the 206 million we offered in 2013.
    As for thinning, we are, yes, primarily doing thinning. 
Commercial thinning is a sound silvicultural practice. But one 
thing about thinning, it won't last forever. So what our staff 
tells me in western Oregon is that if we continue at this pace 
for thinning perhaps another 15 or 20 years, what we need to do 
is have a silvicultural practice where we can get some early 
seral development in some younger trees coming up.
    The Chairman. Now, many of the sales that the BLM designs 
on the O&C lands never seem to result in any timber being cut, 
because of the continual appeals and litigation and the fact 
that you just seem to have this legal demolition derby, where 
people just insist on suing each other till one side is 
crushed.
    How serious is this in terms of the work for BLM? Is it 
your view that legislation that provides more explicit 
direction with respect to the management of these lands at 
least would help get more timber harvest and help address this 
problem?
    Mr. Ellis. Mr. Chairman, we don't lack for appeals on 
litigation. What we do on public lands, whether it be on O&C or 
other areas, but what I would say is, in the O&C, I think the 
appeals that we have and the litigation that we have really 
reflects the many values that we have from our publics in 
western Oregon.
    The Chairman. So your sense is that trying to come up with 
a piece of legislation to embody those values would be 
constructive as long as we strike the right balance between 
giving you direction and not trying to micromanage from 
Washington, DC.'' Would that be another way to say it?
    Mr. Ellis. Balance is important. Collaboration is 
important. I believe earlier, you know, what I heard in your 
statement was about Oregonians collaborating. We feel that this 
is very important.
    We have, as you know, a resource management planning effort 
that is currently underway. We've held a series of listening 
sessions. We have many cooperators in the west side. We're 
moving forward in that effort and attempt to listen to our 
publics and try to come up with a suite of alternatives for 
management of these O&C lands that reflects all the values that 
are reflected, and also to try to come up with some 
sustainability for the O&C lands and some predictability for 
these counties, for these O&C counties.
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Before I direct my questions to the two bills in front of 
us, Chief, I want to raise with you an issue that we discussed 
when you were visiting the State when we were touring the 
Tongass summer of last year.
    I think you got a real sense in terms of the challenges 
that we face in really doing any level of development or 
activity within the 9.5 million acres of the Tongass there when 
it comes to how we might develop our renewable energy 
resources, how we might access our mining potential, how we 
might deal with transmission lines when you have the very, very 
heavy burden of the Roadless Rule in front of us.
    Now, I have insisted that that Roadless Rule needs to be 
repealed, but short of that, we need to have some flexibility 
here. I appreciated your very public statement when you were in 
the State, acknowledging that you felt that there was 
flexibility that was built into the rule and your willingness 
to really work with us to see how we can move forward in the 
Tongass.
    I've had a lot of folks from the State ask me about how 
we're coming with that. I would ask that if we can have an 
opportunity for a sit-down to discuss this more thoroughly; 
obviously, this is not the appropriate venue. But it is 
something that we've allowed for a period of time to go by. We 
haven't really seen anything from the department. I'd like to 
have a further conversation with you if we can make that 
happen.
    Mr. Tidwell. Yes.
    Senator Murkowski. I would appreciate that.
    Let me ask you, Chief, because you mentioned in your 
testimony the fact that we need to have resources to do the 
work; we certainly understand that. I know that you believe, as 
I do, that it's critical that we get the timber harvest up on 
our national forests. The Chairman has certainly worked 
aggressively in this area.
    You have seen the impacts in the State of Alaska where 
folks are literally hanging on by their fingernails there. So 
how we're able to advance these priorities is significant from 
a policy perspective. But really, to ensure that the folks on 
the ground are being heard, that those jobs that are so key to 
these timber communities are truly there, and jobs that can 
sustain a family in a high-cost area.
    So, you mentioned that funding is important. We acknowledge 
that. But it's also about management priorities. I hear from my 
constituents and from others that this should be a bigger, if 
not a top, priority of the agency--that is, getting the timber 
harvest up.
    Chief, I guess the question to you then is, Wouldn't it be 
helpful to you to have clear direction from the Congress that 
timber harvest is a management priority for the national 
forests? I think that as S. 1966 gives the forest service that 
direction, does that help you?
    Mr. Tidwell. Senator, what would be helpful is to have 
clear direction about the importance of our National Forests 
and restore those forests. Yes, timber harvest is a tool that 
we need to apply in many of those acres, as I've already 
stated.
    But the purpose of it is to be able to restore these 
forests so they will be able to provide the full mix of 
benefits. A big part of that is to be able to sustain 
communities, sustain the economies. So that is where, I think, 
the more that we can focus on the need to do the work, that we 
can continue to build more support.
    Whenever it comes across that we look at the National 
Forests for one purpose--and there's parts of the forest that 
that can be the dominant use. But whenever we start to talk 
about it that way, it's my experience it just creates more 
controversy and more concern about our management.
    Where we have been able to look at large landscapes and be 
able to address all the restoration needs, besides the timber 
harvest, the biomass renewable, but at the same time deal with 
wildlife habitat, fisheries, recreation facilities, when we can 
put that all together under one project, that's when we've had 
tremendous success and we build support and we're able to get 
the work done.
    Senator Murkowski. I have always been a strong advocate of 
multiple use. But sometimes, I feel that, particularly when it 
comes to the Tongass, it's every other use except timber 
harvest. It's everything but. It's kind of like what we're 
seeing when the President says, ``Well, I support an all-of-
the-above energy plan, except for oil and except for coal and 
except for.''
    When we're talking about multiple use, that priority on 
timber harvest has to be, in my view, a priority that is given 
great significance than I think that we're seeing in the 
Tongass. I recognize that not all forests are situated 
similarly.
    Let me ask very quickly, because my time is running here. 
Mr. Ellis, this relates to the O&C Bill. You mentioned this 
checkerboard pattern of O&C land. In section 117, there is a 
requirement there, before exchanging any land the Secretary has 
to determine that it is in the public interest.
    I have had some recent experience with designation by the 
Secretary of public interest as it related to the Isenbeck 
legislation. As my colleagues know, that didn't go very well. I 
don't want this public interest determination language to be a 
precedent, then, for all Congressionally authorized land 
exchanges. I think it's a mistake for Congress to basically 
seed its authority to determine what's in the public interest 
to folks in the administration and agencies that are not 
elected.
    So, I guess what I would like to know, Mr. Ellis, is, 
explain to me how the BLM would determine, under this bill, 
whether or not it is in the public interest to exchange lands 
that the agency has identified for disposal. Do you have a 
process that you have laid out, or thought through the 
criteria? If you can outline for me how that process would 
work.
    Mr. Ellis. Senator, as far as exchanging under this bill, 
I'm not, I guess, familiar enough with the details or 
specifically how it would work for this bill. But I could 
comment, speculate generally on how I've done that in my career 
on finding out the public interests.
    Generally, when we look at a piece of public land, there 
are many values on that public land. As you indicated, there 
are many multiple uses, there are many values that our public 
has. When we dispose of a piece of ground, a piece of land, 
whether it be an exchange or sale, we look in terms of, what is 
in the public interest or what will be gained if we exchange 
that piece of land?
    For example, if we're going to pick up a piece of ground 
that's part of a sensitive riparian area or sensitive species 
habitat, that we feel that that may be in the public interest. 
So, it really, there's not, I guess, a one-size-fits-all for 
this. My experience has been that it does vary.
    Senator Murkowski. That's where, I think, the devil may 
really be in the detail. I think we learned that with the 
Isenbeck legislation, which allowed or gave the Secretary that 
discretion to determine that best interest. Again, it's a very 
subjective process. I think we've looked at it and said, ``If 
this is going to be precedent, it would be helpful to know that 
there is a set of criteria that doesn't allow for such 
discretion, again to an unelected official.''
    So I would caution you in that. I've had a lot of red flags 
go up about it. So I raise it to you.
    Mr. Chairman, my time has expired. I'm sorry.
    The Chairman. Thank you, Senator Murkowski.
    The ever-collegial Senator Heinrich has indicated that 
Senator Udall can go next.
    Senator Udall, please proceed.
    Senator Udall. Thank you, Mr. Chairman.
    Yes, Senator Heinrich is the epitome of collegiality, and I 
thank him for yielding to me.
    Mr. Ellis, good to see you. Chief, great to have you here.
    Before I make a comment and ask a couple of questions, I 
want to make sure we acknowledge that two Coloradans are here, 
Mr. Mike Matz, who is a member of the Pew Charitable Trust 
team. Then Mr. Clint Georg is also here, and he represents the 
Saratoga Forest Products Company. They're both going to have a 
chance to testify later, and they have important things to 
share with the committee.
    The issue of forest health is one that's near and dear to 
my heart because Colorado's forests are critical to our clean 
water supplies, and they provide places where we work, we live, 
we play, we recreate. We've been seeing--and, Chief, you know 
this; Mr. Ellis, you know this--insect outbreaks and 
catastrophic fires that are unprecedented in our recent 
history.
    At the same time as Senator Murkowski just alluded to and 
Senator Wyden, our forest products infrastructure, like our 
sawmills, continue to struggle. I recognize we've made 
substantial efforts to help solve these issues. I'm very 
pleased, for example, that there's a Farm Bill finally on the 
way to the President, and that the forestry title includes many 
provisions that support more on-the-ground work by encouraging 
cooperation and streamlining agency processes.
    Some of these, such as the Good Neighbor Authority, are 
provisions I've worked on for years, and I'm proud to have done 
so with Senator Barrasso, who was here earlier. I'm sure he 
will return because he cares deeply about this as well. I look 
forward to working on more bipartisan initiatives like that 
because more needs to be done.
    I say this not as a Coloradan, but as someone whose home 
has been subject to a wildfire evacuation order. In Colorado, 
the question is not if we will have another mega-fire; it's 
when. In Colorado communities like my hometown of Eldorado 
Springs and major cities like Glenwood Springs, Fort Collins, 
and Colorado Springs are increasingly living under the threat 
of major wildfires.
    So we've got to do everything we can to protect Colorado's 
communities and thousands more across the West. Make no mistake 
about it: Wildfire threatens our water supplies and our very 
way of life in Colorado. I appreciate your listening and your 
attentiveness, because you both understand this. You live it 
every day.
    So, let me turn to the forest products industry. It's a 
critical partner. It's helping us improve the health of our 
forests, Chief, and it provides jobs at the same time, 
particularly in rural Colorado communities like Montrose, 
Kremmling, and Sawatch.
    I'm concerned that there's a substantial gap between the 
acreage that the U.S. Forest Service has provided for 
management and the capacity of the forest products industry. 
Given the conditions of the forests in Colorado, what can you 
do to provide additional acreage?
    Mr. Tidwell. Senator, first of all, thank you for your 
support and your leadership to get the authorities in the Farm 
Bill. Those are going to be very helpful as we move forward.
    There's no question that we need to increase the pace of 
the restoration. I do believe that, through some of the 
improvements in our internal processes that we're making to be 
as efficient as we possibly can are helping.
    We need to be able to do even a better job to look at these 
large areas to be able to do an analysis that looks at the tens 
of thousands to hundreds of thousands of acres at one time, and 
then to be able to use something like stewardship contracting 
so that there is some certainty so that the timber industry, 
they can have some confidence that they can make the 
investments that they need because they know that they've got 
maybe up to 10 years worth of work in front of them that's 
guaranteed.
    I think the more that we can do that, the better we can get 
more work done. There's no question I want to work with the 
committee to find more ways to be more efficient. I think with 
Senator Barrasso's bill, the idea of if we can use a strong 
collaborative process in our focused NEPA, we can reduce the 
number of alternatives that need to be considered. I think 
those are the things we need to continue to work on, be able to 
get more work done.
    Then last, there's just no question. We just have to stop 
this fire transfer.
    Senator Udall. Yes. I'm on that.
    Mr. Tidwell. If at all possible, find ways to add some 
additional resources.
    Senator Udall. Let me move to that, and let me make the 
point as you just did that the forest products industry is 
about providing timber, biomass, and most importantly, forest 
health. Forest products industry will really help us return to 
a time when our forests are healthy.
    I think that's been an epiphany for many. That's certainly 
been--a light went on for many of us that that's really the 
utility of and the importance of the forest products industry. 
They're ready and rearing to go. So I want to work further with 
you on that.
    Let me talk about what you just alluded to. I'm a co-
sponsor of the Wildfire Disaster Funding Act of 2013 with 
Senators Wyden and Crapo. They would allow the Forest Service 
and the Department of the Interior to access emergency funding 
to fight what are becoming expensive modern mega-fires.
    Can you talk about fire borrowing and the forest service 
activities that get cut back year after year because of the 
growing expense of wild land fire fighting?
    Mr. Tidwell. It seems like it's almost every year now that, 
starting in August, we have to stop some of the work that we're 
doing to not only be able to do the work that was planned for 
August and September, but where it has even more impact is 
we're not able to have our staff out doing the prep work for 
the next year's projects.
    So, year after year, this continues to just slow us down, 
not only in the work that we normally would get done in 
probably the best part of the field season, in August and 
September, but then we cannot do the prep work, be out doing 
the surveys or doing the marking during those months for the 
next year's work.
    So it's just been just a chronic problem. That if we could 
change that, I can guarantee that you'll see an increase in our 
level of production, without any question.
    Senator Udall. We've got to turn it around. We truly have 
to turn this around.
    Mr. Tidwell. Yes.
    Senator Udall. Thank you, Chief. Thank you, Mr. Ellis.
    The Chairman. Chief, thank you. There was kind of almost a 
modest Murkowski--Wyden addendum to your comment. Apparently, 
it's 8 out of the last 10 years that we have faced the 
situation you're talking about. That's what we're going to try 
and correct.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you both.
    Chief Tidwell, as you know, the White Mountain Stewardship 
Contract is the first large-scale 10-year contract. It expires 
this year. While there's always room for improvement, the 
contract is considered by many to be a success, an example for 
future contracts.
    In response actually to the contract, we've seen about $130 
million of investment in the area of revitalization of the 
timber industry, desperately needed after a couple of decades 
of neglect, certainly. We hope that the Four Fry Program, the 
Four Forests Initiative, will foster continued restoration.
    But that may take awhile to get going in a big way. We're 
concerned there that we'll lose a lot of the investment that 
has been made. Once you do, as you know, it takes a long time 
to ramp back up.
    It seems to me that Senator Barrasso's bill, which I'm 
happy to cosponsor, would establish a framework for 
establishing forest treatments in the Apache-Sitgreaves 
National Forest, where it's just right next to where I grew up.
    But can you provide me some concrete examples of where the 
forest service intends to make efforts to make sure that we 
don't strand the investment that has already occurred in the 
White Mountains? What can we do to bridge that gap between the 
White Mountains Stewardship Contract and Four Fry?
    Mr. Tidwell. Senator, I'm confident that we're going to be 
able to move forward with Four Fry. We had some of the problems 
with the original contractor, but now we've been able to move 
past that. So that the new company that's in place, I've met 
with them, and I can tell you I'm confident that they are going 
to be moving forward. This would be demonstrated this year by 
the number of task orders that they're going to take on to be 
able to continue to do that work.
    There's no question that we have to be able to demonstrate 
that this is the right way to go forward. The White Mountain 
Stewardship has been the model, and there's just no question of 
the difference it's made on the ground.
    Senator Flake. Yes. You and I have toured some of these 
areas, particularly after the Wallow fire, where, you know, the 
town of Alpine would not be there were it not for the 
stewardship contract and the thinning that has gone and the, 
you know, forest--community interface. But obviously, we've got 
to go deeper, deeper into the forest here.
    As you know, the Farm Bill reauthorized stewardship 
contracting in perpetuity. That's a good thing. That's one of 
the good things about the Farm Bill, among many other good 
things, in my view. But, and it did include some of the 
technical corrections that I've been working on with the forest 
service and BLM.
    But we didn't get done some of the cancellation ceilings, 
ceiling requirements, regulations that would give some more 
flexibility to the forest service in entering into these 
public--private partnerships.
    Can you commit to work with us on that in the areas where 
it's problematic to have these contracts? I know that the 
forest service is concerned with the cancellation ceiling and 
how we deal with it. But can we work together on this issue to 
make sure that we can move forward more quickly?
    Mr. Tidwell. Yes, Senator, I will make that commitment. I 
need to also thank you for your leadership on the stewardship 
contracting. Your amendments, the changes to that, not only is 
it now permanent, but it's better. With the changes, it does 
address some of the concerns that our communities had and some 
of the industry had over that. So it's going to actually be a 
better authority for us as we move forward.
    Senator Flake. I thank you. I thank you for working with us 
on this. I know of your concern personally for the forests in 
Arizona. We hope to be able to move forward quickly. We've lost 
too much already. I appreciate your work on this. Thank you.
    The Chairman. Thank you, Senator Flake.
    Senator Heinrich.
    Senator Heinrich. I want to pick up where Senator Flake 
left off. I want to start just by commending the work that he 
has done on stewardship contracts. Unlike Senator Flake, I have 
some real concerns about S. 1966, but I think the work that he 
has done around stewardship contracts is absolutely critical, 
including in the Farm Bill.
    One of the concerns I have, and I'm very glad to hear that 
you think Four Fry is moving forward, because these forests, 
you know, when you look at the Southwest and you look at a map 
on Google Earth, the Mogollon Rim stretches across both Arizona 
and New Mexico. The forests, the heel in the forest, the 
Apache-Sitgreaves, are right next door to each other. If you're 
hiking from one to the other, you would never notice the 
difference.
    S. 1966 has some strong language bias, in my view, for 
timber contracts rather than stewardship contracts as a 
preferred management tool in our national forests. In my view, 
that's a less than perfect fit for Southwestern forests and for 
forests in New Mexico. I would like to see--well, I believe 
that stewardship contracts are really a much more holistic way 
to manage our forests, particularly in the Southwest, where we 
had a lot of very high-end sustainable cut a number of years 
ago. Now we're struggling more with fire issues.
    Stewardship contracts really help us create contracts that 
make sense, where you can have timber management and timber 
harvest, but you also incentivize the harvest of small fire-
prone trees that have sometimes minimal, sometimes negative 
economic value. But removing them is a way to make the big 
trees grow faster, and it's a way to get ahead of the mega-
fires that we've seen in recent years.
    The other thing that we've seen as a very beneficial 
outcome of these stewardship contracts is that they incentivize 
other multiple uses within the management and restoration of 
those forests. You know, they reinstall culverts. They do 
travel management post-cut, as well as providing some fire 
prevention values.
    So I want to ask you, Chief Tidwell, do you have any 
concerns about the language in S. 1966 relying too exclusively 
on timber contracts to the near exclusion of stewardship 
contracts as the primary tool for managing our national 
forests, and in particular with an eye toward the Southwest, 
where we have dry forests that are different than in other 
regions?
    Mr. Tidwell. Senator, we need both tools. We need 
stewardship contracting. We also need our timber sale 
authority. But we also need the flexibility to be able to 
choose the right tool for the situation.
    Senator Heinrich. Right.
    Mr. Tidwell. There's no question that there's a lot of 
places where stewardship contracting is building more support, 
more trust, because folks can see that we're not only just 
doing the timber harvest, the biomass removal, we also 
accomplish all the other benefits that you mentioned. It gives 
them trust in that the things they're concerned about are also 
going to be addressed versus just doing the timber harvest and 
then, with a hope and a promise maybe from the Forest Service 
that eventually we'll get around to doing the wildlife habitat 
work, the fisheries work.
    So we need to keep both tools, but we need to have the 
flexibility to be able to choose which is the right tool for 
the right job.
    Senator Heinrich. I appreciate hearing you say that, 
because I think that one of the great things about these 
stewardship contracts is they really represent a coordinated 
effort at multiple use. They recognize all the important values 
of the forest, not just one to the exclusion of others.
    I can say, as, you know, someone who in a previous life 
managed 540 acres adjacent to the Cibola National Forest in 
western New Mexico, these areas, depending on their history, 
require very different approaches. The Ponderosa pine forest 
that I managed, and certainly I, you know, personally harvested 
1,000s of very-small-diameter stunted trees that grew up after 
the very heavy harvests 80 years prior, 80 years of fire 
suppression, and the big saleable trees. As you know, in the 
Southwest, sometimes it takes 300 years to produce a 42-inch-
diameter DBH Ponderosa pine--weren't there.
    But it was very important that we were able to go in and 
thin those forests out and getting them to look and function 
like they did previously, before, you know, we lost the big 
trees and before you had the level of fire suppression that we 
have today.
    So having that flexibility to tailor the tool to the area 
and its specific history, I would say, is something that we 
need to make sure you continue to have the flexibility to do.
    Mr. Chair, I'm over my time.
    The Chairman. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Chief Tidwell, first, I really appreciate your oral 
testimony today. Of course, I'm disappointed in the written 
testimony that you were required to give on my bill at the 
direction of the White House. The statement contains very 
limited constructive feedback. It dismisses an important 
opportunity to comment on a potential nationwide effort to 
improve timber production.
    From the language of the first paragraph of the written 
testimony, it's evident that testimony on this bill is 
influenced by the political advisers within the administration. 
You know, just this past week, President Obama's former 
Secretary of Energy said at a Keystone XL Pipeline, ``The 
decision on whether the construction should happen,'' he said, 
``was a political one, not a scientific one.''
    Just like the Keystone XL Pipeline, it looks like forest 
management decisions in the administration are being dictated 
more by political influence than by science. I say that 
because, just like the pipeline, the President's activist base 
is mobilizing and fighting against the good American jobs that 
my bill would create.
    The Washington Post gave the NextGen Climate Action agenda 
4 Pinocchios. They're the folks that take a look at the 
validity of statements. Four Pinocchios for its ad that was 
critical of the pipeline.
    Using similar tactics, the Wilderness Society is concluding 
that my bill would, they say, ``require a massive increase in 
logging and other mechanical treatments across tens of millions 
of acres,'' they say, of national forestland in the West, when 
the fact is my bill covers, as you nodded your head as I was 
reading my earlier statement, 7.5 million over 15 years, not 
tens of millions of acres.
    The political double standard in the written testimony is 
also apparent. The administration opposes my bill, in part 
because it sets a management target in statute. But it's 
supported bills introduced by Democrat members of this 
committee, including S. 37 and S. 1301, which do exactly the 
same thing.
    When testifying on my bill, the administration says it 
wants to invest in current management regimes and not lose 
focus on polarizing legislative agendas. Perhaps the 
administration should consider its support of bills sponsored 
by Democrat members of this committee on the same grounds. Nor 
do I buy the administration's political rhetoric that 
legislative changes would cause the forest service to lose 
focus.
    I want to just go on. In answering Senator Murkowski's 
question, you characterize my bill as making timber production 
the dominant use, I think you said, of forest service lands. 
The 7.5 million acres to be treated over 15 years is like 3.8 
percent of the national forest system--3.8 percent. The 
wilderness system makes up 36 million acres. So wilderness is 
36 million acres, or 19 percent of the national forest service.
    The Roadless Rule covers an additional 60 million acres, 31 
percent of the system. The fact is wilderness and limited-use 
de facto wilderness are the dominant use in today's national 
forest, not timber.
    You also spoke about collaboration. Are you suggesting that 
the forest service isn't going to be allowed to work in areas 
where there are no collaboratives and where stewardship 
contracting are not the proper tool?
    Mr. Tidwell. No. The concerns that I have is I want to make 
sure that we're not doing something there maybe that we don't 
fully understand. Any time when we start to, you know, change 
the processes, for instance through our forest planning 
process, based on the input we get from communities, based on 
input from our scientists, there are times we need to adjust 
the suitable base. We need to, I think, be able to keep that 
flexibility.
    There's nothing in your bill that limits our collaborative 
efforts. I think it's essential that we make sure that the 
public understands that they're still going to, you know, have 
that role.
    I think I've been on record for many years now being able 
to say we need to be able to increase the restoration. There is 
millions of acres that we need to use timber harvest to be able 
to get that accomplished; there's just no question.
    But when we've taken this approach we're looking at, the 
restoration across large landscapes, we are having very good 
success. So, as we move forward with opportunities like your 
bill could provide, some ways to improve our processes, I want 
to make sure that we just don't add any more to the conflict 
that we've had in the past that I feel we're really moving 
past.
    I think your ideas about limiting alternatives, that's 
something we had experience when Healthy Forest Restoration 
Act, and it's worked well. Where we've had strong collaborative 
efforts, we've been able to reduce the number of alternatives 
because there's strong support about the work that needs to get 
done.
    So there are ways to be able to do that. I just want to 
make sure that we do it in a way where the public feels that 
they still have their role to play in the process and that no 
one feels that they're being shorted in any way.
    Senator Barrasso. That's, of course, the concern with what 
I see coming out of the--not you in particular, but the 
administration in the White House is. Is the White House and 
how the forest service sits in its decisions support replacing 
the forest system with State-by-State forest placed bills?
    Mr. Tidwell. There is definitely some need for us to make 
some changes because we've not been able to get the work done. 
We have had a couple of State-by-State bills that have come 
forward. We've had some concerns about our capacity to be able 
to implement those with our current funding.
    But where we have been able to see a strong collaboration 
come together where there is strong support for being able to 
do the work, those are the things that we're interested in. 
Ideally, it would be great to have a national bill that would 
embrace all these key elements. But that being said, if you 
look at the diversity of our forests across this country, 
there's probably going to be a need for some site-specific or 
forest-specific bills at the same time, you know, hopefully 
some opportunities for some national direction that would help 
us to be able to improve our efficiencies.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Risch, you have just arrived.

          STATEMENT OF HON. JAMES RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. Thank you very much, Mr. Chairman, and I 
will be brief. I was--one of the things that I'm a little 
disappointed with in the hearing, ordinarily we talk about what 
a great hearing--and it is. These are important issues that 
need to come up.
    The Chairman. You can still call it a great hearing.
    Senator Risch. I will, for you. By the way, is today your 
last, is today the----
    The Chairman. Kind of.
    Senator Risch. Today's the day, huh?
    In any event, one of the things I wanted to talk about is 
that how the States manage their lands versus how the Federal 
Government manages its lands. I understand that this is not 
something that's just happened; this is something that's grown 
up over decades, really, of the management of lands.
    But as an example, in recent, in fiscal year 2012, the 
Idaho Department of Lands sold 330 million board-feet and 
generated $50 million in revenue. This came from 2.4 million 
acres of State endowment lands. Comparing that with the forest 
service, they don't own 2.4 million; they own 20.4 million 
acres. They sold 79 million board-feet, compared to the 330 
million board-feet that we sold.
    So, what does this tell us? It isn't that our land is 
better than the forest service land. Indeed, this came off of 
land which was randomly selected from the land in Idaho. We 
received two sections of land out of every township on July 4th 
of 1890 when we became a State. Those are essentially our 
school trust lands. There's a few others in there, but it's 
primarily school trust lands.
    But I mean, this isn't a little bit of difference. I mean, 
this is a tremendous amount of difference between the two. Now, 
I don't think we'll ever get to the point where the Federal 
lands are managed the same as the State lands are. But having 
said that, there's a concept that's been talked about around 
here for some time, and that is the trust concept, where indeed 
the States could get some Federal land, some more Federal land.
    As you can see, what we've done in Idaho, we could do 
really, really well if we could get a little bit more land. I 
know there's people that talk about a wholesale takeover of the 
Federal grounds. I think everyone with common sense knows that 
that simply is not going to happen. But having said that, I 
think some modest step toward the State having more say in the 
management of these lands, and the ability to withdraw some of 
those Federal lands in trust so they could do as they're doing 
now with their lands, would be very helpful.
    They could do it without decimating Federal lands or 
decimating what the Federal vision is, which is very different 
than the State vision for Federal lands.
    So, having said that, I was kind of hoping we'd get a panel 
where we could talk about this concept. I understand it's going 
to be controversial as we go down the pike. But perhaps we can 
do this at a future date, and you'll come back as a 
distinguished guest.
    The Chairman. I'm going to be sitting right there.
    Senator Risch. I understand that. But give us the wisdom of 
the many years you've had in this committee.
    The Chairman. Senator Risch, you know how much I value your 
opinion. Especially, we've already talked about the effort you 
and I and Senator Crapo have underway in terms of fighting 
these fires. We really haven't gotten into it.
    But what is just astounding about this debate is we have 
already seen fires in our country in January. The combination 
of fires this early, plus drought, that ought to be a wakeup 
call to everybody for the kind of preventive effort that 
Senator Risch has been talking about. So I'm going to be 
working closely with you on that.
    Senator Risch. Senator, I think that's absolutely right. 
I've often wondered why when we have these disasters and 
everyone wrings their hands at the time, there is no follow-
through.
    The best example I can give is I really thought we were 
headed for some significant reform after the Biscuit Fire that 
was in Oregon. That's probably one of the more significant ones 
that caught the headlines around America. I mean, it was front 
page for some time, and as soon as it was out, we seem to have 
moved on to other things. It's really unfortunate.
    But as you point out, we're starting early already this 
year, and the acres keep growing every year. We're talking 
about it more; that's a good thing. But I think we need to 
really roll up our sleeves and get active in it. I appreciate 
your commitment to that, and I appreciate you working with 
Senator Crapo and I with the serious issues.
    I used to carry around with me the fire starts in the 
United States. Each one was represented by a little tiny red 
dot. The epicenter was right in southwest Idaho, and it went 
out from there. So our State has a real interest in that. Thank 
you, Mr. Chairman.
    The Chairman. All right. I think we saw that when I was 
over with you and Senator Crapo in Boise this summer, this past 
summer, how important this is. We are going to get that bill 
passed this year. We came so close, as you know, in the budget 
discussions, where we had a lot of support on both sides of the 
aisle. We're going to get that done.
    Senator Risch. Senator, can I take just one more second?
    The Chairman. Of course. Of course.
    Senator Risch. I would be remiss if I didn't thank both Mr. 
Ellis and Mr. Tidwell, who have been very active in Idaho in 
supporting the kinds of things that we're doing there. Mr. 
Tidwell, of course, is a native of Idaho. I really appreciate 
working with these two gentlemen. They have been good to work 
with, and I appreciate their service.
    The Chairman. We've having a little bit of a Western 
sparring over who gets to claim Mr. Ellis.
    [Laughter.]
    The Chairman. Because his ranch is in Baker, and he's 
working in Idaho. We appreciate it.
    I'm going to not have any further questions. I do want to 
put into the record, because we've got a lot of bipartisan work 
to do on this, that during the Bush administration, the George 
W. Bush administration, according to documents reviewed by the 
staff, the cut was about 2.2 million board-feet per year. So 
far, in the Obama administration, it is about 2.6 million 
board-feet.
    So, by any calculation, we have got to work together in a 
bipartisan way to get these numbers up. I'll just put that into 
the record, and we will excuse both of you at this time. Thank 
you.
    [Pause.]
    The Chairman. Let's now welcome our next panel. Dr. Jerry 
Franklin with the University of Washington, Mr. Andrew Miller 
with Stimson Lumber, Mr. Mike Matz with the Pew Charitable 
Trust, Mr. Doug Robertson with the Association of O&C Counties, 
Mr. Sean Stevens with Oregon Wild, Mr. Dale Riddle with Seneca 
Sawmill, and Mr. Sid Leiken with Lane County. He is one of the 
commissioners.
    Big thanks to all of you for coming. Under the best of 
circumstances, it is a long trek. Yesterday was not an easy day 
to fly, as I understand it. So I very much appreciate all of 
you coming. You're each a leader in this field, and we are glad 
to have you share your thoughts.
    As I indicated, we'll put your prepared statement into the 
record in its entirety. If you can summarize your oral remarks, 
we'll begin with you, Dr. Franklin. Welcome. And thank you, 
thank you, thank you for all of the hours that you and Norm put 
in to putting our legislation together.

  STATEMENT OF JERRY F. FRANKLIN, SCHOOL OF ENVIRONMENTAL AND 
            FOREST SCIENCE, UNIVERSITY OF WASHINGTON

    Mr. Franklin. Thank you very much for the opportunity to be 
here. I think everybody's probably aware that Dr. K. Norman 
Johnson, Oregon State University, and I have worked together on 
this. We've functioned in a way as science consultants to 
Senator Wyden and the staff of this committee in terms of 
working on this bill, responding to such questions as, you 
know, What do we need to be thinking about when we write this 
bill?, What would be the scientific and management consequences 
of particular alternatives?, and so forth.
    Certainly, they provided us with some definite goals that 
they had in mind for the legislation as they put it together. 
Specifically, for example, how do we provide for protection of 
older forests?
    So, I just want to begin by saying that I find the outcome 
in terms of this bill to be quite extraordinary in the sense of 
being outstanding in terms of incorporating a very strong 
scientific basis and doing so while attempting to do good for 
both the forests and for society.
    I'll take just simply, you know, as the example the 
recognition of the need in policy to distinguish between moist 
forests and dry forests, where on the one hand the dry forests, 
we could call them, what were historically the frequent-fire 
forests, but have not been for sassafras tree. The moist forest 
being typical, the Doug fir, hemlock forests, that don't burn 
except with many centuries, usually, intervals.
    Because of these different ecologies and because of these 
different approaches, it simply was imperative in policy 
development that that be recognized and that they will, in 
fact, require different approaches. I just want to say that 
that was our most important recommendation, and it's profoundly 
embedded in this bill.
    Number of really extraordinary features of this bill. One 
of them is it provides for statutory protection of all older 
forests for the first time. We've never had statutory 
protection for old-growth forests.
    The Chairman. You can repeat that as often as you like, Dr. 
Franklin.
    [Laughter.]
    Mr. Franklin. The Northwest Forest Plan was a wonderful 
thing, but it was developed and has been an administrative 
decision process only. It's never had legislative protection or 
support of any kind. So, this is just really outstanding, and 
in the case of the moist forests, it not only provides for 
protection of all old growth forests and all old growth trees, 
but also most of the mature forests, which is extraordinary.
    In the case of the dry forests, it recognizes that we want 
to protect the old growth trees, but that in fact we may need 
active management in order to help sustain those old growth 
trees. So, and that policy, incidentally, is a permissive one, 
and it doesn't require treatment. It simply allows managers to 
carry forward treatments, while at the same time retaining and 
actually nurturing the old trees.
    The bill adopts a very different approach to forest 
management than we have practiced historically in this country 
on all Federal lands, as well as private lands. That is an 
adoption of ecological forestry as a basis for management. 
Ecological forestry is not a silvicultural prescription. It is, 
in fact, a philosophy and an approach. It contrasts with the 
traditional approach to forestry, which has been use of an 
agronomic model as constrained by the economic.
    It does provide for variable retention harvesting, for 
regeneration harvests in the moist forests, and interestingly, 
not just for wood, but also very much for the ecological 
objective of creating early successional conditions, which in 
fact, in the moist forests, are the most biologically diverse 
stages of forest development.
    Finally, I just want to say that variable retention 
harvesting and ecological forestry are not experimental. 
They're widely practiced throughout the globe. However, we do 
very strongly need to have an adaptive component in the 
activities, and perhaps this might be one area in which the 
bill could be strengthened.
    Finally, I just want to say I really want to reinforce 
Senator Wyden's comments when he initiated this, that perhaps 
the most important thing about this legislation is, for the 
first time, it begins to define a new pathway forward, a third 
path, that kinder and gentler forestry that I first talked 
about at Peter DeFazio's conference back in--what was it?--
1998, something like that. So, thank you.
    [The joint prepared statement of Mr. Franklin and Mr. 
Johnson follow:]

 Prepared Statement of Jerry F. Franklin, School of Environmental and 
Forest Science, Univ. of Wash., and K. Norman Johnson, Dept. of Forest 
               Ecosystems and Society, Oregon State Univ
    I speak today for myself and Dr. Norm Johnson. These comments 
represent our own views and not those of our respective institutions.
    Our testimony today concerns our work with Senator Wyden to 
integrate ecological forestry principles into S.1784 direction for 
management of the BLM O&C lands in Western Oregon.\1\ Specifically, we 
address how utilizing ecological forestry principles in managing these 
lands could provide ecological benefits and a sustained yield of timber 
harvest and revenue.
---------------------------------------------------------------------------
    \1\ The BLM in western Oregon administers a collection of land 
ownerships resulting from various Congressional actions. They include 
the Oregon and California Railroad Lands, Coos Bay Wagon Roads Public 
Domain, and other lands. The legislation addresses the Oregon and 
California Railroad Lands, and Coos Bay Wagon Roads that we will call 
,. ``BLM O&C lands'' in this testimony. They cover approximately two 
million acres of forest in western Oregon, with Moist Forests occupying 
approximately two-thirds of that area and Dry Forests the remainder.
---------------------------------------------------------------------------
            consideration of ecological forestry in s. 1784
Ecological Forestry--A Philosophy of Forest Management
    ``Ecological Forestry'' is an approach to managing forests 
utilizing principles from natural forest development, including the 
role of natural disturbances, in the initiation, development, and 
maintenance of forest stands and landscape mosaics (Seymour and Hunter 
1999, Franklin et al. 2007, Franklin and Johnson 2012). Ecological 
Forestry is based, therefore, on application of our best current 
ecological understanding of forest ecosystems in managing these 
ecosystems to achieve integrated environmental, economic, and cultural 
outcomes.\2\ S.1784 embraces this philosophy of forest management, 
incorporating the latest ecological science in the process, as we 
describe below.
---------------------------------------------------------------------------
    \2\ For a more in-depth description of ecological forestry see 
Franklin and Johnson (2012) at http://fes.forestry.oregonstate.edu/
sites/fes.forestry.oregonstate.edu/files/PDFs/
JOF%20Article%20with%20Case%20Studies_2.pdf and previous testimony by 
Franklin and Johnson on the O&C lands at http://
fes.forestry.oregonstate.edu/sites/fes.forestry.oregonstate.edu/files/
PDFs/Johnson_June%202013.pdf
---------------------------------------------------------------------------
Recognition of Moist Forests and Dry Forests
    A distinction between Moist and Dry Forests is essential in setting 
policies for O&C lands because of their contrasting disturbance regimes 
and responses to management. This distinction is especially critical in 
developing policies and practices intended to protect old-growth 
forests and trees. S.1784 recognizes this critical distinction between 
Moist and Dry Forests within the range of the Northern Spotted Owl and 
provides distinctive policy direction for each throughout its forest 
management stipulations.
    Conservation of old forests and trees requires fundamentally 
different management approaches on Dry and Moist Forest sites because 
of contrasts in their disturbance regimes and the impacts of past 
management on current forest conditions. For example, existing intact 
old-growth forests on Moist Forest sites have undergone limited changes 
as a result of >100 years of fire suppression; active management to 
restore conditions within such stands is not only unnecessary but would 
adversely affect them. Setting aside existing older Moist Forests is, 
therefore, an appropriate conservation approach.
    Dry Forest sites, on the other hand, have undergone dramatic 
changes from European pre-settlement conditions as a result of many 
human activities, including elimination of fire. Consequently, Dry 
Forests have undergone significant changes and many are currently 
dense, fuel-loaded stands dominated by fire-and drought-intolerant 
species. These forests and the old trees that they contain are, 
consequently, at significant risk of stand-replacement wildfire as well 
as highly susceptible to drought and insect attack. Hence, policies 
need to permit active management of such forests (including those with 
older trees) to create more resilient conditions.
    S. 1784 recognizes this need to provide for different policies for 
Moist and Dry Forests while providing the first statutory protection 
for old forests and trees on federal forest lands. All old-growth and 
the vast majority of mature forests are reserved on Moist Forest sites 
as well as all older trees that are present in younger forests subject 
to timber harvest. All older trees are reserved in Dry Forests but 
active management is permitted around them to improve their longevity. 
Active management of Dry Forests is also permitted (but not required) 
to improve the ability of Dry Forests to tolerate fire, drought, and 
insect epidemics, which is also an initial step in improving their 
ability to accommodate climate change.
Ecological forestry in Moist Forests
    In addition to conserving older forests, S.1784 includes two other 
key components of ecological forestry for Moist Forests: 1) thinning in 
some younger forests to accelerate structural development and 2) 
creating structurally-rich openings in some younger, mostly previously-
harvested stands to create early successional conditions and regenerate 
Douglas-fir and other tree species.
    Thinnings in younger stands in Moist Forests, mostly plantations 
that developed after previous harvests, have been the source of most 
recent timber harvests from O&C lands. Under S.1784, thinning these 
stands can continue to occur across the landscape and they would be an 
important source of harvest volume over the next 20 years. 
Unfortunately much of the thinning during the past two decades has 
contributed little to enhancement of ecological values even on land 
allocations where that was the primary intent under the Northwest 
Forest Plan. Language in S.1784 will dramatically improve the quality 
of future thinning by requiring the use of recent scientific findings 
to improve the ecological content of thinning, such as creation of 
spatially heterogeneous outcomes.
    Thinning opportunities will substantially decline after 15-20 
years, as the program progresses through younger stands, with a 
resulting sharp reduction in thinning harvests (Tuchman and Davis 
2013). Additional problems with the thinning program is that it 
produces only modest revenue, requires extensive road systems, and 
contributes little to the array of habitats needed to sustain regional 
forest biodiversity.
    Silvicultural treatments that create significant but structurally 
enriched openings in the Moist Forests are necessary to provide high-
quality early successional habitat. The early successional stage, which 
occurs between creation of an opening and re-establishment of a closed 
stand of trees, is the most biologically diverse condition that occurs 
on Moist Forest sites. There are many habitat specialists (e.g., birds 
and butterflies) that depend on early successional habitats and even 
more species, such as elk and deer, for which it provides critical 
resources. Openings need to be large and persistent enough to allow for 
full development of the shrub-and herb-dominated communities and 
regeneration of the sun-loving Douglas-fir. Both natural and artificial 
tree regeneration can be used. The openings also need a significant 
legacy of scattered trees, snags, and logs (Figure 1).* Private 
landowners cannot be expected to provide this kind of habitat and so 
the only place where society can predictably provide for high-quality 
early successional habitat is on federal lands--just as in the case of 
old-growth forests!
---------------------------------------------------------------------------
    * Figure has been retained in committee files.
---------------------------------------------------------------------------
    To contribute to the goal of providing structurally-rich openings, 
S.1784 calls for variable retention harvesting, a highly flexible 
harvesting approach modeled on natural forest disturbances. Extensive 
ecological research has shown that natural forest disturbances 
typically kill many trees but leave behind large quantities and 
varieties of biological legacies from the pre-disturbance stand, 
including snags and logs. These legacies are profoundly important in 
providing for continuity in biota, habitat, and forest function between 
forest generations in contrast to the discontinuity created by 
clearcutting.
    Variable retention is a harvesting method that emerged over 35 
years ago and has exploded into world-wide use in the last 25 years. It 
has been extensively tested and shown to produce ecologically favorable 
outcomes (Lindenmayer, et al. 2012; Gustafsson, et al. 2012). Variable 
retention is a highly flexible approach that can be adapted to an 
immense variety of conditions and management objectives.
    We favor the use of ``aggregated retention'' in which most of the 
retention is in the form of intact forest patches, including areas that 
buffer streams and other aquatic features. This type of retention works 
best in achieving the very complex goal of both sustaining most forest-
related biota and processes (within the aggregates) while also 
providing sufficient openings to provide habitat for species dependent 
upon openings, including elk, deer, and Douglas-fir.
    These structurally rich openings are not clearcuts.\3\ Labeling 
such structurally-rich openings as ``clearcuts'' flies in the face of 
scientific terminology and concepts (Lindenmayer, et al 2012; 
Gustafsson, et al. 2012). In fact, variable retention as proposed in 
S.1784 can achieve the complex goal of both sustaining most forest-
related biota and processes while also providing sufficient openings to 
provide habitat for most species that depend upon early successional 
conditions, including song birds, butterflies, and elk and deer.
---------------------------------------------------------------------------
    \3\ For a visual comparison of clearcutting and variable retention 
harvest, see http://fes.forestry.oregonstate.edu/sites/
fes.forestry.oregonstate.edu/files/PDFs/Smith_combined.pdf
---------------------------------------------------------------------------
    In addition, variable retention harvests in Moist Forests as 
described here can provide a sustained-yield of timber harvest through 
time. In fact, they provide the foundation of sustained yield in 
S.1784. Without them, any significant sustained yield from the O&C 
lands is not possible.
    Despite the evidence we have presented on the broad scientific 
basis for variable retention harvests some may still see them as risky 
or experimental. Thus, it is important to estimate the extent of these 
harvests. Under S.1784, variable retention harvests for a decade are 
limited to 8-12% of Moist Forest allocated to sustained yield 
management. Given the proportion of the O&C lands in these areas, we 
estimate that implementation of S.1784 would result in variable 
retention harvest being applied to approximately two percent of the O&C 
lands in the first decade.
    The landbase available for variable retention harvest includes some 
stands 80 to 120 years old. By our estimates, these stands make up less 
than 10 percent of the landbase; over 90 percent of the landbase for 
variable retention harvest comes from stands that developed after a 
previous harvest.
Ecological forestry in Dry Forests
    The general management approach to Dry Forest landscapes under 
S.1784 primarily utilizes partial cutting to reduce risks from fire, 
drought, and insects in the majority of forest stands, while retaining 
approximately one-third of the forest landscape in large dense forest 
patches to provide habitat for dense-forest dependent species, like 
Northern Spotted Owls. Silvicultural prescriptions in the treated 
stands are focused on retaining and enhancing the survival of all older 
trees (by eliminating neighboring competitors and fuels) and, in the 
remainder of the stand, reducing tree density, increasing average tree 
size, and shifting composition to more fire-and drought-tolerant 
species, such as pines.
Protection of aquatic systems
    S. 1784 uses scientifically-credible methodologies to design 
riparian buffers, while still achieving the aquatic ecosystem goals of 
the Aquatic Conservation Strategy (ACS) of the Northwest Forest Plan 
and other ecological goals for these those forests. This design of 
riparian buffers is embedded in the continuance of the other components 
of the ACS, including recognition of key watersheds and requirements 
for watershed analysis.
    Interim buffers (aka Riparian Reserves) of two-site potential tree 
heights on fish-bearing streams and one-site potential tree height on 
non-fish bearing streams occupy almost 40% percent of Matrix under the 
Northwest Forest Plan (NWFP). These interim buffers were identified as 
part of the NWFP in 1994, with the expectation that subsequently they 
would be revised during implementation of the NWFP. With rare 
exception, the interim buffers have not been revised (Thomas et al. 
2007).
    Recently developed science and analytic tools have opened the way 
to possible refinement of those buffer sizes. Applying these tools and 
science to streams in BLM Matrix, Reeves et al. (2013) concluded that 
alternatives exist to the current implementation of the ACS that 
reshape and reduce the buffer area needed to meet the goals of the ACS. 
One alternative has fixed widths and one has variable widths based on 
stream segment features. Both alternatives utilize ``tree tipping'' to 
ensure that thinning within buffers does not negatively affect wood 
delivery to the stream.\4\ In both approaches most of the NWFP riparian 
buffer will be retained, placed where it will make the most significant 
contribution to aquatic ecosystem protection. Also, both options limit 
harvest to younger stands (stands generally less than or equal to 80 
years of age). S.1784 allows the use of both alternatives, with 
scientific review guiding the development of variable width buffers.
---------------------------------------------------------------------------
    \4\ See Reeves, et al. (2013) for detail on the analysis and 
alternatives beyond that covered here.
---------------------------------------------------------------------------
Taking a landscape approach
    Both Dry and Moist Forest strategies require landscape level 
planning and implementation to be successful in achieving their 
ecological and economic objectives. S.1784 recognizes this need by 
calling for landscape assessments and plans for both Moist Forests and 
Dry Forests that will guide the actions for each decade.
    In Dry Forest landscapes a comprehensive assessment is needed to 
identify the locations of the denser forest patches for Northern 
Spotted Owls and other species before restoration treatments are 
implemented. One way to accomplish this quickly could be by creating an 
inter-agency, inter-disciplinary team of forest and wildlife scientists 
and managers, including participants from the US Fish and Wildlife 
Service, and providing them with resources and an appropriate time line 
for completion.
    In Moist Forest landscapes, a comprehensive assessment is needed to 
identify the potential locations for variable retention harvest and 
thinning activities that would meet the goals of the legislation, 
including support of the Northern Spotted Owl recovery plan. This 
important and challenging work could best be accomplished over a 
relatively short time period by an inter-agency, inter-disciplinary 
team of forest and wildlife scientists and managers, including the 
important contributions from the US Fish and Wildlife Service and NOAA 
Fisheries.
A first estimate of resulting harvest levels
    Last fall, Dr. Johnson worked with the BLM to estimate the harvest 
levels that would result from full application of S.1784 to the BLM O&C 
lands. This work included recognition of the many land allocations and 
management strategies recognized in S.1784--a daunting task!\5\ He 
could not have made these estimates without the sustained and creative 
support of BLM professionals for which he is very thankful.
---------------------------------------------------------------------------
    \5\ The language on roads in S.1784 is difficult to understand in 
some places. This work assumes that any of these difficulties will be 
smoothed, allowing harvest to occur where it has been designated in the 
legislation.
---------------------------------------------------------------------------
    Under full implementation of S.1784, Dr. Johnson concluded that 
harvest on BLM forests in western Oregon could equal or exceed 300 
million board feet per year for the next 20 years. That harvest would 
come from a mixture of variable retention harvests and thinning on 
Moist Forests and partial cutting on Dry Forests, with Moist Forests 
providing over three-quarters of the total harvest.
    The ecological forestry strategies embedded in S.1784 will enable a 
sustainable harvest into the distant future. However, Dr. Johnson did 
not attempt detailed estimates of that level beyond the first 20 years.
Embracing adaptive management
    Ecological forestry provides a broad conceptual basis for adaptive 
management based on principles derived from natural forest ecosystems. 
Ecological forestry is most certainly not a specific silvicultural 
system or prescription but, rather, a commitment to manage using our 
best current knowledge about forest ecosystems and how they work. 
Insuring that there is the opportunity to practices to evolve as new 
knowledge becomes available must be an essential part of any program.
    Strong commitments to an adaptive management approach are important 
in moving away from stasis and into the kind of complex, integrated 
management proposed in S.1784. The legislation contains five-year 
reviews by regulatory agencies and 10-year reviews by scientists and 
managers but does not include a commitment to an adaptive management 
approach within which these reviews can be utilized. The strategy and 
tactics of adaptive management can and should be added to the 
legislation. That would include both provisions for monitoring and the 
ability to modify prescriptions for management based on the results of 
the monitoring results and periodic reviews. It would also make 
explicit that silvicultural approaches would evolve as our 
understanding of these forest ecosystems, their responses to 
ecologically-based management, and effects of environmental changes 
become apparent. One major focal point for scientific research should 
be an expanded understanding of early successional ecosystems and their 
role in sustaining regional biological diversity. The portion of the 
O&C lands co-managed by the Secretary and Oregon State University as 
special management and research areas under the legislation could 
provide a focal point for this research and monitoring.
                          personal reflections
    Collectively, we have been at work as foresters for over 100 years. 
Much of that time has been focused on charting the course for our 
federal forests that would better incorporate and sustain the multiple 
values that we all have for them. We took on this work to explore 
management options for federal lands, in part because we sensed a 
general perception in society and among decision makers that there are 
only two alternatives for management of federal forests--either 
clearcuts and even-aged management or preserves, perhaps after an 
initial period of thinning remaining plantations. In fact, there are 
many alternatives to these two extremes, although there are places 
where each has application.
    S. 1784 utilizes ecological forestry to develop and present a 
``third path'' for management of federal lands--one firmly based on 
science and directed toward achieving integrated environmental, 
economic, and cultural goals. We are pleased to have contributed to its 
development.

    The Chairman. Dr. Franklin, thank you. We would not be at 
this point without the wonderful work you and Norm Johnson did. 
We thank you very, very much.
    Mr. Miller, you had delays yesterday in the friendly skies, 
and so appreciate your coming and your expertise.

   STATEMENT OF ANDREW MILLER, PRESIDENT/CEO, STIMSON LUMBER 
                     COMPANY, PORTLAND, OR

    Mr. Miller. Thank you, Senator. I appreciate the 
opportunity to address you and your committee.
    I really want to thank you for taking the bold step to put 
this in play and to commit with your colleagues, 
Representatives DeFazio, Walden, and other members of your 
committee, to reach a resolution now. I think you know as well 
as any of us living in Oregon that time really is running out 
for these rural communities, and I applaud your willingness to 
step into the fray and find a solution that, albeit nobody will 
be happy with, but I think that's the essence of good policy in 
a bipartisan world, where everybody has to come to the middle 
and find a solution which is really best for the people of 
Oregon and, particularly, southern rural Oregon.
    I've been in this industry for 30-plus years, and I've 
watched the comings and goings of markets and policies. Change 
is just the nature of our industry, but it's time to just come 
together here. My business is not directly affected by this 
legislation. My business is principally located in northwest 
Oregon and north Idaho. But grown up and raised in Oregon, and 
I can see what goes on in these rural communities. That's where 
I have lived; that's where I conduct my business.
    The folks in rural Oregon deserve the opportunity to go 
back to work. The Federal Government is their landlord, and 
it's been 20-plus years where these issues have been debated 
and studied. Governor Kitzhaber, you know, did a remarkable job 
of bringing the parties together for yet another time, and his 
O&C Commission.
    So, we know that the bookends of these issues and your bill 
is an appropriate place to begin the process to finally come to 
the middle and do what we need to do for Oregonians. Thank you.
    [The prepared statement of Mr. Miller follows:]

  Prepared Statement of Andrew Miller, President/CEO, Stimson Lumber 
                         Company, Portland, OR
    Good morning, Chairman Wyden, Ranking Member Murkowski, members of 
the Committee. For the record by name is Andrew Miller, President and 
CEO of Stimson Lumber Company family-owned company based in Portland, 
Oregon.
    Thank you for the opportunity to appear before the Committee to 
discuss Senator Wyden's S. 1784.
    The issues being addressed by S. 1784 are complex and have long 
defied resolution to the satisfaction of Oregon's rural communities 
which are dying away due to inaction, although the nearly two decade 
long debate about management of Oregon and California Grant Lands (O&C 
lands), is meeting the environmental organizations' goal of ending 
active management on these lands.
    We are have arrived at the point where two more decades of debate, 
or even two more years, are not an option for many families, 
businesses, and communities in Oregon. They do not have that long to 
live. Several Southern Oregon Counties are bordering on lawlessness due 
to lack of resources to support basic public safety services. Congress 
bears responsibility for this dire situation because the Federal 
government owns approximately 70% of the land in these Counties and 
thus determines the economic and social well-being of these 
communities.
    Before continuing I would like to take a moment to acknowledge and 
thank Senators Wyden, Stabenow, Crapo, Risch, their colleagues is the 
House, Representatives Walden, Schrader, Herrera, and others for their 
courageous leadership in seeing that vital private forest roads 
legislation was included in the just passed Farm Bill.
    I use the word ``courageous'' because that is what will be required 
to pass O&C legislation which actually works on the ground to bring 
stability, certainty, and sustainability to Oregon's rural communities. 
The complex web of laws governing management of O&C lands have offered 
a treasure trove of opportunity by opponents of active, sustainable 
management to use the Federal Courts to systematically block actions 
long promised by the Northwest Forest Plan to successfully grind the 
harvest level down to virtually nothing today.
    It took courage to see that the forest roads legislation made it 
into the Farm Bill, as there was strong opposition to it from 
environmentalists who wanted to continue to use litigation under the 
Clean Water Act to impose new permitting requirements for forest roads 
on private lands.
    I applaud Senator Wyden for his willingness to step into the 
circular firing squad which O&C lands have become, to propose, and I 
hope to guide through the Senate, legislation which can be joined with 
O&C land legislation already passed in the House, to deliver a solution 
which restores hope and opportunity to many Oregonians.
    Stimson Lumber is a seven generation family operated company, of 
which I am a member, which was founded in Michigan in the 1850's and 
began operating in Oregon in the early 1890's when timberlands were 
acquired in Northwest Oregon. A mill was built near Forest Grove, 
Oregon on the eve of the Depression. Six mills have occupied this site 
over the decades reflecting adaptations to changes in timber and wood 
products markets, timber type, the impacts of the great Tillamook Burn 
fires, technology innovations, environmental regulations, and Federal 
Forest management policies.
    I have been working in various forestland and mill operations 
management positions at Stimson and other companies for 32 years.
    Stimson today operates seven mills in Northwest Oregon and North 
Idaho employing 750 people. Stimson owns and manages 175,000 acres in 
Oregon and 338,000 acres in Panhandle region of Idaho.
    We at Stimson are tree farmers who grow a 40-60 year crop. We plan 
for and make investments with a two generation mind-set. Stimson's 
employees have a deeply held regard and reverence for the forest and 
all it provides. They live in and about the forest. It is their home.
    There have been tens of thousands, probably hundreds of thousands 
written pages of study, testimony, and analysis of the issues involved 
in active management of the O&C lands. Here today are individuals with 
more experience and knowledge who can speak to legal, forestry, County 
impact aspects of S. 1784. Oregon Governor Kitzhaber's O&C Task Force 
brought together experts and diverse interests in 2012 to once again 
plow the ground of O&C lands. They produced a comprehensive report 
detailing the book ends of the issues.
    This is now simply a political issues. All the facts are out on the 
table for all to see. There is no reason for further study. It is time 
for action. Rural Oregonians deserve transparent and honest leadership 
from the men and women in this Chamber who hold their fate in their 
hands.
    I spent years as a dirt forester.
    While I may not have the pedigree in forest sciences of others in 
this room, or who have contributed to various O&C studies, I have spent 
enough years walking around in the forest to know that there is a 
potentially large gap between legislative language and results in the 
woods.
    I also have spent years tangling in court and in state houses with 
opponents of timber harvest and public and private lands. Their goal of 
zero harvest and tactics of using complex Federal and State laws 
achieve their goal through the Courts is clear. It has been for 
decades.
    Your leadership will be measured not by what is written in 
legislation, but what concrete actions transpire from your legislation 
in the forest to improve conditions for the communities of rural 
Oregon, and the lives of the people who live there.
    S. 1784 leaves important questions to be answered. Is the projected 
annual harvest of 300-350 million board feet sustainable? The bill 
designates one million acres of O&C lands for permanent conservation. 
The counterbalance is that this harvest level also be sustained 
indefinitely.
    Language around the ten-year project Environmental Impact Statement 
(EIS) is vague from the standpoint of implementation and truly 
streamlining the legal process which has been so artfully used by 
opponents of O&C timber harvest to stop, or delay current timber sales.
    There are experts in these matters who need to be part of the 
legislation drafting process to insure that whatever legislation passes 
actually works for Oregonians, and is not just another kick in the gut 
to people already doubled over by current Federal practices.
    I have concerns, as do many private forestland owners in Oregon, 
that conservation measures contained in S. 1748, especially those 
dealing with aquatic resources, which exceed those in place under the 
Oregon Forest Practices Act governing conservation practices on private 
forestlands, could result in the ``Federalization'' of private forest 
practices regulations in Oregon. I ask that S. 1784 make clear that 
conservation measures to be applied to O&C lands are unique to those 
lands, and in no way are intended to impinge on State regulations, or 
rulemaking processes governing private forestlands.
    In closing I would like to again thank Senator Wyden for stepping 
into fray on this very contentious, yet vital issue, to many rural 
Oregonians.
    Few are entirely happy with S. 1784. This is a process. We all know 
it. We simply have to persevere. The perfect cannot be the undoing of 
the good. The pieces of a good, but not perfect solution, to provide 
sustainability, certainty, opportunity, and hope for rural Oregonians 
are right in front of us. From industry side I believe there is solid 
support for a final bill which reflects elements of S. 1784 and the 
House passed O&C bill. The question is whether the environmental 
opposition side really wants a solution, or simply wants to continue 
the political debate and legal joisting to run out the clock on rural 
Oregon.
    Thank you.

    The Chairman. Thank you. What's striking about this is that 
we won a major victory in the Farm Bill. That dealt with the 
private lands. As you know, that was so important because we 
would have seen a lot of our private landowners subjected to 
every manner of litigation, had we not cleared that up. So 
we've got one down. Now we have two others that I think we can 
get done in this session, the O&C Bill and the fire prevention 
effort that Senators Crapo and Risch and I have been talking 
about.
    It's just going to take the kind of stakeholders that are 
here today. The fact that on short notice you'd fly across the 
country to weigh in from private forestry is very, very 
helpful.
    Mr. Miller. I would like to thank you and your colleagues 
for the tremendous lift on the forest roads legislation in the 
Farm Bill. I know a lot of work went into that, and there were 
a lot of folks on the other side of the issue that did not want 
to see that in the final bill. That's the kind of thing that we 
need. I mean, that type of stability and certainty is what 
gives private industry the confidence to hire, to invest, to 
plan.
    You know, we're in a business where we plan 40, 50, 60 
years in the future in our investments. When Government policy 
is coming and going, and when very, very smart and well-funded 
folks use our legal system--and many of these folks don't live 
in these communities; they live in swanky places, and they fund 
activities that derail life for people in our rural 
communities--I think that's just intolerable.
    I thank you for bringing a certainty around some of the 
really critical issue on forest roads. I believe you and your 
colleagues will be able to do the same with the O&C 
legislation.
    The Chairman. I have plenty of questions for this panel, 
but I know my colleague has got to get out the door very 
quickly. I have had a tradition, and especially if this is the 
last hearing, I don't want to break it. Would you like to say 
anything at this point, there for a last word for you?
    Senator Murkowski. Mr. Chairman, just a thank-you, too, to 
the panelists. I think the perspective that they have to share 
today is important. As has been noted, this is not easy stuff. 
What you have been able to advance today has certainly moved 
the conversation forward in a way that is important, not only 
to the residents of your State, but really as we're talking 
about forestry management in general around the country.
    So, just a thank you to each of you. See you down the road, 
my friend.
    The Chairman. Count on it. Count on it.
    I think it's also worth noting, apropos of Senator 
Murkowski's point that, even when you pass legislation, the 
conversations continue. As Mr. Miller and environmental folks 
and I have talked about, we're going to have plenty of 
discussions with respect to, you know, private lands in our 
State and bringing together forest products folks and 
environmentalists and scientists and others.
    But now, Oregonians have a chance to make judgments about 
those issues, rather than having them dictated by courts from 
afar. So the point's well taken, Mr. Miller.
    So, Mr. Matz, welcome.

 STATEMENT OF MIKE MATZ, DIRECTOR, U.S. PUBLIC LANDS, THE PEW 
                       CHARITABLE TRUSTS

    Mr. Matz. Good morning, Mr. Chairman. So, yes, my name is 
Mike Matz. I'm Director of U.S. Public Lands at the Pew 
Charitable Trusts. It's an honor to appear before you in what 
may be your last hearing in that particular seat. We appreciate 
the opportunity to share views.
    The Chairman. It's starting to sound a little funereal.
    [Laughter.]
    Mr. Matz. The good thing is that you're just moving over 
one.
    The Chairman. I have 3 children 6 or under. I don't want 
them to hear about all this.
    [Laughter.]
    Mr. Matz. Finding a balance between land production and 
resource development is not an easy task, as Senator Murkowski 
just mentioned. There's oftentimes a tendency to revert to 
entrenched roles with some who want no development and others 
who want no protection.
    We strive to work together to find reasonable resolutions 
to these conflicts. It doesn't mean everybody gets everything 
they want. But each side can get much of what's important to 
them. It can result in a win/win situation. Mr. Chairman, we 
believe you're well along the path toward achieving that kind 
of balance.
    So, to begin my specific remarks on the bill, I'd like to 
start with what we see as the clear benefits. One of the most 
important is the recognition of the need to protect water 
quality. More than 1.8 million local residents get their 
drinking water from watersheds in the O&C lands.
    With the establishment of the Ford drinking water, special 
management units, and nearly 165 miles of Wild and Scenic 
Rivers, and by legislating the Northwest Forest Plan's key 
watersheds and riparian reserves in its aquatic conservation 
strategy, the bill protects drinking water and saves wild 
salmon and steelhead habitat. The commendable attention paid to 
water quality is one of the bill's signature features.
    The land designations included in the bill are also quite 
impressive. The bill safeguards parts of this majestic 
landscape for future generations with two new wilderness areas, 
the Devil's Staircase and the Wild Rogue, and two new national 
recreational areas. The special environmental zones and the 
Illinois Valley botanical and salmon special unit are examples 
of the care given to the little biological gems.
    These enhancements, and the management prescriptions for 
the ancient forests that grace this part of the country, 
account for about 1 million acres on the conservation side of 
the ledger.
    One other aspect of this bill we think highly beneficial is 
the assistance it provides to O&C counties. It's not a panacea, 
and local political leaders will still need to address fiscal 
issues and find other sources of revenue. But doubling timber 
harvests, as BLM modeling projects, in the ecologically 
sensitive manner called for in the bill, and providing a steady 
stream of revenue, does help these counties stave off draconian 
cuts in services that affect everything from law enforcement to 
libraries. It will also sustain and create resource-dependent 
jobs for the people who live there.
    In the end, creating opportunity for local residents of 
southwestern Oregon and improving the quality of their lives is 
important to us, just as protecting water quality and 
conserving forests are.
    I would like to mention a couple of provisions that we 
think should be improved as the bill moves forward. We 
understand that crafting legislation as complex as this is a 
fluid process and that you haven't finished fine-tuning it.
    The first area we believe needs to be improved is the way 
the bill relates to the Endangered Species Act, bedrock 
environmental law enacted 40 years ago this year. Changes to 
ESA requirements and procedures aren't necessary to achieve the 
goals on the timber production side of the ledger. We 
appreciate your stated intent that you don't want to undermine 
compliance with ESA or its regulations. We believe minor edits 
would address our concerns and align the legislation with your 
intent.
    The second issue involves the National Environmental Policy 
Act. We understand the desire to provide stability to 
communities and their finances, and certainty to industry in 
business decisions, so their business decisions can be planned 
and implemented. We support those goals.
    By requiring more environmental analysis up front, as well 
as increasing timelines for objections to be heard, the bill 
can achieve more certainty and stability, and more 
participation on the part of the public, whose lands these are.
    So last, Mr. Chairman, we would like to see some additional 
wilderness protections included in the bill for the backcountry 
of the Kalmiopsis, the North Umpqua River, Mt. Hebo, and a few 
other places. They have important fish and wildlife habitat and 
recreational values, and designating them as wilderness 
wouldn't detract from the available timber supply.
    Mr. Chairman, it's been a real pleasure and a privilege to 
work with you on this issue, you and your staff. We look 
forward to continuing that work together when you move over to 
that next seat. Thank you.
    [The prepared statement of Mr. Matz follows:]

 Prepared Statement of Mike Matz, Director, U.S. Public Lands, The Pew 
                           Charitable Trusts
    I wish to thank you, Chairman Wyden, Senator Murkowski and members 
of the Committee for the opportunity to testify today regarding the 
Oregon and California Land Grant Act of 2013. Chairman Wyden, we 
appreciate your leadership on this important issue for the State of 
Oregon.
    My name is Mike Matz and I am the Director of U.S. Public Lands at 
The Pew Charitable Trusts. Our U.S. public lands work is focused on 
achieving lasting protection for threatened wild lands. We proactively 
work to preserve some of the nation's last, best wild places in three 
ways:

          1. Secure new legislatively protected designations for 
        special areas on federal public lands across the country as a 
        part of the National Wilderness Preservation System;
          2. Secure legislative or administrative protection for other 
        ecologically important areas as national monuments, national 
        conservation areas or national recreation areas; and
          3. Secure enhanced protection for critical ecological gems on 
        Bureau of Land Management holdings through administrative 
        procedures.

    To conduct this work we partner with local wilderness organizations 
across the country to provide expertise in campaign planning and 
implementation. We are currently working with over 20 local groups in 
12 states on 24 separate wilderness bills that are before Congress.
    We engage in campaigns where we believe our expertise and efforts 
can help bring about balanced protections for the lands for which we 
care deeply, and needed stability for the local communities whose 
residents often depend on the natural resources around them for their 
livelihoods. We don't shy away from complex, or ``tricky,'' issues. We 
have found that by talking these matters through with stakeholders, 
asking questions, and throwing out ideas, you can often find solutions 
where it was assumed none existed. We've discovered that one can 
simultaneously protect many thousands of acres of ecologically 
important wild lands while providing some economic stability for local 
communities and certainty for resource-based businesses.
    It was with this balanced approach that we engaged in the Oregon 
and California Lands issue over a year ago. We are working with 
conservation partners--both local and national--as well as local 
business owners to ensure that any agreed-upon solution is balanced, 
protects water resources and sensitive old-growth habitat in western 
Oregon, and promotes the regional economy.
                          o&c lands background
    Nestled throughout western Oregon are 2.8 million acres of federal 
lands--commonly referred to as O&C lands--rich with biodiversity and 
fraught with management challenges. These lands are some of the most 
unique landscapes in the world, harboring many distinct plant 
communities--temperate rain forests, ancient conifer forests, oak 
forests, and savannas--which include more than 300 plant species found 
nowhere else on Earth and which provide a home to a variety of 
endangered species, including wild salmon, steelhead, spotted owls, and 
marbled murrelets. At the same time, the ancient trees that once graced 
these lands were the economic backbone of many rural communities, and 
as such, for decades these lands have fallen into the all-too-familiar 
debate between species protection and timber production.
    In 1866, Congress established a land-grant program to the Oregon & 
California (O&C) Railroad Company for the completion of the rail line 
between Portland and San Francisco. The grant required the company to 
sell the deeded land to settlers to promote economic prosperity. Forty 
years later, when the company failed to fully meet the terms of the 
agreement, the federal government reclaimed the remaining unsold lands. 
The lands are currently managed under the 1937 Oregon and California 
Revested Lands Sustained Yield Management Act (O&C Act of 1937) that 
reclaimed these mostly forested lands. As such, these lands are unique 
in the country--their management structure is based on a combination of 
the O&C Act of 1937 and the Northwest Forest Plan.
    Prior to the development of the Northwest Forest Plan (NWFP) in 
1994, timber production from O&C lands annually generated large amounts 
of revenues for the so-called O&C counties. Counties became dependent 
upon this revenue source and when it became clear that application of 
the NWFP would result in significantly less timber revenues for these 
counties, a short-term legislative ``fix'' was crafted as a 
transitional funding source to ease the financial pain to counties as 
they adjusted local tax policy and made other economic changes. Most 
counties did not make the necessary budget changes, hoping instead for 
further timber revenues, and Oregon's tax structure made certain tax 
changes more difficult for these counties. As a result, many O&C 
counties have found themselves in financial trouble, with some likely 
to go insolvent in the next year if additional funding is not secured.
    Through the late 1980s, during the height of logging in the Pacific 
Northwest, intensive cutting liquidated many vulnerable and 
ecologically valuable stands of old-growth habitat on O&C lands. Yet 
despite decades of timber harvest, the 2.8 million acres still harbor 
some of the best old-growth habitat in the western United States.
                         moving forward on o&c
    For decades the appropriate management regime for these lands has 
been debated. But the continued fighting has left rural communities in 
disarray, timber production uncertain and protections of our clean 
drinking water and precious landscapes at the whim of federal courts. 
It is time to find a solution to this decades-long issue and move 
forward--to find more certainty for all sides.
    Mr. Chairman, we believe that your bill, S.1784, the Oregon and 
California Land Grant Act of 2013, is a step in the right direction in 
finding a balanced solution. We appreciate the leadership you have 
undertaken regarding this issue. With some important adjustments--such 
as clarifications and modifications to sections of the bill related to 
the Endangered Species Act (ESA) and National Environmental Policy Act 
(NEPA)--this bill would protect some of the most unique landscapes and 
river resources in western Oregon while at the same time providing a 
more certain source of timber production than the status quo. In fact, 
it doubles the current timber production on these lands.
    Engaging some of the original authors of the Northwest Forest 
Plan--Dr. K. Norman Johnson, of Oregon State University, College of 
Forestry, and Dr. Jerry F. Franklin, of the University of Washington, 
College of Forest Resources--to craft the timber management provisions 
in the bill has helped to ensure that your bill's approach is 
thoughtful and scientific. The important effort made to reach out to 
the conservation community and other stakeholders to discuss the 
important ecological components of the landscape and the rivers that 
flow through these forests has ensured a vast array of conservation 
protections for some key areas in the O&C landscape.
                        conservation protections
    In particular, Pew would like to highlight just a few of the 
important conservation protections that S. 1784 provides.

          1. Wild Rogue and Devil's Staircase Wilderness Areas.--Title 
        III of S. 1784 sets out the protection of two of the region's 
        most important wild areas, the Rogue and Devil's Staircase. We 
        appreciate the work your office has done to continue to move 
        these protections and look forward to the full Committee's 
        support for these provisions.
          2. Rogue and Molalla National Recreation Areas.--Sections 106 
        and 107 provide protection for two notable river systems in 
        Oregon, the Rogue River and the Molalla River, respectively. 
        These areas, while important ecologically, also provide 
        important recreational and economic opportunities in the state. 
        The protection of these places as National Recreation Areas 
        illustrates the point that protecting the environment is also 
        beneficial for the economic bottom line.
          3. Wild and Scenic River Protections.--Titles I and III 
        designate almost 180 miles of wild and scenic river. These 
        rivers are the bloodlines of Western Oregon, providing clean 
        drinking water to more than 1.8 million Oregonians in rural and 
        urban communities and the habitat necessary to protect and 
        restore Oregon's fabled wild salmon populations.
          4. Legacy Old Growth Protection Network.--Section 102 
        legislates the protection of old growth forests on O&C lands. 
        Preserving the remaining stands of old-growth forests on 
        federal lands in the Northwest has long been recognized as 
        essential to the long-term health of the forests and the plants 
        and animals that depend on them for survival. Protecting these 
        ancient forests on O&C lands ensures that these invaluable 
        trees continue to play an important role in producing clean 
        water, absorbing carbon, and providing refuge for flora and 
        fauna alike.
          5. Primitive Backcountry Areas.--In Section 115, the bill 
        identifies six Primitive Backcountry Areas--Grizzly Peak, 
        Dakubetede, Wellington Wildlands, Mungers Butte, Brumitt Fir, 
        and Crab-tree Valley--all of which contain large swatches of 
        land identified by the Bureau of Land Management as lands with 
        wilderness characteristics. These areas are respites for 
        hunters and anglers alike, as well as important for plant and 
        wildlife species. While we believe at least some of these areas 
        could and should be protected as wilderness, we appreciate the 
        current designations and look forward to working with your 
        staff on refinements.
          6. Special Environmental Zones.--The O&C lands include more 
        than 80,000 acres identified by the Bureau of Land Management 
        and citizens as ``Areas of Critical Environmental Concern''--
        habitats, resources, or landscapes in need of special 
        management. These ecologically important locations, found in 
        approximately 133 places, are scattered throughout western 
        Oregon. They range in size from the 1,700-acre Bobby Creek 
        Research Natural Area, with its rare plants and endangered 
        stands of Port Orford cedar, to a 10-acre tract of land that is 
        home to the northernmost grove of rare Baker cypress. The 
        Valley of the Giants, a 1,300-acre tract in the central Oregon 
        Coast Range, is valued for its scenic beauty, its fish and 
        wildlife habitat, and as an example of a healthy, ancient-
        forest ecosystem. These are truly some of the most unique acres 
        in the O&C landscape and we support and appreciate their 
        protection as designated under Section 116.
          7. Illinois Valley Salmon and Botanical Area Special 
        Management Unit.--The Illinois River Valley in southern Oregon 
        is renowned for its remarkable salmon runs and it spectacular 
        and truly unique botanical resources. Visitors from around the 
        globe come to fish these waters and to admire the beauty of 
        this valley. Section 113 ensures the protection of these 
        resources for future generations.
          8. Drinking Water Special Management Units.--Sections 108 
        through 111 identify four special areas--McKenzie, Hillsboro, 
        Clackamas, and Springfield/Eugene--dedicated to the protection 
        of clean drinking water for various communities. The rivers 
        that run through the O&C lands produce clean drinking water for 
        more than 1.8 million Oregonians, and the protection of these 
        key areas from contamination is both imperative to retain the 
        high quality of clean drinking water available in the state 
        while at the same time reducing secondary filtration costs 
        otherwise necessary for delivering safe and affordable potable 
        water to citizens across the state.
          9. Riparian Reserves & Watershed Protections.--The Northwest 
        Forest Plan's (NWFP's) Aquatic Conservation Strategy (ACS) has 
        proven to be one of the most effective management strategies on 
        federal lands. This provision has ensured the protection and 
        restoration of aquatic resources throughout the Northwest. We 
        are pleased that S.1784 legislates the ACS's goals and 
        objectives of the NWFP, protects Key Watersheds, and applies 
        the NWFP's current riparian reserves on approximately two-
        thirds of the O&C landscape. This approach is critical for 
        clean drinking water resources, and protections for wild 
        salmon.

    We commend you for including these provisions and others I have not 
specifically listed above (including the expansion of the Cascade-
Siskiyou National Monument, the protection of the Pacific Coast Trail, 
and the protection of critical habitat for fish and wildlife). These 
protections are essential to the balance we believe the bill's 
framework exhibits.
    We know getting this far was not easy and we appreciate the time, 
dedication and leadership you have shown to craft a bill around these 
conservation pillars.
                          areas of improvement
    As you know, we are continuing to work with you and your staff on 
several areas that we believe could use clarification, refinement, and 
improvement. In particular, I'd like to highlight five sections where 
changes would make this legislation a better policy prescription for 
these O&C lands:

          1. Endangered Species Act Protections.--We understand your 
        stated intent when advancing this bill was to refrain from 
        undermining key provisions of the Endangered Species Act (ESA). 
        As you well know, the ESA, while often touted as a litigation 
        roadblock to timber production in Oregon, does not in fact hold 
        up timber production in the courts. Litigation limiting timber 
        sales in Oregon is found under other federal law claims, but 
        not under ESA legal claims. Changes to the ESA are not 
        necessary to move more timber from our public lands and to 
        revise ESA procedures based on mistaken assumptions about the 
        law would be unsound public policy. As currently written, we 
        have some concerns in this regard, but appreciate the effort 
        you and your staff are making to ensure that the bill does not 
        undermine this important federal environmental law.
          2. National Environmental Policy Act.--The National 
        Environmental Policy Act ensures that federal agencies follow 
        appropriate procedures to ensure the protection of our natural 
        resources while at the same time ensuring that policy makers 
        and the public are fully aware the potential environmental 
        impacts of agency actions. This law has been instrumental in 
        allowing public oversight of federal actions.
          We also understand the desire to apply this law in a way that 
        ensures clarity without undermining the basic tenants of the 
        law. There are several clarifications and changes we have 
        suggested to achieve this balance and are working closely with 
        your staff to work through potential changes. In particular, we 
        believe that there is a way to ensure that there is more 
        information analyzed and assessed upfront in the agency 
        decision-making process so that actions can move forward with 
        more certainty once decisions are indeed made. This would also 
        give the public more information at the start to understand the 
        implications of the agency decisions. We believe this type of 
        approach will provide the certainty the timber industry is 
        seeking while at the same time ensuring the proper level of 
        assessment of the environmental impacts of any future timber 
        sales.
          3. Monitoring and Evaluation.--As we stated, we appreciate 
        the scientific approach you have taken in this bill by bringing 
        together some of the leading forestry experts in the region to 
        help guide the management strategies identified in this bill. 
        At the same time, these are new approaches and new scientific 
        ideas. We urge you to include a provision in the bill to 
        provide for robust monitoring and evaluation of the proposed 
        timber management regime, and its impact on water quality and 
        fish and wildlife. The provision we suggest would require 
        annual monitoring, analyses after the first five years and each 
        five years after that, and an ability to adaptively manage and 
        change course if the science illustrates that the path laid out 
        in the bill is indeed having impacts--positive or negative--
        that were not anticipated at this stage.
          4. Land Consolidation.--Section 117 of the bill includes a 
        land ownership consolidation provision. Pew supports the 
        general concept. We believe that consolidating the checker-
        board of O&C lands could have positive impacts for fish and 
        wildlife in the region. At the same time, the language in this 
        section as introduced appears to provide an incentive to sell 
        or trade public lands without assurance that such a sale would 
        indeed promote important conservative objectives.
          5. Additional Wilderness Opportunities.--Six large blocks of 
        contiguous O&C land--both BLM managed lands specifically 
        addressed under S.1784 and Forest Service managed lands, not 
        currently addressed under this bill--are excellent candidates 
        for federal wilderness protection: Rogue River Canyon, Devil's 
        Staircase, Mt. Hebo, McKenzie River headwaters, Kalmiopsis 
        backcountry, and North Umpqua River wilderness. While S.1784 
        sets forth wilderness protection for two of these areas, the 
        Wild Rogue and Devil's Staircase, these four other areas are 
        also worthy of wilderness designation. These areas cover both 
        O&C and adjacent inventoried roadless areas--public lands 
        managed by the U.S. Forest Service and under a policy limiting 
        road construction and the resulting environmental impact. 
        Ancient forests and rare flowers, as well as bears, cougars, 
        eagles, wild salmon, and threatened and endangered species make 
        their homes in these places. The checkerboard land ownership 
        patterns may complicate management, but these lands have 
        outstanding wild character. They deserve to be safeguarded for 
        future generations and granted special protection by the 
        federal government. Attached to this testimony, and released 
        today, is a list of more than 50 local businesses which also 
        support the protection of these areas. We urge you to consider 
        the protection of these special places in S.1784 as well.
                               conclusion
    On behalf of The Pew Charitable Trusts, I want to thank you for the 
opportunity to come before you today to voice our views on S.1784. We 
are committed to continuing to work with you and the Committee to 
ensure we achieve a final bill that incorporates values we all hold 
dear--the protection of our natural environment and the economic 
vitality of rural communities in Oregon.

    The Chairman. Thank you very much, Mr. Matz. Without making 
this a bouquet-tossing contest, the expertise that you all have 
on environmental issues has been absolutely invaluable in terms 
of trying to address these issues.
    I think everybody knows that I have made protecting 
Oregon's treasures one of my priorities on my watch in the 
Senate. When the President that was sworn in in 2009, we got 
those big batch of bills passed. Mr. Stevens, I think his 
organization remembers that the Mt. Hood and the Badlands and 
the copper salmon and southern Oregon treasures, I mean, that 
was really, in my view, one of the moments in public service 
that I will always remember.
    So we will be working very closely with you. I think it's 
fair to say that what Oregonians want is they want us to find a 
path to ensure that people in rural communities can make a 
living and make sure that we protect our treasures. I'm just 
not going to buy that these are mutually exclusive. The fact 
that you all have been willing to reject what I call the 
tyranny of the extremes has been hugely helpful.
    Mr. Robertson, welcome. I'm going to be in your hometown 
for a town meeting on Saturday afternoon, so you can give me a 
little bit of a preview now. We appreciate your being here.

  STATEMENT OF DOUG ROBERTSON, COMMISSIONER, ON BEHALF OF THE 
                  ASSOCIATION OF O&C COUNTIES

    Mr. Robertson. Mr. Chairman, thank you very much. My name 
is Doug Robertson. I'm a county commissioner in Douglas County, 
Oregon, and also President of the Association of O&C Counties.
    As you know, Mr. Chairman, but I think it's important to 
emphasize, the O&C lands exist only in the State of Oregon. 
There are no O&C lands in any other State. The lands were part 
of a grant in the late 1800s to the Oregon California Railroad 
Company. The railroad was built, completed in 1887, but the 
terms of the grant were violated. So after decades in private 
ownership, and at the urging of Oregon citizens and local 
governments, the lands were taken back by the United States in 
1916 with the intent that they be re-conveyed back into private 
ownership as rapidly as possible.
    The policy of disposal of the lands was unsuccessful and 
ended with the passage of the O&C Act of 1937, which is still 
on the books today.
    The O&C Act directed that the grant lands remaining in 
Federal ownership in 1937 be retained and managed primarily for 
timber production and the principles of sustained yield to 
produce revenue for local governments and to provide a stable 
source of timber supply in perpetuity. The O&C lands are unlike 
any other Federal lands. They are unique historically, legally, 
and physically. They are not national forests, and their 
management mandate is not multiple-use.
    The United States followed the intent of the O&C Act 
closely for 50 years, but not so on in the last 20 years. The 
O&C lands are capable of producing 1.2 billion feet of wood 
fiber every year. But over the last 20 years, because of many 
factors, harvest levels and revenue generation have declined by 
almost 90 percent. The consequences of these declines are more 
than just numbers. It's the people who pay the price.
    While counties teeter on the brink of insolvency and 
chronic unemployment remains well above the national average, 
the social ills of substance abuse, gambling addiction, 
homelessness, and a spike in property crimes continues to rise.
    Senator Wyden, your bill is an attempt to restore some 
semblance of rational management to the O&C lands, and we 
certainly applaud your efforts. While we are not ready to take 
a position on the bill at this time, it appears that the volume 
generated would only be available for 10 to 20 years, not on a 
sustainable basis, and that revenue generation was not a goal 
of the bill at all. Governor Kitzhaber has set in motion a 
process for objectively analyzing the bill to independently 
assess the sustainable levels of timber harvest and revenues it 
would produce.
    Meanwhile, there are more questions. What about legal 
certainty? It should be noted that, just 2 weeks ago, 
environmental organizations filed litigation challenging the 
White Castle pilot project. The pilot project, sponsored by 
former Secretary of Interior Ken Salazar, that uses the same 
ecological forestry methods that form the basis of this bill.
    We applaud you, Senator Wyden, for the initial efforts to 
streamline procedural requirements pertaining to the 
environmental impact statements and the National Environmental 
Policy Act. We fear, however, that improvements in this area 
might be more than offset by loopholes in new substantive 
requirements in other sections of the bill.
    In September of last year, with the support and sponsorship 
of Congressmen DeFazio, Walden, and Schrader, the House of 
Representatives passed the O&C Trust Conservation Jobs Act, 
which the Association of O&C Counties strongly supports. It is 
our hope that your committee will come together in conference 
with the House delegation and incorporate the best elements 
from each of these pieces of legislation into a bill that 
provides the legal certainty, the harvest levels, revenue 
generation, and environmental safeguards that all stakeholders 
can accept.
    Finally, Senator Wyden, those of us who live in the 
counties that are impacted by these lands, we can't change our 
geography. We live where we live. It happens that we live among 
some of the most productive and valuable low-elevation 
timberlands in the world. Yet, with all that potential, because 
of a maze of Federal rules, restrictions, regulations, and 
requirements, these lands are not and cannot be managed for 
their stated purposes.
    BLM land managers don't manage these lands anymore. They 
manage paper, process, and litigation. That is of no benefit to 
the Federal Government, to the counties, to our economies, or 
the environment. It simply must change. Thank you.
    [The prepared statement of Mr. Robertson follows:]

 Prepared Statement of Doug Robertson, Commissioner, on Behalf of the 
                      Association of O&C Counties
    Mr. Chairperson, Ranking Member and Members of the Committee:
    My name is Doug Robertson. I am a County Commissioner from Douglas 
County, Oregon, and am President of the Association of O&C Counties. 
Thank you for the opportunity to testify today concerning Senator 
Wyden's proposed Oregon and California Grant Lands Act.
    This bill addresses management of about 2.1 million acres of land 
in 18 counties in Western Oregon. A quarter of these lands are 
scattered across my County, the rest are spread out in a checkerboard 
pattern across the other 17 counties western Oregon. In spite of the 
name, the O&C lands exist only in Oregon and nowhere else.
    The lands were part of a grant in the late 1800s to the Oregon and 
California Railroad Company, in exchange for construction of a rail 
line from the Columbia River to the California border. The grant was 
for alternating sections of land on both sides of the rail line, in a 
checkerboard pattern, which the railroad company was supposed to resell 
in 160-acre parcels to actual settlers for no more than $2.50 per acre. 
The railroad was built but the terms of the grant were violated, so 
after decades in private ownership and at the urging of Oregon's 
citizens and local governments, the lands were taken back by the United 
States in 1916, with the intent they be reconveyed back into private 
ownership as rapidly as possible. The policy of disposal of the lands 
was ended with passage of the O&C Act of 1937, which is still on the 
books today. The O&C Act directed that the grant lands remaining in 
federal ownership in 1937 be retained and managed primarily for timber 
production under principles of sustained yield to produce revenue for 
local governments and to provide a stable source of timber supply, in 
perpetuity. The O&C lands are unique, and their statutory mandate is 
unique. On the O&C lands, the law provides for one dominant use---
timber production---very unlike the multiple use mandates applicable to 
National Forests and most other federal lands.
    The United States followed the intent of the O&C Act closely for 50 
years, but not so much for the last 20 years. The O&C lands are capable 
of producing 1.2 billion board feet of timber on a sustained yield 
basis, forever, but over the last 20 years harvest levels have declined 
by almost 90 percent, to less than 200 million board feet per year. The 
generation of revenue for local governments, which was the primary 
objective of the O&C Act, likewise shrank by almost 90 percent, a loss 
that would have bankrupted many O&C counties had Congress not 
intervened repeatedly to provide assistance as part of the temporary 
Secure Rural Schools and Community Self-Determination Act program. The 
consequences of these declines are more than just the numbers that 
measure them. It is the people who pay the price. While counties teeter 
on the brink of insolvency, the last of the mills in some areas 
continue to close for lack of raw materials, contributing to 
unemployment that is chronically well above the national average, and 
the populace nears the end of the painful slide into the swamp of 
poverty, with all the attendant social ills that plague broken 
communities. And of course, the great irony is that the forests 
``saved'' from timber harvest by the environmental movement are burning 
up all around us every summer. In my County alone last summer, wildfire 
destroyed over 50,000 acres of valuable timberland, an economic loss, 
to be sure, but also a great loss to the environment. The federal 
system for managing these lands is in desperate need of repair or 
replacement.
    Senator Wyden's bill is an attempt to restore some semblance of 
rational management to the O&C lands. We applaud the Senator's 
intentions. Unfortunately, I fear the bill will do less than intended, 
and not nearly enough for local communities, considering what these 
lands are capable of producing. We are not yet in a position to judge 
what the bill would do, because it has not been properly analyzed. 
Governor Kitzhaber has set in motion a process for objectively 
analyzing the bill, to independently assess the sustainable levels of 
timber harvest and revenues it would produce, but that effort has been 
delayed by the BLM, which has been very slow to respond to requests for 
the information necessary for the Governor's experts to proceed with 
their analysis. We have been told that the Governor's experts will not 
have results until mid to late March.
    Meanwhile, we are left with more questions than answers:
How much timber would be made available on a sustainable basis?
    One estimate heard is about 330 million board feet per year, but 
preliminary information suggests that would only be for 10 to 20 years, 
after which the harvest level would drop substantially, perhaps by as 
much as 50 percent. The Counties believe that 500 million board feet 
per year on a sustained yield basis is the minimum acceptable, 
considering that amount is less than half of the amount of new growth 
added by the timber on these lands each year.
How much revenue would be produced to share with Counties?
    Senator Wyden's staff told the Counties that no revenue projections 
were made by them or for them, and generating revenue was not a goal of 
the bill. I must report that the Counties were chagrined to hear that 
County revenue concerns were not a factor in the design of the bill 
that is before you today. When the Governor's revenue analysis is 
available, we will know better if the bill is worthy of our support.
How certain is it that the bill would reduce litigation that has been 
        obstructing rational management?
    Even if the bill were projected under ideal conditions to produce 
adequate harvests and revenues, would appeals and litigation prevent 
achieving the intended results? It should be noted that just 10 days 
ago environmental organizations filed litigation challenging the White 
Castle pilot project that uses the same ecological forestry methods 
that form the basis for S.1784, which is a clear indication that the 
litigation onslaught will continue as long as it is allowed to 
continue. We applaud Senator Wyden for his initial efforts to 
streamline procedural requirements by the creation of a programmatic 
EIS and partially limiting the NEPA requirements for individual 
projects. We fear, however, that improvements in that one area might be 
more than offset by loopholes and new substantive requirements. We hope 
that Senator Wyden will be willing in the coming weeks to discuss 
possible ways to increase the certainty of achieving the outcomes 
intended by his bill.
    The Association of O&C Counties remains supportive of the 
bipartisan O&C Trust, Conservation and Jobs Act sponsored by 
Congressmen DeFazio, Walden and Schrader, which was passed by the House 
of Representatives in September. There are some broad, common themes 
underlying it and Senator Wyden's proposal. It is our hope that Senator 
Wyden and others from this body will work with Congressmen DeFazio, 
Walden and Schrader to identify the best parts of each proposal, 
blending them to produce a combined bill that earns widespread support 
in Congress as well as the support of those of us who live and work 
among the O&C lands.

    The Chairman. Thank you, Mr. Robertson. I think you saw 
when Congressman DeFazio was here, and from the constructive 
tone of his comments, that our delegation is very much 
determined to make these kinds of changes. We will look forward 
to following up with you.
    Mr. Stevens, welcome.

   STATEMENT OF SEAN STEVENS, EXECUTIVE DIRECTOR, OREGON WILD

    Mr. Stevens. Thank you, Chairman Wyden, for the opportunity 
to testify today. My name is Sean Stevens. I'm the Executive 
Director of Oregon Wild. We're a conservation organization 
representing over 13,000 members and supporters. This year in 
2014, we celebrate 40 years of protecting and restoring 
Oregon's wild lands, wildlife, and waters.
    Over the past two decades, we've worked closely with 
Chairman Wyden and his staff on important environmental 
policies for Oregon. With the chairman's leadership, we work 
together to protect more of Mt. Hood and the Columbia Gorge as 
wilderness, as the Senator mentioned, and joined with the 
chairman's staff and the logging industry to negotiate the 
compromised Oregon East Side Forest Restoration Old Growth 
Protection and Jobs Act of 2009.
    Oregon Wild has sought to balance the protection of 
Oregon's special places with science-based management that 
benefits the environment and sustains rural communities. It is 
from this perspective of this appreciation for our past work 
together that we must oppose S. 1784. The vast majority of 
local and national conservation organizations are similarly 
opposed and have sent letters to this effect.
    S. 1784 seeks to re-link funding for 18 Oregon counties to 
aggressive logging of publicly owned Bureau of Land Management 
lands in western Oregon. The bill would dramatically weaken 
President Clinton's historic 1994 Northwest Forest Plan and 
significantly undermine Federal environmental laws, such as the 
Endangered Species Act and the National Environmental Policy 
Act.
    In one sense, S. 1784 was drafted with the best of 
intentions, attempting to keep county governments in Oregon 
from going bankrupt. No one wants to see public services in 
rural Oregon disappear. However, while we face these budget 
challenges in real time, we must not forget how we got here. 
For decades, the BLM and forest service operated as if their 
only mission were to clear-cut public lands. It took a 
tremendous outpouring of public demand to reform the agencies 
to ensure wildlife, wild salmon, clean water, and clean air 
received equal priority to logging, as the law then and today 
requires.
    Had Oregon not clear-cut nearly 90 percent of our ancient 
forests, pushed numerous wild salmon runs to the brink of 
extinction, and muddied clean drinking water through excessive 
logging, we may have faced a much different world today. The 
O&C Land Act of 2013, had it been written and passed in 1984, 
could have been a sane alternative to the destruction that 
occurred.
    But this isn't 1984, and we cannot ignore the huge mistakes 
of the past. We must chart a path forward that repairs the 
damage to our forests, not a path that makes it worse.
    Chairman Wyden, you were right when you worked to pass the 
Secure Rural Schools Act and de-linked logging on public lands 
from funding for county services. At the time, you said in The 
Oregonian, ``The new relationship between the counties and the 
Federal Government means that the twenty-first century 
relationship is not just going to be about cutting trees.''
    That statement is as wise today as it was 14 years ago. It 
makes no sense to fund local county governments, counties that 
have some of the lowest local tax rates in the Nation, by 
logging public lands that belong to all Americans.
    When we see our forests as national resources to steward 
rather than simply as piggybanks, amazing things happen. Oregon 
Wild has seen it on the ground. While we are often accused of 
being so, we are not anti-logging. For nearly two decades, we 
have worked alongside the forest service, timber companies, and 
other local stakeholders to push collaborative forest 
restoration. We've heard it from both the forest service and 
BLM earlier how they're working in collaboratives.
    We worked in the Siuslaw National Forest. Because of our 
work there restoring forests and sending trees to the mills, 
we've twice been recognized with the Two Chiefs Award from the 
forest service and NRCS.
    Still, we should be clear-eyed. In 2014, logging is no 
longer the driver of Oregon's economy, even its rural economy. 
Last year, Oregon ranked third in the Nation in job growth, 
thanks to a thriving high-tech industry and our tourism and 
outdoor recreation economy. Oregon's quality of life, our 
forests, rivers, and mountains, are integral to that success, 
bringing new people and new investment to our State.
    Chairman Wyden, while the goal of your legislation is 
laudable, it puts Oregon's economic and environmental future at 
risk in an attempt to resurrect the economy of the 1980s. As 
you wisely pointed out more than a decade ago, funding budgets 
by aggressively logging public lands is a failed model.
    We can and should find a balance between active management 
and preservation. We appreciate your efforts to write into this 
legislation protection for some of our oldest forests and 
wilderness gems. However, during the last century, the scales 
have tipped so far toward harmful logging that in the future, 
we must create balance by restoring lands we have mismanaged 
and protecting other natural resource values that will drive 
Oregon's future.
    Will this cautious, sensible approach we recommend result 
in a massive bailout check for county politicians? No, it will 
not. Will it preserve Oregon's environmental values and pass on 
a natural legacy to future generations? Yes, it will. That's 
the balance that we need today.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Stevens follows:]

  Prepared Statement of Sean Stevens, Executive Director, Oregon Wild
    Thank you to Chairman Wyden and the members of the committee for 
the opportunity to testify today on the O&C Land Grant Act of 2013.
    My name is Sean Stevens, and I am the executive director of Oregon 
Wild, a conservation organization representing over 13,000 members and 
supporters. In 2014 we celebrate 40 years of protecting and restoring 
Oregon's wildlands, wildlife, and waters.
    Over the last two decades we have worked closely with Chairman 
Wyden and his staff on important environmental policy for Oregon. We 
worked together to protect more of Mount Hood and the Columbia Gorge as 
Wilderness, and joined with the Chairman's staff and the logging 
industry to negotiate the Oregon Eastside Forest Restoration, Old-
Growth Protection and Jobs Act of 2009. Oregon Wild has sought to 
balance the protection of Oregon's special places with science-based 
management that benefits the environment and sustains rural 
communities.
    It is from this perspective of appreciation for our past work 
together that we must oppose S.1784. Dozens of other conservation 
groups with membership numbering in the millions are similarly opposed 
and have sent letters to you, and to other members of Congress, to this 
effect. (See Appendices A and B).
    This bill seeks to re-link funding for 18 Oregon counties to 
aggressive logging of publicly-owned Bureau of Land Management lands in 
western Oregon. S.1784 would dramatically weaken President Clinton's 
historic 1994 Northwest Forest Plan (NWFP) and significantly undermine 
federal environmental laws like the Clean Water Act (CWA), Endangered 
Species Act (ESA), and National Environmental Policy Act (NEPA).
    The legislation, as introduced, represents a significant departure 
from the principles laid out in Chairman Wyden's document titled 
``Principles for an O&C Solution: A Roadmap for Federal Legislation to 
Navigate both the House and Senate,'' released in 2012. Those 
principles represented a good starting point for discussion to craft a 
workable, balanced, and realistic legislative proposal that did not 
sacrifice conservation values that Oregonians, and all Americans, hold 
dear.
                           endangered species
    S.1784 proposes to override critical and long-standing requirements 
of the ESA in some sections, and weakens them in others. Harmful 
logging in critical habitat for listed species is allowed (see Figs 1 
and 2 below).* The bill appears to create weaker ESA consultation 
requirements than exists under current law. The BLM can, but does not 
have to, ask federal wildlife agencies for a determination of whether 
activities will impact threatened species, and whether a project can 
move forward or if it requires consultation.
---------------------------------------------------------------------------
    * All figures have been retained in committee files.
---------------------------------------------------------------------------
    Furthermore, S.1784 eliminates the survey and manage program of the 
NWFP on Forestry Emphasis Areas. This ``look-before-you-log'' program 
is specifically designed to avoid logging impacts that could result in 
future ESA listings. The survey and manage program was deemed a 
``foundational'' element of the NWFP by the courts when the Bush 
administration tried to remove it.\1\
---------------------------------------------------------------------------
    \1\ Northwest Ecosystem Alliance v. Rey, 380 F. Supp. 2d 1175, 1192 
(W.D. Wash. 2005).
---------------------------------------------------------------------------
                             public process
    In regards to NEPA, the bill would severely undermine the law by 
eliminating environmental analysis and public review of individual 
timber sales, and mandating a single large-scale analysis covering 10 
years of logging spread over one million acres of western Oregon.
    Currently, individual timber sales go through rigorous 
environmental review and public vetting to ensure they are consistent 
with applicable law and do not irreparably harm the environment. 
However, S. 1784's mandate to analyze 10 years of logging in a single 
Environmental Impact Statement (EIS) disregards the critical need for 
site-specific reviews of a project's impacts. By eliminating project-
level review under NEPA, the public will be largely unable to ensure 
that BLM makes informed decisions and carefully considers the best 
available science, public input, local conditions, and changed 
circumstances.
    While members of the public may still challenge the large-scale 
EISs, severe timing and content restrictions are placed on those 
seeking to hold federal agencies accountable to federal laws. Chairman 
Wyden, we are disappointed to see you endorse significant and 
precedent-setting restrictions on the ability of citizens to 
participate in a federal process, particularly given your commitment to 
other government transparency and accountability issues.
                         northwest forest plan
    Along with eliminating the survey and manage program, S.1784 
further undermines the landmark Clinton NWFP by dismantling the current 
system of old-growth and wildlife reserves for protecting and restoring 
older forest habitat. Allowing some young forests to grow into old-
growth forests is a major underpinning of the NWFP.
    By changing the reserve system, the bill eliminates the integrated 
landscape conservation approach to conserving fish and wildlife habitat 
across both Forest Service and BLM lands.
                       disposing of public lands
    Provisions in S.1784 allow for land sales and exchanges. Historic 
consolidation and privatization proposals involving the transfer of 
public lands to private logging interests have resulted in losses to 
the environment and American taxpayers.
    Rather than giving careful consideration to consolidation or land 
sales/exchanges, S.1784 allows the fast-tracking of privatization of 
public lands by reducing public oversight. These provisions do not 
ensure that such land trades are in the public interest, and 
shortchange the American public and the long-term conservation of 
public resources.
                             climate change
    For the last century logging in western Oregon has contributed to 
climate change by emitting millions of tons of CO2 into the atmosphere. 
After harvest levels were reduced by the NWFP, the USFS and BLM have 
shifted emphasis toward conservation and a program of extensive 
thinning in young stands. Consequently, the flow of carbon has 
reversed, and at least on federal lands, there is now more carbon being 
absorbed and stored by growing trees, and less carbon being emitted by 
logging.
    However, there is still a long way to go before our public forests 
recapture all the carbon transferred to the atmosphere during decades 
of old growth liquidation. S.1784 would increase logging on BLM lands 
in western Oregon, including reducing the area of reserves and 
clearcutting of carbon-rich mature forests. This represents a shift 
from land uses that store more carbon to land uses that store less 
carbon. This will increase emissions of CO<INF>2</INF> and curtail 
progress on climate change mitigation in direct conflict with current 
administration climate policy which is to ``preserve[e] the role of 
forests in mitigating climate change.''\2\
---------------------------------------------------------------------------
    \2\ President's Climate Action Plan. http://www.whitehouse.gov/
sites/default/files/image/president27sclimateactionplan.pdf
---------------------------------------------------------------------------
    This is particularly troubling because the highly productive 
forests on BLM lands in western Oregon are very well suited for carbon 
storage, and conservation of carbon is highly compatible with many 
other important public values, such as clean water, fish and wildlife 
habitat, recreation, and quality of life.
                           historical context
    In one sense, this legislation was drafted with the best of 
intentions--attempting to keep county governments in Oregon from going 
bankrupt. No one wants to see public services in rural Oregon 
disappear. However, while we face these budget challenges in real time, 
we must not forget how we got here.
    For decades, the BLM and the Forest Service operated as if their 
only mission were to clearcut public lands. It took a tremendous 
outpouring of public demand to reform the BLM and Forest Service to 
ensure wildlife, wild salmon, clean water, and clean air received equal 
priority to logging.
    Had we not clearcut nearly 90% of our ancient forests, pushed 
numerous wild salmon runs to the brink of extinction, and muddied our 
clean drinking water through excessive logging--we may have faced a 
much different world today. The O&C Land Grant Act of 2013, had it been 
written and passed in 1974, could have been a sane alternative to the 
destruction.
    But this isn't 1974, and we cannot ignore the huge mistakes of the 
past. We must chart a path forward that repairs the damage from past 
mismanagement of our forests, not a path that makes it worse.
    Chairman Wyden, you were right when you worked to pass the Secure 
Rural Schools Act and de-linked logging on public lands from funding 
for county services.
    At the time, you said in The Oregonian newspaper: ``The new 
relationship between the counties and the federal government means that 
the 21st century relationship is not just going to be about cutting 
trees.''\3\
---------------------------------------------------------------------------
    \3\ Barnett, Jim and Hogan, Dave. ``Senators Offer Plan To Rescue 
Forest Counties.'' The Oregonian 8 September 2000: A20. Print.
---------------------------------------------------------------------------
    That statement is as wise today as it was 14 years ago. It makes no 
sense to fund local county governments--counties that have some of the 
lowest local tax rates in the nation (see Fig 3)--by logging public 
lands that belong to all Americans.
                       restoration based logging
    When we see our forests as natural resources to steward rather than 
simply as piggy banks, amazing things happen.
    Oregon Wild has seen it on the ground. While we are often accused 
of being so, we are not anti-logging. For nearly two decades we have 
worked alongside the Forest Service, timber companies, watershed 
councils, and other local stakeholders to push collaborative forest 
restoration in places like the Siuslaw National Forest. Because of our 
work restoring forests, putting people to work in the woods, and 
sending trees to the mills we've twice been recognized with the Two 
Chiefs Award from the Forest Service and NRCS.
    In the 1980s, the Siuslaw National Forest was ground zero in the 
timber wars. Under the visionary leadership of former Forest Supervisor 
Jim Furnish and his successors, the Siuslaw decided to abandon 
controversial clearcutting and move away from logging forests older 
than 80 years old. Instead, they focused on working collaboratively 
with the local community to develop sustainable thinning projects in 
younger stands. Over the last twenty years, these projects have allowed 
the Siuslaw to consistently meet or exceed timber production goals 
while improving environmental health.
    The Siuslaw model was made possible by President Clinton's historic 
1994 Northwest Forest Plan. Under the plan, some areas were set aside 
as old-growth and wildlife reserves, while others were managed for 
multiple values. Logging was to be a secondary goal, taking a back seat 
to protecting clean drinking water, recovering old-growth forests, and 
restoring abundant populations of endangered salmon and wildlife.
    The clear playing field and ground rules the plan created was the 
starting point for government agencies, responsible logging companies, 
and conservationists to work together to develop a new model of 
forestry--one that did not rely on clearcutting forests and sacrificing 
rivers and wildlife. No place epitomizes that progress better than the 
Siuslaw National Forest.
    On federal public lands the Siuslaw model has great potential and 
should become the norm all across western Oregon. However, private 
forest lands also hold a key to solving our county funding mess. The 
past five years have seen a dramatic jump in log exports from Oregon 
and Washington.\4\ Exports off of private lands in Oregon send jobs to 
China while doing nothing to pay for county services. Addressing this 
growing trend could not only alleviate pressure to log federal public 
lands but help to keep milling jobs in Oregon.
---------------------------------------------------------------------------
    \4\ Templeton, Amelia (Producer). (2013, November 13). ``China's 
Building Boom Revives Northwest Log Export Debate.'' Portland: OPB 
News. http://earthfix.opb.org/land/article/chinas-construction-revives-
northwest-log-export-d/
---------------------------------------------------------------------------
    While exports have increased, state revenue from severance taxes on 
logging has gone down. In the early 1990s, the state collected about 
$50 million per year related to harvest in western Oregon. The tax was 
phased out by the late 1990s and now logging companies pay almost 
nothing to support the county infrastructure (roads, etc) that they use 
to extract logs.\5\
---------------------------------------------------------------------------
    \5\ Niemi, Ernie. ``Timber changes reflect inequality.'' Eugene 
Register Guard 2 February 2014: Online. http://www.registerguard.com/
rg/opinion/31069622-78/workers-industry-timber-inequality-
percent.html.csp
---------------------------------------------------------------------------
    Reforms to local and state tax structures combined with federal 
subsidies that are de-linked from logging levels form a three part, 
shared responsibility solution that maintains forest values while 
putting counties on the path to financial stability.
                       the economy of the future
    Still, we should be clear-eyed--in 2014, logging is no longer the 
driver of Oregon's economy. And that's okay. Recent reports show Oregon 
ranking third in the nation in job growth last year, thanks to a 
thriving high tech industry, and to our tourism and outdoor recreation 
economy. Oregon's quality of life--our forests, rivers, and mountains--
are a big part of that success, bringing new people and new investment 
to our state.
    The Outdoor Industry Association recently reported that Oregon's 
annual outdoor recreation economy accounts for $12.8 billion in annual 
consumer spending and is responsible for 141,000 direct jobs.\6\ 
Furthermore, a recent analysis by Georgetown University found that in 
Oregon, employment in recreation and related industries is expected to 
grow by 31 percent by 2020--far surpassing the 3 percent expected job 
growth in logging and related industries.\7\
---------------------------------------------------------------------------
    \6\ https://www.outdoorindustry.org/images/ore--reports/OR-oregon-
outdoorrecreationeconomy-oia.pdf
    \7\ http://cew.georgetown.edu/recovery2020
---------------------------------------------------------------------------
    Oregon State economists have observed a so-called ``changing of the 
guards'' (Fig 4) from the old economy dominated by logging to a new 
economy based more on attracting talented workers from across the globe 
who desire to live in a setting like Oregon.
                               conclusion
    Chairman Wyden, while the goal of your legislation is laudable, it 
puts Oregon's economic and environmental future at risk in an attempt 
to resurrect the economy of the 1970s. As you wisely pointed out more 
than a decade ago, funding county budgets by aggressive logging on 
public lands is a failed model.
    We can and should find a balance between active management and 
preservation--and we are appreciative of your efforts to write into 
this legislation protection for some of our oldest forests and 
Wilderness gems.
    However, during the last century, the scales have been tipped so 
far towards harmful logging that the future must create balance by 
restoring lands we have mismanaged and protecting other natural 
resource values that will drive Oregon's future.
    Will this cautious, sensible approach result in a massive bailout 
check for county politicians? No.
    Will it preserve Oregon's environmental values and pass on a 
natural legacy to future generations? Yes it will--and that is the 
balance that we need.
    Thank you for the opportunity to testify before you here today.
                               appendix a
  American Bird Conservancy * Audubon Society of Corvallis * Audubon 
    Society of Portland * Bark * Benton Forest Coalition * Cascadia 
Wildlands * Center for Biological Diversity * Conservation Northwest * 
Coast Range Association * Dakubetebe Environmental Education Programs * 
Earthjustice * Environment America * Environment Oregon * Forest Web of 
Cottage Grove * Gifford Pinchot Task Force * Klamath-Siskiyou Wildlands 
Center * Lane County Audubon Society * Oregon Wild * Sierra Club * Soda 
    Mountain Wilderness Council * Threatened and Endangered Little 
Applegate Valley * Umpqua Valley Audubon Society * Umpqua Watersheds * 
       Western Environmental Law Center * Willamette Riverkeeper

                                                  January 23, 2014.
Hon. Ron Wyden,
U.S. Senate, Washington, DC.
    Dear Senator Wyden, On behalf of our tens of thousands of members 
and supporters in Oregon, and millions of supporters nationally, we 
write to express our disappointment with the recently introduced ``O&C 
Land Grant Act of 2013.''
    The legislation, as introduced, represents a significant departure 
from the principles laid out in your document titled ``Principles for 
an O&C Solution: A Roadmap for Federal Legislation to Navigate both the 
House and Senate,'' released in 2012. Those principles represented a 
good starting point for discussion to craft a workable, balanced, and 
realistic legislative proposal that did not sacrifice conservation 
values that Oregonians, and all Americans, hold dear.
    Unfortunately, S. 1784, the ``O&C Land Grant Act of 2013'' (O&C Act 
of 2013) falls far short. Some of our major concerns are listed below.
Weakens environmental laws and policies
    Despite assurances that you intended to maintain all environmental 
laws in any O&C legislation, provisions of your proposed O&C Act of 
2013 would both undermine and override federal environmental laws, 
including the Endangered Species Act (ESA), Clean Water Act, National 
Environmental Policy Act (NEPA), and Administrative Procedure Act.
    In regards to the ESA, for example, the legislation attempts to 
override critical and long-standing requirements of the ESA in some 
sections, and weakens them in others. The ESA provides a safety-net for 
our most imperiled species, and the ESA's consultation process gives 
the federal fish and wildlife agencies the chance to review and balance 
proposed projects against harmful impacts to species and their habitat. 
These vital protections must not be undermined as proposed in the O&C 
Act of 2013.
    In regards to NEPA, the bill would severely undermine the law by 
eliminating environmental analysis and public review of individual 
timber sales, and mandating a single large-scale analysis covering 10 
years of logging spread over a million acres of western Oregon. 
Currently, individual timber sales go through rigorous environmental 
review and public vetting to ensure they are consistent with applicable 
law and do not irreparably harm the environment. However, S. 1784's 
mandate to analyze 10 years of logging in a single Environmental Impact 
Statement (EIS) disregards the critical need for site-specific reviews 
of a project's impacts. By eliminating project-level review under NEPA, 
the public will be largely unable to ensure that BLM makes informed 
decisions and carefully considers the best available science, public 
input, local conditions, and changed circumstances.
    While members of the public may still challenge the large-scale 
EISs, severe timing and content restrictions are placed on those 
seeking to hold federal agencies accountable to federal laws. We are 
disappointed to see you endorse significant and precedent-setting 
restrictions on the ability of citizens to participate in a federal 
process, particularly given your commitment to other government 
transparency and accountability issues.
Dismantles the Northwest Forest Plan
    The system of conservation reserves set up under the Northwest 
Forest Plan (NWFP) to both protect and restore fish and wildlife 
habitat will be effectively dismantled under the O&C Act of 2013. 
Streamside buffers and the strong provisions of the Aquatic 
Conservation Strategy are severely reduced. The ``Survey & Manage'' 
program--deemed a ``foundational'' element of the NWFP by the courts 
when the Bush administration tried to remove it--is eliminated in 
Forestry Emphasis Areas. And, by changing the reserve system, the bill 
eliminates the integrated landscape approach to conserving clean water 
supplies and fish and wildlife habitat across public lands managed by 
both the U.S. Forest Service and Bureau of Land Management (BLM).
Does not solve county budget problems
    One of your original stated aims for legislation was to provide 
stable funding for the 18 O&C counties facing budget shortfalls due in 
part to the expiration of Secure Rural Schools funding. In 2012, we 
were heartened that your principles for legislation pointed out that it 
is not reasonable for local and state elected officials to rely solely 
on federal funding to make up for county budget shortfalls. A lasting 
solution to this problem will require local, state, and federal 
components.
    Your proposed legislation aims to double logging to generate 
revenue for counties, but at the same time recognizes that this revenue 
alone will fall far short what counties say they need to balance their 
budgets. And because the legislation shifts the BLM logging program 
from relatively less controversial thinning of young stands towards 
more controversial clearcutting of older forests, any logging revenue 
is far from certain.
    We thank you for your reauthorization of the Secure Rural Schools 
program for FY2013 and urge you to reauthorize this vital program while 
we work with you on finding alternate proposals that decouple payments 
from resource extraction and do not jeopardize our conservation values.
Mandates aggressive logging and harms water quality
    Your goal of ``sustainability'' of timber harvest in last year's 
principles has translated into the designation of zones where logging 
is the only prioritized resource value and other public values, such as 
clean water, are ignored. Management of the Forestry Areas in the O&C 
Land Act is overly prescriptive and blatantly disregards the need for 
using the best available science information and site conditions to 
dictate appropriate management.
    Last year's principles mentioned using ``ecological forestry 
principles'' as one way of meeting timber production goals. In 
contrast, your legislation mandates its use. Moving this experimental 
concept forward with such broadscale application on nearly one million 
acres of public lands is dangerous. Experimental logging methods such 
as those from Johnson and Franklin have only been applied on a limited 
number of pilot projects in western Oregon. They have not been tested 
over long periods or large scale, and this raises questions of 
consistency with water quality, wildlife, carbon storage, or social 
acceptance.
    Furthermore, your legislation undermines two critical requirements 
of the method proposed by Johnson and Franklin, making its application 
all the more concerning. According to their key publication on the 
subject in the National Journal of Forestry in December 2012, their new 
approach is heavily dependent upon monitoring and adaptive management. 
But your legislation explicitly eliminates monitoring and survey 
requirements in forest management areas and prevents adaptive 
management by limiting review to one generalized look every decade for 
the two forest types and by mandating the use of certain ecological 
forestry logging principles without providing any opportunity to 
deviate from this approach.
    The O&C Act of 2013 also drastically shrinks riparian buffers--
putting at risk threatened salmon populations, clean water, and 
sensitive soils--and reducing the forests' resilience to withstand 
climate change impacts such as increased heavy rain events. Buffers for 
streams and other bodies of water are significantly reduced in many 
areas, and monitoring of impacts is inadequate or nonexistent.
Falls short on old growth protection
    The bill also falls short on one of your legislative principles of 
which we were most supportive: safeguarding old growth forests. While 
we support setting aside the ``Legacy Old Growth Protection Network'' 
within moist-forest Forestry Emphasis Areas and the general prohibition 
of cutting and removing old growth trees in both moist and dry forest 
types, other provisions in the bill leave hundreds of thousands of 
acres of mature forests and old trees available or specifically 
designated for logging. This is unacceptable. Under the Northwest 
Forest Plan, forest stands over 80 years old are recognized as being 
essential habitat for old-growth dependent species. This habitat is 
also recognized as important to the growth of future old growth 
forests.
    In addition, exceptions and loopholes that allow cutting and 
removal of old-growth are found throughout the bill.
Disposes of and fragments public lands
    By abandoning the Northwest Forest Plan reserves and promoting 
aggressive logging techniques, this legislation will result in extreme 
fragmentation of the O&C lands--making an even less sensible pattern 
out of the O&C checkerboard.
    Furthermore, provisions in your O&C Act of 2013 concerning land 
sales and exchanges are of great concern to us. Historic consolidation 
and privatization proposals involving the transfer of public lands to 
private logging interests have resulted in losses to the environment 
and American taxpayers. We point to the failed Lower Umpqua Land 
Exchange Project as an example that would have resulted in a 
significant loss of older forests on public lands, in exchange for 
logged-over industry lands.
    Rather than giving careful consideration to consolidation or land 
sales/exchanges, your bill allows the fast-tracking of privatization of 
public lands by reducing public oversight. These provisions do not 
ensure that such land trades are in the public interest, and 
shortchange the American public and the long-term conservation of 
public resources.
Offsets major environmental harms with small conservation gains
    Our organizations were heartened by your indications leading up to 
the introduction of this bill that you were committed to proportional 
conservation designations, including Wilderness. As you know, with just 
4% of its land safeguarded as Wilderness, Oregon lags far behind 
California (15%), Washington (11%), and Idaho (8%).
    Unfortunately, the conservation measures proposed to balance 
increased logging and reduced stream buffers fall far short of 
Wilderness protection standards. While the O&C Act of 2013 would 
designate areas nearing 900,000 acres for conservation, recreation, 
backcountry, drinking water, and Wild & Scenic Rivers, much of the land 
in these new conservation designations is already currently protected 
under other laws and regulations (including the Northwest Forest Plan), 
and could still be subject to logging under the guise of ``fire threat 
reduction'' and other logging loopholes found in your bill.
Sets a dangerous precedent for public lands across the nation
    We are deeply concerned that the advancement of this bill will 
encourage far-reaching federal forestland legislation that further 
endangers public resources and values. The allowance in the O&C Act of 
2013 for private citizens and local governments to remove vegetation 
from public land with minimal oversight is but one small example of a 
precedent that could open the door to losing the environmental laws and 
policies that have helped protect our public lands for 40 years.
    We sincerely hope you will consider making changes to your proposed 
legislation based on our concerns, and that we can continue to work 
with your office on forest management and county revenue programs that 
do not impair the clean water, wildlife, and public lands that 
Americans hold dear.
                               appendix b
  American Bird Conservancy * American Rivers * Defenders of Wildlife 
  Earthjustice * Environment America * Friends of the Earth League of 
   Conservation Voters * National Audubon Society Natural Resources 
                     Defense Council * Sierra Club

                                                  January 24, 2014.
    Dear Senator:

    On behalf of our millions of members and activists we write to urge 
you to oppose the 2013 Oregon and California Land Grant Act (S. 1784) 
(``O&C Act'') as introduced and any other national forest legislation 
containing similar damaging provisions that may be advanced. The O&C 
Act undermines federal environmental law and sets out detailed 
management prescriptions for newly designated ``forestry emphasis 
areas'' across 2.1 million acres of western Oregon forest land.
    The O&C Act strikes at the heart of the Endangered Species Act 
(ESA) on its 40th anniversary. For example, it eliminates the 
requirement that the managing federal agency (the Bureau of Land 
Management) consult with expert federal biological agencies on whether 
individual logging projects on these public forestlands harm endangered 
species and their habitat. Federal agency consultation is a fundamental 
component of the ESA.
    The O&C Act also reduces the application of the National 
Environmental Policy Act (NEPA) to a shell of its current self. It goes 
much further than ``streamlining '' NEPA. The bill would severely limit 
analysis and public disclosure of the direct environmental impacts of 
individual projects, as well as any cumulative effects analysis of 
other actions affecting these forestlands and resources. Instead, it 
requires only a once-a-decade cursory review with a largely 
predetermined outcome. In addition, it severely limits judicial review, 
closing the doors of the courthouse to citizens who are unable to 
analyze the entire NEPA decision and file a complaint during the 30 
days immediately following release of NEPA documents.
    In addition, the legislation has Clean Water Act (CWA) 
implications. For example, the bill only allows water quality impacts 
under the CWA to be measured a full two years after a harvest which 
could mask all near term negative impacts of a timber project. The bill 
could also be interpreted to establish a potentially degraded water 
quality baseline that could affect all future determinations of impact. 
We support post-treatment monitoring to measure the effects on water 
quality, but not in the context of defining the water quality under the 
CWA.''
    Accordingly, we oppose S. 1784, along with any national forest 
legislation that may be modeled after the O&C Act or other proposals 
that curtail application of bedrock environmental statutes. Our federal 
environmental laws are a safety net for our forests, protecting a broad 
array of benefits including clean drinking water for millions of 
Americans, wildlife and their habitat, hunting, fishing, and hiking 
opportunities cherished by generations of Americans, and a multi-
billion dollar outdoor industry important to rural communities and 
regional economies.
    We are also concerned by any legislative effort to dictate timber 
harvest prescriptions that cannot be modified to reflect the best 
available science without a subsequent act of Congress. Forest managers 
must be able to use the best available information in making decisions 
about where, when, and how to proceed with logging projects. They need 
to be able to incorporate new information about the health of wildlife 
populations, potential air or water pollution, or changes in the forest 
from climate change. Ensuring healthy forests and healthy wildlife in a 
time of climate change will require greater reliance on evolving 
science, not less.
    Just this past September, the Administration echoed these 
sentiments when it issued a strong veto threat against national forest 
legislation in the House H.R. 1526. As the Senate considers the O&C Act 
or national forest legislation it is worth noting that the 
administration made clear that it strongly opposed the House bill 
because it ``includes numerous harmful provisions that impair Federal 
management of federally owned lands and undermines many important 
existing public land and environmental laws, rules and processes.'' The 
September 18, 2013, Statement of Administration Policy made clear that 
such legislation could ``significantly harm sound long-term management 
of these Federal lands for continued productivity and economic benefit 
as well as for the long-term health of the wildlife and ecological 
values sustained by these holdings.'' The statement also provided that 
the ``Administration does not support specifying timber harvest levels 
in statute, which does not take into account public input, 
environmental analyses, multiple use management or ecosystem changes.''
    Our nation's public forestlands, including those covered by the O&C 
Act, are national treasures that provide a wealth of benefits to all 
Americans. The O&C Act flouts environmental laws that have provided 
longstanding and vital safeguards to help ensure the health and 
resilience of these great assets. Without these protections and 
adequate reliance on science in management, our national forests would 
be threatened with declining wildlife populations, increased erosion, 
polluted rivers and streams, and substantial ecological and economic 
decline. We cannot let this happen.
    We urge you to oppose S. 1784 and any other forest legislation that 
undermines sound forest management or undercuts our bedrock 
environmental laws.
            Sincerely,
                    George H. Fenwick, President, American Bird 
                            Conservancy; Robert, Irvin, President and 
                            CEO, American Rivers; Jamie Rappaport 
                            Clark, President & CEO, Defenders of 
                            Wildlife; Trip Van Noppen, President, 
                            Earthjustice; Margie Alt, Executive 
                            Director, Environment America; Erich Pica, 
                            President, Friends of the Earth; Gene 
                            Karpinski, President, League of 
                            Conservation Voters; David Yarnold, 
                            President & CEO, National Audubon Society; 
                            Frances Beinecke, President, Natural 
                            Resources Defense Council; Michael Brune, 
                            Executive Director, Sierra Club

    The Chairman. Mr. Stevens, thank you. It's always ominous 
when somebody quotes you in behalf of their point.
    [Laughter.]
    The Chairman. What's striking about it is I never said that 
the future was about cutting virtually no trees at all. I think 
that's what we're trying to do in this legislation is to strike 
a balance. We will certainly be interested in your input in the 
days ahead.
    Let's go to Mr. Riddle.

STATEMENT OF DALE RIDDLE, SENIOR VICE PRESIDENT, SENECA SAWMILL 
                      COMPANY, EUGENE, OR

    Mr. Riddle. Good morning, Mr. Chairman. My name is Dale 
Riddle, Senior Vice President of Seneca Sawmill Company, a 
family owned company located in Lane County, Oregon. I 
appreciate the invitation to appear before your committee to 
discuss S. 1784.
    Although I'm here to discuss a few concerns we have with 
the bill, I wanted to thank you, Mr. Chair, for putting a 
proposal forward and starting a process from which we can work 
together.
    The roots of Seneca Sawmill Company date back to post-World 
War II, when Aaron Jones, himself a war veteran, entered the 
lumber business. In the last 1980s, however, we became 
concerned about the threats to the Federal timber harvest, and 
we invested in our own timberlands. Seneca now manages 165,000 
acres of timberlands on a sustained-yield basis.
    The O&C lands grow 1.2 billion board-feet of timber 
annually, and for the decades prior to the listing of the 
spotted owl, the BLM harvested 1.2 billion board-feet without 
any reduction in the standing volume of timber on those lands. 
Environmental lawsuits today, however, have reduced the harvest 
to less than 200 million board-feet.
    The reductions in harvest have taken a terrible toll on 
local governments. This was made all too real last year when 
dozens of prisoners were released from Lane County jails for 
lack of funding. One of those prisoners was awaiting trial for 
murder. In a neighboring county, a 911 dispatcher informed a 
woman that the sheriff's office no longer took calls in the 
evening. That woman was ultimately attacked and raped when the 
assailant broke into her house with a crowbar.
    There are 4 key components that need to be addressed in any 
O&C legislation. The first component is certainty. A solution 
is not a solution if it can be overturned by the courts. The 
House legislative fix for the O&C lands provides certainty by 
establishing a public trust. If the Senate doesn't support the 
trust concept, then it will be critical to identify an 
alternate approach. There's more than one way to skin the cat, 
but in the end, the cat--and by that I mean the endless 
litigation--has got to be skinned.
    The second leg of the stool is an adequate and sustainable 
supply of timber to maintain the current mill jobs and healthy 
forests. Most of our industry, like Seneca, is comprised of 
multi-generational family owned companies. Family owned 
companies don't plan for the next quarter's stockholder 
meeting; we plan for our children's future. Proposals that 
offer increased timber volumes in the short term, but don't 
sustain those volumes into the future, do not meet the needs of 
our communities.
    It has been estimated that the proposed legislation will 
produce about 300 to 350 million board-feet annually. Our 
initial review, however, of documents recently received by the 
BLM indicates the legislation provides a front-loaded 20-year 
harvest plan that cannot be sustained in the future, and it 
will produce on a long-term sustained yield of no more than 
probably 150 million board-feet.
    The third leg of the stool is adequate revenue to counties. 
The counties must be self-sufficient. They can't rely on 
continuous Federal aid. Even when Federal aid does come, it 
does not provide a paycheck to the residents of those counties. 
We do not lock up wheat fields in Kansas, nor do we ask farmers 
in Iowa to stop raising corn. So why do we tell Oregonians to 
stop farming their trees?
    The last, but very important, leg of the stool is to ensure 
that the legislation does not harm private lands. We're 
extremely concerned that the proposals will increase the risk 
of catastrophic fire. Seneca's forest lands share 561 miles of 
common boundary with the O&C lands. Every day, the O&C forests 
are burdened with additional fuel loadings. The annual growth 
rate is 1.2 board-feet, and the mortality rate is 140 million 
board-feet.
    Simply put, every year, these lands continue to build an 
astonishing rate of fuel. Exacerbating the fuel problem, the 
legislation calls for road closures. The key to effective fire 
suppression is an aggressive initial tack, which is dependent 
upon an effective road system. Any legislation that harms our 
road system will increase the likelihood that fires that start 
on Federal lands will burn onto private lands.
    In closing, you should note this legislation is personal to 
me, as it is to many Oregonians. I grew up in a tranquil 
setting, in a beautiful mill town. Many of my friends lived in 
company homes, bought food at the company store. When the mill 
closed, my father and my friends lost their jobs. The town, 
including the homes and the store, were bulldozed.
    This is personal. We all know there is a connection between 
poverty, drug abuse, and child abuse. My wife and I have been 
foster parents of children born addicted to meth and suffering 
from fetal alcohol syndrome. We've also adopted, and are proud 
parents of, a drug baby who's now 17 years old. It is not my 
daughter's fault that her biological mother used meth during 
her pregnancy, but it is my daughter who has had to suffer the 
consequences of that decision.
    There is no reason that a sustainable compromise cannot be 
forged that creates jobs for Oregonians, protects the current 
mill infrastructure, sets counties on a sustainable economic 
path, protects our forests both public and private from fire, 
and most importantly, guarantees that the policy decisions made 
by this body will not be overturned by the courts.
    It will take, however, people of good faith, willing to 
take criticism from their peers, in order to accomplish this. I 
am here to affirm the Jones family's willingness to reach out 
their hand to the other side if someone is willing in good 
faith to reach out their hand in return.
    Chairman Wyden, I want to thank you for your commitment to 
resolving this challenging problem. I appreciate very much your 
work on the forest roads fix. We wish you the best. Thank you 
very much.
    [The prepared statement of Mr. Riddle follows:]

   Prepared Statement of Dale Riddle, Senior Vice President, Seneca 
                      Sawmill Company, Eugene, OR
    Good morning, Chairman Wyden, Ranking Member Murkowski, and members 
of the Committee. For the record my name is Dale Riddle, Senior Vice 
President for Seneca Sawmill Company, a family-owned company located in 
Lane County, Oregon. I appreciate the opportunity to appear before the 
Committee to discuss Senator Wyden's S. 1784 and the need for a 
permanent, comprehensive solution to restore active management to the 
Bureau of Land Management (BLM) Oregon and California Grant Lands (O&C 
lands) for the benefit of Western Oregon's rural communities and the 
health of our forests.
    While I am here today to outline concerns we have identified with 
the proposed legislation, I want to thank Chairman Wyden for putting 
his proposal forward. This legislation represents a good start and 
provides us another framework to work from as we mutually seek to 
provide certainty that harvests sufficient to sustain Oregon's forest 
products industry, local governments, and rural communities can be 
achieved.
    We have been encouraged by the Senator's public statements about 
the need to adopt legislation that provides real certainty for 
significantly increased harvest levels to restore the health of these 
forests and battered communities. While we currently lack critical 
information about the potential effects of S. 1784, Oregon Governor 
John Kitzhaber's O&C Task Force is modeling the proposal to better 
detail the sustained harvest levels, the geographic distribution of 
those harvests, the effect on key habitats, and the likely county 
timber revenues. We believe this information is critically important to 
understanding what S. 1784 would mean back home in Oregon as our 
delegation continues to search for an effective plan.
    In the meantime, our initial review of the legislation and 
materials recently released by the BLM raise significant questions 
about whether the legislation, as drafted, will accomplish the goals 
outlined by Chairman Wyden. We do want to work with Chairman Wyden to 
fashion a solution that does meet these important goals.
                              introduction
    The roots of Seneca Sawmill Company date back to the post World War 
II period when Aaron Jones, himself a World War II veteran, entered the 
lumber business based on the promises of the federal government to open 
some of its holdings of Pacific Northwest timberlands to harvest to 
provide local jobs and wood products to a growing nation. Many other 
entrepreneurs of this era made substantial investments in industry 
infrastructure based on the same promise of a steady timber supply, 
building the economic backbone of much of the rural Northwest as they 
did so. Since the establishment of Seneca Sawmill Company in 1954 the 
company has grown from 25 employees to 400 employees. In the late 
1980's we became concerned about growing threats to federal timber 
harvests and invested in our own timberlands. Seneca Jones Timber 
Company now owns and manages approximately 165,000 acres of Oregon 
timberlands on a sustained yield basis. With the majority of our 
timberlands interspersed with the BLM's checkerboard ownership in 
Western Oregon our company has a strong interest in the future 
management of the O&C lands.
    The success of Seneca Sawmill is based on the dedication of our 
people and Aaron's insistence on excellence which has led to 
technological innovations that have resulted in over 20 patents, four 
new sawmills, three new planers, a log merchandiser, a renewable energy 
electrical plant and at least a dozen technical and mechanical 
creations, allowing us to stay at the forefront of efficiency in 
sawmill manufacturing. Today the company has successfully transitioned 
to Aaron's three daughters, Becky, Kathy and Jody Jones, and remains 
committed to the health of Western Oregon's communities and forests.
                  blm o&c lands are statutorily unique
    As you may know, the 2.6 million acres of O&C lands in Western 
Oregon have a unique history, statutory mandate, and connection to the 
industries, communities and county governments of Western Oregon. 
Douglas County Commissioner Doug Robertson will undoubtedly speak to 
the unique connection between the O&C lands and Western Oregon's O&C 
Counties in the form of shared timber receipts to meet the funding 
needs for essential county services. It is important for the Committee 
to understand that these unique lands do not have a multiple-use 
mandate like most other federal lands. Instead they have a dominant-use 
mandate to produce wood products for America, economic opportunity for 
the communities in which these forests are located, and revenues for 
local governments.
    The Oregon and California Lands Act of 1937 (O&C Act) requires that 
the O&C lands be managed for ``permanent forest production'' with 
timber to be ``sold, cut, and removed in conformity with the principal 
[sic] of sustained yield\1\ for the purpose of providing a permanent 
source of timber supply, protecting watersheds, regulating stream flow 
and contributing to the economic stability of local communities and 
industries, and providing recreational facilities'' and mandates that 
``not less than the annual sustained yield capacity. . .shall be sold 
annually.''
---------------------------------------------------------------------------
    \1\ ``Sustained yield'' forestry is a system that balances the 
amount of timber grown and the amount of timber harvested. Dictionary 
of Forestry, Helms, ed. Society of American Foresters, 2008. http://
dictionaryofforestry.org/dict/term/sustained_yield
---------------------------------------------------------------------------
    The primacy of the O&C Act was affirmed in Section 701(b) of the 
Federal Land Policy and Management Act enacted by Congress in 1976. 
This has been confirmed by the 9th Circuit. In Headwaters v. BLM, (9th 
Cir. 1990), the Court, held that timber production was the primary use 
of these lands and any other uses identified in the Act, including 
protecting watersheds and providing recreation, were advanced through 
sustained yield harvesting. Distinguishing between primary and 
secondary uses the Court stated:

          ``*** Nowhere does the legislative history suggest that 
        wildlife habitat or conservation of old growth forest is a goal 
        on a par with timber production, or indeed that it is a goal of 
        the O&C Act at all.''

    Similarly, in the case of U.S. v. Weyerhaeuser (9th Cir. 1976), the 
Court stated:

          ``***In order to protect watersheds and maintain economic 
        stability in the area, long-term federal timber yields were 
        guaranteed by limiting the maximum harvest to the volume of the 
        new timber growth.''

    From 1937 to 1994, the BLM and its predecessor agencies always 
interpreted and implemented the O&C Act to mandate timber production 
from suitable timberland as the primary use of the O&C timberlands. As 
described above, over a period of two decades and on five separate 
occasions, the Ninth Circuit has endorsed the BLM's dominant-use 
interpretation of the O&C Act. Just last year Judge Richard Leon of the 
D.C. District Court affirmed a key aspect of the dominant-use timber 
harvest mandate of the O&C Act, ruling that it clearly requires the 
agency to actually sell, on an annual basis, its declared annual sale 
quantity. As a result of the Leon decision the BLM is currently under a 
court order to more than double its timber sale levels in southwest 
Oregon's Medford and Roseburg Districts to meet the Clinton Northwest 
Forest Plan harvest levels. Meanwhile, there is another case pending 
before the D.C. District Court challenging the BLM's authority under 
the O&C Act to reduce the sustained yield and resulting annual timber 
sale volumes through the application of extensive set-asides and 
reserves.
                             recent history
    The over 2 million acres of O&C lands managed by the BLM in Western 
Oregon grow over 1.2 billion board feet (bf) of timber annually. In the 
decades prior to the listing of the Northern Spotted Owl as 
``threatened'' under the Endangered Species Act in the early 1990's, 
the BLM managed these lands under the sustained yield timber production 
mandate of the O&C Act, which generated annual timber harvests of 
approximately 1.2 billion bf without any reduction in the standing 
volume of timber on these lands. Environmental lawsuits, conflicting 
federal regulations and laws, and broken federal policies have reduced 
these harvest levels by over 80 percent to less than 175 million bf 
annually.
    This severe reduction in timber harvests has had a profound impact 
on rural communities, our industry, and the ability of local 
governments to provide essential services when the federal government 
owns 50-70 percent of the land and doesn't pay taxes. The drastic 
reduction in timber receipt revenues was made all too real last year 
when dozens of prisoners were released early from the Lane County, 
Oregon jail due to a lack of criminal justice funding. One of these 
released prisoners was awaiting trail on murder charges. One prisoner 
robbed a bank within hours of being released. Other counties in Western 
Oregon have been even harder hit. Law enforcement in some rural Oregon 
counties is nearly non-existent. In one instance last year a 911 
operator informed a desperate caller that the sheriff's office no 
longer responded to evening calls. That caller, a woman being attacked 
by an ex-boyfriend, was ultimately attacked and raped when the 
assailant broke into the house with a crowbar. Communities throughout 
Western Oregon continue to suffer under stifling levels of unemployment 
and high poverty rates, as well as the resulting social ills like 
crime, domestic abuse, sexual abuse, and drug addiction.
    Harvesting less than 15 percent of the annual growth on the O&C 
lands over the past two decades has led to marked increases in disease, 
insect infestation, and a general, overall decline in forest health. 
Overstocked stands of timber are more vulnerable to the frequent 
droughts that occur in the region, and the increased fuel loads have 
very predictably brought about dramatic increases in the frequency and 
severity of catastrophic wildfires. As a private landowner with lands 
interspersed within the BLM checkerboard we have significant exposure 
to catastrophic wildfires, insects, and disease caused by the gross 
mismanagement of neighboring BLM lands. This summer's record fire 
season in southwest Oregon provides a glimpse of the future if action 
is not taken. Our friends at Roseburg Forest Products, which lost 
11,000 acres in the 48,679-acre Douglas Complex Fire, know all too well 
the consequences of the tinderbox BLM forests threatening their lands.
    I know we can all agree that Oregon deserves better.
        key components of any solution (the ``4-legged stool'')
    Governor Kitzhaber's O&C Task Force, on which I served, spent a 
great deal of time modeling potential solutions for the BLM lands, 
including the House-passed O&C Trust, Conservation and Jobs Act. The 
modeling and our extensive discussions continually returned to four key 
components that any solution must satisfactorily address in order to 
solve the O&C crisis. Each component is like the leg of a 4-legged 
stool, and if any one component is not addressed and resolved, will 
cause the entire stool to fall over.
Certainty
    Any proposed solution is no solution at all if it doesn't deliver 
real legal certainty to ensure that planned, offered, sold and awarded 
timber sales will actually be harvested. Without certainty, it does not 
matter what the projected harvest levels are or what silvicultural 
approaches are mandated. The O&C Act already requires sustained yield 
timber harvests on these lands, but a complex web of conflicting (and 
often broken) laws and regulations have stymied this common sense 
vision of sustainable forest management.
    The intent of S. 1784's ten-year large scale Environmental Impact 
Statement (EIS) is laudable, but it does not address the complex web of 
conflicting laws and regulations used to block timber harvests, 
including the National Environmental Policy Act (NEPA) and the 
Endangered Species Act (ESA). Based on over two decades of experience 
we know that these complex EIS documents will be litigated and highly 
vulnerable without additional statutory protections. S. 1784 would also 
replace the very clear mandate of the O&C Act with a complex series of 
new silvicultural prescriptions, legal requirements, and undefined 
terms, thereby creating even more new hooks for litigation. The current 
litigation challenging the White Castle ecological forestry timber sale 
reminds us that some organizations are determined to block these 
projects regardless of positive ecological and economic benefits. These 
groups routinely take advantage of the complexity of conflicting 
statutory mandates to accomplish their agendas. There are additional 
legal risks embedded in S. 1784, including the fact that even if the 
EIS survives legal challenges the subsequent projects will be 
susceptible to ``consistency based'' challenges. I would be more than 
happy to work diligently with you and your staff to address these and 
other legal risks.
    Congressmen DeFazio, Walden, and Schrader's vision of a legislative 
fix for the O&C lands would deliver certainty to rural Oregon by 
establishing a public trust board, appointed by the Governor, to 
responsibly manage only the lands identified for timber harvests under 
their O&C Conservation, Trust, and Jobs Act. If the Senate doesn't 
support the trust approach, then it will be critical to identify an 
alternate approach to provide real certainty. There is more than one 
way to skin the cat, but in the end, the cat, and by that I mean the 
endless litigation, has to be skinned.
    Certainty not only applies to sustainable timber harvests, but must 
include the other conservation gains in the legislation, including 
wilderness protection and riparian set-asides. However, we cannot have 
certainty for one side of the equation, but not the other. In other 
words, certainty for the additional conservation protections must be 
tied to certainty that the sustainable timber harvest objectives be 
met. Our rural communities and their people cannot afford to once again 
give up half the pie, only to discover that after giving up half of the 
pie, the other side wants their half of the pie also. Our people 
deserve better than that.
    Unlike the game of horseshoes, almost doesn't count when it comes 
to certainty for Oregon's timber communities. All it takes is one 
successful lawsuit, a change in administrations, or nonsensical 
policies from the US Fish and Wildlife Service to bring O&C timber 
management to a standstill. After two decades of forest wars and 
summits, well meaning forest plans, and years of broken promises, the 
people of Oregon want a solution that provides real certainty to all 
sides in this debate.
Adequate, sustainable, and geographically distributed harvest levels
    A significant increase in timber harvest volumes from the O&C lands 
is appropriate given the unique statutory mandate of the O&C Act, the 
need to maintain forest health and be good neighbors to neighboring 
private lands, and the clear role these lands must play in restoring 
the economic and fiscal well-being of the communities.
            Geographic distribution
    Adequate timber harvest levels must be distributed throughout 
Western Oregon, including the drier southwest Oregon forests, if we are 
to maintain the health of the forests and keep the remaining industry 
infrastructure. We continue to lose mills in this part of the state, 
putting our ability to manage both public and private forests and the 
future of communities at risk. Unfortunately, the BLM's November 22, 
2013 letter to Senator Wyden did not outline likely geographic 
distribution of harvests under S. 1784. Based on our initial review of 
information recently disclosed by the BLM and the highly experimental 
ecological forestry principles championed by Drs. Johnson and Franklin, 
it appears that S. 1784 will generate short-term harvest levels of 
approximately 56 million board feet (mmbf) in the drier forests of 
southwest Oregon. If true, this level of harvest is below the needs of 
local mills and communities in southwest Oregon and may well be below 
the levels established under Judge Leon's court order. The extensive 
modeling being performed by Governor Kitzhaber's O&C Task Force should 
provide us a confirmation of how southwest Oregon's communities would 
fare under the legislation.
            Long-term sustainable harvests for certainty
    Most of our industry remains comprised of multi-generational, 
family-owned companies committed to the long-term future of our 
communities. Our companies need long-term certainty regarding future 
harvest levels to plan investments and make other critical business 
decisions.
    Family-owned companies do not plan for the next quarter 
stockholders' meetings--we plan for our children's and grandchildren's 
future. Proposals that offer short-term promises of increased timber 
volumes but don't sustain those into the future do not meet the needs 
of our industry or the communities. That is precisely why Governor 
Kitzhaber's Task Force modeled both the short-term and long-term 
sustained yields.
    On November 22, 2013, shortly before the release of S. 1784, the 
BLM sent Chairman Wyden a letter indicating that Dr. Norm Johnson, with 
the help of agency analysts, estimated that the legislation would 
generate 300-350 million bf annually over the next two decades. It is 
noteworthy that the BLM did not claim that this represented the long-
term sustained yield under the proposal. While we will need to wait for 
the O&C Task Force modeling to determine the precise sustained yield of 
S. 1784, documents recently disclosed by the BLM allow us to draw a 
number of conclusions about Dr. Johnson's estimate:

  <bullet> It provided a potential 20-year harvest plan under S. 1784, 
        not the long-term sustained yield calculation the legislation 
        calls for.
  <bullet> It relied on front-loaded harvest volumes in the first and 
        second decades that can't be sustained under the silvicultural 
        prescriptions, land allocations and restrictions in S. 1784.
  <bullet> It relied on the ability to implement variable retention 
        regeneration harvests in spotted owl critical habitat, near 
        spotted owl nest sites, in marbled murrelet critical habitat, 
        and near marled murrelet nest sites despite the fact that S. 
        1784 doesn't change the underlying laws and regulations that 
        make that impossible today.
  <bullet> When the ecological forestry prescriptions, land 
        allocations, restrictions, and critical habitat acres are taken 
        into account it results in a long-term sustained yield land 
        base of approximately 252,000 acres, or just 12 percent of the 
        total O&C land base.

    Based on a preliminary review of the information received by the 
BLM it appears that the long-term sustained yield of S. 1784 would be 
approximately 126 mmbf. It is possible that some relatively modest 
level of additional thinning volume could be achieved under S. 1784. 
However, it is very difficult to assign any reasonable degree of 
certainty to achieving that volume under the legislation.
Adequate county revenues
    Any O&C solution must provide an adequate, predictable source of 
timber receipt revenue for our counties. The fiscal challenges facing 
the O&C Counties due to reductions in timber revenues are very serious 
and no one understands them better than Douglas County Commissioner 
Doug Robertson, who will speak to them today. The continuation of 
Secure Rural School payments won't address the problem. Contrary to the 
claims of some, raising property tax rates in some of the poorest areas 
of the state isn't a viable option either, particularly when 
encouraging home ownership and housing affordability has been a 
national policy goal enjoying broad, bipartisan support for decades.
    The counties must be self-sufficient. They cannot survive relying 
upon federal aid that is tenuous at best. Federal aid may, at times, 
provide monies to the counties, but it does not provide a paycheck to 
the residents of these communities.
    Don't fall for the scare tactics about timber revenue not being 
dependable due to large swings in log prices and demand. Our neighbors 
in Washington have managed 2 million acres of state trust lands to 
generate consistent levels of annual revenue for their schools, 
counties, and other trust beneficiaries. In fact, over the past decade, 
which includes some of the most trying years of recession our industry 
has ever seen following the crash of the housing market, the Washington 
Department of Natural Resources (DNR) has averaged over $125 million in 
annual timber revenue for trust beneficiaries.
       washington dnr timber sale program (2.2 million acres)\2\
---------------------------------------------------------------------------
    \2\ FY 2008 & FY 2009 saw lower stumpage due to high proportions of 
blowdown salvage. Volume Sold and Total Receipts do not include FIT 
(Forest Health Treatment) Sales


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    In addition to providing timber receipt revenue, restoring balanced 
active management to the O&C lands would generate industry and non-
industry private sector employment in these communities and the 
significant economic stimulus and tax revenue that results. This is the 
only truly sustainable solution for our rural, forested communities, 
not handouts from Washington, DC.
    We do not lock up wheat fields in Kansas. We do not stop cattlemen 
in Nebraska from raising cattle. We don't tell farmers in Iowa to stop 
raising corn. It is no different in Oregon. So, why do we tell 
Oregonians to stop farming trees?
    I have heard it said that the results of our O&C policy are akin to 
allowing our citizens to starve while standing in the middle of a 
supermarket. It is actually worse than that--not only are we starving 
unnecessarily; we are setting up a chain reaction of permanently 
closing down the supermarket, then the hardware store, then the gas 
station, and ultimately, the entire community.
No harm to private lands
    Our industry is incredibly reliant on timber harvests from Oregon's 
private lands since the drastic reductions in BLM and Forest Service 
harvests. With many mills hanging on by a thread due to incredibly 
tight demand for logs, it is essential that legislation not negatively 
impact the ability to access and harvest private forestlands. As a 
private landowner, we appreciate the intent of S. 1784 to honor all 
existing reciprocal right-of-way agreements that are common amongst the 
checkerboard ownership pattern.
    However, the legislation does contain provisions that will make new 
right-of-way agreements more difficult to obtain due to various 
prohibitions against the construction of new roads and restrictions on 
the harvest of any trees within certain protected areas established in 
the legislation. S. 1784 also directs the Secretary to reduce the 
number of existing ``nonessential'' roads, but provides no definition 
of this term. These provisions will likely limit the ability of private 
landowners with existing reciprocal right-of-way agreements to access 
their lands and it will make it extremely difficult, if not impossible, 
to obtain a right-of-way in areas where they currently do not exist or 
when the owner buys a new piece of land. It also appears that smaller 
landowners would not be protected since they lack formal right-of-way 
agreements and instead rely on case-by-case permits.
    Finally, and of extreme importance to private landowners such as 
Seneca, is the increased risk of catastrophic fire that is likely to 
result from S. 1784 as it is currently written. Seneca's forestlands 
share 561 miles of common boundary with the O&C lands. To the extent 
fire risk is increased on O&C lands, it increases on Seneca's lands.
    Fire has spread from federal land to Seneca's land in the past and 
is likely to increase in the future if significant changes are not 
made. Every day, the O&C forests are burdened with additional fuel 
loadings from tree mortality. The annual growth rate is 1.2 billion bf 
and the mortality rate on O&C lands is approximately 140 million bf per 
year. Simply put, every year the O&C timberlands continue to build fuel 
loadings at an astonishing rate and this would not be appreciably 
reduced under S. 1784. The lands are turning into world class kindling 
and the owners of the timberland, the Federal Government, are turning 
into the slum lords of the Northwest--placing everyone's lands at risk 
of horrific fires.
    Exacerbating this fuel problem, the legislation calls for road 
closures, obliteration and decommissioning. The key to effective fire 
suppression is aggressive initial attack. Initial attack is dependent 
upon an effective road system. Any legislation that harms that road 
system will increase the likelihood of catastrophic fires originating 
on federal lands overrunning and burning out private lands.
                               conclusion
    Chairman Wyden, I want to thank you for your commitment to 
resolving this challenging problem and your work on other important 
issues, including the recent forest roads fix. Congratulations on your 
pending move to chair the Finance Committee. Since I understand that 
this could be your last hearing chairing this important committee, I 
want to encourage you continue your work to resolve a problem that 
continues to harm our great state. The residents of our rural, forested 
communities just want a chance to responsibly manage this renewable 
resource and for their children to be able to make an honest, decent 
living in the rural communities they love.

    The Chairman. Thank you very much, Mr. Riddle. You are very 
right. This is going to take an awful lot of effort to reach 
out. I'm telling you. Your seatmate there, Commissioner Leiken, 
has definitely been one of the brave here that I was talking 
about in terms of trying to reach out to all sides.
    Commissioner Leiken, we very much appreciate your 
willingness to step up when it would have been plenty easy to 
sit this one out. I appreciate your being here.

            STATEMENT OF SID LEIKEN, COMMISSIONER, 
                        LANE COUNTY, OR

    Mr. Leiken. Thank you very much, Chairman Wyden, and I want 
to thank you for the invitation to testify today before S. 
1784.
    My name is Sid Leiken, and I have the pleasure of serving 
as a county commissioner for Lane County, Oregon. For the past 
2 years, I served as chairman of the board. For 10 years prior 
to that, I was able to serve my city of Springfield, Oregon, as 
their mayor.
    I think I know my communities. They need your help, and I 
mean right now.
    Lane County spans two mountain ranges and the Williamette 
Valley and is approximately 80 percent forest. In fact, it's 
roughly the size of the State of Connecticut. The combination 
of our climate, our elevation, our soils produce some of the 
greatest quality timber species in the world. With all that 
timber, our value-added wood products industry was simply 
unparalleled. However, the Federal timber supply has all but 
disappeared, taken with it a ton of community fabric, leaving 
in its place a great deal of community uncertainty.
    I'm here today to ask you to help restore enough of that 
timber supply to reestablish certainty. With certainty comes 
predictability. As a community leader, I can sell 
predictability all day long.
    I know there's a lot to this bill, and I'd like to 
congratulate Senator Wyden for his work and endless energy for 
striking a balance that provides a wealth of environment, 
community, and economy. We have seen over-management and under-
management, neither acceptable nor sustainable.
    Here are the things that are especially important to the 
folks in my county--jobs, clean air and drinking water, and 
essential public services. This bill has implications for each 
of these values. I was born and raised in western Oregon, where 
my family owned and operated timber and building development 
companies. In fact, I'm a fifth-generation Oregonian. My great-
great-grandfather was somewhat iconic in the industry, Nils 
Peter Hult.
    You know, there was a time where life in rural Oregon truly 
embodied the American dream, where families and communities 
enjoyed modest prosperity. Natural resource jobs paid 120 
percent and up of the average salary of our county. Enough time 
has now passed that we are seeing the unintended consequences 
of not managing timberlands. That is, trees do grow. Natural 
processes like fire do occur in the absence of management.
    I know that there's no chance we're going back to the days 
of vast, unsustainable clear-cuts. That's just not politically 
a viable option, nor does it represent the most recent science 
embodied in Senator Wyden's plan. But the current paralysis 
can't continue, either--not without causing even more pain for 
folks who could be making a good wage working to cut trees and 
drive log trucks, mill lumber, and restore forests.
    While it is relatively easy to maybe invest in a log truck 
or maybe infrastructure to harvest trees, we need to see more 
investment in our private mills, and our investment in our 
mills. Note, a sawmill today is a high-tech enterprise 
requiring clean technology and high-paying jobs that will help 
cement the advanced manufacturing that our region is now 
finally getting established, something that I heard very 
clearly during President Obama's State of the Union.
    A well-managed forest produces clean water. We in the 
region are all smart enough to appreciate this. I don't know of 
a Federal land manager anywhere that wakes up in the morning 
wanting to think to themselves, ``How can I pollute our rivers 
or streams or lakes?''
    The limits imposed on access to legal challenges found in 
S. 1784 will not lead to impure water. Indeed, the measure 
establishes 4 drinking water protection zones with enhanced 
policies to ensure this resource is protected, building on 
local drinking water protection overlay zones I helped pass in 
Springfield in 1999.
    I want to talk briefly about fiscal policy. Voters in 
Oregon, as in other parts of the West, ultimately pass property 
tax caps with the assumption that Federal revenue would remain 
in place. Voters saw no need for additional local revenue, but, 
in hindsight, were unaware that in some cases that local 
revenue was as much as 70 percent Federal timber revenue.
    The only tool I have as a county commissioner to replace 
Federal timber revenue is the up to 5-year local option levies. 
I've got to tell you, that's not a way to run a county.
    In the 15 years I've been in public office, today 
represents the single best opportunity for a solution, a 
solution that will provide certainty to your land managers, and 
that certainty will drive investment by private industry. This 
investment will create jobs. Those employees will build homes 
in reinvigorated communities. They will pay income taxes and 
property taxes. Through the combination of Federal revenue 
sharing and giving taxpayers a job, it will be far easier to be 
a county commissioner in western Oregon.
    Mr. Chairman, again I want to say thank you very much for 
the invitation, and glad to be here, and will continue to work 
with you as much as possible as we move down this road. Thank 
you very much.
    [The prepared statement of Mr. Leiken follows:]

    Prepared Statement of Sid Leiken, Commissioner, Lane County, OR
    Chairman Wyden and Members of the Committee, thank you for inviting 
me to testify on Senate Bill 1784.
    My name is Sid Leiken and I have the pleasure of serving as a 
County Commissioner for Lane County, Oregon. For the past two years, I 
served as Chairman of the Board, and for the ten years prior to that I 
was the Mayor of Springfield, Oregon. I know my communities, and they 
need your help, right now.
    Lane County spans two mountain ranges and the Willamette Valley and 
is approximately 80% forest. It contains 765,000 acres of private 
forest land, 1.1 million acres of forest land under management by the 
National Forest and 315,000 acres of Oregon & California Railroad Lands 
under management by the Bureau of Land Management. It is these lands we 
refer to as the ``O&C'', and in total in western Oregon there are 2.2 
million acres found in 18 counties.
    The lands were returned to public ownership nearly 100 years ago. 
While they may be described as unique in their checkerboard pattern and 
management by BLM, I can assure you that the residents of Lane County 
fully understand the foundational role these lands played in ensuring 
key services such as public safety in our County. And in my world, 
budget document after budget document shows the significant portion of 
Lane County's budget supported by O&C revenue.
    Quite simply, the combination of our climate, our elevation, and 
our soils produce some of the greatest quality timber species in the 
world. With all that timber, our value added wood products industry was 
simply un-paralleled. We used to produce more plywood than any other 
place in the world. However, the federal timber supply has all but 
disappeared, taking with it a ton of community fabric and leaving in 
its place a great deal of community uncertainty.
    I am here today to ask you to help restore enough of that timber 
supply to re-establish certainty. With certainty comes predictability. 
And as a community leader, I can sell predictability all day long.
    There's a lot to this bill, but as a representative of Lane County, 
I want to first eliminate a misconception about forestry policy 
automatically driving people to polar opposites. I'd like to 
congratulate Senator Wyden for his work and endless energy for striking 
a balance that provides a wealth of environment, community, AND 
economy. We have seen over-management, and under-management. Neither 
are acceptable, nor sustainable.
    Here are the things that are especially important to folks in my 
county: Jobs, clean air and drinking water, and essential public 
services. This bill has implications for each of these values.
    I was born and raised in Western Oregon where my family owned and 
operated timber and building development companies. I'm dating myself, 
but over the past 3 decades I have seen how important federal forests 
are to creating jobs in mills, in the forests and providing an economic 
foundation for the rest of the community. Unfortunately, much of that 
knowledge was gained by seeing the impact to our economy when the 
supply of federal timber was severely impacted by the listing of the 
Northern Spotted Owl as an threatened species beginning in 1989, 
perhaps not un-coincidently a peak year of timber harvests and revenue 
sharing in Western Oregon. Until that time, life in rural Oregon truly 
embodied the American Dream, where families and communities enjoyed 
modest prosperity. Natural resource jobs paid 120% and up of the 
average salary in our county.
    I think we all were optimistic that the NW Forest Plan of 1994, and 
then the initial implementation of the Secure Rural Schools Act in 2000 
would buy us enough time to transition our economy to something that 
could replace the timber industry. That goal has proved elusive. NW 
Forest Plan harvest goals were not met, and the management plan 
formulated and practically finalized to move forward on the O&C was 
administratively withdrawn at the beginning of this Administration.
    Interestingly, enough time has now passed that we are seeing the 
unintended consequences of not managing timberlands. That is, trees do 
grow. And natural processes like fire do occur in the absence of 
management. In Oregon, your national forests budget has been fully 1/3 
committed to actual fire suppression costs since 1996.
    Right now, in Western Oregon, which is typically known for its wet, 
wet, wet winters, we haven't seen appreciable rain or snow at all this 
winter. The fires of last summer on the O&C in my native Douglas County 
are on everyone's mind. While you are certainly aware of the $4 billion 
dollars now in the federal budget for fighting forest fires, what you 
may not know is that the Bureau of Land Management contracts with the 
State for forest fires on the O&C, and our legislature is, as we speak, 
grappling with $40 million in un-planned for expenses from the fires of 
the summer of 2013, the most expensive firefighting season ever.
    I know that there's no chance we're going back to the days of vast, 
unsustainable clearcuts--that's just not a politically viable option, 
nor does it represent the most recent science embodied in Senator 
Wyden's plan.
    But the current paralysis can't continue either, not without 
causing even more pain for folks who could be making a good wage 
working to cut trees, drive log trucks, mill lumber and restore 
forests.
    The policy element that will provide for economic benefit is 
certainty. Certainty will drive private investment, and stabilize 
funding for public services. The O&C Act of 2013 attempts to deliver 
certainty for the federal agencies which manage these lands by limiting 
and constraining legal challenges that hamstring agency staff, eat up 
agency budgets, and makes private investors leery.
    While it is relatively easy to invest in a log truck and a tree 
feller, what we are no longer seeing is investment in mills. I believe 
when this bill is signed by the President, private money will again 
look at mill infrastructure. And note, a saw mill today is a high tech 
enterprise requiring clean technology and high paying jobs that will 
help cement the advanced manufacturing that our region is now finally 
getting established.
    That advanced manufacturing, and indeed one of the world's oldest 
industries, beer manufacturing, depends on pristine water. A well-
managed forest produces clean water, and we in the region are all smart 
enough to appreciate this. There is not a federal land manager anywhere 
that wakes up in the morning wanting to pollute our rivers, streams, 
and lakes. The limits imposed on access to legal challenges found in S 
1784 will not lead to un-pure water. Indeed, this measure establishes 
four drinking water protection zones with enhanced policies to ensure 
this resource is protected; building on local drinking water protection 
overlay zones I helped pass in Springfield in 1999.
    I want to close with a brief statement about fiscal policy. Almost 
exactly a century ago, County Commissioners from Western Oregon sat 
right here in Washington DC and expressed their concern about federal 
ownership of vast stretches of land exempt from local property tax 
rolls. A solution was established that federal revenue sharing would be 
placed into federal law. We coexisted under that model, and evolved 
fiscal policies around it. Voters in Oregon, as in other parts of the 
west, ultimately passed property tax caps, with the assumption that 
federal revenue would remain in place. In fact, our own Measure 5 was 
initially passed at the moment in time that represents the apex of 
federal revenue from the O&C. Voters saw no need for additional local 
revenue, but in hindsight were unaware that in some cases that local 
revenue was as much as 70% federal timber revenue. Under Measure 5, the 
only tool I have as a County Commissioner to replace federal timber 
revenue is the up to five year local option levy.
    Voters in my county did approve, last year, a 55 cent per thousand 
valuation property tax that will remain in place for five years. That 
measure generates about $13M annually, against what in 1995 was $53M in 
federal timber revenue. The reality is that I cannot gain the 
difference of $40M from my local voter, especially when their economy 
suffered so much from the loss of timber related jobs, followed a 
decade later by the Great Recession.
    In the ten years I have been in public office, today represents the 
single best opportunity for a solution. Since 1999, the inception of 
the Secure Rural Schools Act, we have not seen solution-oriented 
legislation actually gain passage in the House much less have another 
one poised for introduction in the Senate. I hope you can appreciate my 
interest in, and my advocacy for, your continued advancement of S 1784.
    The need for a solution is immediate and I am only aware of one 
other proposed legislative solution to this problem, House Bill 1526. 
Yet, that proposal has already received a veto threat from President 
Obama here in Washington and is threatening to reignite the timber wars 
back home in Oregon. Furthermore, it appears unlikely that the Bureau 
of Land Management will be able to achieve an acceptable solution 
without additional tools and direction from Congress. For these 
reasons, I believe Senate Bill 1784 is the only politically viable 
solution for managing these lands currently on the table that could 
help avert the current crisis in Oregon.
    You may well know, as I do, that this measure will not provide my 
county with $40M in revenue. I can't advise that you attempt passage of 
a bill that creates that kind of revenue due to the amount of harvest 
it would require. What I do know, is that this measure will increase 
harvest on these lands. It will provide certainty to your land 
managers, and that certainty will drive investment by private industry. 
That investment will create jobs. Those employees will build homes in 
reinvigorated communities. They will pay income taxes and property 
taxes, and through the combination of federal revenue sharing, and 
giving taxpayers a job, it will be far easier to be a county 
commissioner in Western Oregon.

    The Chairman. Thank you very much, Commissioner. You are 
going to be key in this effort in terms of bringing people 
together.
    I want to start by trying to pick up on what I imagine 
people listening on the live streamer are thinking. Or maybe 
they've had a chance to see some of the statements that have 
been made.
    Mr. Riddle, who is sitting toward that end, doesn't think 
the legislation provides certainty because, in his view, it 
really doesn't touch the Endangered Species Act and the 
National Environmental Policy Act. Sitting next to him is Mr. 
Stevens, who says that the bill undermines the Endangered 
Species Act and NEPA. It's hard to see how the two of you can 
both be right.
    So, the question, I think, is, Is it possible that you both 
may be a little bit wrong and that the other witnesses who have 
come here--Mr. Miller and Commissioner Leiken and Mr. Matz and 
Dr. Franklin--that they may be right in terms of the effort to 
strike a balance?
    I want to give you, Mr. Stevens, and you, Mr. Riddle, a 
chance to comment on that, because the two of you are so far 
apart, I guess we can kind of maybe find you. But you're way, 
way apart. We've got to, if we're going to get this done, as 
Congressman DeFazio and I talked about here over the last 3 
hours or so, we've got to find a way to bring people together.
    Tell me a little bit about your reaction to what I said and 
how maybe I can bring the two of you a little bit closer so we 
can help pass the bill.
    Either one of you? Mr. Stevens.
    Mr. Stevens. Yes. It's a good question, Chairman Wyden.
    I think, you know, from our experience working with your 
staff on the East Side Forest Bill in 2009, we addressed the 
similar issue with regards to NEPA in trying to figure out ways 
to work within the constraints of NEPA that allow public access 
to decisionmaking and allow access to the courts of regress. We 
found a way to do that without tampering with the overarching 
structure of NEPA, to use some of the things that both the BLM 
and forest service that Chief Tidwell was talking about 
earlier, some of the efforts that they've been making within 
the agency to do the same thing. I think collaboration is 
another tool, also, to achieve this goal.
    When we look at this bill, at S. 1784, we don't see the 
same approach to NEPA. We see a 10-year EIS that essentially 
closes the door to public access to decisionmaking, once that 
EIS is through. So, I think it's a very different thing. Our 
experience on the east side bill shows that there's a better 
way to do it.
    The Chairman. What the challenge is, Mr. Stevens, is to try 
to take our principles, which is to make sure that everybody 
gets a chance to be heard with respect to forestry policy, and 
deal with the fact that the west side is very different than 
the east side. The west side has this patchwork of land, some 
public, some private. It's very, very different. So that alone 
is part of the thinking that's gone into it.
    So what we said is, ``You bet we're going to hear from the 
stakeholders. But we're going to do it all up front. We're not 
going to do it in 15 minutes.'' I mean, for over a year, for 
over a year, all the stakeholders are going to be at the table 
on both types of forests, so that they have a chance to be 
heard. But then, once we get there, we're not going to have 
this policy that I've characterized where every tree has its 
own lawsuit.
    Mr. Stevens. I think I have to disagree with the concept 
that every tree has its own lawsuit. I think in reality, the 
amount of appeals that go to court is very small, and it tends 
to be when sales are of the most egregious character. Oregon 
Wild does not take it lightly to go to court, because it takes 
our time and resources. Despite how we've been characterized, 
we are not sitting in our wealthy homes thinking of ways to 
ruin rural America.
    I would say, though, that I think that the 10-year 
provision is very troubling. Even if there is a lot of planning 
that goes into that original EIS, once you put it in place, 
every timber sale from then on, you don't get to get the hard 
look that we get now to know what the impact is. So, we have 
this 10-year plan, and we don't know, I think--Dr. Franklin 
said it earlier. We don't know everything about forests now, 
and we certainly didn't 25 years ago. We're going to learn more 
in 2 years, 5 years. We're going to need the opportunity to be 
able to be flexible as we look at these individual sales.
    Furthermore, we don't need that overarching ability, 
because there isn't a huge problem. We heard Mr. Ellis say 
earlier that they're planning 230 million board-feet of timber 
sales this year. Hey, it's a far cry from 1.2 billion. But 
that's not nothing. I think the characterization that there is 
zero management on BLM lands is inaccurate.
    Certainly, the industry would like more. I would like to 
only see restoration management. Somewhere in between there, we 
can find the----
    The Chairman. I want to give Mr. Riddle a chance to get 
into this.
    Mr. Stevens. Sure.
    The Chairman. Yes, we hope that they will get it up. But 
the reality is the average for the last decade has not gotten 
close to that, not gotten close.
    Mr. Riddle.
    Mr. Riddle. Thanks. To follow up on the comment, planning 
for the sale is different than implementing the sale. We all 
know that. The numbers are far different.
    But getting back to the issue about certainty. Timing and 
streamlining is a different issue than whether or not there's 
legal certainty. If it's simply a timing issue and you're 
streamlining the process, but the underlying law--in other 
words, the legal standard remains the same and nothing's 
changed--you're just going to get to the lawsuit a little 
quicker, but you're not going to get necessarily a different 
result in the lawsuit. That's the concern.
    It's not where you have here, you said a tyranny of the 
extreme. That's not where we're at or I'm at. It's whether or 
not it will be effective legally, which is different than an 
argument over, you know, what is sustainable scientifically, or 
how many dollars does it take, or how much is needed for mill 
infrastructure?
    The other problem with certainty is it's not like 
horseshoes where close is good enough. If you increase what you 
think is certainty by 70 percent in a bill, that doesn't mean 
you're going to get 70 percent, let's say, of the harvest. If 
there is a hole in your legal certainty, you lose it all. 70 
percent certainty, in other words, is zero harvest.
    [Pause.]
    The Chairman. Excuse me.
    Mr. Riddle. That's OK.
    The Chairman. We're calling some audibles for the votes. Go 
ahead.
    Mr. Riddle. The point I was making about--and I think you 
heard the first part, but maybe not the last part--is legal 
certainty isn't like horseshoes where, if you're close, then 
you still get some points.
    If you have, let's say you've drafted something, you think 
we're 70 percent of the way there, 70 percent of legal 
certainty does not equal 70 percent of the hope of volumes you 
thought we were going to get in the bill. It's zero percent. 
Because to the extent, once you have that loophole, that 
loophole can be used for everything. So certainty is just a 
tricky, very difficult, very difficult subject.
    The other issue on this certainty issue regarding what 
you've done in the bill, the 10-year EIS and things of that 
nature, that is not, I would argue strongly, that is not far 
out. It's only the ninth circuit that requires the EIS process 
at the plan level, as you suggest in your bill in the 
streamlining. Then you have to go through it all over again on 
every single timber sale. The other circuits throughout the 
United States don't require that. It's basically redundant.
    So that certainly isn't extreme, and I don't think our 
position on that--and I certainly don't think I'm part of that 
tyranny of the extreme.
    The Chairman. Let's kind of get Dr. Franklin into these 
numbers.
    Mr. Riddle has talked, Dr. Franklin, about how it would be 
sustainable to harvest 1.2 billion board-feet per year. Because 
in his view, there is so much timber growing in the forest. 
Give us your take on a scientific basis with respect to that, 
and what the difference is between what the agency has 
identified as sustainable to harvest versus harvesting the full 
volume of what has been grown. Because I think it's important 
as we, again, our delegation tries to find this common ground, 
get a sense of what is scientifically defensible. So, can you 
unpack that?
    Then I want to bring some of the rest of our witnesses into 
this.
    Dr. Franklin.
    Mr. Franklin. Thank you. The 1.2 billion figure just simply 
has to do with the estimated total growth on the entire 
property. If you were managing that property solely for 
optimized wood production, it might be sustainable. But of 
course, we have a whole array of other goods and services that 
we want from our Federal lands. So, obviously, there's no way 
in the world that you can obtain that kind of harvest level and 
still sustain those other values.
    I think there's a principle here that goes far beyond 
timber. That is, you know, whenever you manage a property for 
essentially optimizing or maximizing a given output, whether 
it's timber or fuels or owls or water, then you marginalize a 
whole array of other values. Obviously, the rules of the game 
that we've laid down says, ``No. We're not going to do that. 
We're going to manage that property for an array of values 
including values that are very important to the counties.''
    So, you know, it's totally moot. We can't sustainably grow 
2.4 billion board-feet of timber on those properties, or 1.2 
billion rather, and sustain the other values. Period.
    The Chairman. All right. Let's go to you, Mr. Matz, and 
you, Mr. Miller, because I want to talk about, again, the 
balanced kind of effort. I know this is very hard. I think you 
heard me talk with Congressman DeFazio literally within 12 
hours of town meetings, going to Corvallis. We were cutting, 
you know, too much. We were going to Eugene, and we're cutting, 
you know, too little. You're just kind of trying to find a way 
to get to common ground.
    I gather that Pew, that spends a lot of time on these 
issues, feels that on balance, we have moved in the right 
direction with respect to natural resources. But you'd like us 
to do some fine-tuning in some areas that would certainly be 
important to the people who Mr. Stevens works for. Is that a 
fair characterization?
    Mr. Matz. That would be a fair characterization, sure. The 
thing about these processes is that not everybody is going to 
get everything that they want.
    The Chairman. You think?
    [Laughter.]
    Mr. Matz. I mentioned that in our oral testimony. But that, 
you know, you can work to try to find a reasonable balance that 
gets people much of what they would like to see out of this 
process. That's where, you know, we've worked with you on this 
particular issue. We've worked with Senator Tester on some of 
these, on legislation that he has, the Forest Jobs and 
Recreation Act.
    It's not easy to try to balance these resource, 
development, and land protection issues. But I think that if 
people sit down, talk about it, learn about the concerns of 
others, you can get to that sweet spot. We do think, with a few 
minor improvements, you're pretty much there.
    The Chairman. So, one last question for you, Mr. Miller, 
and then I want to bring Commissioner Leiken and also our 
commissioner from Douglas County, Commissioner Robertson, into 
this discussion as well.
    You said something to me once, Mr. Miller, about how so 
many opportunities were missed over the last 10 to 15 years, 
opportunities where the industry could have found reasonable, 
you know, approaches, and environmental folks who might want to 
come together. That very much has been central to my thinking.
    I think it's what Congressman DeFazio was talking about 
earlier when he mentioned the fact that he had Dr. Franklin to 
a conference, you know, decades ago.
    We don't want to miss this opportunity again. Would it be 
fair, and perhaps you could just put it in your own words, to 
talk a little bit about the history of the missed opportunities 
and how it could have meant a lot for the industry and for 
rural jobs and others if we hadn't missed those, you know, 
chances, and could have had the talks we're having now back 
then?
    Mr. Miller. Sure. We could all look backward and wish maybe 
we had struck a bargain or done something a little different. 
But I think it's the nature of rural natural-resource-based 
communities. I mean, people make their living off the land.
    When policies change, I mean, these are proud people. Many 
of them have been living in these communities for generations, 
and they've been doing the same kind of work generation by 
generation. When Federal policies or State policies change and 
pull the carpet out from under that life, the natural reaction 
is to dig in and try and do all you can to maintain it and 
protect it.
    So, I think that clearly is a limiting factor in one's 
ability to see, how do I accept something that's less than what 
I have known? I mean, that's just a very, very difficult 
process psychologically.
    I've done business in Northern California. We used to have 
a substantial business in the Redwood region. I'm very, very 
well acquainted with the legal aspects of forestry and the very 
clever and well-funded tactics that people use, in this case, 
to try and up-end private business. We had mills in Montana 
that were largely based on forest service timberlands. Those 
mills don't exist today. I've had the grim responsibility to 
stand in front of hundreds of men and women and tell them that, 
in 2 weeks time, their world as they have known it will come to 
an end, and watch them react as one can imagine they would 
react.
    This is just the fabric of society, of communities, of 
changes. I lived in Iowa during the upheaval of the farm crisis 
in the late 1970s and the early 1980s. Drive down the road, 
you'd see those auctions, miles of cars lined up where they 
were selling everything, the pots, the pans, the bed sheets.
    So, this is all very difficult, I think, for everybody. 
It's not easy to let go of what you believe in, what has been 
your life. You understand that. I know you do. I've talked to 
you about this on a number of occasions.
    Life moves on whether we like it or not. That's not said 
with callousness. It's just it's the nature of society, and 
certainly a democratic and capitalistic society.
    On the other side, there is this reality that these lands 
are governed by, and really essentially owned by, the people of 
the United States. They just happen to be heavily concentrated 
in a corner of Oregon.
    The Chairman. God put the trees in our part of the world.
    Mr. Miller. Yes. So, you know, that's a particularly 
challenging problem to address. I think the issue is that for 
so long, both sides have denied the reality of change. I mean, 
people would talk about it. But I think what's been missing is 
to sit down with the folks that live in these communities and 
put all the cards face-up on the table.
    With all due respect, you know, the folks from the 
environmental communities, they're entitled to their position. 
But frankly, most of them don't live in these communities. The 
people that fund them don't live in these communities. I think 
if they really want to pursue their goals, they should show up 
in places like Roseburg and Grants Pass, like you do.
    The Chairman. I'm certain they're going to be there.
    [Laughter.]
    Mr. Miller. No, and look these people in the eye and say, 
``I do not believe your job needs to continue because I think 
there are other values for these forests that I believe take 
precedent,'' and just have the courage to do that.
    You have had the courage to go to these places and take the 
slings and arrows. They're trying to bring people together to a 
place that, you know, is the best we're going to do. Frankly, 
the political reality of this situation and the laws that 
govern these properties and the politics of how legislation 
passes through this body and your accompanying chamber and, 
hopefully, gets signed by the President.
    The Chairman. I appreciate that sort of approach, because 
these are very difficult, you know, issues. I mean, it's a 
piece of cake to go into one camp over here and another camp 
over here and basically just put out your press releases and 
say, ``Our way is the right way.''
    I do think that, had we had these conversations, 
particularly on the west side, as you suggested, you know, 
years ago when people basically were in denial, we wouldn't be 
faced with some of these situations. I touched on it in my 
opening statement. Mr. Robertson talked about it. Congressman 
DeFazio talked about it. We're literally in some of our rural 
communities, if there is a serious, violent crime being 
committed, people don't know where to turn. That is just 
unacceptable.
    I want to give Commissioner Robertson and Commissioner 
Leiken the last word. But I hope you two commissioners, and I 
know you've had differing views on this issue, are walking out 
of here encouraged. Because what Congressman DeFazio said 
today, because he has led the effort on the House side, and 
I've had the bill here as Chairman of the Energy and Natural 
Resource Committee--he made it clear there's an urgency behind 
finding common ground. He's trying to get the yes, not trying 
to find ways to keep on saying, ``Let's put it off for somebody 
else and some other day.''
    I think that set of comments by Congressman DeFazio ought 
to leave people plenty encouraged. I'm going to work very 
closely with him and the members of our delegation to show that 
sense of urgency that means, as Mr. Miller touched on, that 
we're not going to be talking about this years and years from 
now because everybody denied it in 2014.
    So, Mr. Robertson, the last word, you get one. Mr. Leiken, 
you get one. We'll liberate you all here from the hearing.
    Mr. Robertson.
    Mr. Robertson. Thank you, Senator Wyden.
    You know, one of the issues that seems lost in these 
discussions is the unique nature of these lands. Again, these 
are not large contiguous blocks of forest lands. These are 
scattered bits and pieces of a checkerboard never intended to 
be in Federal ownership. For 40 years, these lands were in 
private ownership, and 3 attempts by the Federal Government to 
sell these lands into the private sector.
    So I think it's important that we keep in the discussion 
the context that these lands are very unique, very different, 
governed by different rules and different laws.
    Having said that, I am encouraged. I'm very encouraged, 
because I think we are closer than we--well, there's no 
question we're closer than we've been in 75 years in solving 
this problem. With your efforts, with Congressmen DeFazio, 
Schrader, and Walden, I think we can reach a resolution.
    Congressman DeFazio pointed out that one of the things that 
needs to happen, and I think Dr. Franklin would agree, is that 
if we are going to achieve the outputs in terms of harvest 
levels and revenue, we're going to have to grow the job base--
the land base a bit. That means public domain lands. That means 
perhaps some controverted lands.
    That can be done. If that land base is increased, our 
ability to reach the balance that's going to be necessary to 
provide the output, I think is achievable.
    I also think it's important to point out that this 
discussion began 2.5 years ago when the counties recognized 
that our myopic view of just looking at county issues had to be 
expanded. We had to look and take into consideration the 
concerns of the environmental community and the industry.
    That's why we were willing to put 1 million acres of these 
O&C lands into a permanent reserve, never to be managed. As you 
pointed out, the first attempt to protect old growth, 1 million 
acres, add to that 50,000 acres in the Rogue Wilderness, a 
brand-new wilderness area, and the Devil's Staircase, another 
36,000 acres, 150 miles of river to be re-designated as Wild 
and Scenic. I would suggest the counties have come a long ways 
in meeting the balance.
    Again, we recognize this is not 1937 anymore. But we also 
recognize the values of the principles of the O&C Act--
sustained yield, the purpose of the land to support the 
counties. I think, with your leadership and your congressional 
colleagues, we can get there.
    The Chairman. Thank you. I very much appreciate that. 
You're absolutely right with respect to the counties and their 
central role. They were central back in 2000, when Senator 
Craig and I in this room wrote the Secure Rural Schools Bill. 
Without that, as you know, there are some counties in our State 
that probably would have had difficulty funding education 3 
days a week. Even with that, obviously, as we've been talking 
about this morning, there's enormous hurt. That's why we've got 
to get people back to work in the woods in rural Oregon.
    I think it's appropriate, because we're going to need the 
counties', you know, input. Your involvement with the national 
counties, I want in the days ahead, as we look at both parts of 
the equation, today is about getting people back to work in the 
woods. But we're going to have more work to do on the safety-
net side as well. We are going to need the counties to work 
with us on another challenge that we've begun to think about. 
That is to make common ground between all the communities in 
this country where there is Federal land and Federal water.
    Because I think if you went back and looked at how this 
patchwork of different programs was created, nobody would argue 
for doing one thing for renewable energy and Federal waters and 
another for some other use on land or something of that nature. 
We try to play to the common strengths that we've talked about 
in our State, which is multiple use. That is the bedrock 
principle when it relates to our State. So, we are going to be 
working with you not just on this legislation, which is to get 
people back to work in the woods, but also on the safety net.
    Now, we pulled a rabbit out of the hat here a few months 
ago when we were able to sell off the helium reserve and get 
some of that money, which will be arriving for rural counties 
here shortly. But we've got to get rural counties in Oregon and 
across the country off this roller coaster. So we will be 
following up with you on that as well.
    Last word for you, Commissioner Leiken.
    Mr. Leiken. Mr. Chairman, thank you very much. I appreciate 
Commissioner Robertson's words on this as well and kind of 
giving the history of the O&C lands.
    As I mentioned before, you know, I lived primarily in two 
places, Douglas County and Lane County. My great-great-
grandfather migrated to Oregon in the 1870s. My wife and I have 
chose to live in Oregon, chose to live in Lane County. We've 
chose to raise our family there. I have such commitment to it.
    So not only as an elected official, this is where I planted 
my roots. My business interests have been in Lane and Douglas 
County.
    I find it interesting, you know, when I hear the piece 
where it suggests that Oregon is third in job growth. You know, 
about a year ago--actually, it was less than a year ago--there 
was a most interest op ed piece called ``The Tale of Two 
Oregons.'' The significant job growth is happening in the 
Portland metro area. Then there's the rest of the State.
    For me, I sit back and I look at, well, we have the 
incredible species of timber that we have in our counties. I 
looked, we have this opportunity to continue to provide these 
critical jobs to our citizens here. So we don't feel like that 
we're constantly left out. So, I appreciate your leadership on 
this. I appreciate the work that Congressman DeFazio is doing 
on the House side. I know the two of you will get together, and 
our colleagues throughout Oregon and throughout the Northwest, 
and come up with a plan that I think will be sustainable for 
the future.
    So I appreciate it. As you know, I'm not going to speak for 
Commissioner Robertson. But I assure you that the both of us 
will clearly be working with you very closely as we go on. I 
think you can expect the counties will be a player in this.
    So, I thank you very much. Glad to be here this, I guess 
it's close to this afternoon. Still morning in Oregon. So, glad 
to be here, and thank you so much for this opportunity.
    The Chairman. Big thanks to all of you. Suffice it to say 
on these kinds of tough natural resource issues, it is not a 
walk in the park or something that you're easily going to find 
common ground on. But I think in the course of the last 3 
hours, we've certainly moved in the right direction.
    I want to thank all of you, and we'll excuse you at this 
time.
    [Pause.]
    The Chairman. Our next panel will address the Barrasso bill 
S. 1966. We're glad to welcome Dr. Mike Dombeck. He has a 
wealth of experience in Federal land management. We have worked 
with him often over the past years. It is always good to see 
his cheerful countenance here. He's a real visionary on 
national forest management, and we appreciate him.
    We're also joined by Clint--and I hope I'm pronouncing this 
right--is it Georg?
    Mr. Georg. It is Georg.
    The Chairman. OK. Clint Georg.
    We're going to summarize your oral remarks, and we'll 
include all of your written testimony into the record. I'm glad 
that my colleague from Wyoming has arrived so that we can have 
the real authority on this matter here.
    Why don't we begin with you, Dr. Dombeck, and then go to 
you, Mr. Georg?

           STATEMENT OF MIKE DOMBECK, BOARD MEMBER, 
                        TROUT UNLIMITED

    Mr. Dombeck. Thank you, Mr. Chairman. We've had many, many 
hearings together in this room, and I think back to county 
payments maybe 12 or 14 years ago. At any rate, it's good to be 
back.
    Senator Barrasso, while we haven't had an opportunity to 
work together, I spend a lot of time in your State with having 
family members there. I hunt and fish and really enjoy Wyoming.
    The dialog of this hearing for someone that's been in so 
many hearings in this room has been very, very instructive this 
morning. Much of my testimony actually has been said by one 
person or another. So I'm just going to summarize very briefly 
in the hopes that the chairman's implication that there might 
be a closer place in heaven for someone with a shorter oral 
statement, maybe I'll gain something by that.
    But a couple of points. No. 1, you know, I don't think 
anyone assumes that the national forests are simply a 
breadbasket of timber to be harvested anymore. What I'd like to 
lay out is just a set of 7 very brief principles that I think 
if we adhere to, we will make lots of progress. Obviously, 
there are--all of us have experienced, you know, frustrations 
of the debates over resource allocation, and those debates are 
not going to go away.
    But sort of in the spirit of being constructive, not only 
on S. 1966, but basically the entire forest management debate 
across the country, I'd just like to mention the 7 principles.
    No. 1 is to promote collaboration and collaborative 
stewardship. That's Chairman Wyden, former Chairman Bingaman. 
There's been a lot of progress made on that front. The 
collaborative Forest Landscape Restoration program I think is 
one of the highlights there. I've asked my home State, Senator 
Baldwin, to say that that should be extended east of the 100th 
meridian as well.
    No. 2, protect roadless areas, riparian areas, and old 
growth forests. I just want to echo Dr. Franklin's points about 
his praise of the old growth protection in your bill, Senator 
Wyden, because we've got to get these controversies off the 
table to make progress, which was one of the reasons that I 
pushed the old growth, or rather the roadless area protection. 
There was a tremendous resource drain on all, basically all 
parties involved, particularly the forest service, and a 
liability for taxpayers as well. So that's, I just commend you 
for that.
    No. 3, focus on timber harvest to restore and improve the 
health of forests and reduce fire risk.
    No. 4, solicit ideas from a broad range of interests on 
ways to overcome obstacles to sustainable management 
activities. I think we're all seeking to do this in many, many 
ways, and we need to just keep on trying and appreciating the 
fact that every American wants to have a voice in government 
decisions.
    No. 5, move away from the reliance on the traditional 
timber sale contract as the sole source of vegetation 
management. I'm so pleased to see the AG bill and the support 
for authorization of the forest service and of the Stewardship 
Contracting Authority. That, I think, is a tremendous step 
forward. The more we can move in that direction, the better off 
all of us will be.
    No. 6, and this has been mentioned many times, a fixed fire 
funding issue of the forest service to really restore the 
capability of the agency to work more broadly on the land. This 
will go a long way, I think, in getting more work done on the 
land where it really counts--so to speak, where the rubber 
meets the road.
    No. 7, and perhaps as important as any, the first Chief of 
the Forest Service, Gifford Pinchot, said that, you know, we 
manage forests for the greatest good for the greatest number in 
the long run. One of those new greatest goods, I believe, is 
forests managed for climate change, storehouses of carbon. 
Reinforcing the importance of water, that was part of the 
original establishment of the national forests more than a 
century ago. That's so important.
    Keep an eye on integrated forest management that includes 
timber harvest, includes thinning, includes putting roads to 
bed where they're not needed, includes the whole array of fish 
habitat improvement, water quality, recreation, hiking, biking, 
and all those things where kids can go and enjoy public lands 
and not have to worry about ``No Trespassing'' signs.
    With that, I'll conclude and will be happy to answer 
questions anytime.
    [The prepared statement of Mr. Dombeck follows:]

   Prepared Statement of Mike Dombeck, Board Member, Trout Unlimited
    Thank you for inviting me to testify today on S. 1966, the National 
Forest Jobs and Management Act of 2014. I greatly appreciate this 
Committee's important role in the oversight and protection of our 
nation's precious natural resources and public lands. I'm very familiar 
with this hearing room, having testified here many times as Chief of 
the Forest Service and as the acting-Director of the Bureau of Land 
Management. I am here today on my own behalf, and also as a Board 
member of Trout Unlimited--an organization with a strong knowledge of, 
and mission interest in, management of our National Forests.
    The public ownership of land is rooted in the founding of the 
United States. The original 13 colonies--the eastern states--ceded 
their ownership of western lands to the federal government. In exchange 
for extensive land grants within their territories, western territories 
relinquished claims to the unappropriated lands inside their 
boundaries. Congress required that these agreements be reflected in 
each new state's constitution as ``ordinances irrevocable.'' The Public 
Lands belong to all citizens of the United States.
    Disposition, allocation and management of public lands have always 
been very important and controversial work. As this nation matures, the 
population increases, and more land is urbanized and developed, how we 
manage our public land becomes even more important. Recall the old Will 
Rogers' cliche, ``buy land, they ain't making it anymore.''
    For nearly the past half century the public lands managed by the 
Forest Service and Bureau of Land Management, have been managed for 
multiple uses as mandated by law. However, translating multiple-use on 
the ground is no easy task. Every constituency--forest products, 
grazing, mining, recreation, wilderness, and so on--pushes to maximize 
its interest. Couple this with constantly changing economic needs and 
social values, and the challenge gets even messier.
    The most important recommendation I have for this Committee, the 
Congress and the Executive Branch is focus on is how to maintain the 
long term health and productivity of the land. The challenge as defined 
by Gifford Pinchot is to manage for the ``greatest good for the 
greatest number for the longest time.'' Water was a basic value, and 
watershed protection and restoration a basic concern that led to the 
establishment of the National Forests in both the eastern and western 
United States. The critical role forests play in the carbon cycle and 
moderating climate change is perhaps the most recent value we must take 
seriously. The severe drought in California and parts of the West and 
other extreme weather patterns are reminders that maintaining and 
protecting forests and their sound management is of the utmost 
importance.
    I appreciate Senator Barrasso's interest in the need for properly 
managing multiple-use on our public forests. From World War II to the 
1980's, an era of different values, the Forest Service focused 
primarily on timber harvest. The all-time high was reached in the 
1980's with harvests approaching 12 billion board feet per year. Since 
1990, the agency has struggled to cut two billion board feet per year. 
Nearly everyone agrees that 12 billion was unsustainable--way too 
high--and most agree that we can do better than the 2.5 billion board 
feet being harvested today.
    No longer do we look at National Forests as bread-baskets of timber 
to be brought to market. They are managed for forest health, water 
supplies, hunting and angling, and yes, timber production, among many 
other multiple use values. But the truth is that the Forest Service is 
in its 24th year of transition, and we need to model new approaches to 
help the agency meet its multiple-use objectives including, but not 
limited to, cutting more timber from public lands.
    The guiding principle of my testimony is the need to manage for the 
long-term health and sustainable productivity of the land. And therein 
lays my primary concern with S. 1966. Rather than making the long-term 
health of the land, or even improving multiple-use management of the 
land its objective, this bill would make timber production from a 
portion of our publicly-owned forests the primary objective. Keep in 
mind the many long, protracted controversies of the past. Let's not 
repeat them by pushing the pendulum back so far and making one use 
dominant.
    In the spirit of offering solutions, I offer the Committee seven 
principles to consider as it debates how to help the Forest Service 
manage our public lands for land health while also achieving its 
multiple-use mandate.
         one, collaboration and collaborative stewardship work
    This committee has discussed several bills that model new 
approaches to help the Forest Service achieve its mandates. The Forest 
Jobs and Recreation Act introduced by Senator Tester is a good example 
of bringing conservation interests and timber interests together to 
protect wilderness quality lands; promote hazardous fuels treatments; 
and ensure more stability in timber management from certain forests in 
Montana.
    I encourage this committee to increase its support of science and 
local community-based collaborative groups, such as has been done by 
Chairman Wyden in Oregon and Senator Crapo in Idaho, and was led by 
former Chairman Bingaman and his support to for the Collaborative 
Forest Landscape Restoration Program. We also need to support Forest 
Service efforts to implement the new forest planning rule, allowing for 
greater collaborative participation by all communities with forest 
interests.
    In my home state of Wisconsin there is a grassroots effort 
beginning to take shape called the North East Wisconsin Collaborative. 
It brings together a diverse group of stakeholders from conservation, 
loggers, Tribal members, and forest industry representatives to find 
ways to accelerate the sustainable management of the Chequamegon-
Nicolet National Forest. This effort is being modeled from the many 
Collaborative Forest Landscape Restoration Program projects (CFLRP) 
that have been establish across the country, predominately around 
National Forests impacted by large scale wildfire. While wildfire 
typically isn't a the threat in the Great Lakes States as it is in the 
West, the effort in Wisconsin is aiming to promote the health of 
watersheds that drain into the Great Lakes while producing timber and 
jobs. Established CFLRP projects have shown that when diverse 
stakeholders come together significant progress can be made and should 
be extended to the National Forests east of the 100th Meridian.
  two, protect roadless areas, riparian areas, and old growth forests
    Any new National Forest policy should recognize the exceptional 
value of roadless areas and old growth forests. These aren't simply 
``more green lands'' on the map. In a very real way, they are the 
crucible on which the character of this nation was forged, and they 
should be protected and held in trust for the benefit and use of 
present and future generations. Old growth forests are essentially 
absent from private lands; the last place you can find them in this 
country is on public forests. Who would deprive a child of experiencing 
that wonder, a scientist of learning from them?
    Roadless areas remained roadless for a reason. These remaining wild 
places are typically difficult and expensive to get into for resource 
extraction, and in the past often resulted in below cost timber sales. 
Should we really consider putting roads into roadless areas when the 
Forest Service is running a multibillion dollar backlog on maintenance 
of its existing road system?
    Although roadless areas represent less than two percent of the 
American landscape, more than 25 percent of all endangered species are 
dependent on roadless areas. The table below, from a Trout Unlimited 
report, shows the value of roadless areas in Idaho to trout and salmon. 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Nearly a quarter of Americans drink water that flows across 
roadless areas. To not recognize their social and ecological values in 
legislation would be a tremendous lost opportunity. I have attached a 
section of the preamble to the 2001 Roadless Rule which details the 
full range of social, economic and ecological values of these lands. 
More recently science pointed out the role of forests and old growth in 
the carbon cycle and mitigating the effects of climate change.
    When it comes to riparian areas, the Forest Service itself has 
pioneered methods such as the Aquatic Conservation Strategy, Pacfish, 
and Infish that protect streamside areas in the forests on the westside 
of the Cascades, other anadromous fish habitats in the National Forest 
System, and important inland trout habitat, respectively. Riparian 
areas in the West, in particular, have an outsized conservation value. 
Although they represent only two percent of the western landscape, more 
than 75 percent of all wildlife species are dependent on them.
   three, focus timber harvest and forest management to restore and 
               improve forest health and reduce fire risk
    Focus on the interface of forests and human communities. The fact 
is that our greatest forest management needs are not in backcountry 
areas, or areas with the biggest and oldest trees, they are in places 
where public forests run up against private lands and communities. 
Wildfires can be a huge problem in such areas, especially in wildfire-
dependent landscapes that have had fire suppressed for decades. We 
should follow the models of collaborative stewardship that allow for 
the protection of backcountry areas while also allowing communities to 
create defensible spaces in areas adjacent to their forest-bordering 
homes.
    I note, for example, that the first person to litigate the 2001 
Roadless Area Conservation Rule was then Lieutenant-Governor James 
Risch of Idaho. But he didn't stop there. As Governor, he brought all 
of the people who had an interest in roadless management--the state, 
counties, environmental and commodity interests--together, and forged a 
made-in-Idaho agreement that allows for urban-wildland communities to 
take proactive actions to protect communities from wildfires while 
still also protecting roadless areas. Importantly, groups such as Trout 
Unlimited who participated in its development, argue that the Idaho 
Roadless Rule's conservation measures as strong or stronger than the 
2001 national roadless rule. Colorado followed a similar process.
    I commend Senator Risch for his work, and the Idaho example in 
seeking ways to protect roadless areas and their values while also 
protecting wildland-urban communities from the effects of wildfire.
four, solicit ideas from a broad range of interests on ways to overcome 
             obstacles to sustainable management activities
    History teaches us that real progress is made when communities of 
place and interest come together to find solutions on the land. As 
Congress and the Forest Service look at ways to plan and implement 
projects more efficiently, they would be well served to solicit the 
ideas of a broad range of stakeholders. The issues that S. 1966 seeks 
to address have been around for a while, and a lot of thinking has gone 
into solutions--one example being the Healthy Forest Restoration Act. 
By bringing a broad spectrum of interests together to think about ways 
to make Forest Service processes more efficient, members of this 
Committee could come up with approaches that better accomplish balanced 
multiple use management. Senator Barrasso is to be commended for 
offering ideas to fix a problem of concern to many. We should be as 
diligent in protecting the interests of people who have invested in 
collaborative stewardship as we are at ensuring that all interests have 
a voice in the management of National Forests.
 five, move away from reliance on the traditional timber sale contract
    I realize that my recommendation runs contrary to this bill, but it 
is time to move away from sole reliance the timber sale contract as the 
prime vehicle for national forest management. This bill would require 
the use of timber sale contracts for all timber management. (Note that 
25 percent of all timber receipts are returned to states and counties 
for schools and roads.)
    It is time that we move away from fundamental need to educate our 
children with revenues from timber harvest of public forests. No other 
country in the world bases the quality of their children's education on 
how much timber they cut. It is not sustainable over the long haul for 
either the forest or local schools.
    The Forest Service should rapidly accelerate the use of stewardship 
contracting. Stewardship contracting allows the Forest Service to apply 
the revenues generated from timber sales to other priorities such as 
road and culvert maintenance, forest health, stream improvement 
projects, and other hard-to-fund work that can help to make forests 
more resilient to the effects of climate change. I am delighted the 
current Farm Bill Conference Report recognized this and provides the 
Forest Service with permanent authority for Stewardship contracting.
six, treat the forest service like every other federal agency that has 
                     to deal with natural disasters
    In FY 1991, fire spending accounted for roughly 13 percent of the 
total Forest Service budget, while in FY13 fire spending ate up more 
than 40% of the budget. The agency has lost $500 million dollars from 
programs that help to improve forest health, keep drinking water clean, 
suppress invasive species, promote hunting and fishing, get kids 
outdoors, improve access to forests, and so on by diverting resources 
for fire-fighting.
    Truly, this is an inefficient way to run an agency, and it is time 
Congress fixed the problem. Simply stated, Congress should treat the 
Forest Service the same as any other federal agency with funding 
responsibilities for natural disasters. No other single agency within 
the entire federal government must fund disaster response--which is 
what fighting fires can amount to--from discretionary budgets. This is 
one issue that all currently retired Forest Service Chiefs are in 
complete agreement on and we have written the Congress about on 
numerous occasions
    I commend Senators Wyden, Crapo and their colleagues, including my 
own home State Senator Baldwin, for their efforts and bipartisan 
approach to fix this funding issue which has literally hamstrung the 
Forest Service's capacity in all forest management activities. 
Additionally, it will take constant vigilance to see that investments 
are made up-front that will reduce fire danger and costs in the long 
run. This will produce timber and jobs in the process.
 seven, and perhaps most important, national forest policy should make 
  making forests more resilient to the effects of climate change and 
                 their capacity to produce clean water
    The Forest Service is a leader among federal agencies in preparing 
for climate change. Managing public lands so they are better able to 
withstand the effects of climate change benefits human communities and 
fish and wildlife, too. For example, protecting roadless areas 
minimizes downstream drinking water filtration costs. Reconnecting 
rivers to floodplains helps to reduce the energy of devastating floods. 
Restoring fire dependent forests can provide tens of thousands of well-
paying, family wage jobs.
    One note of caution: while thinning trees is an important aspect of 
forest restoration, it does not and should not define restoration. The 
February, 2012 Forest Service report, ``Increasing the Pace of 
Restoration and Job Creation on Our National Forests'' does a good job 
of describing how to accelerate thinning. But cutting trees alone will 
not restore our forests. Unsustainable timber harvest and development 
of other resources in the past have left many Forest Service lands in 
need of a wide range of restoration actions. Restoration must be 
approached by looking at how best to recover ecological processes that 
keep the land healthy. Closing or relocating roads; fixing culverts; 
removing unneeded small dams and fixing obsolete water diversions; 
ensuring adequate flows of water; and thinning are all part of an 
integrated forest restoration strategy. The temptation for the Forest 
Service and Congress will be to try and cut our way to healthy forests.
    One example of a strong restoration effort comes from Montana's 
Middle Clark Fork basin where historic placer mining and other resource 
extraction badly damaged tributary streams that provide important 
spawning and rearing habitat for bull trout and cutthroat trout. One of 
these tributaries is Ninemile Creek, where the Forest Service and its 
partners improved 12 miles of instream habitat, reclaimed 100 miles of 
unused logging roads, planted 10,000 trees and shrubs, upgraded or 
removed 70 culverts and incorporated 3,000 volunteer hours into 
watershed restoration planning and implementation. After the completion 
of these projects, cutthroat trout were able to migrate up Ninemile 
Creek for the first time in 70 years. The outpouring of volunteer hours 
and matching funding contributions to the restoration of the Middle 
Clark Fork is a testament to the public's desire to improve and restore 
our national forests. This example is a useful reminder that cutting 
certain trees may be an important aspect of restoration, but it is only 
one small part of an integrated restoration strategy.
    These integrated approaches to forest restoration, combined with 
fixing the fire funding issues, provide the best opportunity I've seen 
to move beyond the current frustration and make a real difference on 
the land. I applaud the Forest Service for developing a categorical 
exclusion for certain restoration projects to enable them to move 
forward more efficiently. And I encourage Congress to maximize these 
opportunities by providing the Forest Service with adequate 
appropriations to plan and implement restoration projects, and by 
improving the agency's fire funding system. These steps will result in 
real progress while stakeholders consider ways to efficiently implement 
ecologically based forest management activities on the land.
    Integrated National Forest restoration can bring benefits to many 
communities with great value, including water, tourism, timber, and 
jobs as well as the remarkable legacy of having public places without 
``no trespassing'' signs where kids growing up can connect with nature. 
Our national forests are places to recreate, hunt, fish, hike, 
experience solitude and wild places, the places to restore human health 
and spirit while enjoying the great outdoors
    Thank you for the opportunity to testify today. I would be pleased 
to answer any questions.
       appendix: preamble to 2001 roadless area conservation rule
Roadless Area Values and Characteristics
    Inventoried roadless areas considered in this rule constitute 
roughly one-third of all National Forest System lands, or approximately 
58.5 million acres. Although the inventoried roadless areas comprise 
only 2% of the land base in the continental United States, they are 
found within 661 of the over 2,000 major watersheds in the nation (FEIS 
Vol. 1, 3-50) and provide many social and ecological benefits.
    As urban areas grow, undeveloped private lands continue to be 
converted to urban and developed areas, and rural infrastructure (such 
as roads, airports, and railways). An average of 3.2 million acres per 
year of forest, wetland, farmland, and open space were converted to 
more urban uses between 1992 and 1997. In comparison, 1.4 million acres 
per year were developed between 1982 and 1992. The rate of land 
development and urbanization between 1992 and 1997 was more than twice 
that of the previous decade, while the population growth rate remained 
fairly constant (FEIS Vol. 1, 3-12). In an increasingly developed 
landscape, large unfragmented tracts of land become more important. For 
example, from 1978 to 1994, the proportion of private forest ownerships 
of less than 50 acres nearly doubled (Birch, T.W. 1996. Private forest-
land owners of the United States, 1994. Resource Bulletin NE-134. 
Radnor, PA: USDA Forest Service, Northeastern Experiment Station. 183 
p). Subdivision and other diminishment of tract size of these lands can 
discourage long-term stewardship and conservation.
    Inventoried roadless areas provide clean drinking water and 
function as biological strongholds for populations of threatened and 
endangered species. They provide large, relatively undisturbed 
landscapes that are important to biological diversity and the long-term 
survival of many at risk species. Inventoried roadless areas provide 
opportunities for dispersed outdoor recreation, opportunities that 
diminish as open space and natural settings are developed elsewhere. 
They also serve as bulwarks against the spread of non-native invasive 
plant species and provide reference areas for study and research (FEIS 
Vol. 1, 1-1 to 1-4).
    The following values or features often characterize inventoried 
roadless areas (FEIS Vol. 1, 3-3 to 3-7):
    High quality or undisturbed soil, water, and air. These three key 
resources are the foundation upon which other resource values and 
outputs depend. Healthy watersheds catch, store, and safely release 
water over time, protecting downstream communities from flooding; 
providing clean water for domestic, agricultural, and industrial uses; 
helping maintain abundant and healthy fish and wildlife populations; 
and are the basis for many forms of outdoor recreation.
    Sources of public drinking water. National Forest System lands 
contain watersheds that are important sources of public drinking water. 
Roadless areas within the National Forest System contain all or 
portions of 354 municipal watersheds contributing drinking water to 
millions of citizens. Maintaining these areas in a relatively 
undisturbed condition saves downstream communities millions of dollars 
in water filtration costs. Careful management of these watersheds is 
crucial in maintaining the flow and affordability of clean water to a 
growing population.
    Diversity of plant and animal communities. Roadless areas are more 
likely than roaded areas to support greater ecosystem health, including 
the diversity of native and desired nonnative plant and animal 
communities due to the absence of disturbances caused by roads and 
accompanying activities. Inventoried roadless areas also conserve 
native biodiversity by serving as a bulwark against the spread of 
nonnative invasive species.
    Habitat for threatened, endangered, proposed, candidate, and 
sensitive species and for those species dependent on large, undisturbed 
areas of land. Roadless areas function as biological strongholds and 
refuges for many species. Of the nation's species currently listed as 
threatened, endangered, or proposed for listing under the Endangered 
Species Act, approximately 25% of animal species and 13% of plant 
species are likely to have habitat within inventoried roadless areas on 
National Forest System lands. Roadless areas support a diversity of 
aquatic habitats and communities, providing or affecting habitat for 
more than 280 threatened, endangered, proposed, and sensitive species. 
More than 65% of all Forest Service sensitive species are directly or 
indirectly affected by inventoried roadless areas. This percentage is 
composed of birds (82%), amphibians (84%), mammals (81%), plants (72%), 
fish (56%), reptiles (49%), and invertebrates (36%).
    Primitive, Semi-Primitive Non-Motorized, and Semi-Primitive 
Motorized classes of dispersed recreation. Roadless areas often provide 
outstanding dispersed recreation opportunities such as hiking, camping, 
picnicking, wildlife viewing, hunting, fishing, cross-country skiing, 
and canoeing. While they may have many Wilderness-like attributes, 
unlike Wilderness the use of mountain bikes, and other mechanized means 
of travel is often allowed. These areas can also take pressure off 
heavily used wilderness areas by providing solitude and quiet, and 
dispersed recreation opportunities.
    Reference landscapes. The body of knowledge about the effects of 
management activities over long periods of time and on large landscapes 
is very limited. Reference landscapes of relatively undisturbed areas 
serve as a barometer to measure the effects of development on other 
parts of the landscape.
    Natural appearing landscapes with high scenic quality. High quality 
scenery, especially scenery with natural-appearing landscapes, is a 
primary reason that people choose to recreate. In addition, quality 
scenery contributes directly to real estate values in nearby 
communities and residential areas. Traditional cultural properties and 
sacred sites.
    Traditional cultural properties are places, sites, structures, art, 
or objects that have played an important role in the cultural history 
of a group. Sacred sites are places that have special religious 
significance to a group. Traditional cultural properties and sacred 
sites may be eligible for protection under the National Historic 
Preservation Act. However, many of them have not yet been inventoried, 
especially those that occur in inventoried roadless areas.
    Other locally identified unique characteristics. Inventoried 
roadless areas may offer other locally identified unique 
characteristics and values. Examples include uncommon geological 
formations, which are valued for their scientific and scenic qualities, 
or unique wetland complexes. Unique social, cultural, or historical 
characteristics may also depend on the roadless character of the 
landscape. Examples include ceremonial sites, places for local events, 
areas prized for collection of non-timber forest products, or 
exceptional hunting and fishing opportunities.
Fiscal Considerations
    The Department is also concerned about building new roads in 
inventoried roadless areas, when there presently exists a backlog of 
about $8.4 billion in deferred maintenance and reconstruction on the 
more than 386,000 miles of roads in the Forest Transportation System. 
The agency [[Page 3246]] estimates that at least 60,000 miles of 
additional unauthorized roads exist across National Forest System 
lands.
    The agency receives less than 20% of the funds needed annually to 
maintain the existing road infrastructure. As funding needs remain 
unmet, the cost of fixing deteriorating roads increases exponentially 
every year. Failure to maintain existing roads can also lead to erosion 
and water quality degradation and other environmental problems and 
potential threats to human safety. It makes little fiscal or 
environmental sense to build additional roads in inventoried roadless 
areas that have irretrievable values at risk when the agency is 
struggling to maintain its existing extensive road system (FEIS Vol. 1, 
1-5 and 3-22). The National Forest System was founded more than 100 
years ago to protect drinking water supplies and furnish a sustainable 
supply of timber. Neither objective is fully achievable given the 
present condition of the existing road system. The risks inherent in 
building new roads in presently roadless areas threaten environmental, 
social, and economic values.
    Development activities in inventoried roadless areas often cost 
more to plan and implement than on other National Forest System lands. 
Some planned timber sales in inventoried roadless areas are likely to 
cost more to prepare and sell than they realize in revenues received. 
Because of the level of public controversy and analytical complexity, 
projects in roadless areas often require development of costly 
environmental impact statements for most resource development 
activities, including timber harvesting, in inventoried roadless areas.
    In some cases, road construction costs are higher due to rugged 
terrain or sensitive ecological factors. Many development projects in 
inventoried roadless areas are appealed or litigated. These factors 
contribute to generally higher costs for the agency to plan and 
implement development activities in inventoried roadless areas.
National Direction vs. Local Decisionmaking
    At the national level, Forest Service officials have the 
responsibility to consider the ``whole picture'' regarding the 
management of the National Forest System, including inventoried 
roadless areas. Local land management planning efforts may not always 
recognize the national significance of inventoried roadless areas and 
the values they represent in an increasingly developed landscape. If 
management decisions for these areas were made on a case-by-case basis 
at a forest or regional level, inventoried roadless areas and their 
ecological characteristics and social values could be incrementally 
reduced through road construction and certain forms of timber harvest. 
Added together, the nation-wide results of these reductions could be a 
substantial loss of quality and quantity of roadless area values and 
characteristics over time.
    In 1972, the Forest Service initiated a review of National Forest 
System roadless areas generally larger than 5,000 acres to determine 
their suitability for inclusion in the National Wilderness Preservation 
System. A second review process completed in 1979, known as Roadless 
Area Review and Evaluation II (RARE II), resulted in another nationwide 
inventory of roadless areas. In the more than 20 years since the 
completion of RARE II, Congress has designated some of these areas as 
Wilderness. Additional reviews have been conducted through the land 
management planning process and other large-scale assessments. The 58.5 
million acres of inventoried roadless areas used as the basis for this 
analysis were identified from the most recent analysis for each 
national forest or grassland, including RARE II, land and resource 
management planning, or other large-scale assessments such as the 
Southern Appalachian Assessment.
    Of the 58.5 million acres of inventoried roadless areas considered 
in the FEIS, approximately 34.3 million acres have prescriptions that 
allow road construction and reconstruction. The remaining 24.2 million 
acres are currently allocated to management prescriptions that prohibit 
road construction; however, protections in these existing plans may 
change after future forest plan amendments or revisions.
    Over the past 20 years, roads have been constructed in an estimated 
2.8 million of those 34.3 million acres of inventoried roadless areas. 
The agency anticipates that the trend of building roads in inventoried 
roadless areas will gradually decrease in the future even without this 
rule due to economic and ecological factors already discussed, changes 
in agency policy, increasing controversy and litigation, and potential 
listings under the Endangered Species Act. While these anticipated 
changes may reduce some of the impact to inventoried roadless areas, 
they would not eliminate the future threat to roadless area values 
(FEIS Vol. 1, 1-14 to 1-15).
    On many national forests and grasslands, roadless area management 
has been a major point of conflict in land management planning. The 
controversy continues today, particularly on most proposals to harvest 
timber, build roads, or otherwise develop inventoried roadless areas. 
The large number of appeals and lawsuits, and the extensive amount of 
congressional debate over the last 20 years, illustrates the need for 
national direction and resolution and the importance many Americans 
attach to the remaining inventoried roadless areas on National Forest 
System lands (FEIS Vol. 1, 1-16). These disputes are costly in terms of 
both fiscal resources and agency relationships with communities of 
place and communities of interest. Based on these factors, the agency 
decided that the best means to reduce this conflict is through a 
national level rule.
Importance of Watershed Protection
    Watershed protection is one of the primary reasons Congress 
reserved or authorized the purchase of National Forest System lands. 
Watershed health and restoration is also one of four emphasis areas in 
the agency's Natural Resource Agenda. Protecting the remaining healthy 
components of a watershed provides multiple benefits and a strong base 
to anchor future restoration in unprotected portions of these 
watersheds. Rivers, streams, lakes, and wetlands within a watershed are 
the circulatory system of ecosystems, and water is the vital fluid for 
inhabitants of these ecosystems, including people (FEIS Vol. 1, 1-1).
    Inventoried roadless areas comprise a small fraction of the 
national landscape, representing less than 2% of the land base of the 
continental United States. They are, however, disproportionately 
important to the small percentage of the land base they occupy. 
Overall, National Forest System watersheds provide about 14% of the 
total water flow of the nation, about 33% of water in the West (FEIS 
Vol. 1, 3-46). Of the watersheds on National Forest System land, 661 
contain inventoried roadless areas and 354 of those watersheds serve as 
source areas of drinking water used by millions of people across the 
nation. Therefore, the health of these watersheds is important to 
people's health throughout the United States.
    Roads have long been recognized as one of the primary human-caused 
sources of soil and water disturbances in forested environments (FEIS 
Vol. 1, 3-44). For example, while landslides are a natural process, 
extensive research and other investigations in the West have closely 
associated land management activities, particularly roading and timber 
harvest, with accelerated incidence of landslides by several orders of 
magnitude (FEIS Vol. [[Page 3247]] 1, 3-58). A joint study by the 
Forest Service and Bureau of Land Management in Oregon and Washington 
found that of 1,290 landslides reviewed in 41 sub-watersheds, 52% were 
related to roads, 31% to timber harvest, and 17% occurred in 
undisturbed forest (FEIS Vol. 1, 3-59). Another evaluation of 
landslides initiated by the Siuslaw National Forest found that roads 
were the source of 41% of landslides, harvest units less than 20 years 
old were the source of 36%, while natural forest processes accounted 
for the remaining 23%. Without the disturbance caused by roads and 
associated activities, stream channels are more likely to function 
naturally (FEIS Vol. 1, 3-54). Current road construction and timber 
harvest practices reduce the potential for damage associated with the 
use of earlier and less sophisticated techniques. However, even with 
today's improved design standards for road construction and timber 
harvest, these activities can still result in adverse effects to 
watersheds. These effects include pollution, changes to water 
temperatures and nutrient cycles, and increased sediment from storm or 
runoff events that exceed road design standards (FEIS Vol. 1, 3-45 to 
3-50).
Improving Ecosystem Health
    Inventoried roadless areas provide large, relatively undisturbed 
blocks of important habitat for a variety of terrestrial and aquatic 
wildlife and plants, including hundreds of threatened, endangered, and 
sensitive species. In addition to their ecological contributions to 
healthy watersheds, many inventoried roadless areas function as 
biological strongholds and refuges for a number of species and play a 
key role in maintaining native plant and animal communities and 
biological diversity (FEIS Vol. 1, 3-123 to 3-124). For example, about 
60% of unroaded or very low road density sub watersheds within the 
Interior Columbia Basin Ecosystem Management Project (ICBEMP) 
assessment area are aquatic strongholds for salmonid populations (FEIS 
Vol. 1, 3-161). Inventoried roadless areas are key to recovery of 
salmon and steelhead stocks in decline, providing habitat to protect 
species until longer-term solutions can be developed for migration, 
passage, hatchery, and harvest problems associated with the decline of 
anadromous fish.
    Species richness and native biodiversity are more likely to be 
effectively conserved in larger undisturbed landscapes, such as 
inventoried roadless areas (FEIS Vol. 1, 3-142). For example, 
inventoried roadless areas cover approximately 21% of the centers of 
biodiversity for animals and 10% for plants identified in ICBEMP (FEIS 
Vol. 1, 3-144 and 3-173). Inventoried roadless areas also provide 
reference landscapes that managers can use to gauge the health and 
condition of other land areas.
    Road construction, reconstruction, and timber harvesting activities 
can result in fragmentation of ecosystems, the introduction of non-
native invasive species, and other adverse consequences to the health 
and integrity of inventoried roadless areas (FEIS Vol. 1, 3-128 to 3-
136). As human-caused fragmentation increases, the amount of core 
wildlife habitat decreases. This fragmentation results in decreased 
connectivity of wildlife habitat and wildlife movement, isolating some 
species and increasing the risk of local extirpations or extinctions 
(FEIS Vol. 1, 3-133). The value of inventoried roadless areas as 
habitat for threatened, endangered, and sensitive species and as 
biological strongholds can also be diminished due to these activities. 
For example, 220 species that are listed as threatened, endangered, or 
proposed for listing under the Endangered Species Act and 1,930 agency-
identified sensitive species rely on habitat within inventoried 
roadless areas (FEIS Vol. 1, 3-180). The Department of Agriculture 
believes that the risks associated with certain development activities 
in inventoried roadless areas should be minimized and that these areas 
should be conserved for present and future generations.
Need for Action
    Promulgating this rule is necessary to protect the social and 
ecological values and characteristics of inventoried roadless areas 
from road construction and reconstruction and certain timber harvesting 
activities. Without immediate action, these development activities may 
adversely affect watershed values and ecosystem health in the short and 
long term, expand the road maintenance backlog which would increase the 
financial burden associated with road maintenance, and perpetuate 
public controversy and debate over the management of these areas. The 
new planning rules provide for review of other activities and allow for 
additional protection of roadless areas, if warranted. Adoption of this 
final rule ensures that inventoried roadless areas will be managed in a 
manner that sustains their values now and for future generations.

    The Chairman. I will have some in a moment.
    Let's go with you, Mr. Georg, and then Senator Barrasso 
will begin the questions, and I will be back momentarily.

              STATEMENT OF CLINT GEORG, PARTNER, 
                   SARATOGA FOREST MANAGEMENT

    Mr. Georg. OK. Thank you, Mr. Chairman.
    My name is Clint Georg, and I'm one of the owners of a 
sawmill located in Saratoga, Wyoming. I appreciate the 
opportunity to comment on the legislation before this committee 
today. I will direct my remarks to the bill and share with you 
the insights I have gained as my partners and I have worked to 
restart the mill in Saratoga.
    I am also here as a member of the Federal Forest Resource 
Coalition. FFRC represents purchasers of forest service and BLM 
timber in 32 States.
    Let me start by describing our company. Our sawmill is 
located in Saratoga, Wyoming, a beautiful small town of 1,700 
people located in the southern part of the State. Saratoga is 
fortunate. In addition to having a gold medal trout river 
running through town, it also has a sawmill.
    In January of last year, we were able to reopen that 
sawmill after it had sat idle for more than 10 years. Our 
company now has more than 150 people working for it. We are the 
largest employer in this town. We have hired people who have 
previously had no work or seasonal work, and we've given them 
full-time jobs. We have employees and their families who have 
moved into town and expanded the communities. We have noticed 
existing businesses growing and new businesses opening up in 
the town.
    I believe this success demonstrates the impact that an 
active timber industry can have on a rural economy. The mill 
now provides much-needed forest management in the adjacent 
national forest.
    This need is heightened by the crisis affecting those 
forests and many other of our forests nationwide. Disease and 
insects are killing millions of acres of trees. The forest in 
our area is experiencing nearly 100 percent mortality. This 
leads to massive fires, impacts our watersheds, affects our air 
quality, and ruins the ecology that supports our wildlife.
    It is particularly galling that this situation was in large 
part created by policy, not by nature. Yes, drought and climate 
change play a role in this crisis. But the now-discounted past 
forest management policies are the root cause. Suppressing 
fires in these forests, a policy in place since 1908, combined 
with the dramatically reduced timber harvests starting in the 
1990s, created a situation in our area of too many trees, all 
the same approximate age, packed too closely together, and 
fighting for too few nutrients--a situation perfectly suited 
for massive outbreaks of insects, disease, and fire.
    Active forest management is needed to help restore our 
forests. But in a cruel irony, in the midst of an unprecedented 
catastrophe affecting our forests, the very companies that can 
use this timber to help pay to restore the woodlands are 
suffering from a lack of access to timber.
    As an example, in Wyoming, Colorado, and South Dakota, we 
have a small industry comprised of private and family owned 
timber businesses that must rely on Federal forests for their 
supply of logs. However, in this area, with 7 million acres of 
infected forest needing critical management, the forest service 
is unable to treat even 0.7 percent of these annually. That's 
the amount needed for us as an industry to survive.
    Let me be clear: The forest service wants active forest 
management. They want to see our timber businesses survive and 
help restore the forests. But they do not have the fiscal 
resources to do what is needed. One reason for this is the 
financial drain to the forest service of administering NEPA 
under the current constraints of possible litigation.
    Senator Barrasso's bill provides an opportunity to try a 
new approach on a limited scale. It proposes to take less than 
4 percent of the national forest system and allow the forest 
service to use a streamlined approach to NEPA and ESA. This 
proposed bill will preserve the ability of interested parties 
to file objections, but streamlines the process, using binding 
arbitration to reduce costs, which puts more resources into the 
management of land rather than litigation.
    Senator Barrasso's bill also directs the forest service to 
implement timber harvest on 7.5 million acres over a 15-year 
timeframe. Timber harvests put money back to the forest service 
and help pay for other resource management.
    The impact of Senator Barrasso's bill is a win/win on many 
levels. Funds freed up from litigation will allow the U.S. 
Forest Service to devote more funds to increasing the pace and 
scale of forest restoration, which in turn improve our wildlife 
habitats, air quality, and protect our watersheds. Of course, 
restoring our forests while increasing timber sales will lead 
to revitalizing rural economies, much like we have seen in 
Saratoga.
    Thank you for this opportunity to share my thoughts and 
experiences. When considering action on this proposed 
legislation, please consider that the current system is driving 
the decline of our national forests and is unsustainable both 
ecologically and economically. We can't change the fact that a 
great deal more of our forests will die from insects and 
disease in the coming year. We can't change the near-term need 
to spend more money and time suppressing wildfire.
    But what we can change is this lack of active forest 
management. Senator Barrasso's bill offers a meaningful step 
forward in restoring our national forests. Therefore, I 
strongly urge and request, on behalf of my company and the 
FFRC, that we support this bill and move it toward passage. 
Thank you.
    [The prepared statement of Mr. Georg follows:]

 Prepared Statement of Clint Georg, Partner, Saratoga Forest Management
    Mr. Chairman, Ranking Member Murkowski, my name is Clint Georg and 
I am one of the owners of a sawmill located in Saratoga, Wyoming. This 
sawmill had been idled for 10 years before my partners and I restarted 
the mill last year. We opened this mill in large part due to the need 
and opportunity for active forest management in the adjacent national 
forests and, in recognition of this, our company is named Saratoga 
Forest Management.
    I appreciate the opportunity to comment on the legislation before 
the committee today. I will direct my remarks to Sen. Barrasso's bill, 
the National Forest Jobs and Management Act of 2014. As part of my 
remarks, I would like to share with you the insights I have gained as 
my partners and I have worked to restart the mill in Saratoga.
    Saratoga, a small town of 1,700 people, sits in Carbon County, and 
the adjacent county is Albany County, Wyoming. These two counties have 
poverty rates above the State average (11.4% in Carbon County, Albany 
County has 26.2%; one in four of its residents live below the poverty 
line\1\) and many jobs in the region are seasonal. The process of 
reopening the sawmill took two years and millions of dollars in 
refurbishments, but in January of last year we starting producing 
lumber once more in Saratoga. Currently we have more than 100 full time 
employees and more than 50 contract loggers and truck drivers working 
for us. We are the largest employer in the town and since opening we 
have seen the impact to the community. We have had employees and their 
families move into the community, buy houses and support the community. 
We also have noticed existing businesses expanding and new businesses 
opening in the town. We are very pleased that our mill has provided a 
new impetus to this rural community, and we're happy to have restored a 
business in the area that helps provide jobs while stimulating the 
local economy.
---------------------------------------------------------------------------
    \1\ US Dept. of Commerce, US Census Bureau. Retrieved from http://
quickfacts.census.gov/qfd/states/56/56001.html & 56007.html
---------------------------------------------------------------------------
    I am also here as a member of the Federal Forest Resource 
Coalition. FFRC represents purchasers of Forest Service and BLM timber 
in 32 states. FFRC has previously testified that what is needed for our 
National Forests is a comprehensive, national bill that provides 
clarity about how the Forest Service is to comply with NEPA, as well as 
some relief from the frequently abused administrative reviews and 
litigation that plague Forest Service decision making.
    By now, as members of this committee, you are very familiar with 
the crisis affecting our forests. The numbers defining this disaster 
are staggering----

  <bullet> 81 million acres of our forests have severe health problems, 
        the largest portion of which is in the Western United 
        States.\2\
---------------------------------------------------------------------------
    \2\ Frank J. Krist Jr., James R. Ellenwood, Meghan E. Woods, et. 
al., ``2013-2027 National Insect and Disease Forest Risk Assessment'' 
(USDA, US Forest Service, January, 2014) pg ii.
---------------------------------------------------------------------------
  <bullet> 9.3 million acres burned in 2012, and over the past several 
        years, dozens of people have been injured or killed by 
        wildfires and hundreds of homes lost.\3\
---------------------------------------------------------------------------
    \3\ US House of Representatives, Committee on Natural Resources, 
``Forest Health and Wildfires'', Retrieved from http://
naturalresources.house.gov/issues/issue/?IssueID=5924
---------------------------------------------------------------------------
  <bullet> The ecological and economic damage from these fires has also 
        grown as the average wildfires have grown to double what they 
        were 40 years ago.\4\
---------------------------------------------------------------------------
    \4\ USDA, US Forest Service, ``Forest Service Chief testifies on 
wildfire response capabilities, challenges'', June 4, 2013, Retrieved 
from http://www.fs.fed.us/news/2013/releases/06/chief-testifies-on-
wildfire.shtml
---------------------------------------------------------------------------
  <bullet> As a consequence of all this, the USFS now spends 47% of its 
        budget fighting fires, up from 13% back in 1991.\5\
---------------------------------------------------------------------------
    \5\ Ibid.

    Although the present danger of massive and destructive fires is 
undoubtedly the forest health issue that gets the most widespread 
attention, there are other critical issues related to forest management 
that must be addressed. The danger from fires, already heightened, 
unfortunately increases again in approximately 15 to 20 years when the 
trees killed by the pine bark beetle rot and fall down, adding woody 
material to the young trees and other fine fuels growing on the forest 
floor. A fire in this arrangement is difficult to suppress and will 
pose additional safety hazards to firefighters. Severe wildfires of 
this type burn at higher intensities and for longer durations which can 
be very detrimental to plant communities, soils, and watersheds.\6\
---------------------------------------------------------------------------
    \6\ Colorado State Forest Service. ``2005 Report on the Health of 
Colorado's Forests,'' (January 2006) pg 6. Retrieved from http://
www.law.du.edu/thomson/AdminWiki/AgricultureForest_Service/
Health_of_Colorado_Forests.pdf
---------------------------------------------------------------------------
    In addition, essential water supplies are at risk due to the impact 
dead forests have on watersheds. Research completed just last year 
focused on the impact of beetle kill forests on our watershed and found 
healthy watersheds ultimately depend on healthy forests.\7\ Changes in 
tree canopies affect snowpack development and snowmelt. For example, a 
lack of needles on branches lets more snow fall through the canopy--
snow that would otherwise be caught on branches. A tree without needles 
also has less shade beneath it. The result is a shallower snowpack, 
earlier snowmelt and less water in spring. The impact is felt on a far 
greater scale than the immediate forest; within the heart of the beetle 
outbreak in Colorado and Wyoming are the headwaters for rivers 
supplying water to 13 Western states.
---------------------------------------------------------------------------
    \7\ National Science Foundation ``Ghosts of Forests Past: Bark 
Beetles Kill Lodgepole Pines, Affecting Entire Watersheds'' (June, 
2013). Retrieved from: http://www.nsf.gov/mobile/discoveries/
disc_summ.jsp?cntn_id=128398&org=NSF
---------------------------------------------------------------------------
    The mountain pine beetle outbreak also is affecting our climate. 
Our forests consume carbon dioxide and generate oxygen in a process 
that helps refresh our atmosphere. During outbreaks, the resulting 
widespread tree mortality reduces forest carbon uptake and increases 
future emissions from the decay of killed trees. This impact converts 
the forest from a net carbon sink to a large net carbon source.\8\
---------------------------------------------------------------------------
    \8\ W. A. Kurz, C. C. Dymond, G. Stinson, et. al., ``Mountain pine 
beetle and forest carbon feedback to climate change'', (Nature, April, 
2008). Retrieved from http://www.nature.com/nature/journal/v452/n7190/
full/nature06777.html
---------------------------------------------------------------------------
    Of course, the ecological disaster in our forest is impacting the 
animals that live there. Elk research at the USFS Starkey Experimental 
Forest and Range in NE Oregon documents overgrown and overdense 
``dry'', forests as the key contributor to declining elk herds in many 
western states. Low nutrition on summer ranges strongly linked to fire-
prone forest habitat is seen as a key limiting factor for elk\9\.
---------------------------------------------------------------------------
    \9\ Wisdom, Mike and Vavra, Marty, ``New Paradigms for Evaluating 
and Managing Elk Habitats: a Glimpse of the Future for Elk on Public 
Lands'', (Fair Chase, Summer 2011), pg 21.
---------------------------------------------------------------------------
    Some species of birds rely on habitats that are now created almost 
solely through commercial forest management. As a result of the 
reduction in timber harvests on National Forests over the past few 
decades, there have been significant population declines for bird 
species including the Ruffed Grouse, Eastern Towhee, Field Sparrow, 
Brown Thrasher and Golden-Winged Warbler to name a few\10\.
---------------------------------------------------------------------------
    \10\ Dessecker, Dan, Ruffed Grouse Society, Letter to U.S. Senate 
Committee on Energy and Natural Resources, January, 29 2014
---------------------------------------------------------------------------
    These statistics are very meaningful however, they don't fully 
define the tragedy. If you live in the area impacted, as I do, you get 
a much clearer understanding of the crisis:

  <bullet> The three most destructive fires in Colorado happened in the 
        past 20 months and Wyoming's worst fire season was 2012.\11\ If 
        you live in this area, you will see the billboards and banners 
        thanking the firefighters for putting out the previous big 
        fires, but you will also get a sense that there are likely to 
        be even bigger fires, and more tragedies in the future.
---------------------------------------------------------------------------
    \11\ Billings Gazette, ``Wyoming's 2014 Fire Season is Anyone's 
Guess'', January 06, 2014. Retrieved from http://billingsgazette.com/
news/state-and-regional/wyoming/wyoming-s-fire-season-is-anyone-s-
guess/article_c700c130-6d5d-570a-a90f-c358fa74f811.html.
---------------------------------------------------------------------------
  <bullet> When you speak to professional foresters in the area, you 
        may be surprised to learn that many of these professionals, 
        whose careers are spent in the forests, now have grave 
        reservations about going into the woods because of the 
        increasing danger of falling branches and trees in the mostly 
        dead forests.
  <bullet> Elk hunters in the area talk about the change in patterns of 
        the elk herds because of the dead forests and the State of 
        Wyoming is now studying that issue.\12\
---------------------------------------------------------------------------
    \12\ Wyoming Game and Fish Department, ``Elk Collared to Monitor 
Movements in Beetle Killed Forests'', (April, 2012) http://
wgfd.wyo.gov/web2011/news-1000698.aspx
---------------------------------------------------------------------------
  <bullet> National Forest campsites all throughout Colorado and 
        Wyoming are closed or cleared of their trees to prevent these 
        dead and dying trees from falling on campers. For the past two 
        seasons, camp fires have been banned in these forests because 
        of the threat of fire.
  <bullet> The signs of forest devastation are obvious to anyone living 
        or visiting the area and are very personal. Now, and for the 
        past few years, when I drive my 10 and 11 year old children 
        from Denver to our favorite ski resorts we no longer see the 
        miles of beautiful green forests that originally drew my family 
        to the region. And my favorite drive in Wyoming, the 
        spectacular Snowy Range Road, now provides a vista of, not 
        purple mountain majesties, but horizon to horizon of largely 
        dead spruce and Lodgepole pine.

    In all, there are more than 7 million acres of forests like this in 
WY and CO that are desperately in need of restoration. This is the 
legacy of forest management that we are leaving our children and our 
grandchildren.
    It is particularly galling to anyone who loves the outdoors that 
this crisis was in large part created by policy, not by nature. Drought 
and higher temperatures play a role in this crisis, but the unhealthy 
structure of the forest is the root cause.
    The functioning of the forests in my region are well understood and 
have been for years.

  <bullet> The various forest types in the Rockies all evolved with 
        fire, whether it was lower intensity fires in the ponderosa 
        pines or higher intensity but rarer fires in spruce and 
        Lodgepole stands. None of these stands live forever, and all 
        relied on fire to regenerate or maintain stand structure. 
        However, since 1908, the Federal government worked with the 
        States to actively suppress fire--something that now, with the 
        expanding population and development in our forested states is 
        even more important.
  <bullet> The result of suppressing fires is increased fuel loading in 
        our forests--more trees, packed closed together, weaker because 
        of fighting for nutrients and more prone to natural disasters 
        such as insects, disease or uncontrollable fires.
  <bullet> This suppression of fire was actually not as harmful prior 
        to about 1990. This is because timber harvests replaced fire as 
        the means of thinning the forests. In the 1960s, 1970s and even 
        in the early 1980s, timber harvests while still not removing 
        enough timber to completely eliminate the fuel loading, were 
        doing enough to keep the forests in balance--an admirable state 
        of affairs.
  <bullet> Revisions to forest plans in the 1990's and the decision to 
        stop managing roadless areas moved us away from this balanced 
        approach to managing our forests. This was the policy change 
        that helped create the crisis. As a result, harvests dropped 
        precipitously to unsustainable levels of less than 2 billion 
        board feet. Since then, growth has greatly exceeded removals, 
        and now bugs and fire are harvesting the excess. An industry 
        that had been the envy of the world was devastated and the 
        National Forest System, a national treasure that was 
        instrumental in creating this country and spurring it on to 
        greatness, was set on the path to the catastrophe we are now 
        living.

    Many of the policies that contributed to this crisis are 
unfortunately still with us and limit the amount of timber being 
harvested from our forests. And yet, active forest management, which 
produces valuable timber also has a direct benefit in restoring forests 
to a healthy state.

  <bullet> In a Lodgepole forest for instance, dead stands of trees 
        limit the sunlight from reaching the forest floor which 
        inhibits seed regeneration. Falling trees further block 
        regrowth and can take 100 years to decompose. Well before then, 
        the seeds have lost their viability and the forest has little 
        chance to regenerate.
  <bullet> Harvesting the dead stands of Lodgepole pine, on the other 
        hand, mimics the effects of a wildfire and opens the forest 
        floor to sunlight which leads to rapid regrowth.
  <bullet> Once the dead trees are removed, regeneration starts 
        immediately and within a few short years, the forest has 
        renewed vitality.

    In a cruel irony, in the midst of one of the worst catastrophes to 
hit our forest, the very companies that could be used to restore these 
forests are suffering from a lack of access to timber.
    As an example, in Wyoming, Colorado and South Dakota, we have a 
small industry comprised of private and family owned timber businesses. 
These businesses must rely on federal forests for their supply of logs 
and even though the area includes 7 million acres of infected forests 
needing critical management, the amount of timber acreage the USFS is 
able to provide falls far short of the 52,000 acres that we, as an 
industry, need annually to survive. In the midst of the worst 
ecological crisis facing our forests, where active forest management is 
desperately needed, our industry is facing a very real potential for 
failures and shutdowns.
    One reason for this is the financial drain to the USFS of 
administering NEPA under the current constraints. Under the present 
NEPA process, extremist groups can continue to use litigation to impede 
the active forest management that can help restore portions of our 
ravaged forests.
    To be clear, we are not speaking about mainstream conservation 
groups. Environmentalists, US and State Forest Services and the timber 
industry alike recognize the need to increase the pace and scale of 
restoration.\13\ Extreme groups, though, often do not collaborate, have 
no investment in the outcome of the timber sale, and instead have used 
appeals and litigation to kill collaborative efforts and badly needed 
forest management projects. As an example, in 2012, NEPA related 
litigation regarding a sale on the Rio Grande National Forest in 
Southern Colorado took 2.5 years to get through the courts.\14\ In the 
end, the sale was stopped and that same area is now heavily infected by 
Spruce beetle with severe mortality.
---------------------------------------------------------------------------
    \13\ US Department of Agriculture, Forest Service, ``Increasing the 
Pace of Restoration and Job Creation on Our National Forests'', 
(February 2012), pg. 3.
    \14\ Draper, Heather, ``DU law students block SW Colorado logging 
permit'', (Denver Business Journal, February 10, 2012)
---------------------------------------------------------------------------
    The fact that forest health and restoration efforts face the 
possible gauntlet of prolonged NEPA analysis, followed by the 
possibility of administrative reviews and litigation as obstructionist 
tactics, causes the USFS to incur stifling high costs and unreasonable 
delays on each timber sale just to be prepared for the worst.
    The Forest Service is already pursuing a number of policies and 
initiatives to increase the pace of forest restoration and management 
on the national forests with the aim of healthier forests and 
watersheds, safer communities and more vibrant local economies. One way 
to help that agency is to release the Forest Service from the threat 
that routine forest management projects will go to court.
    For the past 25 years, environmental extremists have taken 
advantage of the Forest Service's appeals process and filed 
administrative appeals as a means of obstructing projects and 
increasing Forest Service costs. In the FY 12 Appropriations Bill, 
Congress directed the Forest Service to apply the HFRA objections 
process in lieu of the appeals process for project decisions. The 
Forest Service just completed the transition from appeals to objections 
last September (2013). We applaud Congress' intent and we are very 
optimistic about the objections process. However, the current process 
still allows for the possibility of costly and delaying litigation.
    Senator Barrasso's bill provides an opportunity to try a new 
approach on a limited scale. It proposes to take less than 4% of the 
National Forest System and allow the Forest Service to use a 
streamlined approach to NEPA and ESA. Projects on these acres would go 
through a process of binding arbitration, rather than protracted and 
expensive litigation. In order to participate in the arbitration 
process, individuals would be required to participate in project 
development. And a demand for arbitration must be accompanied by a 
recommendation on what the Forest Service should do, not merely a 
demand that they not do anything. This proposed bill will preserve the 
ability to object, but streamlines the process, reduces costs, and puts 
more resources into management of the land rather than litigation.
    Reforming the NEPA process along the lines of Senator Barrasso's 
bill is a win-win on many levels.

  <bullet> One winner is the USFS which is faced with the massive task 
        of providing an increased pace and scale of forest restoration 
        efforts--a tasks for which it lacks the funds required. 
        Revising the NEPA process and clarifying the direction for 
        management should help free up some of those funds--putting 
        them to more productive use.
  <bullet> Of course, the biggest winner will be the National Forests. 
        Reducing the burdens of analysis, reducing the number of 
        frivolous lawsuits, and encouraging alternative methods of 
        dispute resolution will allow the USFS to devote more funds to 
        increasing the pace and scale of forest restoration.
  <bullet> The impact on the forest is a clear win for the wildlife 
        that depends on the forest. After harvesting, forests can 
        regenerate at a rapid rate and within just few years provide 
        healthy habitat and a food source for elk, deer and a variety 
        of other animals. As an example, in Wyoming, we can see green 
        stands of trees in the midst of the otherwise largely dead 
        forests; these areas are where timber was harvested a few years 
        past. The new growth resisted the beetle and provides 
        sanctuaries for animals in the area.
  <bullet> Active forest management captures carbon dioxide that would 
        other be emitted by decaying logs, returns the forest to an 
        active carbon sink status and protects our watersheds as well.
  <bullet> The workers in America's sawmills, papermills, and logging 
        crews that depend on the National Forests for all or some of 
        their wood fiber also win. The timber industry--loggers, 
        truckers, sawmills, engineered wood plants, biomass power 
        plants, and pulp and paper facilities--is the most economically 
        efficient means of treating landscape size forest acreages. 
        Revising the NEPA process, if it saves the time and money 
        needed to prepare timber sales, will help close the gap.

    Senator Barrasso's bill also directs the Forest service to 
implement timber harvests on 7.5 million acres over a 15 year time 
period. Timber harvests put money back to the Forest Service and help 
pay for other resource management. In fact, as late as the 1970, the 
USFS was a net generator of revenues for the Government. The 
consistency of a 15 year agenda also better allows the timber industry 
to plan and make those long-term investments that are necessary to 
further support forest restoration.
    Thank you for this opportunity to share my thoughts and 
experiences. When considering action on this proposed legislation, 
please consider that the current system is driving the decline of 
national forests and is unsustainable both ecologically and 
economically. Senator Barrasso's bill offers a meaningful step forward 
in restoring our national forests. Therefore I strongly urge and 
request, on behalf of my company and the FFRC, that you support this 
bill and move it toward passage.

    The Chairman. Thank you both for your testimony and for 
your patience in waiting through a lengthy hearing process 
today.
    I'd like to start with you, Mr. Georg. I want to thank you 
for coming to testify, and I also thank you for bringing jobs 
back to Saratoga. Your experience reopening the closed mill, 
because you say closed 10 years, I think it makes your 
testimony and your point of view especially useful to this 
committee.
    So, could you talk a little bit about why it's important to 
have the timber industry involved in forest management?
    Mr. Georg. So, the timber industry is necessary because we 
need to manage the backcountry areas of our forests. These are 
the areas where the massive wildfires start. These are the 
areas that our watersheds are in. These are the areas that have 
the habitat for our wildlife.
    The forest service does not have the resources to manage 
these backcountries. But by providing timber harvests, we can 
go in and we can treat those areas on large scale, landscape 
scales. That's why industry--and we can do it in a commercially 
viable way.
    Senator Barrasso. In your testimony, you pointed out that 
there are 7 million acres of national forestland, and you said 
in Wyoming and Colorado and South Dakota, that need treatment. 
Yet the forest service is unable to provide the needed 52,000 
acres annually just to support the small industry in these 3 
States. So, 7 million acres needing treatment, the forest 
service can't come up with 52,000 acres. So timber and need is 
clearly there.
    What's your view in terms of the limiting factors that are 
preventing the forest service from being able to get more work 
done?
    Mr. Georg. Thank you, Senator. You know, it's interesting. 
I listened to the testimony before us, and I listened to all 
the areas where sawmills continue to shut down. We're probably 
unique in the United States in that our region is an area that 
we've got a resurgence in sawmills. This resurgence of 
industry, however, the forest service does not have the 
infrastructure to support this resurgence in industry.
    So, right at the same time we need all this management, 
they don't have the infrastructure. That's a situation where 
they don't have the funds.
    So, when we look at NEPA, that consumes so much of the 
forest service's resource. I mean, I've seen estimates that 
it's well over 50 percent of what it costs to put a timber sale 
together. So, your bill, by streamlining NEPA, frees up some of 
those funds that can be used to timber sales.
    Senator Barrasso. In your testimony, you explained how 
timber production actually improves forest health. I wonder, as 
a mill owner, how do you respond to critics who claim that the 
business is actually bad for the environment?
    Mr. Georg. Thank you for that. I guess, Senator, what I 
would tell them is I am an environmentalist. If you don't 
believe me, come see my sawmill. If you come out and see what 
we're doing, I will be able to show you acres that I have 
harvested of dead lodgepole pine that are now rejuvenating. 
They're rejuvenating at a very rigorous rate, more than 2,500 
trees per acre in some instances.
    I can also show you where we've got forests that from prior 
timber harvests that are now protecting our watersheds, our 
forests that are providing wildlife habitat from previous 
timber sales. So, I probably have a better environmental impact 
than many of the environmental groups out there. We've very 
proud of that.
    Senator Barrasso. In Mr. Dombeck's testimony, he believes 
timber contracts are a tool that the forest service should 
avoid and instead focus only on stewardship contracts. Do you 
believe the forest service should replace timber contracts with 
stewardship contracts?
    Mr. Georg. The stewardship contracts are a good tool for 
the forest service. I think that's one of the tools they can 
use. I worry about replacing them in total and not allowing the 
timber service to have the tool also of the traditional timber 
contract.
    I think that, while the stewardship contracts are a good 
tool, the timber contracts allow a lot of versatility, 
particularly for small producers, guys that probably don't have 
the resources to do everything required under a stewardship 
contract. But a small producer can handle a timber contract.
    Senator Barrasso. Thank you, Mr. Georg.
    Mr. Dombeck, your testimony sort of gives the impression 
that there are not 4.5 million acres available that are 
suitable for timber production without also including 
backcountry, old growth, and riparian areas.
    As you know, my bill gives the Secretary the discretion to 
determine what lands will be included in those acres in that 
target.
    Do you believe Chief Tidwell could not look across the 
national forest system and identify the needed targeted acreage 
without including sensitive areas? Or are you concerned that he 
would intentionally select sensitive areas?
    Mr. Dombeck. While I'm not familiar with the details, you 
know, the priority areas for restoration, from the standpoint 
of fire and human safety, are really those areas that butt up 
against private lands, communities. As we take a look at the 
amount of funding and the funding stress on the forest service, 
to move to the areas of highest risk seems to make sense to me.
    It also seems to make sense to me, and as one that's, like 
Senator Wyden, for a lot of years together took a lot of slings 
and arrows not only in this hearing room, but all across the 
country, that we stay out of the areas that are highly 
controversial. For example, roadless areas, they're roadless 
for a reason. They weren't high-value timbers to begin with. We 
harvested the easy stuff. The forest service found itself 
caught up in the low-cost timber sale issue.
    In many cases, the work that really needs to be done, from 
the standpoint of human safety, fire risk, the focus should 
start in and around communities at risk versus the backcountry.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Dr. Dombeck, let me just ask you one 
question. Senator Barrasso knows I'm always, always interested 
in working with him. I just want to kind of get one kind of 
question sort of fixed in my mind as we sort of walk out and 
reflect on this.
    I've always thought the bedrock principle in all of these 
areas is multiple use. That's kind of the West at its best, so 
to speak. How does S. 1966 in its current form affect multiple 
use? I mean, you've been at this for a lot of years. Just give 
me your take on that, and I think I'm probably going to spare 
both of you any, you know, additional questions. Just so I have 
a sense, as we're talking about all these bills and this 
committee, what your take is with respect to the bill and 
multiple use.
    Mr. Dombeck. My sense is it makes harvesting timber the 
dominant use. It's interesting in sitting through the hearing. 
I really think if we were focused on true multiple use, there 
would be equal dialog on hunting, fishing, hiking, biking, 
forest health, the application of prescribed fire in xeric 
forests, and the whole array.
    We seem to dial back to, how much can we take off the land? 
I think that's, you know, what leads us into some of the 
frustration that has been around for a lot of years.
    I would like to see the dialog focused on the whole array 
of values that come off the forest. I for one grew up on a 
national forest in the Midwest that has gone through a lot of 
the transitions that many of the other national forests across 
the country have gone into. With respect to the stewardship 
contracting point that was made, I'm certainly not opposed to 
timber sale contracts. I hope my testimony didn't reflect that. 
The fact is we need this tool of stewardship contracting.
    I also think the timber industry needs to move further, as 
was implicated here, to be more of a general contractor, to do 
all of the job on the land, from culvert replacement, putting 
roads to bed, dealing with low-value, no-value fuels that need 
to be removed, and move a little bit further away from just the 
dialog about how many trees we take off the land. It always 
seems to lead us into controversies when we're kind of stuck 
there.
    The Chairman. Senator Barrasso and I seem to be pretty much 
out of questions. I just want you both to know that we 
Westerners always work together on all of these issues. Suffice 
it to say, they are not for the fainthearted, as we heard some 
of the passions earlier. But they come up in any meeting 
whether you're in Oregon or you're in Wyoming.
    Some of the other Senators may have questions for the two 
of you, in writing. I assume that that will be acceptable.
    Senator Barrasso, thank you so much for sitting through so 
much of the Oregon discussion today. You and I, as neighbors 
and Westerners, talk a lot about these issues.
    I thought Senator Risch made some good points today, as 
well as Senator Murkowski and Senator Udall and Senator 
Heinrich. So we've got a lot to do.
    Senator Barrasso. Mr. Chairman, and I'm sure I speak for 
the entire committee when we thank you for your incredible 
chairmanship of this committee, working together in a 
bipartisan way. You know, when I first got into the Senate, 
somebody said, ``You're going to be on the Energy Committee. 
That's a committee where you can actually do business, where 
you can work with others in a bipartisan way.''
    I think you have shown through your leadership that we were 
able to accomplish that at a time when maybe those sorts of 
things aren't happening in other committees. But your 
leadership and your stewardship on this committee, I believe, 
have been exemplary, and it's been a privilege to serve with 
you on this committee under your chairmanship. I know you won't 
be leaving the committee. But you will no longer be chair, and 
you've been a terrific chairman.
    Thank you, Mr. Chairman.
    The Chairman. It's very kind. Suffice it to say I thank 
you, and I share the view that if we sort of lower the decibel 
level and try to find some common ground--and you certainly did 
that in the Good Neighbor legislation that was part of the Farm 
Bill. We've got more of that to do, as we heard this morning. 
So we'll look forward to working together.
    Gentlemen, you'll both be excused.
    The Committee on Energy and Natural Resources is adjourned.
    [Whereupon, at 12:52 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Thomas Tidwell to Questions From Senator Wyden
    Question 1. S. 1966 contains numerous similarities to Title I of 
H.R. 1526. Am I correct that the Administration recommended a veto of 
H.R. 1526 when it was being considered in the House in September 2013?
    Answer. With our many partners, Secretary Vilsack and the USDA 
Forest Service share your commitment to increase the pace and scale of 
forest restoration and management in our National Forests. Restored 
acres and timber volume is up on the National Forests and we must 
continue to invest in current management regimes and not lose focus on 
legislative changes that may only polarize and create more conflict. 
However, USDA cannot support the bill as it is currently written.
    Question 2. Chief, I want to talk about Board Feet of timber sold 
under this Administration. Some on this panel would have you believe 
that the Administration is doing nothing in this arena. However, if you 
look closely at the numbers, I see that The G.W. Bush Administration 
between 2001-2008 averaged 2,150 Million Board Feet of timber sold, and 
so far in the Obama Administration has a higher average of 2,521 
Million Board Feet of timber sold. Please tell us what the Forest 
Service has done under your leadership to bolster the timber sale 
program.
    Answer. From 2008-2013 the Forest Service has utilized many efforts 
to increase the pace of restoration, which increased timber volume as 
one by-product. We have been able to use tools like the Collaborative 
Forest Landscape Restoration (CFLR) Program and Stewardship contracting 
to execute programs. We have also worked to be more efficient in our 
National Environmental Policy Act (NEPA) efforts by expanding the use 
of categorical exclusions (CE) to restore lands, and identify methods 
to expedite our large scale environmental studies. These efforts have 
allowed us to see additional gains in our outputs and outcomes on the 
ground.
    Question 3. Chief Tidwell, my concern with S. 1966 is that the 
purposes of the bill are different from the purposes for which the 
national forests have been created and administered for over a century. 
As you know, the Organic Act established the national forests for the 
protection of water and timber, and later the Multiple Use Sustained 
Yield Act affirmed that the national forests have multiple uses 
including recreation, water, wildlife, timber, and wilderness. However, 
S. 1966's stated primary purpose is promoting timber harvest for 
economic purposes. As a land manager, what dangers to you see in 
putting one use above the other multiple uses of the National Forest 
System?
    Answer. By putting one use above other multiple uses, the bill 
rolls back key environmental safeguards, diminishes public 
participation, sets artificial management targets in statute, and leads 
to potentially more conflict, not less, in regards to management of the 
national forests. To accomplish the objectives of S. 1966, it would 
modify the process for NEPA compliance in carrying out covered 
projects, and could be read to modify the consultation process under 
the Endangered Species Act (ESA) by directing that the Forest Service 
make the determinations required under section 7 of the ESA, which 
rightfully should remain the duty of the Fish and Wildlife Service and 
the National Marine Fisheries Service . In lieu of seeking judicial 
review after completion of the objection process, S. 1966 would 
establish a fifteen year pilot program that requires the use of 
arbitration instead of judicial review as the sole means to challenge 
for a covered project in a Forest Management Emphasis Area (FMEA).
    Question 4. I mentioned in my opening statement that I believe that 
the current situation with wildfire funding is the single greatest 
problem facing management of the National Forest System today. Would 
you concur?
    Answer. Yes. The Forest Service once spent 10-15 percent of its 
budget on fire--today we spend over 40 percent. As a result, over the 
long term, the Forest Service has had to shift resources away from 
forest management and other activities. We support efforts by Chairman 
Wyden, Senator Crapo and others to address this issue in a way that 
both ends the disruptive practice of fire transfers and provides 
resources to manage and restore our forests so they are more resilient 
to wildfire.
    Question 5. Given the constraints your Agency is under from 
wildfire funding, do you anticipate that the Forest Service would have 
the means to carry out the requirements of S. 1966?
    Answer. It will be difficult to carry out the requirements of S. 
1966. The mandate represents roughly a three-fold increase in workload 
beyond our current restoration efforts and is beyond our existing 
capacity. A significant amount of new funding would be needed to 
accomplish the targets set forth in S. 1966 without having to redirect 
funds from other essential programs and initiatives within the agency.
    Response of Thomas Tidwell to Question From Senator Tim Johnson
    Question 1. The 2014 Farm Bill contains several provisions designed 
to improve the ability of the Forest Service and private forest land 
owners to respond to changing conditions and streamline treatment and 
restoration. These include the Good Neighbor authority, designated 
insect and disease treatment areas that was piloted in the Black Hills, 
and the permanent reauthorization of stewardship contracting. Several 
of these tools have not yet been implemented on a broad scale, so their 
full effect cannot be completely known. Recognizing that, please 
respond to the following questions:

  <bullet> How would the Forest Service plan to utilize these tools?
  <bullet> When are the tools likely to be made available to local 
        forest managers?
  <bullet> How does the Forest Service anticipate that the tools can be 
        used improve the timing and flow of forest products to users of 
        those products?

    Answer. The Forest Service is currently assessing the opportunities 
that the Farm Bill provides for continuing existing programs and 
implementing new programs and authorities. The agency will be working 
on developing and refining national policy direction related to the 
pieces of the Farm Bill under our purview.
      Response of Thomas Tidwell to Question From Senator Stabenow
    Question 1. Chief Tidwell, as you know the National Forest Jobs and 
Management Act (S. 1966) mandates legislatively prescribed logging 
levels for National Forest across most of the western United States. 
While I understand the importance of maintaining a robust timber 
industry I am concerned with setting specific targeted levels. Can you 
describe what challenges the Forest Service will have in carrying out 
the mandated levels ascribed in S. 1966? In your experience, how do you 
see the mandated timber harvest levels within this bill conflicting 
with the multiple use mandate of the Forest Service? What affect will 
this have on continued forest health and management?
    Answer. The mandate represents roughly a three-fold increase in 
workload beyond our current restoration efforts and is beyond our 
existing capacity. A significant amount of new funding would be needed 
to accomplish the targets set forth in S. 1966 without having to 
redirect funds from other essential programs and initiatives within the 
agency. In addition, S. 1966 prohibits the Forest Service from reducing 
the acreage deemed suitable for timber production in any subsequent 
forest plan revision which would, among other things, reduce the 
agency's ability to engage in adaptive management of the area based on 
the best available science, particularly in combination with the target 
harvest requirements. In addition, legislating treatment levels does 
not take into account appeals and lawsuits that may prevent the Forest 
Service from achieving the targets. Legislative mandates also remove 
the opportunity and flexibility to address important needs resulting 
from catastrophic or economic events, or for changes across the system 
over time that may arise during the budget cycle. Thus, mandated timber 
harvest levels could have negative impacts on multiple use mandate of 
the Forest Service because it will redirect funds from other multiple 
uses, including forest restoration and forest health.
    Responses of Thomas Tidwell to Questions From Senator Murkowski
    Question 1. It is my understanding that the national forest system 
currently includes: 36 million acres of wilderness areas and 58.5 
million acres classified as inventoried roadless under the Roadless 
Area Conservation Rule. Thus, nearly half of the national forest has 
been set aside and restricted from timber management.
    You testified that the agency has a multiple use mission and that 
you are concerned about setting aside lands specifically for timber 
harvest. Clearly given the above facts about land classifications, 
there are lands within the system already that have already been set 
aside for a particular purpose.

  <bullet> Are you saying that these sorts of land classifications are 
        okay, but that it is not okay for Congress to act to set a 
        priority for timber management that would apply on just 3.8 
        percent of the National Forest System?
  <bullet> Based on these land classifications and other set asides, it 
        is my understanding that nearly half of the national forest 
        system is off limits to most timber management. Please explain 
        how any bill that only prescribes timber management on 3.8 
        percent of the national forest system can possibly be described 
        as ``dominant use?''

    Answer. As noted, the administration's testimony did not comment 
regarding setting up timber management as a dominate use. The Forest 
Service strongly agrees that more forest management and restoration 
work needs to occur, but cannot support the bill as it is currently 
written as it rolls back key environmental safeguards, diminishes 
public participation, sets artificial management targets in statute, 
and leads to potentially more conflict (including potentially more 
objections and challenges), not less, in regards to management of the 
national forests. The mandate to identify, prioritize, and carry out 
projects on 7.5 million acres lands identified as suitable for timber 
production represents roughly a three-fold increase in workload beyond 
our current restoration efforts and is beyond our existing capacity. A 
significant amount of new funding would be needed to accomplish the 
targets set forth in S. 1966 without having to redirect funds from 
other essential programs and initiatives within the agency.
    Question 2. Chief Tidwell, you testified that treating 7.5 million 
acres over 15 years would represent a tripling of your work load. You 
also agreed that you have 65 to 82 million acres on the national forest 
system that need restoration. At the current pace and scale, how long 
will it take you to treat 7.5 million acres? Is that pace fast enough 
to meaningfully reduce current forest health risks, fire threats, and 
restore watershed health?
    Answer. Before responding to your question, a point of 
clarification: The 65 to 82 million acres figure are acres in need of 
restoration by all means on lands outside of congressionally designated 
wilderness. These include non-forested acres and lands not suitable for 
timber production.
    In fiscal year (FY) 2013, the Forest Service mechanically treated 
209,000 acres across suitable and other lands. The Forest Service does 
not track acres by suitable and other lands separately but the amount 
of acres on lands suitable for timber production is less than 209,000 
acres. Due to variation in budgets and priorities and many other 
factors that affect the number of acres that can be treated in one 
year, it is not possible to state exactly how long it would take to 
treat 7.5 million acres beyond saying that it would take more than 15 
years.
    No, the pace is not fast enough to reduce current forest health 
risks, fire threats, and restore watershed health.
    Question 3. Mr. Tidwell, you stated during your testimony that 
timber outputs have been increasing. Please provide a breakdown of 
timber outputs since 2009. In particular, I want to know the output of 
sawlogs, pulpwood, biomass, and personal use firewood for each year. 
Further, please provide the Committee with a summary of the proportion 
of personal use firewood in the timber sale program since 2000.
    Answer. Following is a table showing volumes harvested for certain 
products for FY 2009 thru FY 2013.


----------------------------------------------------------------------------------------------------------------
                                      FY2009       FY2010      FY2011      FY2012      FY2013
----------------------------------------------------------------------------------------------------------------
Saw                                1,061.6      1,207.9      1,365.6     1,466.8     1,423.7     All volumes in
                                                                                                  MMBF
----------------------------------------------------------------------------------------------------------------
Pulp                               370.9        369.6        422.0       402.1       443.7       ...............
----------------------------------------------------------------------------------------------------------------
Biomass                            23.8         44.9         67.0        71.6        67.3        ...............
----------------------------------------------------------------------------------------------------------------
Firewood                           315.8        312.8        323.9       328.0       288.4       ...............
----------------------------------------------------------------------------------------------------------------
Other Products\1\                  182          202.7        261.9       231.8       185         ...............
----------------------------------------------------------------------------------------------------------------
Total Vol.                         1,954.1      2,137.9      2,440.4     2,500.3     2,408.1     ...............
----------------------------------------------------------------------------------------------------------------
\1\ Other products includes products such as posts, poles, cull logs, etc.


  PART 2: PORTION OF HARVEST PROGRAM THAT WAS FIREWOOD  IN FY2000 THRU
                                 FY2013
------------------------------------------------------------------------
         Fiscal Year                    Percent of Total Program
------------------------------------------------------------------------
2000                                                                7.8
------------------------------------------------------------------------
2001                                                               10.7
------------------------------------------------------------------------
2002                                                               11.4
------------------------------------------------------------------------
2003                                                               11.1
------------------------------------------------------------------------
2004                                                                9.4
------------------------------------------------------------------------
2005                                                                7.6
------------------------------------------------------------------------
2006                                                                9.2
------------------------------------------------------------------------
2007                                                               11.4
------------------------------------------------------------------------
2008                                                                7.9
------------------------------------------------------------------------
2009                                                               16.2
------------------------------------------------------------------------
2010                                                               14.6
------------------------------------------------------------------------
2011                                                               13.3
------------------------------------------------------------------------
2012                                                               13.1
------------------------------------------------------------------------
2013                                                               12.0
------------------------------------------------------------------------

    Question 4. Chief Tidwell, you cite CFLR projects as one example of 
an area where the agency is attempting to achieve efficiencies. Please 
provide us with an estimate of the cost efficiencies being produced by 
the CFLR projects, including before and after unit costs for both acres 
treated and units of wood, biomass, or other products produced. What 
projects, if any, has there been a reduction in costs?
    Answer. The cost per acre varies substantially among ecosystems, 
treatment types and economies. One example of a project finding 
efficiency through collaboration and large landscape restoration is the 
Four Forest Restoration Initiative (4FRI) in Arizona. In FY 2012 this 
project awarded a 10 year, 300,000 acre stewardship contract designed 
to restore forest structure, pattern and composition through the 
harvesting of trees. Ultimately, this contract will have a positive 
impact on watershed function and resilience and hazardous fuels 
reduction while creating economic activity in local communities. To 
date, there have been 10 task orders issued under this contract with an 
average per acre payment to the government of $47.65 per acre. Other 
contracts for this type of work have had a cost to the Forest Service 
from $500 to $1200 per acre.
    Question 5. Chief Tidwell, how many acres, if any, are currently 
identified as suitable for timber harvest on the national forest system 
in inventoried roadless areas? If there are acres, please identify 
where those acres are located by unit of the national forest system.
    Answer. During the development of the Roadless Rule the Forest 
Service determined that of the 93 million acres of commercial 
forestlands on NFS lands, an estimated 47 million acres were considered 
suitable for timber production. Each national forest and grassland 
determined the location and amount of suitable areas through the land 
management planning process. Of these suitable acres, approximately 9 
million acres are located in inventoried roadless areas (see Table 
below). The Roadless Rule estimate of suitable land was based on 1994 
data and does not reflect information from plans that have been revised 
since that date. However, this is the most current information 
available. As national forests revise their land management plans they 
are updating their suitable land base calculations by removing roadless 
lands that were suitable in the original forest plans. Thus, the 
currently available suitable land base in roadless areas is expected to 
be less than 9 million acres.

    ESTIMATED ACRES (IN THOUSANDS) OF FORESTLAND SUITABLE FOR TIMBER
   PRODUCTION IN INVENTORIED ROADLESS AREAS, BY FOREST SERVICE REGION

                                  Acres suitable for timber production

Northern (1)                                                      2,274
Rocky Mountain (2)                                                1,317
Southwestern (3)                                                     63
Intermountain (4)                                                 1,598
Pacific Southwest (5)                                               394
Pacific Northwest (6)                                             1,701
Southern (8)                                                        332
Eastern (9)                                                          85
Alaska (10)                                                       1,274
Total                                                             9,038


    Question 6. Chief Tidwell, how many acres, if any, are currently 
identified as suitable for timber harvest in Forest Service National 
Monuments? If there are acres, please identify where those acres are by 
National Monument name.
    Answer. The Forest Service does administer five national monuments: 
two in Alaska (Misty Fiords and Admiralty Island), two in California 
(Giant Sequoia, Santa Rosa/San Jacinto) and South Dakota (Jewel Cave). 
Some of the lands in the National Monuments (notably Giant Sequoia) may 
be suitable for timber harvest for purposes of protecting other 
multiple use values, not for timber production, but that information is 
not required in forest planning. However, there are no acres suitable 
for timber production in national monuments administered by the Forest 
Service. Forest Service monuments in Alaska are not suitable for 
production per the revised plan; the Giant Sequoia plan was recently 
amended with no land suitable and no land is suitable in Southern 
California Forests.
     Responses of Thomas Tidwell to Questions From Senator Barrasso
    Question 1. In your written testimony, the Administration argued 
that S 1966 ``rolls back key environmental safeguards, diminishes 
public participation, sets artificial management targets in statute, 
and leads to potentially more conflict, not less, in regards to 
management of the National Forests.'' Is it the Administration's 
position that a meaningful increase in ``pace and scale'' can take 
place without legislative changes to the way the Forest Service 
complies with the following statutes: National Environmental Policy Act 
? National Forest Management Act? Endangered Species Act?
    Answer. Yes. Given consistent funding, allowing for a `ramping-up' 
period, and relief from `fire borrowing', the Forest Service will be 
able to increase the number of acres treated under the current 
statutes.
    Question 2. What evidence do you have that current efforts to 
increase the pace and scale of restoration are not potentially subject 
to litigation, injunctions, and resulting delays?
    Answer. The agency believes that its upfront involvement and 
collaboration with others will reduce litigation on public lands. 
Collaborative approaches help the agency make decisions involving 
issues important to communities and individuals by gaining broader 
support and resolution of concerns during the early stages of project 
development. Created in 2009 to promote job stability, reliable wood 
supply, forest health, and reduced emergency wildfire costs and risks, 
our on-the-ground accomplishments in the Collaborative Forest Landscape 
Restoration (CFLR) program demonstrate that parties with conflicting 
interests can work together to successfully develop restoration 
projects. Between 2010 and 2013, CFLR-funded projects that involve 
collaborative groups, including three projects funded as high priority 
restoration projects in 2012 which then became CFLR projects in 2013, 
have reduced fuel loading on over 1,000,000 acres subject to 
catastrophic wildfires, sold 838 MMBF of timber, produced 1.9 million 
green tons of biomass, restored 502 miles of fish habitat, 
decommissioned over 407 miles of roads and contributed to over 5,300 
jobs. Many of these projects were in areas where conflict and 
litigation stalled management programs for many years, and many 
projects report reduced litigation on NEPA decisions since implementing 
a collaborative approach. It will be key to track the impact on 
litigation as the projects mature and further NEPA decisions are made 
that are supported by collaborative groups.
    In a similar manner, use of a pre-decisional objection process over 
a post-decisional appeal process will likely reduce future litigation. 
The objection process is more consistent with the concept of 
collaboration and encourages interested publics to bring specific 
concerns forward early in the planning process.
    Since March 2012, the agency was required to provide notice, 
comment and appeal of categorical exclusions based upon the court's 
interpretation of the Appeals Reform Act (ARA) in Sequoia Forestkeeper 
v. Tidwell. With the recent repeal of the Appeals Reform Act in the 
2014 Farm Bill, the agency is once again able to save considerable time 
from project development to implementation for hundreds of restoration 
projects that rely on categorical exclusions.
    Most Americans generally agree on the need to protect our natural 
resources and restore the health of our forests. However, some 
organizations hold values that do not conform to the agency's mission 
and, despite agency effort to work collaboratively and seek resolution 
for public concerns; those organizations will continue to file 
litigation that typically delays project implementation. Although 
litigation in some form will always be present, we anticipate the 
percentage of project decisions being litigated to decrease. Currently, 
an average of six percent of all Forest Service project decisions 
result in appeals and two percent are litigated.
    Question 3. During your verbal statement, you implied that acres 
treated are increasing. Please provide us with a summary of acres 
treated since 2009, broken down by:
    Answer. Prescribed burn acres--6,874,303 acres

  <bullet> Mechanical treatments, including:

    --Non-commercial thinning
    --Hand thinning/pruning
    --Commercial thinning


----------------------------------------------------------------------------------------------------------------
                                                          Release & Weeding--
                                       Non-commercial    (assumes this is what                     Commercial
            Fiscal Year                thinning (ac)        is meant by hand      Pruning (ac)    Thinning (ac)
                                                             thinning) (ac)
----------------------------------------------------------------------------------------------------------------
2009                                 186,916            78,364                   12,894         96,465
----------------------------------------------------------------------------------------------------------------
2010                                 237,460            88,466                   20,474         96,831
----------------------------------------------------------------------------------------------------------------
2011                                 145,928            79,833                   9,122          114,735
----------------------------------------------------------------------------------------------------------------
2012                                 129,088            96,456                   7,470          113,720
----------------------------------------------------------------------------------------------------------------
2013                                 147,860            79,133                   8,441          107,140
----------------------------------------------------------------------------------------------------------------

  <bullet> Acres of noxious weed treatments*


----------------------------------------------------------------------------------------------------------------
                      FY2009                              FY2010           FY2011        FY2012        FY2013
----------------------------------------------------------------------------------------------------------------
304,106                                                       309,228       281,751       271,469      252,269
----------------------------------------------------------------------------------------------------------------
*Acres treated on National Forest System include accomplishments against invasive plants and regulated noxious
  weeds.

  <bullet> Lake acres restored.


----------------------------------------------------------------------------------------------------------------
                  FY2009                           FY2010             FY2011          FY2012          FY2013
----------------------------------------------------------------------------------------------------------------
23,570                                                   27,779          26,832          32,369          32,658
----------------------------------------------------------------------------------------------------------------

    Question 4. You mention a number of steps the agency is taking to 
find NEPA efficiencies that can be implemented administratively. After 
three years of effort, do you know when these will be complete? Will 
they be issued as rules, handbook provisions? In past responses to 
Congress the agency has indicated that as much as 50-70% of project 
costs go towards NEPA compliance. By what amount is your NEPA 
efficiency effort expected to reduce these costs? What does this 
translate into in actual dollars?
    Answer. The agency has administratively implemented NEPA 
efficiencies by updating regulations, directives, document templates, 
and training. In 2013, three new regulatory soil and water restoration 
categorical exclusions for Forest Service NEPA procedures were approved 
along with corresponding agency directives. The provisions for a 
directive we are currently working on will provide guidance on a new 
restoration categorical exclusion from the Farm Bill. Moreover, we 
continue to add efficiency through taking a landscape scale approach 
and using adaptive management to have more acres analyzed and decided 
and ready for taking action on the ground. In addition, we are focused 
on the end result vs. cost savings from each effort. Our NEPA 
efficiency efforts are a continuous improvement process to increase the 
number of acres (or other appropriate output) for our analysis 
investment. As a result, we estimate that we save approximately $17 
million dollars each year\2\ because of these investments.
---------------------------------------------------------------------------
    \2\ We have these figures because we estimate returns on 
investments prior to contracting electronic investments.
---------------------------------------------------------------------------
    Question 5. Last summer the Committee heard about the Colt Summit 
project, which was a collaboratively developed and widely supported 
CFLR project with a stewardship contract. As you know, this sale was 
litigated and enjoined, and subsequently most of the timber value has 
been lost. Even if you agree with former Chief Dombeck that we should 
not be concerned about timber outputs, this injunction is causing 
sustained damage to the local economy. Is it the position of the 
Administration that for the balance of your term, you will simply try 
these new approaches and see whether or not they can pass muster with 
the courts? Are there legislative changes to the CFLR program that you 
would support to prevent the projects you and your ``partners'' are 
working so hard on from getting to the ground?
    Answer. We are actively pursuing ways to enhance our effectiveness 
and efficiency in planning for large landscape restoration. First, we 
are expanding the use of categorical exclusions in landscapes under 
stress. There are three new categorical exclusions for activities that 
restore lands negatively impacted by water control structures, 
disturbance events, and roads and trails. In addition, CFLR projects 
are now eligible for categorical exclusions in landscapes experiencing 
insect and disease epidemics. These categorical exclusions will allow 
collaborative projects to get work done on the ground quickly in high 
priority areas.
    The second avenue for achieving successful on the ground 
restoration is increasing the size of the planning units we move 
through NEPA. Many of our projects are successfully building trust with 
their collaborative groups and the larger community. This trust is 
allowing them to plan for larger landscapes and to accelerate the pace 
of restoration on their landscapes. We will continue to explore 
additional ways to enhance our efficiency and allow us to treat large 
landscapes in a timely manner.
    Question 6. You say that you would consider ``non-binding, 
reviewable arbitration'' on a trial basis. Ignoring, for the moment, 
that the bill precisely is a ``trial basis'' (3.8% of the NFS over 15 
years), please explain why the Administration is opposed to binding 
arbitration? By opposing binding arbitration, you are implicitly 
endorsing the idea that litigation is a normal and natural part of the 
forest management process, exactly the assumption that has led to poor 
forest health conditions, large fires, and endless analysis and 
litigation over the last two decades.
    Answer. As a general matter, binding arbitration has the potential 
to constrain decision-making, adversely affecting our ongoing efforts 
in collaboration and adding additional costs and complexity to 
implementing a project. More specifically, arbitration places a project 
decision in the hands of a third party arbitrator which is not 
consistent with the Forest Service's obligation to involve all parties 
and its pre-decisional resolution of public concerns. Arbitration also 
sets a more adversarial framework since compromise is dictated by the 
arbitrator and eliminates potential negotiations (i.e. settlement 
negotiations) between parties. Parties would also be more likely to 
request arbitration with greater frequency than they currently 
litigate, potentially resulting in greater delays in project 
implementation than the agency now experiences. Lastly, arbitration 
adds an additional layer of complexity to agency decision making 
especially as it pertains to projects involving multi-agency decisions 
and compliance with relevant laws, regulations, and policies. 
Notwithstanding these concerns, the agency remains willing to explore 
the use of non-binding, reviewable arbitration (through a collaborative 
approach) on a trial basis.
      Responses of Thomas Tidwell to Questions From Senator Hoeven
    Question 1. When I meet with ranchers and grazers back in the 
state, they always share with me their concerns regarding North Dakota 
grasslands being managed with a ``forest'' viewpoint. Could you please 
provide an update on the science you are using for the determination of 
management practices for the grasslands.
    Answer. The Dakota Prairie Grasslands Land and Resource Management 
Plan was developed as part of the Northern Great Plains plan revision 
process. Although the steps in the planning process for grasslands and 
forests are basically the same, this planning effort was focused on 
grassland issues. The analysis, assessments and the decisions made are 
specific to the Dakota Prairie Grasslands. The planning process is the 
same as for other units of the Forest Service because with the passage 
of the Forest and Rangeland Renewable Resources Planning Act of 1974, 
Congress specifically included the national grasslands as a unit of the 
NFS and made these lands subject to the same requirements as other NFS 
lands. In the case of the Dakota Prairie Grasslands, a Scientific 
Review Team was also established to look at the science regarding 
grazing and range management aspects of the plan.
    The Dakota Prairie Grasslands has a skilled staff of resource 
specialists that provide input and leadership on management practices 
on the grasslands. Many of them were trained in rangeland management at 
universities in North and South Dakota. Some have received advanced 
degrees. They coordinate closely with the users of the land, including 
ranchers and grazing associations, and keep abreast of the latest 
research and management techniques in making these recommendations. The 
Dakota Prairie Grasslands has formed partnerships with universities, 
State and Federal agencies and interest groups focused on research and 
monitoring projects that help them to better understand and improve the 
management and administration of the grasslands. Included are projects 
with at least 10 universities and colleges; many are with North Dakota 
State University and the University of North Dakota. The information 
gained is used in determining the best management practices to be 
applied to the grasslands.
    Question 2. As you know, ranching families in North Dakota have 
been good stewards of the grassland for decades. They depend on them 
and want to see them healthy and productive for the next generation. 
One of the primary concerns that I hear from our ranchers and grazers 
is that they are concerned that sound science using North Dakota 
expertise is not reflected in the North Billings County Allotment 
Management Plan Revisions Final Environmental Impact Statement (FEIS). 
As such, I would like to invite you to come out to North Dakota to 
receive first-hand feedback from our ranchers and grazers on the Record 
of Decision, before it is finalized.
    Answer. The Dakota Prairie Grasslands has tried to make sure that 
the best scientific knowledge available has been obtained so that 
management of the grasslands has a sound basis of management. North 
Dakota State University (NDSU) collected baseline data upon which 
management objectives are based.
    Carrying capacity for each allotment was calculated based on 
current rangeland science, which was then reviewed and supported by the 
Natural Resources Conservation Service, North Dakota State University 
and the Agricultural Research Station.
    A point where the Forest Service and the Grazing Association are 
not in full alignment is on the biological capability of the grasslands 
to support the taller grass structure, a habitat component that is 
necessary for several species of wildlife including some proposed for 
listing through the ESA. However, the data collected by NDSU 
demonstrate that the desired tall structure exists within most 
allotments; North Billings allotment objectives would simply increase 
the representation of that taller structure. A goal of the Dakota 
Prairie Grasslands Plan is to provide the appropriate habitat for the 
variety of wildlife species native to the prairie, and specifically for 
species that are proposed for ESA listing.
    The proposed action for North Billings was developed in 
collaboration with the affected permittees through a series of three 
meetings beginning in 2005. Implementation plans reflecting a final 
decision are proposed to be developed in collaboration with the Grazing 
Association and their permittees. The Record of Decision will approve a 
full suite of management techniques that may be utilized to move toward 
the objectives outlined for each allotment. This collaboration is 
designed to draw on both the experience of the rancher and the science 
that our range specialists learned from North Dakota universities.
      Responses of Thomas Tidwell to Questions From Senator Flake
    Question 1. As we discussed during the hearing, the White Mountain 
stewardship contract expires this year. That contract has largely been 
considered a success and has revitalized the timber industry in 
Arizona's eastern forests, such as the Apache-Sitgreaves. According to 
some estimates, the contract and associated timber work spawned 
approximately $130 million of investment in the area. While the Four 
Forest Restoration Initiative (4FRI) is intended to promote forest work 
on those eastside forests, the second EIS for that portion of the 4FRI 
project appears to be several years out. As such, we face a dire 
situation, where the incredible success and investment in the timber 
industry in that area is called into question, because there are not 
enough acres to keep timber operations economically viable. What can 
the Forest Service do to make sure that investment in the White 
Mountains is not stranded and that we do not undermine the successes of 
the last 10 years of the White Mountain stewardship contract?
    Answer. The Apache-Sitgreaves has been offering timber sales 
outside of White Mountain Stewardship for several years with varied 
amounts of success (some have sold and some have not). The Forest 
Service is looking at options to continue to offer additional sales in 
the White Mountains until the Phase 2 EIS is completed.
    Question 2. How do we turn the success of the White Mountain 
stewardship contract and the infrastructure created through that 
investment by the Forest Service into a continued success on the 
Apache-Sitgreaves National Forest and a total success for the 4FRI?
    Answer. Building on the success of the White Mountain stewardship 
contract, the 4FRI project has issued a large scale (300,000 acres), 
10-year Stewardship Contract (Phase 1 4FRI contract), with the first 
acres treated this fiscal year in the Ranch Task Order. Under this 
contract, just over 15,000 acres of task orders were awarded by the end 
of FY 2013. We expect an additional 22,000 acres of Task Orders in FY 
2014 and over 30,000 acres of task Orders in FY 2015 and beyond.
    Question 3. More specifically, what will it take to assure that a 
minimum of 20,000 to 25,000 acres per year in the eastern Arizona 
forests (east of Heber) are harvested during the time between the end 
of the White Mountain stewardship contract and the 4FRI stewardship 
contract that would authorize work on those forests?
    Answer. The Forest Service is exploring options for offering timber 
in the White Mountains between now and when the Phase 2 EIS is 
completed.
    Question 4. To what extent does the Forest Service's plan for that 
gap between stewardship contracts, include the use of timber sale 
contracts?
    Answer. The Forest Service is exploring options for offering timber 
in the White Mountains between now and when the Phase 2 EIS is 
completed.
    Question 5. How can the recently enacted Farm Bill rules regarding 
streamlining of NEPA within the Collaborative Forest Landscape 
Restoration Initiative be used to facilitate additional forest 
restoration work in Arizona that costs less and proceeds more quickly?
    Answer. The recently enacted Farm Bill streamlines NEPA within the 
Collaborative Forest Landscape Restoration program because it provides 
relief from notice and appeal requirements when the agency makes 
decisions that are categorically excluded from documentation in an 
environmental assessment or environmental impact statement. This saves 
up to 105 days per decision based on a categorical exclusion. The Farm 
Bill also provides for a categorical exclusion for up to 3,000 acres of 
activity to treat insect and disease problems. This can be used to 
facilitate additional forest restoration work in Arizona that costs 
less and proceeds more quickly. Also, this provides one more option for 
the agency when considering NEPA documentation needs. It is too early 
to say how much this provision will make a difference, but we know the 
new categorical exclusion does open new efficiency options.
    Question 6. The 4FRI (which includes the Apache-Sitgreaves) 
receives $4 million annually. However, as I understand it, virtually 
all of those funds are used to advance projects on the westside 
forests. Is there a way to more equitably balance the distribution of 
those funds, to mitigate the potential shortfall of acreage projected 
on the eastside forests?
    Answer. The funding is distributed across all four of the forests 
depending on the work needed in any given year. This includes work to 
prepare timber sales for offer on the east side of the project area.
    Question 7. Could the new Farm Bill designation by prescription and 
designation by description, which was previously used on the White 
Mountain stewardship contract, be extended to more acres and therefore 
reduced ongoing Forest Service costs for these projects? For example, 
could this be accomplished through a revision to the White Mountain 
Stewardship Contract?
    Answer. The language in Sec 8303 of the Farm Bill did not affect 
on-going or new stewardship contracts.
    Question 8. Arizona has suffered from a long-term drought extending 
more than a decade. The Bureau of Reclamation projects that those 
drought conditions could be further exacerbated by imbalances along the 
Colorado River in Arizona that could reach more than 3 million acre 
feet by 2060. We need to find solutions to these imbalances, including 
augmentation of our water supplies. One possibility is better forest 
management, which can promote watershed health and increase water 
supplies. Can you explain what tools the Forest Service has or needs, 
including opportunities for public/private partnerships, to get this 
type of critical water-management work done?
    Answer. The Watershed Condition Framework (WCF) is a comprehensive 
approach for proactively implementing integrated and collaborative 
restoration on watersheds on national forests and grasslands. The WCF 
proposes to improve the way the Forest Service approaches watershed 
restoration by targeting the implementation of integrated suites of 
activities in those watersheds that have been identified by the Forest 
Service, local communities, and partners as priorities for restoration. 
The WCF also establishes a nationally consistent reconnaissance-level 
approach for classifying watershed condition, using a comprehensive set 
of 12 indicators that are surrogate variables representing the 
underlying ecological, hydrological, and geomorphic functions and 
processes that affect watershed condition. The approach is designed to 
foster collaborative integrated ecosystem-based watershed assessments; 
target programs of work in watersheds that have been identified for 
restoration; enhance communication and coordination with external 
agencies and partners; and improve national-scale reporting and 
monitoring of program accomplishments. The WCF provides the Forest 
Service with an outcome-based performance measure for documenting 
improvement to watershed condition at forest, regional, and national 
scales.
    Question 9. In your testimony, you expressed concern about the 
National Forest Jobs and Management Act, because ``A significant amount 
of new funding would be needed to accomplish the targets set forth in 
S.1966 without having to redirect funds from other essential programs 
and initiatives within the Agency.'' You also expressed support for the 
Wildfire Disaster Funding Act introduced by Senators Wyden and Crapo, 
noting that it would provide ``resources to manage and restore our 
forests..'' Can you elaborate on how the bill from Senators Wyden and 
Crapo could help pave the way for Senator Barrasso's National Forest 
bill, at least with regard to your concern about resource availability?
    Answer. This bill provides increased certainty in addressing 
growing fire suppression needs, better safeguards non-suppression 
programs from transfers that have diminished their effectiveness, and 
allows us to stabilize and invest in programs that will more 
effectively restore forested landscapes, treat forests for the 
increasing effects of climate change, and prepare communities in the 
Wildland Urban Interface (WUI) for future wildfires.
    Question 10. I was pleased to see Stewardship Contracting 
reauthorized in the Farm Bill, including improvements regarding the 
liability provisions in stewardship contracts. It did not, however, 
include some technical corrections that I had worked on with the Forest 
Service and BLM or important improvements to the cancellation ceiling 
regulations that would extend the same type of flexibility exercised by 
the Department of Defense and Department of Energy to the Forest 
Service. Can you commit to working with me on trying to make these 
improvements a reality?
    Answer. As we implement stewardship contracting, we will monitor to 
see the effectiveness of the provisions in the current Act, and we will 
commit to updating you.
                                 ______
                                 
    Responses of Steven A. Ellis to Questions From Senator Murkowski
    Mr. Ellis, The dominant-use mandate in the O&C Act clearly provides 
that timberlands are to be managed for ``permanent forest production'' 
under the principle of sustained yield. I understand that the BLM is 
under court order to comply with the O&C Act and sell more timber in 
the Medford and Roseburg Districts of Southern Oregon.
    Question 1a. What is the agency doing to comply with that court 
order?
    Answer. The BLM is considering ways in which it can offer for sale 
timber volume in the Medford and Roseburg Districts in compliance with 
the court order. Because this matter is still in litigation, however, 
the BLM is unable to comment on specifics.
    Question 1b. How do the timber harvest volumes required under the 
court order for the Medford and Roseburg Districts compare to those 
expected under S. 1784 according to analysis performed by Dr. Johnson?
    Answer. The court order requires the BLM Medford and Roseburg 
Districts to offer for sale a volume of timber that is at least 80% of 
the respective District's declared Annual Sale Quantity, an amount that 
is based on the 1995 RMP harvest land base within district 
administrative boundaries. .
    Dr. Johnson's approach provided harvest volume calculations for 
moist and dry forest types across all the O&C lands in western Oregon. 
The moist and dry forest types do not coincide with Medford and 
Roseburg district boundaries. The analyses performed by Dr. Johnson to 
date do allocate the expected volume under S.1784 on a BLM district--
by-district basis.
    Question 2a. Mr. Ellis, in November of last year, the BLM provided 
timber harvest volume estimates for S. 1784, in a letter to Senator 
Wyden. This letter states, ``(B)ased on the parameters in the proposed 
legislation, Professor Johnson, with assistance from BLM analysts, 
estimates the average annual timber harvest volume would range from 300 
and 350 million board feet over the next two decades.''
    Did the BLM do any analysis that would indicate this level of 
harvest is sustainable beyond 20 years? If so, what level of harvest 
would be sustainable over the long term (beyond 20 years) under the 
approach outlined in S. 1784?
    Answer. In working with Dr. Johnson, we were tasked with analyzing 
only the first two decades. The BLM has not developed a sustained yield 
harvest calculation beyond 20 years.
    Question 2b. The BLM's letter notes that the harvest volume 
estimates were Dr. Johnson's with assistance from BLM analysts. How 
much confidence does BLM have in these estimates?
    Answer. If timber harvest could be implemented according to the 
assumptions used to develop the harvest calculations, the BLM has high 
confidence that 300-350 mmbf of timber would be available for 20 years.
    However, in written testimony, the BLM identified a number of 
concerns regarding implementation of the bill, including concerns which 
make it difficult to predict the feasibility of BLM achieving the 
predicted volume estimates under S. 1784. In some cases, it appears the 
legislative language may not be consistent with the assumptions used 
for the harvest calculations. For example, it is uncertain to what 
extent spotted owl sites, designated critical habitat (for spotted owls 
and marbled murrelets), and drinking water protection areas would 
affect the harvest volume estimates.
    Question 3b. In Section 117 of the bill titled ``Land Ownership 
Consolidation'' the BLM is directed to consolidate the checkerboard 
pattern of O&C land using sales or land exchanges. Before exchanging 
any land, however, the Secretary must determine it is in the public 
interest to do so.
    The bill, as drafted, does not specify the process or provide 
criteria to the BLM to determine whether the land exchanges are in the 
public interest. What process and/or what set of criteria does the BLM 
intend to use to determine whether land exchanges authorized under this 
legislation are in the public interest?
    Answer. As required by the Federal Land Policy and Management Act 
(FLPMA, Sec. 206), the BLM considers many values and objectives when 
determining whether a particular land exchange action is ``in the 
public interest.'' These values and objectives include giving full 
consideration to the opportunity to achieve better management of 
Federal lands, to meet the needs of State and local residents and their 
economies, and to secure important objectives, including but not 
limited to: protection of fish and wildlife habitats, cultural 
resources, watersheds, wilderness and aesthetic values; enhancement of 
recreation opportunities and public access; consolidation of lands and/
or interests in lands, such as mineral and timber interests, for more 
logical and efficient management and development; consolidation of 
split estates; expansion of communities; accommodation of land use 
authorizations; promotion of multiple use values; and fulfillment of 
public needs. The BLM would also evaluate proposed land exchanges under 
the National Environmental Policy Act (NEPA), including public scoping 
and developing an Environmental Assessment or Environmental Impact 
Statement prior to a decision. Consistent with FLPMA, prior to making a 
decision on a proposed land exchange, the BLM also must consider 
whether the exchange is consistent with the governing land use plan(s), 
determine the value of the properties to be exchanged, and determine 
whether there are any title restrictions or valid existing rights that 
could impact the exchange. Through the NEPA process, the BLM further 
examines any resource impacts of activities (such as grazing, minerals, 
recreation, and constructed assets) associated with the exchange; and 
in compliance with the National Historic Preservation Act and its 
tribal consultation obligations, the BLM analyzes cultural resource and 
Native American tribal and religious concerns.
    Question 3b. Under your public interest determination process does 
the BLM envision instances where land exchanges would be found to be in 
the public interest that would convey timberlands out of federal 
ownership for development by private or state interests? Why or why 
not?
    Answer. As part of the public interest determination process, the 
BLM would evaluate a wide range of issues. Whether a land exchange 
conveying timberlands out of federal ownership for development would be 
in the public interest would depend upon issues identified during 
scoping and the values and objectives, previously mentioned in response 
to Question 3a, considered during the determination process.
    Question 4. It has been stated that S. 1784 will double harvest 
volumes on BLM lands over the next 20 years to approximately 300-350 
million board feet by employing ecological forestry principles.
    Please provide an estimate of the amount of funding that would be 
required under S. 1784 to reach those harvest level volumes.
    Answer. S. 1784 directs many procedural requirements and analyses 
to occur within 18 months of enactment. In the short term, the BLM 
would expect to incur increased costs, including additional staff and/
or contracts, to meet these front-loaded requirements. Because S. 1784 
includes new processes that have not been completely analyzed for 
implementation, the BLM is unable to predict an amount, if any, of unit 
cost savings, or other associated direct and indirect costs.
    Responses of Steven A. Ellis to Questions From Senator Barrasso
    Question 1a. In materials released by the BLM, Carolina Hooper, the 
BLM analyst who worked with Dr. Johnson on his harvest volume 
estimates, noted that their calculations only excluded the ``highest 
quality spotted owl critical habitat'' from harvest projections.
    How was this ``highest quality'' habitat selected?
    Answer. In response to a request made by Senator Wyden, the BLM 
provided extensive technical assistance to his staff as they worked to 
develop the bill and the associated maps. The steps described below 
were taken by BLM analysts in response to requests made by Senator 
Wyden's staff during the technical assistance process.
    Initially, the highest quality habitat was selected using a map of 
Relative Habitat Suitability (RHS) scores for spotted owl habitat 
within designated critical habitat. RHS scores give an indication of 
the likelihood that owls occur or would occur in a given area. The 
higher the score, the higher the likelihood that owls will occupy the 
area. The highest quality habitat was defined by the area comprising 
the top 30% of RHS scores within designated owl critical habitat.
    At that point in the process the following steps were taken, based 
on guidance from Senator Wyden's staff, to determine how Northern 
Spotted Owl Critical Habitat would be evaluated in the formulation of 
the O&C Land Grant Act of 2013:

  <bullet> Two sets of geospatial data, one representing Northern 
        Spotted Owl Critical Habitat units and another representing the 
        Best 30 percent (Highest Quality) Northern Spotted Owl Habitat, 
        was obtained from U.S. Fish & Wildlife Service.
  <bullet> The Bureau of Land Management's Oregon and California 
        Railroad and Coos Bay Wagon Road lands were evaluated together 
        as (O&C lands).
  <bullet> The Highest Quality owl habitat was not evaluated 
        independently. The Highest Quality Northern Spotted Owl Habitat 
        was combined with areas of existing Wilderness, designated Wild 
        and Scenic River corridors, moist forest stands of greater than 
        or equal to 120 years of age, and additional BLM national 
        designations such as national monuments.
  <bullet> These combined areas were evaluated by each public land 
        survey, township, range, and section division.
  <bullet> Where 30 percent or more of O&C lands for a section were 
        within the combined area, the lands were categorized as 
        ``Conservation Emphasis.'' These Conservation Emphasis areas 
        were excluded from timber harvest calculations.
  <bullet> Based on guidance from Senator Wyden's staff, a range of 
        additional areas were added to the ``Conservation Emphasis'' 
        category. None of these additions were based on Northern 
        Spotted Owl Critical Habitat, but some overlap the habitat 
        areas.

    Question 1b. How much spotted owl critical habitat is located on 
the O&C lands and how much of this is considered ``highest quality''?
    Answer. The Critical Habitat and High Quality Critical Habitat 
acreage information is summarized below:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
      Responses of Sean Stevens to Questions From Senator Barrasso
    Question 1. Your organization seems to believe that tourism and 
recreation are the keys to the future of these rural communities. Why 
haven't these sectors created the kind of broad based employment needed 
in these communities? If Oregon Wild believes tourism is so important 
to these rural, forested communities then why did it put up billboards 
and take out advertising painting Oregon in a negative light as 
``Welcome to Oregon..home of the clearcut?''
    Answer. Tourism and recreation are a large and growing part of 
Oregon's economy. The Outdoor Industry Association recently reported 
that in 2012 outdoor recreation alone accounted for $12.8 billion in 
spending and 141,000 direct jobs in Oregon.\1\ These jobs and economic 
output are spread across Oregon's rural and urban areas and have 
continued to grow even during the recession.
---------------------------------------------------------------------------
    \1\ http://www.outdoorindustry.org/images/ore_reports/OR-oregon-
outdoorrecreationeconomy-oia.pdf
---------------------------------------------------------------------------
    While outdoor recreation is an important part of the Oregon 
economy, it is not the only economic benefit that protected and well 
managed public lands produce. Over 1.8 million Oregonians receive their 
clean drinking water from sources that originate all or in part on O&C 
lands. Forests naturally filter water and save municipalities millions 
of dollars every year in avoided filtration and facilities costs. 
Additionally, economists continually point to overall quality of life 
as a major driver in businesses deciding where to locate new 
headquarters, offices, and facilities. Our protected lands, scenic 
vistas, and opportunities for diverse forms of recreation all 
contribute to bolstering the recruiting capability of businesses in all 
industries. Put simply, people want to live and work in Oregon because 
it is a special place to live.
    These natural amenities that make Oregon a great place to live and 
draw tourists to our borders are at risk and require our constant 
vigilance to protect. Our advertising campaign was aimed at sparking a 
public conversation about the dissonance between our reputation as a 
place where natural resources are protected and the reality of our 
current and proposed forest management. Current and proposed 
clearcutting harms our clean water, quality of life, and the recreation 
economy. Thankfully, due the efforts of Oregon Wild and many other 
concerned groups and citizens, we have managed to protect many areas 
that provide an economic underpinning for our state. But, this 
recreation economy will not continue to grow if we double logging on 
O&C lands and harm the natural foundation of this economic sector.
    It is also important to note the history of employment in O&C 
counties before, during, and after reductions in federal lands logging. 
In 1982, the northern spotted owl was not yet on the Endangered Species 
list and logging still remained the top priority for BLM managers. In 
Douglas County and Lane County, the two largest recipients of federal 
timber dollars in Oregon, unemployment was at 17.3% and 12.5% 
respectively. In 1994, the year the Northwest Forest Plan was adopted 
and four years after Judge Dwyer ruled that the timber sale program in 
the Northwest was violating federal law, Douglas and Lan Counties stood 
at 7.8% and 5.0% respectively. Today, Douglas County sits at 10.0% and 
Lane County at 6.9%.
    The lesson is that national recession drive unemployment in Oregon 
far more predictively than the size of the logging industry. In short, 
we don't need to increase logging to improve the health of rural 
Oregon's economy.
    Question 2. Your organization just filed suit over the White Castle 
variable retention ecological restoration pilot project. Is it safe to 
say that Oregon Wild is likely to challenge future variable retention 
timber harvests? Why or why not?
    Answer. The White Castle timber sale is the second pilot project 
proposed by the BLM at the direction of then Interior Secretary Ken 
Salazar. The first pilot project, Buck Rising, was not challenged in 
court. Oregon Wild was not in favor of many aspects of the Buck Rising 
project but felt that lessons could be learned from testing out certain 
forestry methods on a limited scale. Buck Rising was also planned in a 
younger forest stand where the effects of variable retention 
regeneration harvest (aka sloppy clearcutting) would have lesser 
negative ecological effects.
    After Buck Rising, BLM moved forward with the White Castle timber 
sale in a naturally regrown forest stand over 100 years old. This site 
had far more ecological importance for at-risk species. Additionally, 
it became clear that BLM was not interested in learning from the Buck 
Rising pilot and rather intended to continue planning variable 
retention regeneration harvests on bigger chunks of the landscape. Add 
to this fact that S.1784 proposed to enshrine this style of management 
across one million acres of O&C lands and it became crystal clear that 
these projects were more than ``pilots.''
    We believe there is a far better path forward to produce wood 
products from federal forest lands while improving ecological health. 
You can find a full report on the restoration-based thinning acres and 
board feet available across the Northwest Forest Plan landscape here: 
http://www.oregonwild.org/oregon_forests/old_growth_protection/
westside-forests /Kerr%20Andy.%202012.%20Ecologically 
%20Appropriate%20Restoration%20Thinning%20in%20the%20Northwest%20Forest 
%20Plan%20 Area.pdf
    In the near future, Oregon Wild is likely to challenge variable 
retention regeneration timber sales in native, mature forests. These 
timber sales put critical habitat, clean water, and viewsheds at risk.
                                 ______
                                 
     Responses of Jerry F. Franklin to Questions From Senator Wyden
    Question 1. If the BLM had continued harvesting upwards of 1.2 
billion board feet per year, as they were in the 1980s, right up until 
now, what would be the state of the O&C lands today?
    Answer. If the BLM had continued harvesting 1.2 billion board feet 
per year essentially all of the currently existing mature and old-
growth forests would have been converted to plantations. This would be 
true on both Moist and Dry Forest sites. The BLM managed forests would 
be largely indistinguishable from the private forest lands.
    Question 2. Now you were one of the scientists that worked on 
drafting the original Northwest Forest Plan. Can you speak to how this 
legislation fits into that plan?
    Answer. The legislation can be viewed, in many ways, as 
representing a continued evolution of the Northwest Forest Plan (NWFP). 
The NWFP was never fully implemented and has undergone significant 
changes since it was adopted in 1994. Most of the changes were the 
result of internal agency decisions and not formal processes, as 
exemplified by the FS and BLM decisions to end efforts to do 
regeneration harvests during the last decade because of continued 
litigation. A major formalized change occurred with the adoption of a 
new recovery plan (in 2012) and critical habitat designation (in 2013) 
for the Northern Spotted Owl by the US Fish & Wildlife Service. The 
policy changes that have occurred, formal and informal, have generally 
resulted in increased protection of environmental values and in 
reductions in lands available for timber harvest.
    The legislation builds on the original goals of the Northwest 
Forest Plan, incorporating new science and social concerns, and it can 
therefore be viewed as a part of the continued evolution that all land-
use plans have to experience, if they are to remain functional.
    Question 3. Can you explain how Dr. Johnson and the BLM reached the 
estimates for the amount of volume that would be produced under my 
bill? How can we be assured this bill and this ecological forestry 
approach will produce volume, now and in the future?
    Answer. The estimated harvest levels involve two elements--the 
lands available for harvest and the expected timber yields per unit 
area. Dr. Johnson's estimates utilized the land base allocations 
provided by Senator Wyden's staff. Dr. Johnson then collaborated with 
BLM staff in estimating the timber yields per unit area that would 
occur under the prescriptions in the legislation. These per-unit-area 
yields were then multiplied by the land base. Working with the BLM, he 
developed estimates of harvest for the next 20 years.
    The ecological forestry approach has been endorsed by USFWS and, 
hence, should be acceptable on portions of Northern Spotted Owl 
critical habitat. Also, management approaches that provide demonstrable 
ecological benefits generally have been socially acceptable. We have no 
doubt about the ability of the ecological forestry approach to produce 
volume, now and in the future, on lands on which it is utilized. .
   Responses of Jerry F. Franklin to Questions From Senator Murkowski
    Question 1. Dr. Franklin, as I understand it, ecological forestry 
is a set of principles to guide forest management. Can you explain 
whether it is necessary to be so prescriptive in the legislation, as it 
is drafted, to actually practice ecological forestry on the ground? Why 
or why not?
    Answer. Ecological forestry is an approach to managing forests that 
utilizes principles and models derived from natural forest ecosystems. 
We view it as being highly adaptive, rather than prescriptive, such as 
in the case of variable retention harvesting where a broad variety of 
prescriptions can be developed by local stakeholders and managers to 
achieve the goal or principle of providing for continuity in structure, 
function, and composition between forest generations. Most of what 
might appear to be prescriptive elements, such as the designation of 
ages of trees and forests that can be harvested, are actually socially-
driven decisions, that define boundaries or limits to activities, 
rather than constraining prescriptions where activities are allowed. 
Well-defined boundary conditions are critical elements in defining the 
social contract. In that sense, they both direct and enable management 
activities.
    We view the more prescriptive elements of prescriptions (e.g., 
about 1/3 retention in the variable retention regeneration harvests) as 
representing starting points, which need to undergo periodic review. We 
strongly believe that all management direction in the legislation, 
including generalized prescriptions, needs to undergo periodic 
scientific and managerial review for their adequacy, as part of a 
continuing adaptive process. That review process should also include 
consideration of basic objectives of the legislation.
    We strongly believe that there should be a continuing adaptive 
program on the effectiveness of the silvicultural approaches, including 
significant investments in monitoring research. We also believe that it 
is important to have periodic review by an independent (third party) 
group that includes scientists, respected citizens, and managers. Also, 
it would be helpful if the legislation allows the Secretary of Interior 
to make changes based on the recommendations of this review team.
    Question 2. Do you believe the bill, as drafted, provides 
sufficient flexibility to the BLM to practice adaptive management 
(learn by doing) on the O&C lands with respect to implementation of 
ecological forestry principles and management of these lands? If so, 
why do you believe this? If not, what would you recommend be changed in 
the bill to provide that flexibility?
    Answer. We have indicated that we think that additional flexibility 
would be useful in our answer to the previous question. Most 
importantly, the legislation should allow for changes in management 
practices without requiring an act of Congress.
    Question 3. Dr. Franklin, I understand the O&C lands for management 
purposes are divided into moist and dry forests. Looking at the drier 
forest districts in southern Oregon, can you tell me what level of 
timber harvest was estimated for those districts?
    Answer. We estimate that about 20% of the harvest would come from 
Dry Forest, most of which are in the southern districts. However, those 
southern districts also have areas of Moist Forest, which will 
contribute significant volume to the harvest.
    Question 4. Dr. Franklin, can you explain in non-scientific terms 
what is ecological forestry and how, in your opinion, it can work to 
increase the timber harvest and provide certainty of supply for the 
timber industry?
    Answer. Ecological forestry simply refers to managing forests for 
multiple values based on principles derived from natural forest 
ecosystems. It is contrasted with production forestry in which forests 
are managed to maximize wood production following agronomic principles, 
generally with an economic constraint.
    We believe that ecological forestry can contribute to increased 
timber harvests by provide management approaches that sustain or 
increase other forest benefits, in addition to wood. By sustaining 
ecological values it should ultimately have greater social 
acceptability than production forestry, allowing for active management 
on a broader federal land base than otherwise would be possible. 
Further, since ecological forestry can sustain a broad array of 
ecological values it should have greater legal defensibility; for 
example, the US Fish and Wildlife Service has endorsed the use of 
ecological forestry approaches within Northern Spotted Owl critical 
habitat. There is broad evidence that federal management agencies are 
more successful at providing economic benefits where they can also 
demonstrate that significant ecological benefits will simultaneously 
occur..
    Response of Jerry F. Franklin to Question From Senator Barrasso
    Question 1. Dr. Franklin, given the controversy surrounding 
ecological forestry and your variable retention regeneration harvests 
do you believe legal certainty will be needed to ensure the timber 
projects can be implemented?
    Answer. We believe that certainty for implementation of harvests 
will be improved though the use of more acceptable practices--i.e., 
practices that provide both ecological and economic benefits 
simultaneously, as indicated in our answer to the previous question.
                                 ______
                                 
       Responses of Mike Dombeck to Questions From Senator Wyden
    Question 1. In your view, would S. 1966 alter the fundamental 
purposes of the National Forest System by putting one use--timber 
production--above all of the other multiple uses the national forests 
are managed for, such as water, recreation, and wilderness?
    Answer. S. 1966 would make timber production the dominant use of a 
portion of national forest lands. It is possible to produce timber and 
create multiple benefits for uses like water and recreation, but S. 
1966 does not provide the tools or direction to do so. The sole focus 
on timber production would simply take us back to the controversies of 
the past. I would hope that we have learned from the past and not 
repeat the same mistakes again.
    Question 2. You talk in your testimony about the importance of 
protecting roadless areas, riparian areas, and old growth forests. In 
your experience, what are the dangers of developing legislation that 
does not take these sensitive areas off of the table?
    Answer. Roadless areas, riparian areas, and old growth forests are 
valued by the public because they provide for water quality, fish and 
wildlife habitat, and recreational opportunities. Failing to provide 
protections for these areas invites predictable controversy that 
distracts from the type of collaboration we need to support multiple 
use on our national forests.
    Question 3. Thank you for your mention of the Collaborative Forest 
Landscape Restoration Program and the benefits of strong, on-the-ground 
collaboration. Can you elaborate on some examples of where you have 
seen collaboration work effectively to help the Forest Service achieve 
its mandates?
    Answer. Montana's Middle Clark Fork basin provides a strong example 
of public support helping the Forest Service carry out its mission. In 
the Middle Clark Fork, historic placer mining and other resource 
extraction badly damaged tributary streams that provide important 
spawning and rearing habitat for bull trout and cutthroat trout. One of 
these tributaries is Ninemile Creek, where the Forest Service and its 
partners improved 12 miles of instream habitat, reclaimed 100 miles of 
unused logging roads, planted 10,000 trees and shrubs, upgraded or 
removed 70 culverts and incorporated 3,000 volunteer hours into 
watershed restoration planning and implementation. After the completion 
of these projects, cutthroat trout were able to migrate up a tributary 
of Ninemile Creek for the first time in 70 years. The outpouring of 
volunteer hours and matching funding contributions to the restoration 
of the Middle Clark Fork is a testament to the public's desire to 
improve and restore our national forests.
    I would like to reaffirm what I stated at the Hearing; in my home 
state of Wisconsin there is a grassroots effort beginning to take shape 
called the North East Wisconsin Collaborative. It brings together a 
diverse group of stakeholders from conservation, loggers, Tribal 
members, and forest industry representatives to find ways to accelerate 
the sustainable management of the Chequamegon-Nicolet National Forest. 
This effort is being modeled from the many Collaborative Forest 
Landscape Restoration Program projects (CFLRP) that have been establish 
across the country, predominately around National Forests impacted by 
large scale wildfire. While wildfire typically isn't a the threat in 
the Great Lakes States as it is in the West, the effort in Wisconsin is 
aiming to promote the health of watersheds that drain into the Great 
Lakes while producing timber and jobs. Established CFLRP projects have 
shown that when diverse stakeholders come together significant progress 
can be made and should be extended to the National Forests east of the 
100th Meridian.
     Response of Mike Dombeck to Question From Senator Tim Johnson
    Question 1. Forests provide important ecological and economic 
benefits to both rural and urban communities across the country, from 
fiber and forage to clean water and recreation. Many of those forests 
face serious threats from insect and disease, wildfire, drought, and 
other stresses. It appears that there now may be an opportunity to 
accelerate treatment and restoration of our forests while enhancing the 
long-term sustainability of the benefits that come from those forests. 
From your experience as a public land manager and scientist, what 
specific tangible recommendations do you have to overcome the current 
obstacles to sustainable forest management?
    Answer. Chief Tidwell described in his testimony some positive 
steps being taken by the Forest Service to overcome obstacles to 
sustainable forest management. The Chief needs the support of Congress 
to achieve success. The current situation with the Forest Service's 
fire budget sets the agency up to fail. Fixing this problem, as has 
been proposed by Senators Wyden and Crapo, would go a long way toward 
restoring the agency's management capacity. Furthermore, the agency has 
been hindered by sequestration and needs adequate appropriations. 
Simply put, the agency needs the resources to do the work. The 
authorities provided through the Farm Bill for stewardship contracting 
give the agency a very useful tool, and I applaud Congress for 
including that provision.
    If I were still Chief, I would push the agency to expand its good 
work with local collaboratives. By offering a strong multiple-use 
vision shaped by the input of communities of place and interest, the 
Forest Service can create an environment in which the public becomes a 
contributor to the agency's mission. We have seen this happen with 
habitat restoration work in the Middle Clark Fork basin of Montana, 
where every dollar the Forest Service spends on restoration is 
multiplied by partner contributions. I have seen this in the forests in 
Wisconsin, where retirees are volunteering to provide the Forest 
Service with additional expertise. These types of inclusive approaches 
help the agency to tap additional resources and engenders goodwill in 
local communities to help carry out the Forest Service's multiple use 
mandate.
      Response of Georg Clint to Question From Senator Tim Johnson
    Question 1. Forest management and the wood products industry are 
very important to the economic and ecological sustainability of western 
South Dakota. The Mountain Pine Beetle Response Project in the Black 
Hills National Forest has shown that the Forest Service is capable of 
undertaking landscape-scale planning and adapting its management to 
changing conditions. This approach has now been authorized across the 
National Forest System to help streamline treatment of national forest 
lands facing insect or disease infestations. Though this new authority 
has not yet been implemented nationwide, what is your perspective on 
how it will help your company and other similar small businesses obtain 
the wood supplies critical to your operation, both in the near term and 
into the foreseeable future?
    Answer. There has been a lot of discussion and interest in the 
Black Hills National Forest project and what projects like it could do 
for the supply of timber. The advantage of landscape size planning is 
that it is more efficient both in terms of cost and timing.
    These cost efficiencies, to the extent that they free up funds for 
the Forest Service to use on forest restoration through timber 
harvests, will directly impact the amount of wood that small businesses 
will have access to.
    In addition, the amount of timber available from the USFS on a 
year-to-year basis can be impacted by the amount of forest planning 
done in the prior year. Since the forest planning is done on a scale 
that provides multi-year planning, the stability of the wood supply 
should be improved.
      Responses of Georg Clint to Questions From Senator Barrasso
    Question 1. Opponents of timber production often claim timber 
harvest is detrimental to watersheds which serve local communities and 
wildlife. What is your experience with the interaction between timber 
harvest and watershed health?
    Answer. The forests regulate the watershed in complex, multifaceted 
ways. The canopy provides shade for the snowpack and allows the snow to 
melt at a regulated speed.
    Live trees also absorb ground water and expel it into the air, 
further regulating how much water flows to streams and watersheds. Of 
course, all of this is out of balance in the Western forests today.
    First, where the forests have died in mass either from beetle kill 
or other event, the canopy is destroyed. This means more snow 
evaporates in the winter and the snow that is left melts and runs off 
more rapidly than previously. There is over-all less water, and the 
early spring runoff is more intense. More rapid runoff leads to 
landslides and loads of sediment and debris choking streams, reservoirs 
and other water infrastructure on which downstream communities depend.
    The situation worsens after one of the massive fires that we are 
now experiencing in greater frequency. After a fire of this type, the 
forest floor is no longer protected from erosion. As an example, after 
the Hayman fire, For example, Front Range city water providers (Denver 
and Aurora) spent $25 million in two years to remove sediment dumped 
into a reservoir that serves as a source of drinking water. More 
recently, we've seen the impact in the unprecedented flooding in 
Manitou Springs, CO after a wild fire and in the severity of the 
widespread flooding in Colorado last spring which was, at least in 
part, blamed on the massive fires in prior months.
    Where the western forests are experiencing beetle kill or other 
devastation, timber harvests improve the watershed by restoring the 
forests to a healthy state, restoring the canopy in just a few short 
years.
    There should be very little debate about whether timber harvests 
improve our watershed in the area of damaged forests. However, even in 
green forests, the impact is positive. Overgrown forests will use more 
water than a well-managed forest. We have seen where thinning through 
timber harvests frees up water to the extent that previously dry 
streams run again. Healthy watersheds are dependent on healthy forest 
and timber harvests or thinning that keep the forests healthy also keep 
the watersheds healthy.
    Finally, the argument often advanced concerning the potential 
damage that timber harvests poise to watershed had to do with the 
potential that harvesting equipment compacts the soils which leads to 
silting up of the streams. However, a comprehensive study on the 
Medicine Bow-Routt forest showed that when state-of-the-art techniques 
are used for logging, road building and road maintenance, increased 
stream sedimentation was not measurable. I am not aware of any study 
that disputes these findings.
    In short, for our forests today, the question is not whether timber 
harvesting will negative impact our watersheds, but how can timber 
harvests be used to restore our watershed health.
    Question 2. In your testimony you talk about the present danger of 
massive and destructive wildland fires. How do acres which have been 
harvested for timber help prevent the risk of future wildland fire, or 
slow the growth of fires once started? When considering the risk of 
future wildland fire, do backcountry areas or the Wildland Urban 
Interface pose a greater threat?
    Answer. The massive forest fires that we have been experiencing are 
driven by massive fuel loading in our largely mature forests. Mature 
forests are naturally susceptible to these type of fires and the risk 
is heighted by the density of the trees, drought and insect 
infestations.
    On the other hand, these fires are less likely to occur in young 
stands of trees. These stands are resilient to these fires. When a 
massive fire reaches a large stand of immature trees, the fire peters 
out.
    Harvesting trees removes mature trees and allows the forest to 
regenerate. This process creates a mosaic of tree stands of different 
ages--similar to what would happen naturally if fires were not 
routinely suppressed.In a forest with a mosaic of differing aged trees, 
fires in the mature stands are limited. In this manner, timber harvests 
by generating young stands of trees, essentially provide natural fire 
breaks in the forest.
    In answer to the second part of the question, the most expensive 
fires to fight are in the backcountry areas. These are the fires that 
have doubled in size in the past 40 years and have led the Forest 
Service to spend nearly 50% of its budget on fighting fires. The 
backcountry areas protect our watersheds as well as the habitat for our 
wildlife. While we are seeing the most property destruction in WUI 
areas, these fires often start in the backcountry area, grow to be 
uncontrollable, and spread to the WUI.
    Question 3. Individuals, families, small businesses, and 
governments must make budgets and choices based on priorities. When 
considering the Forest Service budget, what budget activities should 
Congress prioritize to improve forest health and public safety?
    Answer. Public safety requires continued funding of fire 
suppression and new ways to support that effort. But this situation 
will continue to deteriorate and the cost of providing this fire 
suppression will continue to escalate unless we increase the pace and 
scale of forest restoration to return our forests to a healthy state.
    Forest health and public safety (including watershed protection), 
are dependent on treating large, landscape size areas. Forest health on 
anything less than landscape size is largely meaningless.
    Both immediate and long-term forest management on a landscape scale 
requires a healthy forest products industry. This industry comprised of 
sawmills, OSB mills, pellet mills and others, is the only commercially 
viable means of treating forest on landscape scales.Yet, over the past 
few years, the forest products industry has been devastated by a lack 
of timber supply and still faces a shortage of timber supply.
    It is incumbent that, to protect the industry that provides our 
needed forest management, Congress needs to prioritize funds for 
increased timber harvests. It should also be noted that the initial 
investment in these programs can get paid back through increase timber 
sales. This is good both for the long-term health of the forest and for 
increasing revenues to the government.
    Question 4. What are the positive externalities of timber 
production for society and American taxpayers?
    Answer. Timber production is a very good investment for the 
Americans on many levels.
    On an environmental level, timber production leads directly to 
restoring healthy forests. The leads in turn to healthy watersheds and 
wildlife habitat, but it also leads to healthier climates. Our forest 
provide a carbon sink, removing harmful carbon dioxide from the 
environment, while generating fresh oxygen. When the forests are 
harvested, the trapped carbon remains trapped in the structures built 
with the wood (as opposed to be released back in to the atmosphere as 
the trees rot). Healthy forests, generated through timber production, 
literally impact the water we drink and the air we breathe.
    On an economic basis, timber production is one of the best 
generator of revenue possible. Timber harvesting is an extraction 
industry, meaning that it begins with a raw material. Because it is an 
extraction industry, many jobs are dependent on this industry as the 
raw material is converted to a finished product. As an example, 
harvesting timber creates jobs from the logger who cuts the tree all 
the way to the real estate agent that sells the recently built home. 
Along the way, it is estimated that there are 12 jobs created for every 
million board feet of lumber produced.
    Many of these jobs are in rural areas, where the mills are and 
where there are few other good jobs.
    Timber production is a domestic industry that is a national 
treasure. In our timber, America has a renewable resource that it 
exports around the world. China is one of the largest buyers of timber 
and India is expected to become a major user as well. As these two 
economies lead the world in growth, America is positioned to benefit 
greatly, as long as it has the industry and timber contracts to do so.
    Finally, timber sales can be used to fund the work require for 
other forest health and fire prevention efforts. As an example, as late 
as the 1970, the USFS through its timber sale program was a net 
generator of revenues for the US Government. Revenues generated in this 
manner are using the resources of the forests to maintain the health of 
the forests.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

      Statement of Owen Graham, Executive Director, Alaska Forest 
                        Association, on S. 1966
    Mr. Chairman, Ranking Member Murkowski, and members of the 
Committee:
    My name is Owen Graham. I am the Executive Director of the Alaska 
Forest Association (AFA). Thank you for holding this hearing and for 
allowing AFA to submit testimony for the hearing record. My testimony 
today will be on the need for additional provisions to be added to 
either S. 1784, the Oregon and California Land Grant Act of 2013 and/or 
S. 1966, the National Forest Jobs and Management Act of 2014. Each of 
these bills deals with the serious, pending timber supply crisis in the 
Oregon and California Lands and the National Forest System.
    The Alaska Forest Association desperately need this Committee to 
address this timber supply crisis in Alaska's and the nation's largest 
National Forest in Southeast Alaska. While both bills attempt to 
address the lack of acceptable harvest levels in Southwest Oregon on 
lands managed by the Bureau of Land Management and the National Forest 
System, neither bill deals with the unique and deplorable situation in 
Alaska. This is why AFA urges and pleads with this Committee to add a 
specific title or sections to either bill when reported by this 
Committee to fix the Alaska crisis.
    Mr. Chairman, AFA applauds your statements at many hearings that 
your goal is to ``get the cut up'' in the National Forest System and on 
the O&C lands. We applaud and support this goal, but we ask that you 
recognize that the last 23 years of management by the US Forest Service 
has depressed the timber sale program and timber employment in the 
region by 90%. Fully 98% of the national forest has been placed off 
limits to timber production; 40% by Congress and another 52% by agency 
administrative actions. It is time for a new approach in Alaska, but 
before I describe that approach, let me explain the history of 
federally managed timber harvest in Southeast Alaska since.
                      background and brief history
    While Alaska was still federal territory, the federal government 
determined that a sustainable, year around economy was needed in 
Southeast Alaska and this goal could be achieved by managing the forest 
for timber production and inducing private investment in manufacturing 
by letting long-term timber sales. Then Chief of the Forest Service, 
Frank Heintzlemen, had the vision and the management fortitude to see 
this idea to fruition. While only 3 of the 5 sales were ultimately 
finalized, these sales led to multi-million dollar investments in 
Ketchikan, Sitka, and Wrangell Alaska. These contracts led to a vibrant 
timber sale program which harvested 520 million board feet annually and 
sustained over 4,000 full time jobs.
                            broken promises
    In 1980 and again in 1990, Congress established roughly six million 
acres of wilderness and monument set-asides but also promised Alaska 
that sufficient timber sales would continue in order to sustain the 
existing manufacturing industry. However, the Forest Service was unable 
to honor that commitment and immediately after 1990 the timber supply 
began to plummet. In 1997 the agency adopted a new land management plan 
that reduced the available timberland base by two-thirds. In 2001 the 
agency further reduced the land base by applying their administrative 
roadless rule to Alaska. The State of Alaska was able to negotiate a 
settlement that exempted Alaska from that rule, but now the agency 
refuses to honor that exemption.
    Worse yet, the Forest Service announced in 2010 that it intends to 
reduce the timberland base again and manage only some of the ``young 
growth'' timberlands, most of which will not mature for several 
decades. The limited young growth acreage that is mature is 
insufficient to fully supply even a single manufacturing facility and 
as a result the young growth timber will likely be exported. This will 
sustain only a few logging and road building jobs.
    The agency has stated it will provide a limited supply of mature 
timber during a nebulous ``transition period'', but the agency has been 
unable to consistently supply enough timber for even our single 
remaining mid-size sawmill. The most recent timber sale, Big Thorne, 
has been delayed for nearly six months because of an administrative 
appeal and our last sawmill may be forced to shut down as a result. 
Once the appeal is resolved, there will be a risk of further delay from 
environmental lawsuits and, despite years of massive federal funding, 
the agency has no other timber sale projects close to completion.
    Stated simply, the Forest Service can no longer manage a successful 
timber program in Southeast Alaska. No matter how much time, effort and 
dollars it spends, it fails. This Committee has overseen this pathetic 
performance for the last 20 plus years; the system has failed.
    While it is not the sole fault of the Forest Service with court, 
administrative, and politics intervening continuously, one thing is 
clear: The US Forest Service timber program in S. E. Alaska is 
irretrievably broken and cannot be fixed by the agency. It is time for 
this Committee and the Congress to recognize this and take action to 
honor the past commitments made to the State, the local communities and 
the timber industry.
         another and better way is at hand/state managed forest
    As this committee will undoubtedly hear today, state and local 
governments have done a vital and important job in providing some 
timber to local industry throughout the West. That is why the House 
passed bill proposes that the Governors of states be allowed to appoint 
State or local advisory committees which can be given the opportunity 
to manage some areas of the National Forest System. While this is a 
step in the right direction, the federal government has monopoly power 
over the timberlands in Southeast Alaska and the draft legislation will 
not resolve the Alaska crisis unless sufficient timberland is made 
available.
    The Governor of Alaska has issued an Alaska Timber Task Force 
report confirming all that I have testified to above. AFA calls on the 
Congress to authorize the establishment of a two million acre State 
Forest in Southeast Alaska. This will leave fifteen million acres for 
the Forest Service to manage and it will not impact any of the six 
million acres Congress has set aside as wilderness, national monuments 
and other set-asides. A copy of the Alaska Timber Task Force report was 
submitted to this Committee in an earlier hearing by Alaska State 
Forester Chris Maisch. I ask that a copy of the report be made part of 
this hearing record also. That report was submitted with this 
testimony.
    There is great support for this State Forest in Alaska: The 
Southeast Conference, a regional municipal and local business group, 
supports this as do many of the local communities, the State Chamber of 
Commerce and many other groups as well.
    AFA firmly believes that implementing the State Timber Task Report 
is the only way to restore the lost jobs and reinvigorate the economy 
of Southeast Alaska. The State of Alaska already manages an efficient 
timber program under its Alaska State Forest Practices which delivers a 
reliable timber supply on the small amount of timberland that the State 
owns in the region. This State program is well managed just as similar 
programs are in other lower 48 states such as Washington and Oregon.
                              controversy
    Mr. Chairman and Sen. Murkowski. There will be opposition to this 
approach just as there will be opposition to S.1784 and S. 1966. There 
are groups which oppose any sustainable timber industry anywhere in 
Southeast Alaska. These opposition groups will mightily and loudly 
oppose a State owned/managed forest, just like they have opposed nearly 
every significant timber sale over the last 20+ years. However, we are 
asking for a balance. The two million acres the State proposes will 
provide the timber supply we need, plus access for mining, power 
development projects and local communities. This is only 12% of the 
national forest and management of this land by the state will not harm 
the fisheries, the wildlife or access to recreation; in fact it will 
enhance those resources. Further, the federal government will be able 
to reduce the funding for the Forest Service in Alaska; currently about 
a quarter of the roughly $50 million annual Region 10 budget is for the 
timber sale program.
                               conclusion
    Thank you for the opportunity to submit this testimony. This 
hearing is a valuable contribution to this Committee's understanding of 
why the federal timber sale program has failed in Alaska. The National 
Forests were established for two reasons at the turn of the 20th 
Century; watershed protection and timber production. That policy has 
never been changed by the Congress but the agency seems to have ignored 
or forgotten this. To quote the Organic Act of 1897:

          No public forest reservation shall be established, except to 
        improve and protect the forest within the reservation, or for 
        the purpose of securing favorable conditions of water flows, 
        and to furnish a continuous supply of timber for the use and 
        necessities of citizens of the United States''

    It is time for Congress to enforce this policy and promise by 
making the necessary management changes in Alaska--the establishment of 
a state owned forest to be managed under the Alaska State Forest 
Practices Act. This is the only way to overcome the obstacles to the 
goal of the Organic Act.
                                 ______
                                 
      Statement of Doug Heiken, Oregon Wild, Eugene OR, on S. 1784
    Honorable U.S. Senators:
    Please accept the following testimony from Oregon Wild concerning 
S. 1784, Senator Wyden's O&C Lands bill. Please make these comments 
part of the official record of the hearing on S. 1784 held February 6, 
2014. These comments start with a brief outline of our concerns with 
the Wyden O&C logging bill, and then we attach several supplemental 
resources that reinforce our points.
    Oregon Wild has worked for 40 years to protect and restore Oregon's 
wildlands, wildlife, and water as an enduring legacy. Oregon Wild 
represents over 10,000 members and supporters who share our mission. 
Our goal is to protect areas that remain ecologically intact while 
striving to restore areas that have been ecologically degraded. The 
Wyden bill threatens our mission because it undermines the Northwest 
Forest Plan and mandates clearcutting of approximately 100,000 acres of 
never-before-logged native forests that are critical to Oregon's water 
quality, fish & wildlife habitat, recreation, climate stability, and 
quality of life. The bill also undermines the Endangered Species Act 
and inappropriately limits public participation in public land 
management.
    Far more than half of the productive capacity of Oregon's forests 
are controlled by private interests and most of those forests are 
aggressively managed for timber production. These lands serve private 
interests by producing wood products, jobs, and profits, but the 
clearcuts and tree farms on private lands do a poor job providing 
important public values such as clean water and quality of life. Due to 
short-sighted tax policies at the state and local level in Oregon, 
logging on private lands contributes very little to local government 
revenue. There is no shortage of clearcuts in Oregon, but there is a 
shortage of natural forests and protected watersheds that can provide 
clean water, habitat for fish & wildlife, recreation, scenic vistas, or 
carbon storage to mitigate climate change. Public lands are essential 
to provide these public values.
    Prior to 2000, most of the logging on federal forests was from 
clearcutting mature & old-growth forests. Subsequent to 2000 most of 
the logging on federal lands in the northwest has focused on small 
trees thinned for restoration purposes. Conservation groups are working 
with the agencies to refine and improve approaches to forest management 
that improve forest habitat, produce jobs, and provide substantial 
timber volume as a by-product of restoration.
    Oregon Wild has been advancing a workable vision for management of 
forests in Oregon. Wood products and commodity extraction should be 
focused on non-federal lands, while federal forests are devoted to 
providing public values like clean water, habitat for fish & wildlife, 
recreation, carbon storage, and quality of life. To help forests 
recover from past abuses, federal forests require a meaningful 
investment in restoration. Restoration can include thinning dense young 
forests and removing small trees from forests suffering from fire 
exclusion. This common sense strategy will produce an optimal mix of 
ecological and economic benefits. For more than 10 years, the success 
of this strategy has been demonstrated by the Siuslaw National Forest 
and to some degree by other forests and BLM Districts.
    The Wyden bill shifts the management emphasis of public forests 
from public values like clean drinking water, recovery of endangered 
species, storing carbon, and maintaining quality of life toward an 
outdated and destructive emphasis on clearcutting for profit.
    The Wyden O&C logging bill is deeply flawed in many respects. The 
Wyden bill will not achieve the primary objectives it seeks, and it 
will have significant indirect effects that harm many other important 
policy objectives. The Wyden bill will NOT fix the counties' financial 
problems; it will NOT meaningfully reduce unemployment; it will NOT 
protect all the old growth; and it will NOT resolve public conflict 
over forests. The Wyden bill WILL increase clearcutting; it WILL 
increase carbon emissions; it WILL degrade water quality, it WILL set 
back efforts to recover listed fish and wildlife; it WILL degrade 
Oregon's quality of life and undermine efforts to diversify the 
economy; and it WILL inflame conflict and controversy.

  <bullet> BLM lands already play a significant economic role. The 
        agencies' are implementing a successful thinning program that 
        offers jobs and wood products. Conservation groups and the 
        public are supporting and encouraging careful thinning of young 
        stands which produces jobs and wood products. The economic 
        benefits do not stop at thinning. One of Oregon's most valuable 
        economic assets is its quality of life (provided in part by 
        beautiful forests) which helps diversify our economy and expand 
        the tax base by attracting skilled workers and prospective 
        employers. The ecosystem services from well-conserved public 
        lands help provide clean water for agriculture, industry, and 
        communities. Carbon storage in the forest helps stabilize the 
        climate that the global economy depends on. Increased logging 
        on BLM lands will undermine these economic contributions.
  <bullet> The Wyden bill does not really protect all the old growth. 
        The Northwest Forest Plan called for restoration of an old-
        growth ecosystem which requires not just protecting existing 
        old growth but also increasing the amount of old forest on the 
        landscape by letting young forests grow. The Wyden bill shrinks 
        the reserves system and reduces the area where old forest will 
        be allowed to grow. Also, the Wyden bill purports to protect 
        existing old forest but actually leaves many old forests 
        unprotected--first by leaving approximately 100,000 acres of 
        native unlogged forests 80-125 years old subject to 
        clearcutting in the Forestry Emphasis Areas, and second, by 
        relying on BLM's flawed age classification system which 
        mislabels some functional old growth as ``young'' forest. BLM's 
        method essentially says that some forests are not old, when in 
        reality they contain numerous old trees and the stand as a 
        whole functions as old growth. In both cases, these stands 
        provide old forest values yet they are not protected under the 
        Wyden bill.
  <bullet> The Wyden bill endorses a form of sloppy clearcutting called 
        ``variable retention harvest'' that would be an improvement if 
        such practices were adopted on private industrial forest lands, 
        but this kind of clearcutting is a huge ecological step 
        backwards for federal forests which in recent years have 
        successfully focused on variable density thinning of dense 
        young stands.
  <bullet> The Wyden bill is driven by arbitrary timber targets rather 
        than science. The bill seems more intent on achieving a timber 
        volume of 300 mmbf/year, instead of following the advice of the 
        scientists who are ostensibly behind the bill. Case in point: 
        Norm Johnson and Jerry Franklin's article in the Journal of 
        Forestry explicitly recommends that variable retention harvest 
        treatments are appropriate in previously clearcut stands (which 
        are virtually all younger than 80 years), but the Wyden bill 
        ignores this recommendation, and requires logging in mature 
        native forests up to 125 years old that have never been logged 
        before. Clearcutting mature forests does not contribute to 
        ecological restoration. The highest and best use of mature 
        forests is to allow them to grow and fill the severe deficit of 
        older forests.
  <bullet> Clearcutting BLM lands under the Wyden bill will make fire 
        hazard worse instead of better. This is a significant concern 
        because BLM lands are located close to homes and private 
        property. The dense young forests that dominate a managed 
        forest landscape represent a high fire hazard because they have 
        dense interlocking branches close to the ground. There is also 
        more slash and more roads and fire ignition sources in a 
        managed landscape. Mature forests, on the other hand, pose less 
        of a fire hazard because large trees have thick fire-resistant 
        bark; they hold most of their fuel high above the ground where 
        surface fires tend to spread; their dense canopies help create 
        a cool-moist microclimate that is unfavorable to fire and the 
        canopy also helps suppress the growth of ladder fuels. The 
        science of fire behaviour has been confirmed by recent 
        observations of large wildfires in SW Oregon. The agencies have 
        repeatedly noted that wildfire spreads rapidly in dense young 
        tree farms, while fire behaves more moderately in mature 
        natural forest;
  <bullet> Thinning dry forests may also increase fire hazard. Thinning 
        has a tendency to increase fire hazard by moving fine fuels 
        from the canopy to the ground, making the microclimate hotter, 
        dryer and windier, and stimulating the growth of ladder fuels. 
        Some of the dry forest prescriptions in the Wyden bill might 
        tend to reduce fire hazard, but Norm Johnson and Jerry Franklin 
        note that certain forest types in SW Oregon have a unique 
        tendency to grow flammable shrubs after thinning. Johnson & 
        Franklin (2009) said: ``Some dry mixed-conifer plant 
        associations have the potential to develop dense shrubby 
        understories when light and moisture are made available by tree 
        thinning; . . . . Such understories can provide significant 
        ground fuels for wildfires, thereby negating some of the 
        positive effects of thinning on fire behavior. . . .'' Johnson 
        & Franklin 2009. Restoration of Federal Forests in the Pacific 
        Northwest: Strategies and Management Implications. http://
        www.cof.orst.edu/cof/fs/PDFs/JohnsonRestoration_aug15_2009.pdf
  <bullet> The Wyden bill undermines key elements of the Northwest 
        Forest Plan, including:

    --The Wyden bill shrinks and disrupts the carefully designed 
            network of connected forest reserves established by the 
            Northwest Forest Plan. BLM lands were specifically 
            identified as critical to provide connective links between 
            the Coast Range, the Cascades, and the Klamath Mountains, 
            and between the larger blocks of habitat on the National 
            Forests in western Oregon. The Wyden bill severs east-west 
            habitat connectivity between the Coast Range and the 
            Cascades (see map and analysis attached);*
---------------------------------------------------------------------------
    * All attachments have been retained in committee files.
---------------------------------------------------------------------------
    --The Wyden bill will dramatically increase clearcutting in the 
            Oregon Coast Range which is already severely degraded by 
            past clearcutting on federal land and ongoing clearcutting 
            on non-federal land. The Coast Range habitat simply cannot 
            be sacrificed because it is identified as critical for 
            recovery of threatened spotted owls, marbled murrelets, and 
            Pacific salmon. Coastal watersheds are highly productive 
            and less impacted by dams and therefore have great 
            potential for salmon recovery.
    --The Wyden bill halves protection for riparian reserves. The 
            rationale used to justify reduced stream protection is 
            misleading and deeply flawed. The stream buffers 
            established in the Northwest Forest Plan were supposed to 
            protect both aquatic and terrestrial wildlife, including a 
            wide variety of listed and sensitive species; the buffers 
            were intended to protect microclimate and wood recruitment 
            not just within the stream but also within important 
            habitat areas away from the stream; the buffers were 
            intended to give salmon a reasonable chance for recovery 
            rather than a bare minimum level of protection; they were 
            intended to help mitigate for past stream damage caused by 
            clearcutting and roads; and they were intended to slow the 
            pace of logging and mitigate cumulative effects. Gordy 
            Reeves' ``new science'' focuses on instream conditions and 
            does not address all the explicit purposes of the riparian 
            reserves;
    --The Wyden bill will have disproportionate adverse impacts on 
            lower slopes above streams which are critical for 
            endangered species recovery and other values. Both spotted 
            owls and marbled murrelets disproportionally rely on lower 
            slopes which were protected under the Northwest Forest 
            Plan, but will lose protection under the Wyden bill;
    --The Wyden bill decimates designated critical habitat for spotted 
            owls and marbled murrelets. The bill creates an entirely 
            novel approach to implementing the Endangered Species Act 
            which will encourage logging where it is now disfavored. 
            Private lands are doing next to nothing for endangered 
            species. Federal lands have to carry the burden of species 
            conservation and recovery. Both spotted owls and marbled 
            murrelet need large unfragmented blocks of habitat. The 
            Wyden bill will cause significant habitat fragmentation by 
            requiring clearcutting around the border of old forest 
            stands with Forestry Emphasis Areas;
    --The Wyden bill eliminates the core requirements of the ``survey 
            and manage'' program which was identified as an important 
            mitigation for logging. The purpose of survey and manage 
            program is to ``look before you log'' by identifying rare 
            and uncommon wildlife before logging and then protecting 
            small buffers around identified sites. The Wyden bill 
            eliminates survey and manage where it is needed most, in 
            the Forestry Emphasis Areas where most of the logging will 
            occur. In 2001, the Clinton Administration made adjustments 
            to the survey and manage program which streamlined 
            procedures and focused the program on species associated 
            with older forests. The Bush Administration twice tried to 
            completely eliminate the survey and manage program, but the 
            courts rejected both attempts because the program was found 
            to be ``foundational'' to the Northwest Forest Plan. 
            Congress should not step in to eliminate this important 
            science-based conservation program.
    --The environmental safeguards embodied in the Northwest Forest 
            Plan were instituted for very good reasons. The agencies 
            were out of control--liquidating our ancient forest legacy 
            without regard for wildlife, water quality, or the law. The 
            NW Forest Plan envisions restoration of a functional forest 
            ecosystem, but the plan itself recognizes that this will 
            take more than 100 years to accomplish. It's way too soon 
            for the pendulum to swing back and erase the environmental 
            progress that has just begun.

  <bullet> The Wyden bill will exacerbate climate change by 
        accelerating the transfer of carbon from the forest to the 
        atmosphere, and preventing the carbon-rich forests of the PNW 
        from attaining their full potential for carbon storage. During 
        the last century, logging in western Oregon contributed to 
        global warming by emitting millions of tons of carbon dioxide 
        (CO<INF>2</INF>) into the atmosphere. The rate of logging was 
        reduced by the Northwest Forest Plan, and consequently the 
        carbon flow reversed and--at least on federal public 
        forestlands--there is now more carbon being absorbed and stored 
        by growing trees than is being emitted by logging. This is 
        great news, but the Wyden bill will increase logging on western 
        Oregon BLM lands, including clearcutting carbon-rich mature 
        forests.
  <bullet> The more forests that are conserved, the greater the carbon 
        benefits. The more we log, the more carbon is emitted to the 
        atmosphere. Current efforts to increase logging come at a 
        significant climate change opportunity cost. Increased 
        CO<INF>2</INF> emissions from logging will reverse progress in 
        direct conflict with Obama Administration policy to 
        ``preserve[e] the role of forests in mitigating climate 
        change.'' The highly productive low elevation BLM forests are 
        very well suited for carbon sequestration, which is also highly 
        compatible with many other important public values, such as 
        clean water, fish & wildlife habitat, recreation, and quality 
        of life--important drivers of economic activity and community 
        stability in Oregon. Increased logging--especially 
        clearcutting--is incompatible with climate mitigation and other 
        public values. To mitigate for past emissions and help avoid 
        the worst consequences of climate change, the full productive 
        capacity of BLM's forest lands in western Oregon lands should 
        be devoted to carbon sequestration. Any forgone opportunity to 
        store carbon essentially imposes real economic costs on 
        communities, industries, watersheds, and ecosystems near and 
        far--and violates BLM's legal mandates under the O&C Act, the 
        Federal Land Policy & Management Act, and the Endangered 
        Species Act;
  <bullet> The Wyden bill also increases conflict and controversy by 
        increasing clearcutting of mature forests on public lands. The 
        public overwhelmingly supports protection of both mature and 
        old growth forests on public lands. This support comes from 
        both Democrats and Republicans, men and women, rural and urban 
        residents, regardless of income and education attainment. When 
        people see the results of sloppy clearcutting, they are not 
        persuaded by forestry school professors who try to describe a 
        clearcut as butterfly habitat. The Northwest Forest Plan may 
        not have completely ended the ``forest wars'' (which can 
        probably be blamed on Congress' 1995 Salvage Rider) but the 
        protections afforded by the NWFP have significantly quieted the 
        public debate. Legislation to double logging on our federal 
        lands, including clearcutting never-before-logged stands up to 
        125 years old, is sure to reignite public sentiments and cause 
        social strife.
  <bullet> The Wyden bill excludes the public from participating in the 
        management of their public lands. NEPA and judicial review 
        serve as structured means of non-violent conflict resolution. 
        Shielding unpopular activities like clearcutting from public 
        involvement and accountability will force the public to find 
        other ways of expressing their frustration. Wit is not hard to 
        see that without access to NEPA processes and the courts, new 
        levels of public anger and frustration may be directed at 
        Congress, at the agencies, or toward direct actions defending 
        the forest, or all of the above. We can only guess.
  <bullet> The bill shields BLM managers from accountability which will 
        tempt managers to go rogue. The Wyden bill severely limits 
        citizen lawsuits. It allows the public to file lawsuits to 
        enforce the full suite of federal laws for only 30 days every 
        10 years. BLM managers facing institutional and political 
        pressure to ``get the cut out'' will likely take short-cuts 
        that increase timber output while sacrificing clean water, fish 
        & wildlife habitat, and scenic values.
  <bullet> The Wyden bill undermines the fundamental safeguards 
        provided by our nation's environmental laws:

    --The Wyden bill rewrites the core requirements of the Endangered 
            Species Act as it applies to 2+ million acres of BLM land 
            in western Oregon. The Wyden bill significantly alters the 
            ESA as it relates to interagency consultation with USFWS, 
            adverse modification of critical habitat, and possibly 
            ``take'' avoidance.
    --The Wyden bill amends the National Environmental Policy Act 
            (NEPA) in several ways. It prohibits BLM from properly 
            considering adverse impacts on water quality and cumulative 
            impacts. The bill also requires BLM to completely forgo 
            project-level NEPA planning and public involvement. BLM is 
            mandated by the Wyden bill to plan 3 billion board feet 
            worth of timber sales within an 18 month period. This is at 
            best a programmatic analysis that skips over the important 
            task of site-specific analysis. This unattainable mandate 
            will not allow BLM enough time to give proper consideration 
            to all the resource values that must be harmonized when 
            planning timber sales. BLM will not have time to consider 
            public input or identify the special resources that need to 
            be protected during logging. These include: small streams, 
            springs and wetlands; sensitive plants and wildflowers; 
            rare wildlife; nesting birds; erosion prone soils; unstable 
            slopes; high value recreation sites; cultural artifacts; 
            etc. Considering the irreversible nature of clearcutting, 
            it is very unwise to skip site-specific analysis--an 
            important step toward informed decision-making.

  <bullet> The bill is based on several fundamental misunderstandings 
        about forests, counties, and how Oregon's economy works:

    --Proponents of increased logging on federal lands often say that 
            the federal government owns more than half of Oregon's 
            forests. What they don't tell you is that federal forests 
            are mostly higher elevation forests that are less 
            productive, while private interests snatched up the most 
            productive low-elevation forest land. So in reality private 
            individuals and timber corporations own more than half of 
            the productive capacity of Oregon's forests. These forests 
            are typically clearcut with little or no meaningful 
            restrictions to protect water, wildlife, and the climate. 
            This is where the vast majority of our wood supply comes 
            from, and why federal forests need to be managed quite 
            differently.
    --Proponents of increased logging keep saying that federal forests 
            are ``shut down'' due to ``gridlock.'' In fact BLM and 
            Forest Service are selling thousands of acres of commercial 
            thinning project each year and, more often than not, 
            meeting the annual timber targets that congress 
            establishes. Data from the Forest Service and BLM on timber 
            offered for sale under the Northwest Forest Plan between 
            1995 and 2010 reveal that the agencies have cumulatively 
            offered 8.7 billion (with a ``b'') board feet of timber. 
            This is equivalent to 1.74 million log truck loads. If 
            parked end-to-end, these trucks would stretch along I-5 
            from Seattle to San Diego over and over more than 14 times. 
            This does not sound like gridlock to me--far from it.
    --Furthermore, the Northwest Forest Plan's 1 billion board foot per 
            year timber target often cited by the timber industry is 
            misleading. The timber volumes noted in the NW Forest Plan 
            were explicitly presented as ``estimates.'' Any suggestion 
            that a ``promise'' of timber was made and not kept is 
            highly misleading. The timber industry knows that the real 
            timber targets are set by Congress in the budget. The data 
            show that since 1995 the agencies have met 82% of the 
            timber targets established by Congress. The relatively 
            small short-fall is primarily the result of two legal 
            blunders that that agencies brought upon themselves. They 
            simply failed to protect watersheds and failed to survey 
            for wildlife as required by the NW Forest Plan.
    --Many logging proponents speak favorably about ``working forests'' 
            implying that unlogged forests are idle or going to waste. 
            In fact, forests that are protected from logging are hard 
            at work purifying our air and water, providing habitat for 
            fish and wildlife, storing carbon to stabilize our climate; 
            and providing quality of life that attracts high-
            functioning workers and new employers. It's perfectly 
            appropriate to manage our public forests for these 
            important public values.
    --The timber industry likes to point out that federal forests are 
            currently growing faster than they are being harvested. 
            Thankfully, following decades of overcutting, we finally 
            stopped logging our forests faster than they were growing, 
            and our forests and watersheds (and the habitat within 
            them) are experiencing much needed biomass recovery and 
            rebuilding. Contrary to industry hyperbole, accumulating 
            forest growth represents improving habitat, improving water 
            quality, and increasing carbon storage--all good things. 
            This is not an accident but an intended result of the NW 
            Forest Plan.
    --People keep saying that we need more ``early seral habitat'' when 
            in reality there is a vast excess of early seral forests, 
            especially within the ``checkerboard'' lands where BLM 
            lands are intermixed with private timberlands. In addition 
            to the vast areas of young forests created by logging, fire 
            and other natural processes continue to create complex 
            young forests. In the future, climate change is expected to 
            increase disturbance and make more young forests, so we do 
            not need to clearcut federal lands to improve habitat.
    --Sloppy clearcutting may produce early seral habitat that is 
            slightly better than industrial clearcutting but far 
            inferior to the structure-rich early seral habitat created 
            by natural disturbance. Proponents justify variable 
            retention harvest because they say that early seral forest 
            is rare. This is highly misleading. Young forests were 
            never as abundant as old forests because they are 
            ephemeral. In contrast, old forests are stable and long-
            lived and therefore dominated the historic landscape. Due 
            to decades of unsustainable logging, old forests remain far 
            more rare than young forests. Federal lands must be managed 
            to provide the things that non-federal lands are lacking, 
            i.e., old growth, clean water, recovery of endangered 
            species, carbon storage, recreation, wilderness, etc.
    --If there is a sincere desire to increase complex early seral 
            habitat there are many ways to enhance such habitat without 
            sacrificing mature forests. Modest changes in forest 
            practices on non-federal lands would greatly improve the 
            quality of habitat, e.g. greater retention of trees and 
            logs, reduced tree planting densities, and reduced use of 
            herbicides. Also, federal practices related to fire 
            suppression and post-fire logging should be modified to 
            recognize their value as complex early seral habitat, e.g., 
            let beneficial fires burn, and stop salvage logging. For 
            some reason, these sensible alternatives have been excluded 
            from the discussion, revealing that the real motivation 
            behind VRH is not habitat, but log volume.
    --Logging revenue will not stabilize local governments or 
            communities. Logging is a boom-bust enterprise that 
            fluctuates widely based on economic cycles, interest rates, 
            housing bubbles crashes, globalization, changing public 
            expectations about the role of public forests, plus 
            seasonal fluctuations related to weather and fire hazard, 
            etc. County funding has been far more stable and 
            predictable during the last 20 years of safety net payments 
            and SRS payments than during the previous era when counties 
            were closely coupled to the boom-bust timber industry.
    --Doubling the rate of logging under the Wyden bill will not solve 
            the counties' financial problems. Most of the big trees and 
            easy money was removed from these forests during the multi-
            decade clearcutting binge that preceded the Northwest 
            Forest Plan. In order to replace the generous federal 
            payments that the counties have been enjoying it would be 
            necessary to increase federal logging many-fold from 
            current levels. This is simply not realistic. First, we 
            don't want another housing bubble. The market for wood is 
            depressed and the industry is going through major 
            structural readjustment likely to result in long-term 
            reduced demand. Putting extra wood on the market now will 
            cause reduced harvest elsewhere, and this may adversely 
            affect thousands of small woodland owners who rely on 
            selling logs form their small woodlots for supplemental 
            income. Second, all this extra logging will exacerbate 
            boom-bust cycles that plague Oregon's economy and rural 
            communities. Third, the environmental costs of this much 
            additional clearcutting are simply unacceptable. Our 
            salmon, clean drinking water, and endangered species have 
            suffered enough and cannot take more abuse. Simply put, 
            there are major social and ecological barriers to logging 
            the remaining mature forests on public land, and there is 
            not nearly as much money in logging the smaller trees left 
            over after past logging. Finally, the Wyden bill creates a 
            disincentive for the counties to save themselves by 
            addressing their property tax rates which are far below 
            average for the state and the nation.
    --Logging will not provide quality jobs. The timber industry is 
            inherently unstable. It has always suffered wide swings 
            that forced layoffs and community disruption. This will 
            never change. The timber industry has successfully busted 
            the unions so real wages in the industry have declined over 
            the last 30 years. Logging is often a seasonal enterprise 
            and logging jobs are among the most dangerous and 
            undesirable in the workforce. Concurrent with the NW Forest 
            Plan, the government spent a billion dollars helping 
            workers and communities transition from timber to other 
            industries. Why would we reverse course now and shackle 
            local communities to a stagnant industry?
    --Logging will not provide significant jobs or reduce unemployment. 
            Proponents of increased logging often blame job losses on 
            the spotted owl and the environmentalists. However, timber 
            industry employment and wages were declining well before 
            the spotted owl forced any logging restrictions. Today, the 
            timber industry is just a small fraction of Oregon's 
            economy because, for the last 30 years, the rest of the 
            economy has grown much faster than the timber industry. 
            Oregon's economy has become much more diversified in recent 
            decades so timber jobs now represent just a small fraction 
            of the jobs in Oregon. Most of those jobs are related to 
            logging private land. Normal job growth in the rest of the 
            economy vastly overwhelms any expected increase in timber 
            jobs related to increased logging on BLM lands. Economic 
            forces have caused the timber industry to become highly 
            concentrated in a few locations along the I-5 corridor in 
            western Oregon, including cities like Eugene, Roseburg and 
            Medford with significant access to markets and alternative 
            job opportunities. Furthermore, the timber industry is 
            increasingly automated so it seeks more logs from more 
            clearcutting while employing fewer and fewer people. More 
            logging does not translate to more jobs. In fact, in spite 
            of all the mill closures (mostly among the small mills) the 
            large mills have continued to expand and the total milling 
            capacity remains large, while employment has declined. In 
            short, even a dramatic increase in logging on federal land 
            will have little or no influence on unemployment in Oregon. 
            This means Oregonians have to endure more clearcuts, more 
            polluted water, and more endangered species, while enjoying 
            fewer jobs and minimal tax revenue. A more prudent approach 
            to economic development would emphasize economic 
            diversification--focusing on industries that are stable and 
            growing, rather than stagnant and cyclical, and it would 
            strive to protect and enhance Oregon's quality of life that 
            attracts skilled workers and companies who want to hire 
            them. Increased clearcutting on public land is not the 
            answer.

  <bullet> The Wyden bill has some serious drafting problems. For 
        instance:

    --The bill requires BLM to plan for harvest of 10-12% of the 
            Forestry Emphasis Areas each decade, but the bill does not 
            allow BLM to exclude riparian areas, erosion prone soils, 
            or other unsuitable areas from this mandate, so the 10-12% 
            mandate will either require BLM to log unsuitable lands or 
            adopt harvest rotations much shorter than 80-100 years;
    --The bill specifies particular linear measures for riparian 
            protection but fails to describe how that buffer is 
            measured, so the linear measure could be a single measure 
            centered on the stream, or a double measure--one on each 
            side of the stream.
    --The Wyden bill language regarding spotted owl nest trees is 
            extremely outdated. While spotted owl nest trees should be 
            protected, the scientific understanding of the needs of 
            spotted owls embraced by the Northwest Forest Plan is light 
            years beyond protection of just nest trees. We now know 
            that recovery of spotted owls requires protecting not just 
            nest trees, but also nest stands, core areas around nest 
            stands, and home ranges around core areas, as well as 
            clusters of interacting home ranges spatially arranged so 
            that mature spotted owls can find mates and juvenile 
            spotted owls can safely disperse into suitable habitat.
    To reinforce and supplement the comments above, please find 
attached or linked below:
  <bullet> Attached: A compilation of scientific and government reports 
        explaining the irreplaceable ecological importance of BLM 
        lands.
  <bullet> Attached: Oregon Wild 2013. Federal Lands Are Healthier Than 
        Private Lands. A summary of evidence showing the varied public 
        benefits that will be sacrificed if logging is increased on 
        federal lands.
  <bullet> Attached: Oregon Wild's brief summary of the climate 
        consequences of increased clearcutting under Wyden's bill. 
        (Maybe you already received this from my colleague Sean Stevens 
        last week).
  <bullet> Attached: A brief summary explaining how the Northwest 
        Forest Plan represents a good starting point for climate 
        preparedness in SW Oregon. Heiken. D. 2010. The Northwest 
        Forest Plan as a Climate Strategy for SW Oregon.
  <bullet> Attached: A brief critique of the testimony submitted by 
        Jerry Franklin and Norm Johnson;
  <bullet> Attached: A brief summary of how the Wyden bill will 
        adversely effect Threatened northern spotted owls, including a 
        map showing the loss of east-west connectivity;
  <bullet> Attached: My brief summary of how the Wyden bill will 
        adversely affect Threatened marbled murrelets, including a map 
        showing the loss of critical habitat in the Coast Range.
  <bullet> Attached: A review of evidence showing that clearcutting 
        under the Wyden bill will increase fire hazard.
  <bullet> Attached: The real-time twitter feed that fact-checked the 
        Feb 6th hearing on the Wyden bill, including graphics showing 
        that the timber industry provides very few jobs and BLM is 
        meeting timber targets.
  <bullet> Attached: Oregon Wild's June 2011 scoping comments on the 
        Wagon Road and Roseburg BLM Pilot Projects in which we debunk 
        the rationale for sloppy clearcuts. http://www.oregonwild.org/
        oregon_forests/forest-management/in-your-forests/files-for-
        eyes-on-the-agencies/Wagon_Road_and_Roseburg_Pilots_scoping_6-
        29-2011_BLM.pdf
  <bullet> Attached: Various Oregon Wild comments on the Obama 
        Administration's proposed Western Oregon RMP Revisions, and the 
        Bush Administration's proposed Western Oregon Plan Revision 
        (WOPR). The WOPR proposed to dramatically increase logging on 
        BLM lands but this was rejected by the Obama administration 
        (before the courts could do it first). Oregon Wild's comments 
        explain why we have the Northwest Forest Plan and how decades 
        of over-cutting left us with little choice but to continue 
        forest conservation efforts.
  <bullet> Attached: News story--Federal Reserve Bank: scenic NW 
        attracts economic growth.
  <bullet> Attached: White paper explaining the manifold reasons why 
        both old growth AND mature forests need to be protected. 
        Heiken, Doug. 2009. The Case for Protecting Both Old Growth and 
        Mature Forests, Version 1.8. Oregon Wild. http://
        dl.dropbox.com/u/47741/Mature%20Forests
        %2C%20Heiken%2C% 20v%201.8.pdf
  <bullet> Attached: A detailed critique of Gordy Reeves' paper 
        attempting to justify reduced stream buffers on BLM lands. 
        Heiken, D. 2013. Riparian Reserves Provide Both Aquatic & 
        Terrestrial Benefits--A Critical Review of Reeves, Pickard & 
        Johnson (2013). https://dl.dropboxusercontent.com/u/47741/
        Heiken% 
        202013.%20Review%20of%20Reeves%20et%20al 
        %20Riparian%20Proposal.pdf
  <bullet> Attached: Footnoted report on forests, carbon and climate: 
        Heiken, D. ``The Straight Facts on Forests, Carbon, and Global 
        Warming'' provides a more detailed foot-noted report: http://
        tinyurl.com/2n96m5
  <bullet> Attached: Oregon Wild's detailed white paper on the DeFazio/
        Walden/Schrader O&C Trust bill. This white paper discusses many 
        points that are highly relevant to the discussion of the Wyden 
        bill, such as the ecological role of the BLM lands, the harms 
        of clearcutting and habitat fragmentation, and the economic 
        contributions provided by protected forests. Oregon Wild 2012. 
        ``Problems and Pitfalls with the Proposed O&C Trust, 
        Conservation, and Jobs Act'' http://www.oregonwild.org/
        oregon_forests/old_growth_protection/westside-forests/western-
        oregon-s-patchwork-public-lands/O-
        C_Trust_Act_White_Paper_FINAL_6-5-2012_w_DeFazio_response.pdf
  <bullet> Attached: A report explaining why the costs of fuel 
        reduction logging often exceed the benefits. Heiken, D. 2010. 
        Log it to save it? The search for an ecological rationale for 
        fuel reduction logging in Spotted Owl habitat. Oregon Wild. v 
        1.0. May 2010. http://dl.dropbox.com/u/47741/
        Heiken_Log_it_to_Save_it_v.1.0.pdf
  <bullet> Linked: A powerpoint and white-paper debunking timber 
        industry myths about forests, carbon, and climate: Heiken, D. 
        Myths & Facts on Forest, Carbon and Global Warming slide show 
        clarifying many misconceptions about forests, logging, and 
        carbon: http://www.slideshare.net/dougoh/forest-carbon-climate-
        myths-presentation/ (Here, you can download the long version: 
        https://dl.dropboxusercontent.com/u/47741/
        Heiken%2C%20Forest%20Carbon%20Myths%20v.1.4.ppt)
                                 ______
                                 
                 Statement of American Bird Conservancy
            please oppose the o & c land grant act, s. 1784
     logging bill threatens esa listed birds & forest carbon stores
The American Bird Conservancy Strategic Bird Conservation Framework
    American Bird Conservancy works to conserve birds and their habitat 
throughout the Americas and has developed a unique and successful 
strategy to preserve bird diversity and maintain or increase wild bird 
populations. This strategy is fully articulated in The American Bird 
Conservancy Guide to Bird Conservation published in 2010 by University 
of Chicago Press (ISBN-13:978-0-226-64727-2).
    The highest bird conservation priority is halting extinctions, 
followed by conserving and restoring habitats. In the case of the 
Northern Spotted Owl and Marbled Murrelet, it is being is proposed to 
place lower priority general habitat needs before the specific needs of 
these endangered species, even to the point of allowing large numbers 
of Northern Spotted Owls and Marbled Murrelets to be killed (taken) and 
significant habitat to be degraded or completely eliminated for 
decades.
    While the stated goal to improve future habitat conditions for the 
owl and murrelet are well-intended, this activity is not supported by 
peer-reviewed studies showing populations will benefit, and it is, in 
fact, pushing two already extremely imperiled species closer to 
extinction and should be immediately halted.
    For more information about this statement and American Bird 
Conservancy's views on S. 1784, please contact Steve Holmer, Senior 
Policy Advisor, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8dbc0c7c4c5cddae8c9cacbcac1daccdb86c7dacf86">[email&#160;protected]</a> For more information about 
American Bird Conservancy please see www.abcbirds.org.
    The O & C Land Grant Act, S. 1784, proposes to increase logging in 
habitat essential to the survival of two listed birds, the Northern 
Spotted Owl and the Marbled Murrelet. Recent analysis indicates that 
the population of the threatened Northern Spotted Owl continues to 
decline, and that the Marbled Murrelet is likely to be extinct outside 
of the Puget Sound area within one hundred years. The best available 
scientific evidence indicates that these two listed species need 
additional protections, not additional logging that eliminates habitat 
and further fragments the landscape.
    Government agency reviews show that President Bill Clinton's 
Northwest Forest Plan has been effective at protecting drinking water 
supplies for millions of Americans, improving water quality and 
restoring forests that were decimated during decades of unsustainable 
old growth logging.
    We now also know from climate researchers, that the Northwest 
Forest Plan has helped turn the region's federal forests from a source 
of carbon emissions into a sink. The moist mature and old growth 
forests in California, Oregon, and Washington State represent a vast 
storehouse of carbon that could be lost to the atmosphere if logged, 
and that it would take centuries to recapture that lost carbon.
    In addition to being harmful to the atmosphere, the bill seeks to 
ease habitat and oversight protections provided by the Endangered 
Species Act and National Environmental Policy Act, and it limits 
judicial review to prevent public review of resulting management 
decisions. One provision would prevent additional habitat protection if 
an ESA listing decision or critical habitat designation would require 
it based on the best available science. This is very significant 
because the U.S. Fish and Wildlife Service has a court ordered deadline 
to issue a new critical habitat rule for the Marbled Murrelet in 2015.
    We anticipate that the combined loss of habitat due to increased 
logging, limits on additional habitat protection, and the loss of 
adequate regulatory mechanisms to conserve two listed species are 
likely to cause up-listings to endangered status and to jeopardize 
their continued existence. Therefore, we respectfully urge Senators to 
oppose S. 1784.
Impact on Listed Bird Species--Section by Section Review
    Sec. 2 (11) (B) Exclusion: This provision excludes unoccupied 
Northern Spotted Owl nest trees if located in a disturbance area. The 
provision is inconsistent with Recovery Action 12 of the Northern 
Spotted Owl Recovery Plan which calls for the conservation of features 
that take a long to form, such as large snags often used by owls for 
nesting. In a letter\1\, conservation groups called on the Obama 
administration to implement measures in the final Northern Spotted Owl 
Recovery Plan to protect post-fire forest habitats and structures used 
by the threatened owls and their prey. An Oct. 31 letter to Congress 
endorsed by 250 scientists\2\ says ``legislation to expedite post-
disturbance logging is inconsistent with the current state of 
scientific knowledge, and would seriously undermine the ecological 
integrity of forest ecosystems on federal lands.''
---------------------------------------------------------------------------
    \1\ Conservation groups' letter on Recovery Action 12, http://
www.abcbirds.org/PDFs/spotted_owl_recovery_action12_letter.pdf
    \2\ http://geosinstitute.org/images/stories/pdfs/Publications/Fire/
Scientist_Letter_Postfire_2013.pdf
---------------------------------------------------------------------------
    Sec. 2 (12) Old Growth: The bill defines moist old growth as trees 
older than 150 years and stands older than 120 years and for dry 
forests trees older than 150 years. The Northwest Forest Plan conserves 
late-successional forest 80 years and older because it was determined 
that owls begin using habitat of that age, and to provide the necessary 
quantity of habitat needed to conserve the species.
    Sec. 2 (13) Older Trees: The Northwest Forest Plan conserves late-
successional forest 80 years and older because it was determined that 
owls begin using habitat of that age, and to provide the necessary 
quantity of habitat needed to conserve the species. Under this 
definition, stands in the 80-100 range within late-successional owl 
reserves could lose protection.
    Sec. 102 (b) ESA and NEPA Redefined: This provision says covered 
land shall be managed in a manner that is ``consistent with this Act.'' 
This means that no NEPA or ESA requirements apply that are not 
specifically described in the bill.
    Sec. 102 (c) Forestry Emphasis Areas: Federal lands are currently 
managed under a multiple use mandate that requires managers to evaluate 
and provide for a range of values while also maintaining the ecosystem. 
Designating Forest Emphasis Areas mandates a dominant use of these 
lands, which is likely to result in the degradation of non-commodity 
values such as clean water, carbon storage, flood control, non-timber 
forest products, recreational opportunities, tourism, attracting 
relocating businesses and workers, and wildlife habitat.
    Throughout the bill are new conservation standards and land 
designations such as Forest Emphasis Areas that differ from the 
Northwest Forest Plan. While in some cases the protections being 
described would beneficial to listed species, on the whole the bill as 
drafted would result in an estimated 78,000 acres of owl critical 
habitat and late-successional forest being logged over the next twenty 
years.
    According to a chart prepared by Norm Johnson with assistance from 
BLM\3\, over 200,000 acres of late-successional reserve protected by 
the Northwest Forest Plan would be designated Forest Emphasis Areas and 
a total of 273,000 acres of critical habitat has been deemed suitable 
for logging. See maps on pages 19-21 showing Late-successional 
reserves, Marbled Murrelet and Northern Spotted Owl critical habitat 
that will be designated Forestry Emphasis Areas.
---------------------------------------------------------------------------
    \3\ Document prepared by Norm Johnson with technical assistance 
from BLM staff; 11/22/13, http://www.blm.gov/or/landgrant/files/
oc_wyden_handout_11_22_13.pdf
---------------------------------------------------------------------------
    Sec. 102 (c) (1)-(2) Section 7 Waiver: Because this section 
describes specific non-discretionary management requirements upon BLM 
and does not provide explicit ESA compliance, then Section 7 
consultation would not apply to these projects.
    Sec. 103 (b) (5) Mixed Forests: The bill provides undue discretion 
to determine if a site is moist or dry. Given that the bill's 
protection of moist forests extends to stands that average 120 years, 
and dry forests only protect individual trees older than 150, it would 
be more beneficial to listed bird species to have mixed habitat to be 
designated as moist.
    Sec. 103 (c) (4) Northern Spotted Owl: This provision allows for 
logging of habitat that Recovery Actions 10 and 32 of the Northern 
Spotted Owl Recovery Plan say should be protected, provided the U.S. 
Fish and Wildlife Service certify the project will beneficial to the 
owl over the long-term. Short-term harm cannot be considered. Please 
see the discussion beginning on page 16 concerning Ecoforestry and the 
Misuse of Ecosystem Management.
    This section also allows projects which do not have to comply with 
the ESA and are harmful to owl habitat if the project is deemed to 
address a threat of disease, insects or fire. This is remarkably broad 
language that allows for just about any project in owl habitat to 
proceed despite Recovery Actions 10, 12 and 32 intended to protect 
nesting owls, forest structures needed by owls and prey, and high 
quality owl habitat.
    Sec. 103 (c) (6) Nest Trees: This provision overrides Section 9 of 
the ESA prohibiting take of the Northern Spotted Owl through habitat 
modification.
    Sec. 103 (c) (6) (B) Surveys: The bill states that nest trees in 
Forestry Emphasis Areas shall not be cut, but the cursory survey method 
prescribed limits surveys to only one day per 100 acres of timber sale. 
This is insufficient to be certain no owl nests are present. The 
current protocol requires two years of six surveys per year.
    Sec. 103 (c) (6) (C) Information from Public: While this section 
allows for the public 14 days to provide information concerning the 
location of nest trees, there is no requirement the public will be 
notified when this 14 period begins via the consistency document 
required under section 104 (d).
    Sec. 103 (c) (7) Marbled Murrelet: This provision waives Section 7 
consultation requirements for projects affecting Marbled Murrelet and 
requires BLM to ``confer'' with the U.S. Fish and Wildlife Service to 
see if the logging will provide benefits to a forest ecosystem. There 
has been no scientific analysis demonstrating Marbled Murrelets are 
likely to benefit from additional habitat loss or fragmentation, and 
growing evidence that forest fragmentation is a major threat to the 
species by enhancing predation of nests. The Pacific Seabird Group\4\ 
recently sent a letter to the administration raising concerns about 
harm ecoforestry was likely to cause the Murrelet. Additional 
information on the likely harm to Marbled Murrelets by ecoforestry is 
on page 17.
---------------------------------------------------------------------------
    \4\ http://www.pacificseabirdgroup.org/policy/
PSG_President.MAMU.pdf
---------------------------------------------------------------------------
    Sec. 103 (d) (2) Ecological Forestry Principles: This provision 
outlines ecoforestry for moist forests. It is important to note that 
when peer-reviewers from The Wildlife Society, the Society for 
Conservation Biology and the American Ornithologists' Union analyzed 
ecoforestry in the context of the Northern Spotted Owl Critical Habitat 
rule, they were very critical, concluding that there is a lack of 
supporting evidence that ecoforestry will benefit listed species, and a 
large amount of evidence it is likely to be harmful.
    Sec. 103 (d) (2) (E) Early Seral: This provision states that less 
intense approaches to site preparation and tree regeneration (planting) 
would be used to nurture early seral ecosystems, but provides no 
specific standards to ensure that the result of treatments will not 
functionally be tree farms.
    Sec. 103 (d) (2) (F) Rotational Logging: This provision requires 
that stands managed by ecoforestry will be logged when the stand 
reaches its rotation age. This ensures that the stand will never grow 
old enough to provide quality owl or Murrelet habitat.
    Sec. 103 (d) (2) (G) 120 Year Cap on Tree Age: This provision 
requires the development of a rotation system of 80 to 120, ensuring 
that no stands will reach the age limit requiring protection.
    Sec. 103 (d) (3) (A) Regeneration Harvest Requirement: This 
provision requires that 8-12% of the moist Forestry Emphasis Area be 
designated for logging during each 10-year period using variable 
retention regeneration (i.e. clearcutting). Thus, every stand would on 
average be logged every 100 years.
    Sec. 103 (e) Dry Forests: Ecological forestry has much weaker owl 
habitat protections than those of the Northwest Forest Plan and 
therefore, should be thoroughly tested before being applied across the 
landscape. The legislation would raise the age of forest protection 
from 80 years to 150 years, and unlike the Northwest Forest Plan no 
stands are protected, only individual trees. See addition discussion 
below concerning dry forests.
    Sec. 103 (f) (1) Riparian Reserves in Forestry Emphasis Areas: The 
bill would significant reduce the size of riparian buffers compared to 
those provided the Northwest Forest Plan. It is important to note that 
riparian buffers were provided to not only protect aquatic species and 
water quality, but also terrestrial species covered by the Survey and 
Manage protocol, and to provide dispersal habitat for Northern Spotted 
Owls. Current climate adaptation policy indicates that to withstand 
predicted increased heavy rain events, creating larger riparian buffers 
would be the correct land management prescription.
    Sec. 104 Streamlined Procedures: While we support the concept of 
landscape scale management, the requirement to develop two EISs that 
can plan for and identify all of the environmental impacts related to 
10-years of logging projects is unreasonable and likely to result in 
inadequate conservation of all forest values. Due to other restrictions 
in the bill, this would be the only opportunity for meaningful public 
involvement for ten years' worth of timber sales.
    Sec. 104 (a) (4) Additional Analysis: This provision states that no 
project specific NEPA analysis is required unless convincing new 
information regarding a significant environmental impact is raised that 
was not considered in the 10-year EIS. Even if circumstances have 
changed and more detailed analysis is needed to make an informed 
decision, BLM will not have to conduct an environmental assessment due 
to the very narrow circumstances provided in this section.
    Sec. 104 (b) (1) Limiting Alternatives: This section limits the 
number of alternatives and limits their scope to a prescribed map to 
prevent analysis of different landscape configurations that may be more 
beneficial to listed species. In addition, the analysis must follow 
prescribed logging levels and cannot analyze options that do not 
equally distribute the logging across the BLM districts.
    Sec. 104 (b) (2) (A) Cumulative Impacts: The cumulative impact of 
logging in terms of the total habitat loss and fragmentation and 
resulting population declines are why the Northern Spotted Owl and 
Marbled Murrelet were listed under the ESA. By limiting the analysis to 
the specific action it authorizes this provision prevents the agency 
from analyzing cumulative impacts in the 10-year EISs.
    Sec. 104 (b) (2) (B) Analyses: The bill states that a timber 
prioritization plan, watershed analysis, dry forest landscape plan, and 
a most forest landscape must be developed and utilized to draft the 10-
year environmental impact statements. In (II) it states that these 
documents do not need to undergo NEPA analysis, and in (ii) it goes 
further and provides these documents an explicit exemption from NEPA.
    Sec. 104 (b) (3) (B) Distributions: This provisions directs the 
agency to ensure that logging will evenly divided among BLM districts 
to ensure each district has adequate harvest and revenue to share with 
counties. This language undermines the concept of ecosystem management 
which requires an analysis of all affected values, not just timber 
volume in determining the appropriate location for logging, and areas 
where additional conservation may be required to protect listed 
species.
    Sec. 104 (b) (4) Specific Environmental Impacts: This section lists 
specific values to be considered in the environmental impact 
statements. While we appreciate the inclusion of inventoried roadless 
areas, we are concerned that only Northern Spotted Owl nest trees were 
listed. The owl also requires foraging habitat, and its prey also has 
habitat needs that should be considered. Further, the Marbled Murrelet 
is very likely being endangered by the experimental logging proposed by 
the bill and should be given special consideration to determine the 
likely impact of extensive habitat loss that the bill proposes.
    Sec. 104 (c) (3) Judicial Review: The bill places limits on 
judicial review including the available venues, objections can only be 
considered if the issue had previously been raised, and a very short 
timeframe of 30 days from when a project is approved to decide if 
litigation is warranted and to initiate a civil action.
    Sec. 104 (c) (3) (F) (iii) Balancing of Short-and Long-Term 
Effects: This provision allows the court to weigh potential long-terms 
benefits to the ecosystem, and the possible consequences of inaction, 
against the certain short-term harm that is caused by removing the 
habitat of listed species. Given the low population numbers and 
declining population trends, this is a remarkable risky policy for the 
Marbled Murrelet and Northern Spotted Owl, that allows for essential 
habitat to be removed, even it is may cause short-term harm to these 
species. The concern of course is that one or both of the species will 
go extinct before the long-term ecosystem benefits accrue. In the case 
of the Marbled Murrelet this is of particular concern because the birds 
like to nest in very old trees, usually 200 years and older, meaning it 
will be a very long time before logged Murrelet habitat will again be 
suitable for the species.
    Sec. 104 (d) (1): Consistency Document: Instead of an environmental 
analysis or environmental impact statement that discloses and analyzes 
environmental impacts, this section requires that logging projects only 
need a consistency finding that lists interested parties contacted, has 
a determination of no extraordinary circumstances that are undefined, 
and a finding that the project is ``consistent'' with the ten-year EIS 
Record of Decision.
    Sec. 104 (d) (3) Cause of Action: The only challenge that can be 
brought against a proposed project, no matter how harmful to water 
quality, carbon storage, recreation hotspots or listed wildlife, 
concerns only whether or not it is consistent with the 10-year EIS. The 
only other claim that can be considered is if a species has been newly 
listed under the ESA. This section does not include designation of new 
critical habitat which is required for the Marbled Murrelet in 2015. 
Subsection (B) further limits the time period to only 30 days for 
filing a legal claim.
    Sec. 104 (e) (1) (B) Assessments under the ESA: Subsection (i) 
requires FWS and NOAA to commence consultation within 90 days, and 
determine acceptable take levels for the planned projects under the 10-
year EIS. We are concerned that this may be the only Sec. 7 
consultation that takes places since project level consultation is made 
discretionary in (ii) (1). Further, severe time limits are placed on 
FWS and NOAA concurring that a project is not likely to adversely 
affect listed species or if formal consultation is required.
    Sec. 104 (e) (4) Escalation: Leaves the final determination of 
disagreements concerning ESA Sections 7 or 9 with the BLM.
    Sec. 104 (e) (5) Applicability of the Northwest Forest Plan: This 
provision abolishes the Survey and Manage requirements within forestry 
emphasis areas. This may lead to additional species being listed under 
the Endangered Species Act, and will cause harm to the threatened 
Northern Spotted Owl by removing dispersal habitat, and to the Marbled 
Murrelet if nearby habitat is fragmented by logging.
    Sec. 104 (e) (7) (B) Reinitiation of Consultation: This provision 
overturns the ESA's Section 7 (d) prohibition against irretrievable and 
irreversible commitment of resources during consultation. Projects 
would continue while the new consultation takes place.
    Sec. 104 (e) (8) Listings of Endangered Species: Under subsection 
(A) if new species are listed or if additional critical habitat is 
designated as we except will happen for Marbled Murrelet, this 
provision requires some conservation areas be designated to forestry 
emphasis areas to compensate if forestry emphasis areas are designated 
critical habitat and made into conservation areas. Under subsection (B) 
the Secretary has 120 days to identify 10,000 acres of conservation 
lands that could be redesignated.
    Sec. 105 (b) (1) Timber Harvest Limitations: The bill explicitly 
allows logging of conservation areas ``to improve forest health'' or in 
(ii) to improve the habitat of listed species over the long-term. This 
provision raises doubt that the conservation lands will actually be 
conserved, and it also appears that owl and Murrelet habitat can 
logged, even it causes short-term harm to the species, if the agency 
claims that there will be long-term benefits.
    Sec. 115 (a) (2) Primitive Backcountry Special Management Areas: 
This section allows logging to improve forest health or if there is a 
threat of fire, insect outbreak or disease. These conditions apply to 
all of the approximately 43,000 acres included in the six new 
designations raising concern that these backcountry primitive areas may 
not be conserved.
    Sec. 117 Land Ownership Consolidation: While we support the intent 
of maintaining and providing for large blocks of habitat, this language 
lacks specificity and based on the requirements in (a) (1-3) we are 
concerned that the potential impact to listed species will not be 
considered. The Public Interest Determination language of the bill (d) 
(2) does not guarantee that the public can be meaningfully involved in 
the determination of public interest. Further, (d) (4) limits the 
determination to lands of equal monetary value. Ecosystem values, and 
potential restoration needs and costs are not required to be 
considered. Based on past land exchange proposals in the region, there 
is valid concern is that this provision will result in old growth 
forests providing habitat for listed species being traded for heavily 
logged lands devoid of these species and in need of extensive 
restoration to be paid for at taxpayer expense.
    Sec. 119 Closure and Decommissioning of Roads: This provision is 
very likely to benefit listed bird species. In subsection (iv) it 
prioritizes roads that if closed would enhance wildlife habitat through 
the restoration of large blocks of habitat. This would be particularly 
beneficial to owls and Murrelets. Subsection (b) authorizing the legacy 
roads and trails program and (4) providing $5 million per year through 
2023 will very likely benefit the forest ecosystem and listed bird 
species.
    Sec. 120 Special Management Research Areas: This provision 
allocates 50,000 acres to carry out ecoforestry research. This includes 
up to 15,000 acres of conservation areas. However, subsection on (d) 
concerning monitoring does not require any studies to determine the 
impact on the populations of listed species.
    Sec. 121 Compliance: This section requires the Secretary to ensure 
compliance only for the protection of trees 150 years and older. This 
is of concern because under the Northwest Forest Plan, trees within 
late-successional reserves 80 years and older are conserved. This bill 
also protects moist forest stands older than 120 years. Trees in moist 
forests in the 120-150 age class should also be covered. In (d) (1) a 
penalty system is to be devised to prevent removal of old trees between 
the ages of 150 and 250. The provision also allows that the cutting of 
some small number of old growth trees cut in error. This is of great 
concern due to the severe shortage of very old trees capable of 
providing nesting platforms for the Marbled Murrelet.
    Sec. 122 Review by Advisory Panel: In (a) the effect on listed 
species is not included on the list of values the advisory panel report 
must consider. It is of great concern that scientists that focus on 
biology are apparently being excluded from this exercise in forest 
policy development. The Northwest Forest Plan included a broad range of 
scientists, not just foresters.
    Protective Designations (numerous sections): Permanently protecting 
forest areas should prove beneficial to the long-term well-being of the 
Northern Spotted Owl and Marbled Murrelet that depend on old growth 
forests that will likely be allowed to develop and be retained in these 
areas. The new designations and Old Growth Legacy Network which covers 
430,000 acres of moist stands older than 120 years, protect less 
overall habitat than the Northwest Forest Plan late-successional 
reserves which protect stands older than 80 years, and has more robust 
riparian reserve networks. Overall, the bill promotes logging of about 
60% of the forest, while only 40% is considered unsuitable for harvest.
The Northwest Forest Plan Ensures Sustainable Forest Management
    The Northwest Forest Plan\5\ governs management of federal forests 
in the Pacific Northwest including the Oregon and California Lands (O & 
C), and according to government reviews, it is working to restore 
degraded forests and watersheds. The Northwest Forest Plan protects 
many forests over 80 years old with the goal of allowing these stands 
to mature into old growth and over time provide additional habitat for 
listed species. S. 1784 would eliminate the protection for much of the 
80-to 120-year-old forests. This would prevent enough old growth 
forests from ever maturing and filling in the gaps in the heavily 
fragmented landscape to create the large blocks of wildlife habitat 
called for by the Northwest Forest Plan.
---------------------------------------------------------------------------
    \5\ http://www.geosinstitute.org/images/stories/pdfs/Publications/
FederalLandsManagement/nwfp_scientist_letter_14june2012.pdf
---------------------------------------------------------------------------
    The Forest Service Ten Year Review of the Northwest Forest Plan 
found that, overall, the Plan's conservation strategy and reserve 
network appear to be working as designed. The total area of medium and 
large older forests on federal lands in the Plan increased by more than 
1 million acres during the ten-year period, almost double the 
anticipated amount. The Plan's outcomes for Spotted Owls were expected 
to take at least a century. Spotted Owl population declines were 
expected for the first 40 to 50 years under the Plan, with owl 
populations stabilizing in the mid-21st Century and possibly increasing 
after that as owl habitat recovery exceeded loss.
    A Forest Service analysis of watershed condition released in Feb. 
2012 finds that the Northwest Forest Plan is working well to recover 
impaired watersheds across the region. Watershed Condition Status and 
Trend (Laningan et al 2012) published by the Pacific Northwest Research 
Station analyzed data from 1994-2008, the first fifteen years of the 
Northwest Forest Plan and found that 69% of the watersheds in the NWFP 
area had a positive change in condition as a result of road 
decommissioning and vegetation growth. The report summary notes: 
``Watershed condition was most positive for congressionally reserved 
lands, followed by late-successional reserves, and then matrix lands.''
Timber Volume and the Northwest Forest Plan
    While the Plan has generated complaints from interests that seek 
higher logging levels on federal lands, it's been producing as much 
timber as Congress has provided funding for, and with relatively little 
controversy compared to the timber wars of the past. In addition to 
peace in the woods, the Plan has also provided a stable legal framework 
allowing for timber operations on state and private lands.
    The final Northwest Forest Plan was a political compromise that 
under-delivered on old-growth protection by placing 42% of the 
remaining acres in the matrix, and overpromised on timber volume. The 
plan's billion board foot estimate was never realistic because it is 
predicated on logging old-growth, which is not supported by the public 
and that in practical terms has generally been ruled in violation of 
wildlife protection laws. The estimate was also completed prior to the 
designation of the riparian reserve network which turned out larger 
than anticipated. The Bush Administration recognized these factors to a 
degree, and lowered the allowable sale quantify to 800 million board 
feet.
    A look at timber sale output in the Northwest Forest Plan region 
reveals the agency is at a sustainable level and meeting the volume 
targets budgeted by Congress. Since 2003, the budget approved by 
Congress and the Administration has called for 4,668 million board feet 
from the Northwest Forest Plan area. The agencies have offered 4,507 
board feet, or 96% of the planned budget.
    In addition, exports from the region are skyrocketing. In 2010 over 
2 billion board feet of logs and lumber were exported from the West 
Coast. In 2011 it topped 3 billion. There is no shortage of logging in 
the Pacific Northwest.
Carbon Storage Aided by the Northwest Forest Plan
    We now also know from climate researchers, that the Northwest 
Forest Plan has helped turn forests from a source of carbon emissions 
into a sink. The moist mature and old growth forests in California, 
Oregon, and Washington State represent a vast storehouse of carbon\6\ 
that could be lost to the atmosphere if logged, and that it would take 
centuries to recapture that lost carbon. We also know that mature and 
old trees store considerably more carbon than young trees. Forest 
carbon scientists have concluded that these magnificent forests are 
only half full, in that they could store considerable more carbon if 
allowed to grow.
---------------------------------------------------------------------------
    \6\ Letter to President Obama in support of conserving forest 
carbon: http://www.abcbirds.org/pdfs/cap_letter.pdf
---------------------------------------------------------------------------
    According to Dr. Beverly Law of the University of Oregon, 
activities to promote carbon storage in forests include allowing 
existing forests to continue to store and accumulate carbon, and 
forestation of lands that once carried forests. Natural disturbance 
(fire, insects) has small impact on forest carbon compared to intensive 
harvest, and thinning does not reduce emissions or fire occurrence. 
Large-scale thinning for bioenergy production is neither sustainable 
nor GHG neutral.
O & C Lands Critical for Maintaining Integrity of the Northwest Forest 
        Plan
    The low elevation forest lands of western Oregon managed by BLM 
have very high ecological values such as clean drinking water, and they 
provide irreplaceable habitat that links large blocks of forest in the 
Coast Range, Cascades, and Klamath mountains. These old, structurally-
complex forests are critically important for the Northern Spotted Owl 
and Marbled Murrelet.
    Two key assumptions behind the biological analysis supporting the 
Northwest Forest Plan were that (1) ``[r]iparian and Late-Successional 
Reserves (LSRs) will retain reserve status and will not be available 
for timber production other than as provided in Alternative 9'' and (2) 
``[a]lternative 9 applies to Forest Service and BLM lands; all future 
actions on these lands would be consistent with Alternative 9, as 
adopted in the Record-of-Decision (ROD).'' (NWFP FEIS at 2-33 to 2-34)
    When Judge William Dwyer ruled on the legality of the Northwest 
Forest Plan, he indicated that the plan, which scientists had concluded 
must include the O & C lands to conserve listed species, was barely 
legal, and offered the minimum amount of protection the law allows for 
endangered species. The judge also confirmed that including federal 
forests in the plan area managed by the Bureau of Land Management was 
essential. This was confirmed in the analysis for the Northern Spotted 
Owl Critical Habitat rule:

          ``In some areas, for example the O & C lands, our modeling 
        results indicated that those Federal lands make a significant 
        contribution toward meeting the conservation objectives for the 
        Northern Spotted Owl in that region, and that we cannot attain 
        recovery without them.'' (P. 567 draft Northern Spotted Owl 
        Critical Habitat Rule).

    Significantly altering the management of O & C Lands now is likely 
to upset the balance created by the Northwest Forest Plan. This could 
have negative implications for timber production on other federal lands 
managed by the Forest Service, private landowners with Habitat 
Conservation Plan predicated on O & C lands being conserved as well as 
the managers of Oregon's state forests.
Northern Spotted Owl Critical Habitat Rule Protects Additional Federal 
        Forests
    The final Northern Spotted Owl critical habitat rule of 2012 
designated 9,577,969 acres, an increase of four million acres over the 
old rule. It also directs the land management agencies to conserve 
older forest, high-value habitat, and areas occupied by Northern 
Spotted Owls. An estimated 1.1 million acres of occupied and high-
quality owl habitat on federal lands previously designated for timber 
harvest now must be protected from logging.
    For critical habitat designated in areas already scheduled for 
logging that are not considered high quality or occupied owl habitat, 
the rule allows ``ecological forestry,'' a form of clearcutting which 
may result in a slight, 10 percent increase in timber production over 
thinning. Controversy continues over this practice which is not 
supported by peer-reviewed studies showing that owl populations will 
benefit. Other studies indicate that both the Northern Spotted Owl and 
Marbled Murrelet will likely be harmed by ecological forestry.
Ecological Forestry
    The intent of ecological forestry is to attempt to increase harvest 
while conserving essential habitat. In practice, ecological forestry is 
a more benign form of clearcutting than currently occurs on private and 
state lands in Oregon. But it very important to note that currently, 
clearcutting is rarely allowed on federal lands as a result of impacts 
it has to wildlife habitat and water quality. Ecological forestry is 
therefore a step in the wrong direction because it would harm federal 
lands compared to current thinning efforts.
Misuse of Ecosystem Management
    The Northwest Forest Plan is first and foremost, a multispecies 
management plan for listed species including the Northern Spotted Owl, 
Marbled Murrelet and salmon stocks that provides the land management 
agencies with an adequate regulatory mechanism to comply with the 
Endangered Species Act. The Northwest Forest Plan promotes an ecosystem 
management approach with the specific goal of protecting those listed 
species and perpetuating the late-successional forest ecosystem. The 
Final Rule misapplies the Northwest Forest Plan's ecosystem management 
approach to promote ecological forestry which has not been adequately 
field tested or monitored, and is likely to be detrimental to Marbled 
Murrelets and listed salmon by increasing fragmentation.
Comments from Peer Reviewers
    A review of the peer reviews of the draft Critical Habitat Rule 
indicates that:

          1. There is no scientific consensus on how to manage forests 
        within the range of the Northern Spotted Owl
          2. There are currently no studies showing owl populations 
        benefit from logging, and
          3. There are numerous studies showing potential harm to the 
        owl, its prey based, and to other listed species such as the 
        threatened Marbled Murrelet as a result of logging.
Active Management
    ``Reviewers were divided on the risks posed by climate change and 
forest health, and whether active management should be applied within 
critical habitat.'' (p. 491)
    ``Three reviewers disagreed with some of the science that was 
cited, or the interpretation of that science, and noted that the 
discussion did not adequately address studies that have documented 
negative effects of timber management on northern spotted owls and 
their prey.'' (P. 494)
    ``Four reviewers indicated that parts of the document were unclear 
on whether ecological science was applied appropriately, and 
highlighted the lack of understanding about how such management actions 
may affect owls and their prey. Two reviewers specifically indicated 
that they did not think that approach is appropriate.'' (P. 494)
    ``Five reviewers believed that the risks were not appropriately 
balanced, that the discussion was too vague in weighing the tradeoffs, 
or that there is too little specific scientific understanding of the 
explicit tradeoffs to conduct an informed discussion. Several of these 
reviewers indicated that there was too much emphasis on active 
management in the preamble to the proposed rule given the lack of 
understanding about how ecological forestry and restoration management 
might affect owls.'' (P. 495)
Marbled Murrelet Threatened by Ecoforestry
    Other listed species may also be harmed by the proposed active 
management of the Northern Spotted Owl such as the Marbled Murrelet. 
The draft Northern Spotted Owl Critical Habitat Rule's Environmental 
Assessment found that ``Active forest management that is in the 
vicinity of murrelet nesting stands may be detrimental to the species 
survival and recovery.'' (p. 61 of the draft rule)
    This results from increased fragmentation and opening the forests 
to crows, ravens, and jays, increasing predation pressure on nesting 
murrelets. Despite this, there was no prohibition in the final Rule on 
the proposed active management to ensure murrelet nesting stands will 
not be disturbed, and notably, the fact that active management may be 
detrimental to Murrelet nesting stands was not even mentioned.
    Active management, if conducted near nesting murrelets will likely 
be harmful. There are also indications the prey base of the Northern 
Spotted Owl could also be harmed by active management including 
thinning, but these factors are glossed over by the final Rule. And 
unlike the Northwest Forest Plan, there is no detailed analysis 
determining how other listed species will fair under the active 
management being proposed by the Rule.
    Conservation groups\7\ and scientific societies recently sent 
letters to President Obama urging the formation of a new conservation 
initiative for the threatened Marbled Murrelet which nests in mature 
and old-growth forests near the coast. A recent study by the U.S. Fish 
and Wildlife Service and the USDA Forest Service finds that the Marbled 
Murrelet has declined by 29% over the last decade. Researchers have 
concluded current conservation efforts aren't sufficient to reverse 
this trend and that additional measures, including additional habitat 
protection are urgently needed.
---------------------------------------------------------------------------
    \7\ http://www.abcbirds.org/newsandreports/pdf/
Marbled_Murrelet_Letter_May_13_13.pdf
---------------------------------------------------------------------------
Lack of Scientific Evidence for Active Management to Create Early Seral 
        Habitat
    While early seral habitats are desirable for some species, logging 
is not the best means to establish this type of habitat within the 
range of the Northern Spotted Owl. We recommend that agency utilize 
natural disturbances and refrain from post-fire logging because 
wildfires have the potential to create abundant high-quality early-
successional habitats and features needed by the Northern Spotted Owl 
and its prey.
    There is no evidence the Northern Spotted Owl benefits from the 
creation of early seral habitat, nor is there analysis showing what 
potential harm may come to the threatened species if various levels of 
direct take and habitat loss or degradation were to occur.
    The Northern Spotted Owl Critical Habitat rule draft Environmental 
Assessment identified two endangered species, Fender's blue butterfly 
and Oregon silverspot butterfly whose open, early seral habitat such as 
grasslands, meadows, oak woodlands, or aspen woodlands may conflict 
with Northern Spotted Owl management intended to maintain closed canopy 
forests (p. 52). But the assessment notes that listed plant and 
butterfly species and their closely associated open habitats are 
explicitly not included in the proposed critical habitat revision 
(p.50). The Service concludes on page 62: ``that designation of 
critical habitat for the Northern Spotted Owl in this alternative would 
have a neutral effect on those species associated with open, early 
seral habitats.''
    We see no justification to convert nesting, roosting, and foraging 
habitat of the Northern Spotted Owl to early-seral. Under the Northwest 
Forest Plan restoration of owl habitat, when it occurs, should hasten 
creation of owl habitat, not set it back by many decades.
    In the final Northern Spotted Owl Critical Habitat rule the U.S. 
Fish and Wildlife Service recommends conserving old-growth trees and 
forests on wherever they are found, including in the matrix lands. The 
Rule also recommends that for the moist forests in the West Cascades/
Coast Ranges of Oregon and Washington ``. . .to conserve stands that 
support northern spotted owl occupancy or contain high-value northern 
spotted owl habitat (USFWS 2011, p. III-17). Silvicultural treatments 
are generally not needed to accomplish this goal.''
                          additional resources
          A. Open Letter to President Barack Obama from 229 Scientists 
        in Support of Northwest Forest Plan
          B. The Wildlife Society Peer Review of the 2010 Draft Revised 
        Recovery Plan for the Northern Spotted Owl. This peer review 
        was highly critical of ecoforestry.
          C. Summary of Key Findings, Northwest Forest Plan: The First 
        15 Years (1994-2008), (Davis et al 2011), R6-RPM-TP-03-2011
          D. Watershed Condition Status and Trend (Laningan et al 
        2012), General Technical Report PNW-GTR-856, February 2012
          E. Comments on draft Northern Spotted Owl Critical Habitat 
        Rule by American Bird Conservancy
          F. Comments on draft Northern Spotted Owl Critical Habitat 
        Rule by Society for Conservation Biology. This peer review was 
        highly critical of ecoforestry.

Note: Graphics have been retained in committee files.
                                 ______
                                 
                                                  January 30, 2014.

Hon. Ron Wyden,
U.S. Senator, 221 Dirksen Senate Office Building, Washington, DC.

Regarding: ``Oregon and California Land Grant Act of2013''

    Dear Senator Wyden,

    The 75-mile long Illinois River rises in California, flows 
northwest through its 981 square mile watershed, mostly in Oregon, and 
discharges into the Rogue River. The City of Cave Junction and the 
Kerby Water District divert their drinking water for about 2350 
citizens from the East Fork Illinois River under two water rights. The 
East Fork Illinois River watershed covers about 232 square miles.
    We have reviewed the draft ``Oregon and California Land Grant Act 
of2013'' and noticed with interest that sections 108, 109, 110, and 111 
of the draft Act establishes Drinking Water Special Management Units 
for McKenzie, Hillsboro, Clackamas, and Springfield. We notice that the 
draft Act does not provide the City of Cave Junction and the Kerby 
Water District with the same drinking water protection as it does for 
those four communities.
    Therefore, we request that a Cave Junction Drinking Water Special 
Management Unit be established in the ``Oregon and California Land 
Grant Act of 2013''. We also request a meeting with your staff to 
discuss the creation of a map depicting the Cave Junction Drinking 
Water Area and other details.
            Sincerely,
                            John L. Gardiner, MBE, PhD, PE,
                                      Cave Junction City Council 4,
                                         Daniel Dalegowski,
                              Cave Junction City Council President.
                                 ______
                                 
  Statement of William Reid, Chair, Illinois Valley Watershed Council
    The Illinois Valley Watershed Council (IVWC) was formed in 1994 to 
improve salmon habitat and for other purposes. The 75-mile long 
Illinois River rises in Califomia, flows northwest through its 981 
square mile watershed, mostly in Oregon, and discharges into the Rogue 
River. The City of Cave Junction and the Kerby Water District divert 
their drinking water for about 2350 citizens from the East Fork 
Illinois River under two water rights. The East Fork Illinois River 
watershed covers about 232 square miles.
    We have reviewed the draft ``Oregon and California Land Grant Act 
of 2013'' and noticed with interest that sections 108, 109, 110, and 
111 of the draft Act establishes Drinking Water Special Management 
Units for McKenzie, Hillsboro, Clackamas, and Springfield. We wonder 
why the draft Act does not provide the City of Cave Junction and the 
Kerby Water District with the same drinking water protection as it does 
for those four communities.
    Therefore, the IVWC requests that a Cave Junction Drinking Water 
Special Management Unit be established in the ``Oregon and Califomia 
Land Grant Act of2013''. We also request a meeting with your staff to 
discuss the creation of a map depicting the Cave Junction Drinking 
Water Area and other details.
                                 ______
                                 
               Statement of Judy Henderson, Portland, OR
    I am concerned that S. 1784 dismantles the Northwest Forest Plan, 
which I thought was a good compromise and yet protects and restores 
fish and wildlife habitat on federal lands in the Pacific Northwest. 
I'm also concerned that:

  <bullet> The bill undermines the opportunity for the public to 
        participate in public land management by eliminating 
        environmental analysis and public review of individual timber 
        sales, two pillars of the National Environmental Protection 
        Act.
  <bullet> It drastically shrinks riparian buffers, putting listed fish 
        and our clean water at great risk.
  <bullet> It weakens Endangered Species Act protections on many O&C 
        Forestlands, which will further jeopardize declining 
        populations of threatened Northern Spotted Owls and Marbled 
        Murrelets that we have fought so hard to recover.

    Thank you for considering these comments.
                                 ______
                                 
 Statement of John Plute, Chairman, Kerby Water District Board, Kerby, 
                                   OR
    The Kerby Water District (KWD) was founded in 2003 and provides 
domestic water to about 450 people. The municipal water supply is drawn 
from the East Fork Illinois River and is purchased from the City of 
Cave Junction. The watershed covers about 232 square miles and the City 
holds two water rights for using water from the East Fork Illinois 
River. The City's modern water treatment plant and the KWD's new pipe 
distribution system were partially funded by State and Federal grants 
totaling about $SM. The City is also in compliance with the EPA 
Drinking Water Source Protection Program.
    The KWD Board has reviewed the draft ``Oregon and California Land 
Grant Act of 2013''. We noticed with interest that sections 108, 
109,110, and 111of the draft Act establishes Drinking Water Special 
Management Units for McKenzie, Hillsboro, Clackamas, and Springfield. 
We wonder why the draft Act does not provide the KWD and the City of 
Cave Junction with the same drinking water protection as it does for 
those four communities. The Kerby Water District is very interested in 
having a voice in future management of our watershed, both to protect 
an extremely valuable resource and the investment that that--has been 
made in providing clean, safe and reliable drinking water for our 
community.
    Therefore, the KWD Board requests that a Cave Junction Drinking 
Water Special Management Unit be established in the ``Oregon and 
California Land Grant Act of 2013''. We also request a meeting with 
your staff to discuss the creation of a map depicting the Cave Junction 
Drinking Water Area and other details.
                                 ______
                                 
    Statement of Joseph Vaile, Executive Director, Klamath Siskiyou 
                     Wildlands Center, Ashland, OR
    On behalf of Klamath Siskiyou Wildlands Center and our more than 
12,000 members, supporters, and volunteers, we would like to provide 
testimony for the record on S. 1784, the Oregon and California Land 
Grant Act of 2013. We appreciate your effort to address management of 
some of the most outstanding forest and river ecosystems in the United 
States. However, we oppose S. 1784 in its current form. There are 
significant conservation gains that would benefit both the environment 
and the recreation economy of southern Oregon in your legislation, but 
we have significant concerns about provisions that would weaken federal 
environmental safeguards, particularly the Endangered Species Act 
(ESA), the Clean Water Act (CWA), and the National Environmental Policy 
Act (NEPA). In general we agree and support the comments made by 
American Rivers, Gordon Lyford, the ``Appelgate Neighbors'' and 
scientific testimony submitted by American Fisheries Society and 
Society for Conservation Biology.
    The O&C forests support abundant salmon, steelhead and wildlife 
that provide outstanding sight seeing, fishing, hunting, camping, and 
hiking and wild river boating opportunities for all Americans at 
affordable costs. This committee is likely aware of the analysis by The 
Nature Conservancy that enumerates and maps out the values of the O&C 
lands in Western Oregon. They are truly unique and important federal 
lands. The O&C forests purify drinking water for hundreds of thousands 
of Oregonians, sequester large amounts of carbon, and provide a proven 
ecological defense against wildfire due to their older stand age. We 
want these important amenities and environmental services to continue 
on all BLM lands and not become sullied or degraded with timber 
dominant management. Towards this goal, we support the following 
provisions in the bill:

  <bullet> Designation of over 150 miles of new Wild and Scenic Rivers 
        and associated protection of 64,000 acres of riparian lands in 
        the Rogue and other rivers;
  <bullet> Protection for approximately 412,000 acres of Riparian 
        Reserve land allocation, currently administratively protected 
        under the NWFP;
  <bullet> Designation for Key Watersheds, portions of watersheds found 
        to be of highest value for salmon habitat and water quality 
        under the Northwest Forest Plan;
  <bullet> Establishment of innovative Drinking Water Protected Areas 
        for the cities of Eugene, Springfield, Hillsboro, and 
        Clackamas, Oregon, with all BLM lands in these drinking water 
        areas to be managed to preserve clean drinking water;
  <bullet> Provisions restricting road construction, establishing new 
        road closures and road decommissioning protocols;
  <bullet> Establishing eligibility for O&C lands for the Legacy Roads 
        and Trails Program which providing funding for decommissioning 
        roads;
  <bullet> Withdrawals for significant acreage in Conservation Emphasis 
        Areas from mineral entry;
  <bullet> Designation for approximately 90,000 acres of new wilderness 
        including for the Wild Rogue and Devils Staircase;
  <bullet> Expansion for the Cascade Siskiyou National Monument; and
  <bullet> Establishment of the Rogue River National Recreation Area, 
        the Molalla River National Recreation Area and the Illinois 
        Valley Salmon and Botanical Area.

    We offer the following comments and recommendations with the hope 
that you will consider changes that will improve the bill and maintain 
federal environmental law.
Drinking Water for Oregonians
    The O&C waters play a critical role in providing clean water 
services for 1.8 million Oregonians. Approximately seventy-three 
percent of the BLM lands in Western Oregon are located in areas 
identified as Surface Water Source Drinking Water Areas according to 
the Oregon Department of Environmental Quality. Effective watershed 
protection saves tens of millions of dollars by reducing the severity 
of winter floods and supplying clean, affordable drinking water without 
the need for expensive secondary treatment plants to filter pollutants. 
The public also greatly appreciates the fact that these lands are not 
tainted by timber management herbicide spraying.
    We strongly support the creation of Drinking Water Protected Areas 
that recognize the value of these forested public lands to downstream 
municipal water utilities and their ability to deliver clean drinking 
water. S.1784 should be consistent with all Oregon DEQ drinking water 
source area maps. Surface Water Source Drinking Water Areas should be 
protected in Medford, Rogue River and other municipalities identified 
by the Oregon DEQ.
Drinking water for Cave Junction
    A Cave Junction Drinking Water Special Management Unit should be 
established in S.1784. The City of Cave Junction and the Kerby Water 
District should receive the same water quality protections that 
McKenzie, Hillsboro, Clackamas, and Springfield do. A Cave Junction 
Drinking Water Special Management Unit should include all of the East 
Fork Illinois River watershed upstream of the highway 199 bridge where 
the City of Cave Junction water intake is located. The Federal 
government invested more than $10 million to construct the City of Cave 
Junction water and sewage treatment systems in the 1990s. That 
investment and the City water rights should be protected. In addition 
the City of Cave Junction has complied with the US Environmental 
Protection Agency source water protection planning requirements. The 
City of Cave Junction holds two water rights to divert water from the 
East Fork Illinois River and serve domestic water to many businesses 
and 2,350 citizens who live in Cave Junction and Kerby. The Oregon DEQ 
has mapped the drinking water source area for Kerby and Cave Junction.
Retain the Applegate Adaptive Management Area
    The Applegate Adaptive Management Area has successfully brought 
together stakeholders in this southern Oregon watershed and would be 
removed under this bill. The result is a reduction in input from 
neighbors and landowners in this dry forest watershed in need of fuels 
reduction and restorative forest management. The bill should retain 
this important designation. Nearly 200 residents of the Applegate 
Valley sent in recommendation to the Senator on this bill--we endorse 
those recommendations from the community.
Endangered Species Act Consultation
    We appreciate your commitment to uphold the ESA both in your public 
statements and the principles in your O&C framework. Unfortunately 
there remain provisions in the bill that would undermine conservation 
of listed species. The bill would eliminate the requirement that the 
Bureau of Land Management consult with federal agencies charged with 
conservation of federally listed species. Agency consultation at the 
project level is needed to ensure that the BLM make the most 
scientifically informed decisions to protect species. Unless revised, 
these existing provisions would undermine safeguards for the 
conservation of listed species. The bill would impede conservation by 
doing away with any requirement that the agencies conduct project level 
assessments that could identify changed conditions or new information 
about the effects of treatments on listed species. Consultation 
provides important conservation oversight for listed species. We urge 
you to revise the bill to retain consultation.
    It's important to know that the BLM decides when consultation is 
needed. Consultation is discretionary with BLM. Many timber sales do 
not need consultation because critical habitat will not be damaged due 
to requirements of the Northwest Forest Plan. If there is no impact to 
listed species as determined by BLM, consultation is not needed. There 
is no real reason to supersede BLM's discretion about whether to 
consult or not with legislation. The track record of the Northwest 
Forest Plan and our monitoring of projects demonstrate that project 
level consultation is often not necessary due to project design 
features (no impacts to listed species). Consultation has not proven to 
be an impediment to projects largely because of agency compliance with 
the Northwest Forest Plan and greatly reduced regeneration (clear-cut) 
logging.
Protect National Environmental Policy Act Analysis
    S. 1784 greatly weakens current NEPA disclosure by restricting 
agency responsibility to analyze and disclose the effects of timber 
sale projects as they are planned on the ground. The bill calls for a 
10-year programmatic Environmental Impact Statement (EIS) and 
eliminates project-specific NEPA analysis. We urge you to revise the 
language to include a mechanism that allows analysis and disclosure of 
the impacts of individual projects under NEPA that would tier to the 
ten year EIS. Conditions on the ground and scientific understanding of 
treatment effectiveness cannot be known until specific projects areas 
are identified and assessed for treatment. Under the bill, treatments 
would continue even under changed conditions and or when activities are 
found to be harmful to imperiled species. More importantly, citizens 
need to have an opportunity to comment to decision makers at the time 
of the decision and be fully informed of site-specific impacts. 
Citizens cannot comment to decision makers unless they have information 
developed by agency specialists through the NEPA process.
Clean Water Act
    We appreciate your effort to more fully assess the effects of 
timber harvest in Forestry Emphasis Areas, but restrictions on how the 
determination of effects is assessed are problematic. Setting limits on 
the measurement of water quality impacts which could effect and 
potentially undermine how the CWA is implemented and the bill places a 
limitation on the timing of measurement and determination of water 
quality impacts. Particularly problematic is the timing requirement to 
measure impacts two years after harvest that could mask near term 
negative impacts. The bill could also be interpreted to establish the 
current and potentially degraded baseline for determination of impacts 
under the CWA. We support conducting additional post treatment 
monitoring to measure the effects on water quality, but not in the 
context of defining the water quality under the CWA. We do not support 
any changes to how the CWA is applied to O&C lands.
Salmon/Riparian Reserves (aka ``buffers')
    The O&C lands have historically protected some of Oregon's finest 
rivers, including the Rogue, Illinois, Applegate, and Umpqua. The 1,400 
miles of streams that flow through O&C lands support viable wild salmon 
and steelhead runs that provide the backbone for salmon recovery in 
western Oregon. We thank you for your inclusion of important 
conservation elements in the Conservation Emphasis Areas section of the 
bill which effectively legislates core aquatic provisions of the 
Northwest Forest Plan (NWFP) that are critical for river health and 
salmon recovery. Riparian Reserves as currently managed under the NWFP 
is of particular interest since protection and proper management of 
riparian reserves in timber harvest emphasis areas is essential to 
protect water quality, fish and wildlife. Riparian Reserves, created 
under the NWFP as an essential part of the Aquatic Conservation 
Strategy, provide a protective forest on all streams in the NWFP area 
including O&C lands. An analysis of stream conditions ten years after 
implementation of the riparian reserves demonstrated improvement of 
habitat conditions and water quality in nearly all streams under the 
NWFP.
    S. 1784 provides for reduction in riparian reserve widths and 
commercial timber harvest in former riparian reserves areas on lands 
designated Forestry Emphasis Areas. We are concerned that this will 
inevitably lead to a degradation of water quality and habitat for 
aquatic and riparian dependent species. Our understanding that these 
changes are based on untested hypotheses suggesting smaller riparian 
reserve widths along certain types of streams would be adequate to 
protect species and water quality thereby allowing variable retention 
commercial harvest (aka clear-cutting) and road building much closer to 
streams than under current Forest Plan regulations.
    Our desire to retain existing Riparian Reserve width is 
substantiated with compelling scientific analysis with testimony 
provided to you by the American Fisheries Society. The AFS president, 
Robert Hughes, reiterate that the existing Riparian Reserve are proven 
to be effective for recovering listed fish species whereas reduced 
buffers have no track record for being effective. We respect your 
scientists' opinion about reducing riparian reserve width but it is 
just that: an opinion. We also wish to remind you that BLM has 
considerable discretion in identifying variable width ``no cut'' 
buffers that currently result in substantial harvest of millions of 
board feet of timber from riparian reserves without much controversy. 
As science becomes clearer on this issue, the BLM currently has the 
discretion to increase or reduce no cut buffers. Legislation is clearly 
unwarranted and could impede rather than increase harvest.
Medford District Riparian Reserves
    We want the bill modified to address the special needs of streams 
and fish in the Medford BLM District where the dry forest 
classification dominates. The current Riparian Reserve reductions in 
Forestry Emphasis Areas in the Medford District need to be replaced 
with a single set of standards used in the Conservation Emphasis Areas. 
The bill would state that Riparian Reserve standards for Conservation 
Emphasis lands would be implemented on all lands in the Medford 
District. We believe retaining existing Riparian Reserves (as 
prescribed in Conservation Emphasis Areas) is warranted in the Medford 
District for the following reasons:

          1. The Rogue Basin experiences naturally very high stream 
        temperatures, low stream flows exacerbated by droughts, and 
        frequent fires. These hostile factors for fish and water 
        quality are best ameliorated in the long term with the existing 
        Riparian Reserve widths.
          2. The federally listed Southern Oregon/ Northern California 
        Coastal Coho salmon Evolutionary Significant Unit in the 
        Medford District is listed separately from the Oregon Coastal 
        Coho ESU. This is important because the SONCC ESU Coho in the 
        Medford District are at a much greater risk of extinction than 
        the Oregon Coastal Coho ESU. Coho populations are much below 
        desired levels and have been decreasing. Thus, the need for 
        retaining a high standard for protection and restoration for at 
        least the next ten years.
          3. Retaining the existing Riparian Reserve standards for the 
        Medford District would greatly simplify timber sale 
        implementation across all forest designations. The Medford 
        District has done a good job of implementing Riparian Reserve 
        thinning and this would continue across all designations as 
        determined by local conditions.
          4. The Medford District rarely needs to consult with National 
        Marine Fisheries Service because the existing Riparian Reserve 
        widths are known to be adequate to protect federally listed 
        SONCC Coho salmon. Retaining the existing Riparian Reserve 
        standards in the Medford District would ensure speedy timber 
        sale implementation because no consultation with NMFS would be 
        needed.

    We think it best for the ``dry forest'' Medford District to 
continue managing Riparian Reserves as they have in the past, which 
includes the commercial thinning of second growth within the reserves. 
Bringing existing Riparian Reserve management forward would ensure a 
smooth and less controversial transition for changes with upland (dry) 
forest management (i.e. improved ``certainty'').
Designate Medford District as ``Dry Forest''
    Similarly, designating the entire Medford District as ``dry 
forest'' would ensure a smooth and less controversial transition since 
it would eliminate controversial variable retention harvest that mimics 
adjacent private land clear-cutting. Conceivably the need to consult 
with US Fish and Wildlife would also be reduced or eliminated on many 
timber sales because they would thin to reduce fire hazard and retain 
60% canopy in older stands.
Summary of specific recommended changes (listing order is not intended 
        to indicate priority)
  <bullet> Establish a Cave Junction Drinking Water Special Management 
        Unit.
  <bullet> Eliminate or modify provisions about ESA consultation.
  <bullet> Provide for citizen review of projects through the NEPA 
        process concurrent with detailed site-specific project 
        preparation.
  <bullet> Eliminate changes to how the Clean Water Act is applied to 
        O&C lands.
  <bullet> Retain the Applegate Adaptive Management Area
  <bullet> The bill would state that Riparian Reserve (buffer) widths 
        and accompanying standards for Conservation Emphasis lands 
        would be implemented/used on all lands in the Medford District 
        including Timber Emphasis areas.
  <bullet> The entire Medford District would be managed as a ``dry 
        forest''.

    Thank you for the opportunity to provide comments on this important 
legislation. While we look forward to working with you to improve your 
bill as it moves through the legislative process, we regret that we 
must oppose its passage pending the inclusion of the changes we 
recommend.
                                 ______
                                 
  Statement of Robert Model, Chairman, Boone & Crockett Club, Cody, WY
    The Boone and Crockett Club, along with many hunting organizations, 
have strongly supported the shift in forest policy over the last decade 
or more toward choices involved in producing all the shared values of 
the National Forests. Such policies have promoted rural jobs, 
stewardship contracting, healthy forests, fire management, and secure 
rural schools.
    This developing multi-faceted approach is necessary to confront a 
multitude of problems in the forest: millions of acres of our National 
Forests are overcrowded, dying from insect infestation and susceptible 
to uncharacteristically large, hot wildfires. Accordingly, in regard to 
the bills that are before the Committee now, the Boone and Crockett 
Club supports the Committee's effort to advance legislation that 
quickly improves the status quo on our National Forests.
    The common element to all necessary means of improvement is 
science-based action. State and federal professionals have studied-with 
partnership and support from the Boone and Crockett Club--to understand 
and act on the effects of unhealthy forest conditions on our National 
Forests. Study after study has shown that improvements to forest 
health, including the resilience of fire-prone forests, can be restored 
through active management. Improving forest health and creating early 
seral habitat creates better forage for big game wildlife and, as part 
of an ecological patchwork of all habitat types, a diversity of 
habitats providing wildlife cover as well. The young-forest pieces of 
this diversity have been crowded-out of much of the National Forests.
    To regain the young-forest habitat types in adequate amounts and in 
proper intermixed distribution with hiding cover and other elements, 
the Forest Service must be more active. The Forest Service must also 
have formal agreements with state wildlife and resource agencies 
providing compat i bility between federal habitat management activities 
and state population management goals for wildlife.
    The imperative to increase active management of forests is more 
pressing in light of recent scientific fieldwork. New information has 
revealed a flawed assumption in wildlife habitat management: 
specifically, the assumption that forests will always provide adequate 
nutrition to support reproduction and year-round survivability of big 
game. In fact, the conditions in today's forests that are now well 
known as extremely risky in terms of severe wildfire are also ``bare 
shelves'' as food quality for big game wildlife. Elk research at the 
USFS Starkey Experimental Forest and Range in NE Oregon documents that 
management of overgrown and overly dense forests is the key to managing 
elk herds in parts of several western states. Low nutrition on summer 
ranges in fire-prone conditions is the limiting factor for elk (see New 
Paradigms for Evaluating and Managing Elk Habitats: a Glimpse of the 
Future for Elk on Public Lands-Fair Chase Summer 2011). Research is 
showing that stands in fire-prone condition and with greater than 60% 
canopy closure coincides with depressed elk populations because of the 
lack of quality food.
    The prevalence of fire-prone, high-canopy-closure stands is high. 
In the eleven western states, 53 million acres of ponderosa pine, 
Douglas fir and mixed conifers are in fire regime condition class 3--
meaning the risk of losing key ecosystem components from 
uncharacteristic wildfire (unusual size, intensity, severity, and 
landscape pattern) is high or extreme. Montana, for example, has nearly 
22.3 million acres of forest lands (mostly federal); 82% have high/
moderate fire hazard rating. Nearly 9.3 million acres are classified as 
short interval fire-adapted ecosystems. About 7.5 million acres (or 
80%) of these are rated high/moderate for crown fire hazard. This 
accounts for what we have observed in Oregon, where since 1989, the 
area of young-forest habitat for deer and elk created each year through 
forest management has declined approximately 90%. In response, black-
tailed deer harvest has declined nearly 70%. Elk numbers from Oregon 
Department of Fish and Wildlife (ODFW) annual counts on the Willamette 
National Forest in the McKenzie Unit have declined to 16 in 2012 from 
114 in 2005, an 86% drop. This drop in habitat management has led to a 
decrease in hunting, which worsens a national trend threatening the 
excise tax revenues from hunting that support most wildlife 
conservation in the U.S. Hunter success has declined 44% to about 18%. 
Numbers of deer hunters have dropped 34% from around 170,000 to about 
112,000.
    Our primary message is that the Senate should act to give the 
Forest Service the tools to reverse the loss of a diverse mosaic of 
habitat types. The steep decline in active forest management is leading 
to higher risk of wildfire and less habitat for elk, deer and game 
species, and consequently the Boone and Crockett Club advocates for 
greater management focus and efficiency. In short, the Forest Service 
needs to-and can-do much more with the same amount of resources.
    The Boone and Crockett Club has worked over the last decade to 
improve federal forest health and especially related big game habitat 
in the face of the deteriorating health of federal forests. There is 
more to do. We have a rare opportunity this Congress because of the 
leadership of Members who deeply understand forest health issues. 
Hopefully this issue will continue to gain traction, and we can turn 
the tide on improving habitat, creating new jobs in rural communities 
and growing county revenue again.
                                 ______
                                 
Statement of Joe G. Ricker, Chairman, and Fred Craig, President of the 
            Board, Oregon Hunters Association, Medford , OR
    For the record we are Joe Ricker, Chairman of the Oregon Hunters 
Association (OHA) and Fred Craig, President of the Oregon Hunters 
Association. We are unable to attend the hearing on the O&C Lands Act 
of 2013 sponsored by Senator Ron Wyden, D-Oregon, so we are submitting 
our comments on the O&C Lands Act of 2013 in writing.
    In August of 2013 the OHA sent a letter to Senator Ron Wyden about 
this piece of legislation. In our letter we outlined these important 
points:

  <bullet> The sad fact is the current management in place on Oregon 
        and California Railroad lands (O & C) is essentially non-
        management, and the land management agencies in charge of these 
        lands have long been failing in their written requirements and 
        obligations to create habitat for all species on lands, which 
        it manages.
  <bullet> The OHA has been on record questioning these agencies' long 
        standing failure to implement their own management plans, which 
        require the creation of required critically needed habitat.
  <bullet> Modernization of management such as that proposed in this 
        plan will provide significant amounts of such habitat, which is 
        desperately needed by the many wildlife species. Only this will 
        help stem the marked decline of many of these same species.

    While the OHA does in fact support management of the forests, and 
certainly encourages that effort, the OHA is also deeply concerned 
about the unnecessary setting aside of yet more public lands from ever 
being actively managed, permanently removing even more land from the 
increasingly limited supply of public land available and managed for 
critical wildlife habitat.
    It has been amply demonstrated that closed canopy, older age class 
forests provide extremely poor habitat for many species, as was 
experienced by the Lewis and Clark expedition who nearly starved to 
death while traveling though older age class forest lands. Similarly, 
the Native American populations in Oregon routinely burned vast tracts 
of Oregon's land, including some current O&C land, in an effort to 
create habitat they needed to survive. Fortunately, there are now much 
better tools available.
    An additional concern for many hunters throughout Oregon is access 
to public lands. The OHA would encourage those working on land 
exchanges and consolidation activities to require public access to the 
land acquired in land exchanges. There are too many parcels of publicly 
owned land in Oregon which are essentially land locked. This means that 
the public land is surrounded by private land and the public is not 
able to cross the private land to access the public land. It is 
important to maintain access to all publicly owned land.
    The Oregon Hunters Association is an 11,000 member statewide 
organization dedicated to creating and protecting needed habitat. We 
are unique among other organizations in that we actually put our money 
and muscle to work with literally hundreds of thousands of dollars and 
countless man-hours being applied to on the ground projects creating 
habitat and improving existing habitat throughout Oregon. The OHA has a 
long history of working closely with many partners throughout Oregon, 
including the Bureau of Land Management, United States Forest Service, 
state and local land managers, to improve and create habitat.
    Once again, the OHA applauds the provisions contained in the O&C 
Land Act of 2013 to create critically needed habitat, county revenues, 
and jobs. However, the OHA is concerned about the further restrictions 
allowed in this legislation being placed on public land which should be 
actively managed and provide critically needed habitat.
                                 ______
                                 
   Joint Statement of the Wild Salmon Center and the Pacific Rivers 
                                Council
    On behalf of the Pacific Rivers Council and Wild Salmon Center, we 
respectfully submit our comments and proposed revisions to the ``Oregon 
and California Land Grant Act of 2013'' (``O&C Land Grant Act'' or ``S. 
1784''). We appreciate Chairman Wyden's effort to balance the complex 
trade-offs we face managing the extraordinary ecological, economic and 
recreational values of these lands.
    Attached please find our proposed revisions and comments. Below we 
highlight key proposed revisions included, with others, in the 
attachment.
Protecting Vital Drinking Water Sources and Watersheds
    Approximately 75% of O&C Lands are identified by the Oregon 
Department of Environmental Quality as vital to providing clean 
drinking water to over 1.8 million Oregonians. O&C's iconic rivers--the 
Umpqua, Rogue, McKenzie, Nestucca and others--include over 1400 miles 
of rivers for fish and wildlife, supporting the strongest wild salmon 
and steelhead runs south of Canada.
    Beyond the obvious recreational benefits to anglers, hunters, 
hikers and others, effective watershed protection saves tens of 
millions of dollars by reducing the severity of winter floods and 
supplying clean, affordable drinking water without the need for 
expensive secondary treatment plants to filter pollutants. For example, 
strong watershed conservation efforts in Portland's drinking water 
source in the Bull Run watershed recently saved taxpayers over $60 
million in avoided secondary treatment costs.
    The O&C Land Grant Act locks-in robust riparian buffer river 
protections on approximately two-thirds of O&C Lands by applying the 
full Northwest Forest plan aquatic conservation strategy riparian 
buffers on key watersheds and conservation emphasis areas. Federal 
review of the aquatic conservation strategy concluded that riparian 
protection measures were effective and that watershed health had 
improved in over 70% of the watersheds assessed.
    The Act also applies these riparian reserve buffers to a new, 
permanent designation for vital drinking water source areas identified 
by our municipal drinking water providers from Hillsboro, Springfield, 
Eugene and Clackamas. We strongly support the inclusion of these core 
aquatic protection components.
    These areas will become magnets for public-private partnerships to 
maintain water quality and will attract ``green infrastructure'' 
investments to ensure these rivers retain their ability to naturally 
cool and purify water. Clean water at the source saves money for 
ratepayers too, lowering treatment and filtering costs. We applaud 
Senator Wyden for explicitly recognizing drinking water source 
protection and support efforts to expand these designations to 
additional areas.
    Despite these important accomplishments, the BLM maps accompanying 
the bill indicate that several key parcels of BLM O&C Lands bordering 
major fish bearing rivers and streams are not afforded the full 
riparian reserve buffers provided in Section 105 of the bill. For 
example, despite having invested tens of millions of dollars of 
restoration work on the Smith River, Rock Creek (N. Umpqua), Coquille 
and others, these and other critical rivers are not afforded the robust 
riparian buffers they currently enjoy. Because these rivers also border 
private lands which generally maintain much less protective riparian 
buffers, the cumulative effects of even marginal adverse impacts of 
increased disturbances in these systems could impair water quality and 
retard efforts to comply with the Clean Water Act and other federal and 
state and water quality standards.
    We calculate that extending the full aquatic conservation strategy 
buffers provided in Section 105 of the bill to the identified parcels 
in Forestry Emphasis Areas will have a negligible impact on projected 
timber harvest levels, but will provide the many, anglers, guides, 
rafters and other river users assurances that these critical aquatic 
corridors will be adequately protected in the future.

          Recommendation No. 1: Incorporate by reference the attached 
        Map and add provision as follows:

          ``The Forest Emphasis Areas parcels identified in BLM 
        Map___shall include the riparian reserves described in Sec. 
        105(c)''
Monitoring and Assessment to Inform Adaptive Management
    The complex interplay of forests, fish and wildlife biology and 
population dynamics, habitat, hydrology, fire and climate will all 
unfold over time on a landscape scale in an extremely dynamic 
environment. Federal laws protecting our valued natural resources--such 
as the Clean Water Act, Endangered Species Act and others--rely on 
robust monitoring and evaluation to inform and adapt management and 
conservation approaches and strategies over longer timeframes.
    Monitoring and evaluation is absolutely central to achieving the 
objectives established in S. 1784. O&C watersheds are only partially 
under federal management and activities outside of federal management 
zones may significantly influence watershed conditions. Additionally, 
the application of ecological forestry at this large scale is 
unprecedented in the Pacific Northwest. We are hopeful that ecological 
forestry will both improve forest health and produce substantial 
sustained yield on forestry emphasis areas, however, it's impacts--both 
positive and negative--must be assessed, just as we must assess longer 
term effects on water quality, fish and wildlife and recreation on O&C 
watersheds.
    Finally, the reduction of buffers proposed in S.1784 on over 
700,000 acres of BLM land has yet to be peer-reviewed and the approach 
should be rigorously monitored and evaluated. The current Aquatic and 
Riparian Effectiveness Monitoring Program (``AREMP'') provides an 
excellent approach to extend to the O&C Lands Act.

          Recommendation No. 2: Include provision for robust and 
        continuous monitoring and evaluation of key resources to enable 
        adaptive management.
Land Consolidation, Exchange and Sale
    O&C Lands are interspersed with private timber land, creating a 
patchwork of land ownership across many watersheds throughout Western 
Oregon. Oregon water and wildlife protection standards for private 
forestlands are much weaker than those in California or Washington--and 
they are vastly less protective than the conservation standards of 
federal lands in Oregon. The disparity in land management and 
protection on the O&C checkerboard poses challenges to both efficient 
timber operations and conservation.
    To help address these issues, we support strategic land exchange 
and consolidation on these lands in order to provide net timber and 
conservation benefits. However, as written, the land consolidation and 
sale provisions are unworkable and will neither address the 
conservation or timber goals articulated in the Act. Instead, we 
propose a simple, permanent exchange facility designed to facilitate 
and expedite voluntary exchanges where a net conservation and timber 
benefit can be demonstrated.
    Additionally, we support the sale of limited (50,000 acres) sub-set 
of BLM O&C Lands which hold the lowest relative ecological values and 
are the most burdensome to manage and maintain. Patterned on nearly 
identical provisions applied to BLM parcels in Nevada, the sale of 
these lands to timber companies or others would generate funds 
dedicated to conserving high value conservation lands elsewhere in the 
State, including the acquisition of high conservation river corridors 
and easments.

          Recommendation No. 3: Adopt substitute land consolidation 
        language provided in attached revisions to replace Sec. 117.
Roads
    Abundant scientific evidence documents the adverse impacts badly 
placed or inadequately designed or maintained roads can have on 
watershed health and water quality. The road provisions in the Act 
explicitly recognize the need to address road issues and we strongly 
support the provisions relating to roads included in the bill, 
including extending the Legacy Roads and Trails Program to these BLM 
lands.
Streamlining of Environmental Law
    While we are supportive of efforts to expedite implementation of 
the Act and modify timeframes to this end, we share the concerns of 
many conservation organizations that the current language imposes 
substantive changes on the Endangered Species Act, CWA, NEPA and other 
federal environmental laws. These modifications reduce the ability of 
citizens to challenge, when necessary, unlawful agency actions and 
potentially undermine the protection these bedrock laws provide to 
valued public resources.
    Moreover, we believe the elimination of the ``survey and manage'' 
requirements currently in place will eliminate the substantive grounds 
for a great deal of litigation and that the provisions of the bill are 
simply not necessary to reduce litigation, but instead will merely 
weaken important elements of these environmental protections. 
Accordingly, we urge the Senator to adopt the proposed revisions 
included in the attachment, which will shorten timelines for agency 
decision-making, reduce potential litigation and preserve critical 
components of important federal environmental laws.
    O&C Lands produce many of the natural assets that improve our 
quality of life in Oregon--clean water, recreation, flood control, fish 
and wildlife, and timber. We look forward to working with you to 
conserve and sustainably manage Oregon's natural assets while enhancing 
economic opportunities in our rural communities.
                                 ______
                                 
  Statement of Peter Hurlin, PhD, Shriners Hospital and OHSU Kristin 
            Ellingsen, DVM, Evin Hurlin, High School Student
    Me and my family very much opposes Senate Bill 1784 proposed by 
Senator Wyden. The Bill decreases the ability of the public to be 
involved in decisions on potentially destructive logging of our public 
forests. That is a step backwards--not forward! We need more protection 
of riparian buffers to protect fish, not less as this Bill does! The 
Endangered Species Act needs to be strengthened, not weakened as this 
Bill does!
    This Bill does Not represent enlightened and forward thinking but 
instead rolls back safeguards on our Oregon forests that are helping 
heal the disastrous practices of the past.
    We will do what we can to prevent this Bill and any Bill proposed 
that compromises our natural heritage and caves in to the conventional 
thinking of the past that has so badly damage our natural heritage here 
and around that country and world. Oregon NEEDS to show the US and the 
world that we have learned from the mistakes of the past and Better 
protect the balance of nature.
                                 ______
                                 
Statement of Beau McClure, Vice President for Operations, Public Lands 
                       Foundation, Arlington, VA
    This letter presents the Public Lands Foundation's (PLF) recent 
position statement (see attachment) on the management of the O&C Lands 
in Western Oregon. These lands are managed by the Bureau of Land 
Management (BLM). The PLF is a national non-profit membership 
organization that advocates and works for the retention of America's 
National System of Public Lands in public hands, professionally and 
sustainably managed for responsible use and enjoyment by American 
citizens. PLF endorses and embraces the multiple use mission of the 
BLM. Our members are predominantly retired employees of the BLM from 
across the United States and as such have spent their careers dedicated 
to the sound management of these valuable lands and resources. Many of 
our members spent their careers managing the O&C lands. They have 
personal knowledge of these lands and unparalleled expertise in their 
management.
    Federal forestlands in the Pacific Northwest have been a source of 
considerable controversy for decades. The O&C lands are unique in their 
purpose, history, and geospatial orientation (checkerboard) and will 
require a unique solution. These lands were originally granted to a 
railroad company, but later revested back to the Government. The lands, 
however, were not returned to the public domain, but set aside for 
special management. The O&C Act of 1937 mandated that the O&C lands be 
managed for permanent forest production based on the management 
principle of sustained yield and that a permanent stream of revenue 
sharing be established for 18 O&C Counties in western Oregon from the 
sustainable harvesting of timber. Several attempts to resolve 
controversies over the years have not been successful in achieving the 
objective of implementable plans that withstand legal challenges and 
provide the goods and services the public expects from these forests. 
Recently, Senator Wyden and Representatives DeFazio, Schrader, and 
Walden have ``stepped up to the plate'' to take on this very 
contentious issue. The PLF commends the Oregon delegation for their 
work to find a solution to this divisive issue and to advance the 
conversation at the Congressional level.
    Representatives DeFazio, Schrader, and Walden. introduced the O&C 
TrusConservation, and Jobs Act as Title 3 to the Healthy Forests for 
Healthy Communities Act (H.R. 1526). As you know, this bill has been 
passed in the House of Representatives and sent to the Senate. Senator 
Wyden introduced the O&C Act of2013 (S. 1784) in December.
    The PLF feels that neither of these bills will result in a workable 
solution for the O&C lands. H.R. 1526, as passed by the House would 
further fragment these lands into thousands of very small units that 
will cause confusion to the public and managers. It will lead to 
increased management expense and inefficiency by dividing the lands 
between two management entities. By eliminating BLM's management 
responsibility, the current BLM knowledge and expertise in managing 
these unique lands would be lost.
    The draft O&C Act of 2013 lacks a thorough analysis of the long-
term implications and we believe it will not result in the long-term 
sustained harvest level proposed in the Bill for more than a few 
decades; at such time as the thinning acres are completed, the 
sustainable harvest level with drop considerably. Further, the bill 
does not address the relationships of the underlying regulatory acts, 
i.e. National Environmental Policy Act, Endangered Species Act, Federal 
Land Policy and Management Act, etc. Unless the relationships between 
these laws are clarified or adjusted so that they work together, 
litigation and other challenges will hamper implementation and not 
result in the certainty needed by the BLM, counties, and other 
stakeholders.
    BLM has begun to revise the Resource Management Plans for the O&C 
Lands. The PLF does not feel that additional BLM planning without 
Congressional action to address inconsistency in the laws that have 
been passed over the years will result in sustainable decisions by the 
BLM. However, BLM could use their planning models to assess the impacts 
of these bills thus providing information to help frame a fmal 
proposal.
    While the PLF does not feel that either of these bills is workable 
in their current form, we believe Congressional action is needed and 
commend the delegation for their work to date. We are encouraged that a 
workable solution can be found. The attached PLF position statement on 
the future of the O&C forests provides several recommendations for 
consideration. In addition, the PLF has several members that have 
decades of experience managing these lands and would be happy to 
provide any assistance we can as the bills work through Congress.
    If you would like further information, or have questions we can 
address, please contact me by phone at (623) 587-7883 or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c6c7c9c7c7c8d1d6c1e4c7cbdc8acac1d08a">[email&#160;protected]</a>
                                 ______
                                 
    Statement of Frances Oyung, President, Rogue Basin Coordinating 
                          Council, Medford, OR
    The Rogue Basin Coordinating Council (RBCC) is a regional 
organization supporting watershed health in the Rogue River basin. RBCC 
would like to support the concerns of the residents of the Illinois 
Valley including the City of Cave Junction, the Illinois Valley 
Watershed Council, and the Kerby Water District relating to protecting 
their drinking water sources. Their review of the draft ``Oregon and 
California Land Grant Act of 2013'' cites sections 108, 109, 110, and 
111 of the draft Act which establishes Drinking Water Special 
Management Units for McKenzie, Hillsboro, Clackamas, and Springfield. 
Illinois Valley residents have serious concerns that the draft Act does 
not provide the City of Cave Junction and the Kerby Water District with 
the same drinking water protection as it does for communities with 
established Drinking Water Special Management Units. The RBCC supports 
the request of local residents in the establishment of a Cave Junction 
Drinking Water Special Management Unit under the ``Oregon and 
California Land Grant Act of 2013'' and asks your support in protecting 
their vital water resources and the investments that have been made in 
providing clean, safe and reliable drinking water for the community.
                                 ______
                                 
  Statement of Blake Henning, Vice President of Lands & Conservation, 
              Rocky Mountain Elk Foundation, Missoula, MT
    The Rocky Mountain Elk Foundation (RMEF) appreciates the 
opportunity to comment on the National Forest Jobs and Management Act 
of 2014 (NFJMA). We appreciate your efforts to help revitalize National 
Forest conservation projects to ensure healthy forests for America's 
future.
    We would like to offer suggestions that would enhance the intent of 
the Act as it applies to our logo species, elk, and many other wildlife 
species that live in elk country. The proposed Act calls for the use of 
timber sale contracts under section 14 of the National Forest 
Management Act of 1976 (16 U.S.C. 472a) to be the primary means of 
carrying out covered projects under this Act. We respectfully request 
consideration of the Stewardship Contracts and Agreement process to be 
included in this section so that decision makers have as many tools as 
possible available to carry out the Act. The Act currently excludes 
National Forest System land east of the 100th meridian. Wild free-
ranging elk are currently found in 27 states, many of them in the east. 
RMEF played an important role in re-establishing wild free-ranging elk 
in Wisconsin, Kentucky, Tennessee, North Carolina, Missouri and 
Virginia.
    The national forests, both east and west, are in need of 
disturbance to bring about the early seral (young forest) component 
that is not only essential to many wildlife species, but healthy 
forests as well. The primary tools that can bring this about in a 
manner based on scientific decision making are prescribed burning and 
mechanical forest thinning, usually accomplished through commercial 
forest management contractors. The current overstocked conditions of 
many forests preclude the use of fire due to unnatural fuel load in the 
forests and the possibility of stand-replacing fires.
    The Northwest Forest Plan has been in effect for the past 20 years. 
Old growth forest is the primary emphasis, while early seral conditions 
and all the species dependent upon them are ignored. For example, the 
vertebrate composition on the Willamette National Forest includes 14 
species tied specifically into old growth; 0 species tied into mid-
seral; 116 generalist species that use all stages of habitat; and 71 
species tied specifically to early seral forests and edges. With the 
majority of management emphasis on those 14 species tied to old growth, 
we have seen a drastic decrease in early seral forest conditions.
    Research, funded in part by RMEF, has shown that cow elk in those 
areas managed with an old growth emphasis are nutritionally stressed. 
Cow elk need to go into the winter with 10% to 12% body fat, and 
ideally would hit spring green-up at about 10% body fat to carry out 
successful pregnancies. Several years ago at Mount St. Helens, cow elk 
body condition was measured in October at 5% to 6% body fat. In other 
areas without an old growth emphasis elk are having a difficult time as 
well. Over the last two months in the Clearwater Basin of Idaho, cow 
elk body condition was measured at 5% to 8% body fat. Elk and many 
other species (deer, bighorn sheep, ruffed grouse, blue grouse, wild 
turkey, mountain quail, a variety of woodpeckers, hummingbirds, 
flycatchers, bluebirds, warblers and towhee) are all tied closely to 
early seral forest habitats.
    Ongoing research in Washington, Oregon and Idaho has focused on a 
new habitat model for elk that includes a summer elk nutrition 
component. Elk make a wonderful surrogate for the other species that 
depend on early seral habitat, and the use of this research will 
benefit a wide variety of wildlife species. It is important that 
federal land managers use this latest science tool in future management 
decisions in order to provide the rich biodiversity necessary for 
healthy forests and ranges, and make every effort to greatly improve 
the early seral component on the landscape. We believe that active 
management of our forest habitat will benefit wildlife and the American 
public.
                                 29 
                                 January
                                  2014_
                                 
   Statement of Dan Dessecker, Director, Conservation Policy, Ruffed 
                     Grouse Society, Corapolis, PA
    The Ruffed Grouse Society appreciates the opportunity to comment on 
the National Forest Jobs and Management Act of 2014 (NFJMA). We applaud 
your efforts to enhance the efficacy and the efficiency of forest 
conservation project planning and implementation on our nation's 
National Forests.
    We respectfully request that you delete Section 3(4)(B)(ii) from 
the proposed legislation. This section excludes National Forests east 
of the 100th meridian from the innovative project planning processes 
outlined in NFJMA.
    National Forests in the eastern United States are in desperate need 
of additional commercial forest management if we are to sustain the 
game and nongame wildlife that require young forest habitats. These 
important habitats are created almost solely through commercial forest 
management, and they have declined precipitously on National Forests 
and other ownerships throughout the East over the past several decades. 
In 2007, the American Bird Conservancy identified young deciduous 
forests in the eastern United States as one of the 20 most threatened 
bird habitats in the nation.
    Unfortunately, since the wave of forest plan revisions from 2004-
2006, National Forests in the East have fallen woefully short of 
meeting plan objectives for the development of young forest habitats. 
National Forests in the Southern Appalachians, Great Lakes region, and 
the Northeast have accomplished only 13%, 23%, and 24%, respectively, 
of the goal for the establishment of these critical young forest 
habitats.
    As a result of this continuing loss of young forest habitats, we 
are seeing significant population declines for bird species that breed 
in these habitats. These species include the ruffed grouse, eastern 
towhee, field sparrow, brown thrasher and golden-winged warbler (the 
status of the golden-winged warbler is currently being reviewed by the 
US Fish & Wildlife Service for possible listing under the Endangered 
Species Act).
    Breeding Bird Survey data (US Geological Survey) document that 
since 1966 in the eastern US, 53% of the bird species that breed in 
young forest and shrub-dominated habitats have declined while only 8% 
have increased. Conversely, only 31% of the bird species that breed in 
mature forests have declined while 23% have increased. These data 
clearly demonstrate the need to increase the level of active forest 
management in our eastern forests, including our National Forests.
    Again, the Ruffed Grouse Society respectfully requests that Section 
3(4)(B)(ii) be removed from the proposed legislation so that National 
Forests in the eastern United States may better address the 
conservation of our nation's forest wildlife.
    If you have any questions, please don't hesitate to contact me. 
Thank you for your time.
                                 ______
                                 
 Statement of Michael Anderson, Senior Policy Analyst, The Wilderness 
                                Society
    We are writing to express our strong opposition to S. 1966, the 
National Forest Jobs and Management Act of 2014. This legislation poses 
a serious threat to environmental stewardship, public involvement, 
wildlife conservation, and the rule of law in our national forests.
    We also wish to submit comments on S. 1784, the Oregon and 
California Land Grant Act of 2013. We appreciate Senator Wyden's 
efforts to protect the old-growth forests and other special places of 
western Oregon. For the past two decades, the Northwest Forest Plan has 
provided sound, science-based management direction for the O&C lands 
and other federal forests in the region. Due to their unique history, 
legal mandate, administration, and revenue-sharing policy, the 
management of O&C lands has continued to be highly controversial. We 
look forward to working with Senator Wyden on legislation that will 
help reduce controversy and improve management of the O&C lands, while 
preserving some of Oregon's finest ancient forests, wilderness, and 
wild and scenic rivers.
    Please find attached our detailed analyses of S. 1966 and S. 1794.
    We respectfully request that this letter be entered into the 
February 6, 2014 hearing record for the committee.
                              attachment i
    Following is a quick analysis of S. 1966, Senator Barrasso's 
``National Forest Jobs and Management Act,'' which was introduced on 
January 28 and will be the subject of a Senate Energy and Natural 
Resources Committee hearing on February 6. The bill's requirements 
apply to all national forests in the western U.S., but not to the 
eastern national forests in Forest Service Regions 8 and 9 (Sec. 
3(4)(B)).
Doubling the Cut
    Reflecting the bill's purpose to ``create a sustainable wood 
supply'' from the national forests (Sec. 2(1)), the bill requires the 
Forest Service to undertake commercial logging and other mechanical 
treatments\1\ in ``covered projects'' on at least 7.5 million acres of 
national forest land during the coming 15 years (Sec. 4(a)(4)(A)). This 
amounts to an annual average of 500,000 acres per year. In comparison, 
the Forest Service mechanically treated 195,000 acres and produced 2.4 
billion board feet nationwide in 2011, and the agency has proposed to 
increase those amounts to 255,000 acres of mechanical treatment and 3.0 
billion feet of timber.\2\ Thus, the bill would require the Forest 
Service to increase logging and other mechanical treatments by 150% 
more than recent amounts and by nearly 100% more than the Forest 
Service's ambitious proposal.\3\
---------------------------------------------------------------------------
    \1\ The bill does not define the term ``mechanical treatment''; 
however, the bill defines ``covered project'' as ``a project that 
involves the management or sale of national forest material" (Sec. 
102(1)). "National forest material,'' in turn, is defined as ``trees, 
portions of trees, or forest products, with an emphasis on sawtimber 
and pulpwood.'' (Sec.102(3), emphasis added).
    \2\ USDA Forest Service.2012. ``Increasing the Pace of Restoration 
and Job Creation on Our National Forests,'' pp. 4 -5. http://
www.fs.fed.us/publications/restoration/restoration.pdf.
    \3\ Because the bill's requirements do not apply to eastern 
national forests, the 7.5 million-acre target amounts to an even 
greater proportional increase on the western national forests.
---------------------------------------------------------------------------
    Unlike other recent bills that have included acreage targets or 
goals for mechanical treatment,\4\ the Barrasso bill appears to create 
an inescapable legal mandate to achieve the timber targets. Thus, 
absent a major increase in congressional funding, the Forest Service 
could be required to divert resources away from all other multiple-use 
activities in order to accomplish the legally-required amount of 
logging and other mechanical treatments.
---------------------------------------------------------------------------
    \4\ For example, S. 1301, the ``Oregon Eastside Forests 
Restoration, Old Growth Protection, and Jobs Act of 2013,'' sets 
mechanical treatment targets, but only requires them to be implemented 
``to the maximum extent practicable'' (Sec. 103(b)(1)).
---------------------------------------------------------------------------
    The required logging and other mechanical treatments would occur in 
``Forest Management Emphasis Areas,'' which the bill defines as ``land 
identified as suitable for timber production'' in a Forest Service 
management plan. As of 2000, approximately 47 million acres of the 
National Forest System were classified as suitable for timber 
production in forest plans.\5\ The suitable timberlands potentially 
include forests located in Inventoried Roadless Areas, Northwest Forest 
Plan Late Successional Reserves, and other sensitive lands that have 
been administratively protected for more than a decade. The bill only 
excludes designated Wilderness Areas and other lands where removal of 
vegetation is specifically prohibited by law (Sec. 3(2)(B)). The bill 
would also prohibit the Forest Service from reducing the amount of 
suitable timberlands through revisions of local forest plans unless 
necessary to avoid jeopardizing an endangered species (Sec. 4(d)), 
which would limit management options available to the agency and the 
public in the planning process.
---------------------------------------------------------------------------
    \5\ USDA Forest Service. 2000. Forest Management Specialist Report 
for Roadless Rule Final Environmental Impact Statement, p. 3. http://
www.fs.usda.gov/Internet/FSE_DOCUMENTS/fsm8_035779.pdf. Some of the 47 
million acres are located in eastern national forests and would not be 
directly affected by S. 1966.
---------------------------------------------------------------------------
Short-cutting Environmental Review
    The bill would weaken requirements of the National Environmental 
Policy Act (NEPA) as applied to the bill's ``covered projects'' in two 
major ways. First, the Forest Service's environmental assessments would 
only be required to consider the ``direct environmental effects'' of 
each project (Sec. 4(b)(1)), implying that indirect and cumulative 
effects analysis normally required under NEPA would no longer be done. 
Second, the bill specifies that the Forest Service is only required to 
evaluate the proposed agency action and one alternative (id.), rather 
than a range of alternatives normally considered in environmental 
impact statements.
Self-Consultation on Endangered Species
    The bill apparently would eliminate the interagency consultation 
process required by Section 7 of the Endangered Species Act as applied 
to the bill's ``covered projects.'' Rather than consulting with the 
U.S. Fish and Wildlife Service, the bill provides that Forest Service 
professional staff members will make the determinations required by 
Section 7 of the ESA (Sec. 4(c), presumably including the key 
determination that a covered project will not jeopardize the continued 
existence of a threatened or endangered species.
Foreclosing Judicial Review: Logging Without Laws
    The bill would establish a novel ``pilot program'' authorizing the 
use of an arbitration process and eliminating the opportunity for 
judicial review of covered projects. Under the arbitration process, a 
person who objects to a project could file a demand for arbitration 
that includes proposed modifications to the Forest Service's logging 
project (Sec. 5(b)(2)(A&B)). A federal district court would appoint an 
arbitrator who would select either the objector's (or an intervenor's) 
proposal or the agency's project, with no opportunity to modify a 
proposal (Sec. 5(b)(2)(D&C)). The arbitrator would be required to make 
the selection solely on the basis of which proposal ``best meets the 
purpose and needs'' described in the Forest Service's environmental 
assessment (Sec. 5(b)(2)(E)(ii)).
    The proposed arbitration process provides no means to ensure that 
the Forest Service is actually following environmental laws, or even 
the requirements of S. 1966. The arbitrator would not be able to 
consider and rule on the legal adequacy of the process by which the 
agency arrived at its decision. Conceivably, a local district ranger 
and forest supervisor could entirely skip normal public involvement and 
Endangered Species Act requirements in order to achieve their legally-
mandated mechanical treatment targets.
Conclusion
    S. 1966 would require a massive increase in logging and other 
mechanical treatments across tens of millions of acres of national 
forest land in the West, while weakening bedrock environmental laws and 
providing no offsetting conservation designations. The bill poses a 
serious threat to environmental stewardship, public involvement, 
wildlife conservation, and the rule of law in the national forests.
                             attachment ii
    Following is a brief analysis of Senator Wyden's 188-page ``Oregon 
and California Land Grant Act of 2013,'' which he released on November 
26 and introduced on December 9 as S. 1784. Some of the information 
below, such as logging amounts and some acreage figures, is derived 
from sources other than the bill language.
Overview
    Following are some key elements of Wyden's bill:

  <bullet> Applies to 2.1 million acres of BLM O&C and Coos Bay Wagon 
        Road forest lands in western Oregon.
  <bullet> Amends portions of the O&C Act of 1937 to remove mandatory 
        logging requirements and revise the county revenue-sharing 
        formula.
  <bullet> Aims to double the amount of BLM logging from150 mmbf/year 
        (past 10-year average) to 300-350 mmbf/year.
  <bullet> Protects all old-growth forests, which are defined as trees 
        over 150 years old and moist forest stands over 120 years old 
        (Legacy Old Growth Protection Network).
  <bullet> Divides all O&C lands between Forestry Emphasis Areas (FEAs, 
        1.1 million acres) and Conservation Emphasis Areas (CEAs, 1.0 
        million acres). Some of the FEA acreage is not available for 
        logging (e.g. Riparian Reserves and old-growth forests).
  <bullet> CEAs include 87,000 acres of new Wilderness, 165 miles of 
        new Wild and Scenic Rivers, 400,000 acres of Legacy Old Growth 
        Protection Network (including 190,000 acres in FEAs), four 
        drinking water special management units, and numerous other 
        legislative designations.\1\
---------------------------------------------------------------------------
    \1\ The bill would establish the following permanent statutory 
designations (including withdrawal from mineral development):
        --Wild Rogue Wilderness Additions (56,400 acres)
        --Devil's Staircase Wilderness (30,540 acres)
        --Cascade Siskiyou National Monument Additions (2,040 acres) 
(the bill contains a dif-
            ferent but incorrect acreage number)
        --165 miles of Wild and Scenic Rivers, including 93 miles of 
Rogue River
        --Illinois Valley Salmon and Botanical Area (16,300 acres)
        --Rogue National Recreation Area (95,000 acres)
        --Molalla National Recreation Area (24,000 acres)
        --Six Primitive Backcountry Areas (50,000 acres total)
        --Four Drinking Water Special Management Units (47,000 acres 
total)
        --Special Environmental Zones (95,600 acres of existing and 
proposed ACECs)
        --Pacific Crest Trail Protection Corridor (8,200 acres)
---------------------------------------------------------------------------
  <bullet> Designates 350,000 acres of Key Watersheds (containing both 
        FEAs and CEAs), in which current Riparian Reserves are 
        retained, road construction is restricted, and restoration is 
        given priority.
  <bullet> Divides all FEAs into moist and dry forests based on plant 
        association groups.
  <bullet> Requires FEAs to be managed consistent with ``Ecological 
        Forestry'' principles, including thinning and variable 
        retention regeneration harvest in moist forests and partial 
        cutting in dry forests.
  <bullet> Requires BLM to provide the planned sustained yield of 
        timber ``to the maximum extent practicable'' and to carry out 
        variable retention regeneration harvests on 8-12% per decade of 
        the moist forests available for timber management in the FEAs.
  <bullet> Requires two landscape plans and comprehensive EISs (for 
        moist and dry forests) to plan and evaluate ten years of timber 
        sales. The landscape plans will specify the locations of future 
        logging activities in the FEAs.
  <bullet> Authorizes counties and nearby residents to cut trees on 
        adjoining FEA lands in dry forests to reduce fuel loads and 
        fire risk with minimal BLM oversight.
  <bullet> Eliminates NEPA requirements and administrative appeals for 
        individual timber sales.
  <bullet> Judicial review is generally limited to challenges to the 
        two EISs.
  <bullet> Requires expedited Endangered Species Act consultation on 
        the two EISs; ESA consultation on individual timber sales will 
        only occur if requested by the BLM.
  <bullet> Within five years, requires USFWS and NOAA Fisheries to 
        evaluate whether performed and proposed actions comply with ESA 
        and the EISs; based on that review, the two regulatory agencies 
        then determine whether re-initiation of consultation is needed 
        relative to revision of the EIS.
  <bullet> Within 10 years, requires an independent scientific and 
        managerial review and a report to Congress on implementation of 
        the Act and whether additional legislation is needed.
  <bullet> Reduces the size of Riparian Reserves on lands in the FEAs 
        available for logging and outside of Key Watersheds (about 30% 
        of the O&C lands). The remainder of the O&C lands (70%) will 
        continue to have the Riparian Reserves of the Northwest Forest 
        Plan.
  <bullet> Eliminates the ``survey and manage'' requirements of the 
        Northwest Forest Plan.
  <bullet> Requires revenue-sharing with counties similar to 1937 Act; 
        however, estimated payments based on revenue-sharing are lower 
        overall than what counties currently receive.
  <bullet> Transfers 33,000 acres to two Indian tribes (where other 
        provisions of the Act would not apply), and designates 50,000 
        acres of special management and research areas to be co-managed 
        with Oregon State University (where management would have to 
        follow all of the Act's provisions).
Evaluation
    This is a very complex bill that requires careful evaluation of its 
pros and cons. Following are some key concerns about the bill, followed 
by recommendations to address those concerns.

          1. The bill would compromise the National Environmental 
        Policy Act by making it impossible to comply with the law's 
        requirements for site-specific evaluation of environmental 
        effects. Without a NEPA process for individual logging 
        projects, the bill would provide virtually no opportunity for 
        public involvement in management of the FEAs once the ten-year 
        comprehensive EISs were completed. The only opportunity for 
        project-level public involvement would be to file a lawsuit 
        challenging the consistency of a project with the 10-year EIS 
        Records of Decision. The bill also weakens NEPA by limiting the 
        number of alternatives and bypassing cumulative effects 
        analysis in the two comprehensive EISs.
          Recommendation: Require evaluation, monitoring, and public 
        involvement in site-specific activities, along with a public 
        process to make course corrections during implementation of the 
        Records of Decision. Provide for a five-year scientific review 
        and potential revision of the comprehensive EISs and landscape 
        plans with opportunity for public input. (See also 
        Recommendations 5 and 6.) Do not limit the range of 
        alternatives or the analysis of cumulative impacts in the 
        comprehensive EISs.
          2. The bill would compromise the Endangered Species Act by 
        requiring consultation only on the ten-year comprehensive EISs 
        and by imposing stringent deadlines to complete the 
        consultation process. While the bill would require a five-year 
        check on compliance with the ESA and whether to re-initiate 
        consultation on the EISs, the BLM would be able to bypass the 
        ESA consultation process normally required at the project 
        level. The bill also weakens the ESA by (1) giving the BLM the 
        final authority and last word on resolving any ESA disagreement 
        with FWS or NOAA; (2) allowing timber harvesting contrary to 
        the provisions of the ESA in marbled murrelet habitat (if such 
        harvesting was found to provide some forest ecosystem benefit) 
        or in northern spotted owl habitat (if it were deemed necessary 
        to respond to a severe threat from disease, insects or fire); 
        and (3) overriding a long-standing provision of the ESA which 
        prohibits federal agencies from making irreversible or 
        irretrievable commitments of resources during a reinitiated 
        consultation.
          Recommendation: Consistent with Section 7 of the ESA, ensure 
        that U.S. Fish and Wildlife Service or NOAA Fisheries have the 
        opportunity to consult on individual timber projects whenever a 
        project may adversely affect ESA-listed species. Do not weaken 
        the ESA conflict resolution process, provide loopholes for 
        logging of marbled murrelet or spotted owl habitat, or allow 
        activities ordinarily prohibited by ESA during reinitiated 
        consultation, or otherwise undermine bedrock requirements of 
        the ESA.
          3. The bill would restrict public recourse to the courts. 
        Most troubling, it would effectively eliminate judicial review 
        of individual BLM logging projects, only permitting legal 
        claims that a project is not consistent with the Record of 
        Decision for one of the comprehensive EISs. The bill would also 
        impose strict time limits and alter normal rules governing 
        judicial review of the EISs. Judicial review has been 
        critically important in protecting Northwest federal forests 
        from harmful logging since the 1980s.
          Recommendation: Apply the expedited judicial review 
        requirements in Section 106 of the Healthy Forest Restoration 
        Act to lawsuits challenging BLM logging projects. Do not limit 
        the types of legal claims that can be included in lawsuits.
          4. The bill would remove protection from some of the 
        ecologically important late-successional forests that are 
        currently protected by the Northwest Forest Plan. Specifically, 
        several thousand acres of mature forests that are older than 80 
        years and currently are located in Late Successional Reserves 
        would be re-classified as FEAs and thereby become available for 
        logging under the Wyden bill. The bill does not protect mature 
        trees that are under 120 years old in moist forest FEAs and 
        that are under 150 years old in dry forest FEAs.
          Recommendation: Include within the Legacy Old Growth 
        Protection Network (as replacement old growth) all mature 
        forests that are older than 80 years and located within 
        Northwest Forest Plan Late Successional Reserves.
          5. The bill mandates the still-evolving usage of Ecological 
        Forestry principles as legally required management direction 
        for FEAs unless/until Congress changes the law. Some uses of 
        Ecological Forestry, such as the creation of early successional 
        habitat in moist forests, are relatively untested and likely to 
        pose significant management challenges. While the bill requires 
        an independent scientific review of implementation after 10 
        years (presumably including review of Ecological Forestry 
        effects), there is no mechanism to depart from the bill's 
        Ecological Forestry principles or other management direction 
        other than through Congressional enactment of additional 
        legislation.
          Recommendation: Require the BLM to develop and use a science-
        based adaptive management process that includes a mechanism for 
        administrative modifications to the management prescriptions 
        for the FEAs to improve ecological outcomes, with public 
        involvement and congressional oversight. Establish an 
        independent scientific panel to oversee implementation of the 
        process and allow the BLM to make changes in management based 
        on the panel's recommendations and consistent with ecological 
        principles at least every five years (without requiring an act 
        of Congress).
          6. Similarly, the bill lacks a key element of a 
        scientifically-sound adaptive management framework--monitoring. 
        Without regular monitoring of the effects of Ecological 
        Forestry treatments on wildlife, streams, and other resources, 
        the BLM managers and independent reviewers will not have access 
        to adequate data to make informed decisions and 
        recommendations. The only monitoring direction specifically 
        provided by the bill focuses on the special management and 
        research areas to be co-managed by OSU. Even there, monitoring 
        is not assured since the bill lacks a dedicated funding 
        mechanism; thus, the special monitoring program would depend 
        largely on federal appropriations that are notoriously 
        inadequate and unreliable for monitoring.
          Recommendation: As part of the required adaptive management 
        process, require the BLM to monitor all Ecological Forestry 
        projects and their cumulative effects. Require the BLM to use 
        at least $1 million of the funds made available under Section 
        201 to provide a dedicated funding source for project-level 
        monitoring.
          7. The bill is unclear whether salvage logging of old-growth 
        forests would be permitted if the trees are killed by fire, 
        insects, or other causes. On the one hand, the bill appears to 
        allow salvage logging of spotted owl nest trees if they are 
        killed by natural disturbances (see Sec. 2(11)(B)(i)). However, 
        the bill does not exclude dead trees from its definition of old 
        growth, suggesting that salvage logging would generally not be 
        allowed (with a few exceptions such as for public safety (see 
        Sec. 102(d)(3)(C)). The absence of a clear prohibition on 
        salvage logging is sure to engender controversy in the future, 
        given the important role of large, dead trees in these 
        ecosystems.
          Recommendation: Clearly prohibit salvage logging of old-
        growth forests and spotted owl nest trees that have been killed 
        by fire, insects, or other causes.
          8. The bill provides unprecedented authority for counties and 
        even individuals to cut and remove trees from the BLM's dry 
        forest FEA lands located adjacent to private lands. Counties 
        would be allowed to undertake fuel reduction treatments on 
        federal land within \1/4\ mile of a residence, while private 
        landowners could cut trees on federal land up to two feet in 
        diameter within 100 feet of their residences. Counties and 
        landowners would only have to give the BLM advance notice of 
        their activities; no BLM supervision, monitoring, or reporting 
        would be required.
          Recommendation: Replace the problematic authorities in the 
        bill with ``good neighbor'' authority for the Oregon Department 
        of Forestry to perform fuel reduction work on BLM lands when 
        complementary work is taking place on adjacent non-federal 
        lands, as is currently done in Colorado and Utah national 
        forests. Require the BLM to supervise, monitor, and report on 
        any such work on BLM lands.
                                 ______
                                 
   Statement of Earthjustice * Defenders of Wildlife * Sierra Club * 
League of Conservation Voters * Natural Resources Defense Council * The 
Wilderness Society * Environment America * Endangered Species Coalition 
   * Center for Biological Diversity * Grand Canyon Trust * San Juan 
Citizens Alliance * Klamath Forest Alliance * Conservation Northwest * 
     Epic-Environmental Protection Information Center * Oregon Wild
    oppose s. 1966, senator barrasso 's national forest logging bill
    This bill mandates legislatively prescribed logging levels for each 
National Forest across most of the western United States, while also 
waiving or severely undermining compliance with federal environmental 
laws and eliminating the public's ability to seek judicial review of 
logging projects that may damage their communities. Legislative timber 
harvest prescriptions are in direct contravention of the multiple use 
mandate of the Forest Service, whose land managers must set out--
pursuant to locally and collaboratively-developed management plans--how 
best to manage each individual forest for not only timber production, 
but also the many vital benefits these lands provide, such as clean 
drinking water, fish and wildlife habitat, and hunting, fishing, 
hiking, and other recreational opportunities that support a multi-
billion dollar outdoor industry critically important to rural 
communities and regional economies.
    S. 1966 also strives to reinstate the discredited system of linking 
logging to revenue for counties. This volatile and unreliable resource 
extraction model was eliminated over a decade ago with the bipartisan 
passage of the Secure Rural Schools and Community Self-Determination 
Act of 2000 (otherwise known as ``Secure Rural Schools'' or ``SRS''). 
S. 1966 could decimate our western National Forests for special 
interests without addressing the true, long-term needs of rural 
communities.
    Just this past September, the Administration echoed these 
sentiments when it issued a strong veto threat against similar national 
forest legislation in House bill H.R. 1526. The September 18, 2013 
Statement of Administration Policy made clear that the ``Administration 
does not support specifying timber harvest levels in statute, which 
does not take into account public input, environmental analyses, 
multiple use management or ecosystem changes'' and that it strongly 
opposes because of ``numerous harmful provisions that impair Federal 
management of federally owned lands and undermines many important 
existing public land and environmental laws, rules and processes,'' 
which could ``significantly harm sound long-term management of these 
Federal lands for continued productivity and economic benefit as well 
as for the long-term health of the wildlife and ecological values 
sustained by these holdings.''\1\
---------------------------------------------------------------------------
    \1\ See http://www.whitehouse.gov/sites/default/files/omb/
legislative/sap/113/saphr1526r_20130918.pdf.
---------------------------------------------------------------------------
                          bullet point summary
Sec. 4(a): Legislatively Prescribes Logging Levels
  <bullet> Mandates a minimum of 7.5 million acres be logged from 
        national forests in the West during a 15-year period and gives 
        the Secretary of Agriculture sole discretion to establish a 
        much higher level, including up to 25% of each unit's Emphasis 
        Areas. Final logging levels are almost completely immune from 
        review or challenge.Science not politics should dictate logging 
        levels, and the public should be able to weigh in on major 
        decisions like how many millions of acres of national forest 
        land can be logged across the west.
  <bullet> Authorizes the Secretary of Agriculture to conduct logging 
        projects in ``Forest Management Emphasis Areas'' in each 
        National Forest unit west of the 100th meridian--this impacts 
        national forests in portions of North Dakota, South Dakota, 
        Nebraska, Oklahoma, and Texas, and all national forests in 
        Montana, Wyoming, Colorado, New Mexico, Washington, Oregon, 
        Idaho, California, Nevada, Utah, Arizona, and Alaska
  <bullet> ``Emphasis Areas'' are defined as any national forest land 
        ``identified as suitable for timber production in a forest 
        management plan in effect on the date of enactment''--forest 
        plans that are revised after the bill's enactment can only 
        reduce the number of acres designated as suitable for timber 
        harvest if the Secretary of Agriculture determines that it will 
        jeopardize an endangered species (section 4(d)). This provision 
        would completely bar the Forest Service from considering water 
        quality issues, pollution, climate change and other wildlife 
        aspects of forest health in determining logging levels.
  <bullet> Only areas that are excluded from ``Logging Emphasis Areas'' 
        are designated wilderness and areas where removal of vegetation 
        is specifically prohibited by federal law--exemptions do not 
        include wilderness study areas, old growth, or other 
        conservation lands, including ecologically sensitive areas 
        unsuitable for harvest that aren't reflected in yet-to-be-
        updated forest management plan
  <bullet> Within 60 days of enactment, Secretary must assign logging 
        requirements (referred to as ``acreage treatment 
        requirements'') that covers up to 25% for each Emphasis Area
  <bullet> Limits Stewardship and Service contracts, as the bill 
        requires that logging projects must be carried out primarily 
        pursuant to the timber sale contracting provision of the 
        National Forest Management Act (16 U.S.C. 472a)--if different 
        contracting methods are used, such as stewardship contracting, 
        the USDA Secretary must provide a written record specifying the 
        reasons
  <bullet> In direct contravention of the National Forest Management 
        Act's requirement that designation, marking, and supervision of 
        harvesting of trees must be conducted by USDA employees in 
        order to avoid having a conflict of interest in the purchase or 
        harvest of such products (see 16 U.S.C. 472a(g)), the bill 
        allows the Secretary to designate this authority to outside 
        parties such as the timber industry
Sec. 4(b): Limits Environmental Review and Public Participation
  <bullet> Secretary shall comply with NEPA by only completing an 
        Environmental Assessment (EA), even if a more comprehensive 
        review and an Environmental Impact Statement (EIS) are 
        warranted
  <bullet> EA only has to disclose and analyze the direct effects of 
        each covered project (barred from analyzing the cumulative 
        impacts or indirect effects of covered projects for that 
        national forest unit)
  <bullet> EA is also not required to study or describe more than the 
        proposed action and 1 additional alternative
  <bullet> EA can't exceed 100 pages in length and must be completed 
        within 180 days of published notice of logging project
  <bullet> Secretary must provide public notice of a covered project 
        and allow opportunity for public comment--no time period is 
        given but given that EA must be completed within 180 days of 
        public notice, comment period will presumably be very short
Sec. 4(c): Waives ESA Consultation
  <bullet> Rather than having to comply with ESA's section 7 
        requirements to consult with expert wildlife officials from the 
        U.S. Fish and Wildlife Service, the bill requires USDA to only 
        consult within its own staff on the Forest Service to make 
        potential wildlife jeopardy determinations resulting from 
        covered logging projects
  <bullet> This ``self-consultation'' is not consultation at all and 
        essentially waives compliance with the ESA
  <bullet> USDA is also given authority to make jeopardy determinations 
        regarding timber harvest levels--while the bill does call for 
        consultation with DOI on this one issue (see section 4(d)), it 
        appears to move the determination about jeopardy to USDA, a 
        complete shift from current practice and wholly contrary to 
        ESA's requirements that call for US FWS to make the 
        determination as to when something will or will not jeopardize 
        an endangered species
Sec. 5: Eliminates Judicial Review and Sets up Biased Arbitration 
        Process
  <bullet> Citizens can only seek administrative review of a covered 
        project pursuant to the limited administrative review process 
        under section 105 of the Healthy Forests Restoration Act of 
        2003
  <bullet> Public's ability to seek judicial review of harmful logging 
        projects is waived
  <bullet> Instead, a special arbitration process (that must be 
        completed within 90 days) is the ``sole means'' by which to 
        challenge a decision made following the special administrative 
        review process
  <bullet> Request for arbitration must be filed within 30 days after 
        the administrative review decision is issued and objector must 
        include a proposal containing changes sought to the covered 
        project (changes could include making the project larger and 
        more damaging)
  <bullet> Arbitration process would allow anyone who submitted a 
        public comment on the project to intervene in the arbitration 
        by submitting a proposal supporting or modifying the covered 
        project (which could include making the project larger and more 
        damaging) within 30 days of arbitration request
  <bullet> United States District Court in the district where project 
        is located must appoint the arbitrator
  <bullet> Arbitrator cannot modify any of the proposals submitted 
        under this section and must select a proposal submitted by the 
        objector or an intervening party--arbitrator must select the 
        proposal that best meets the purpose and needs described in the 
        Environmental Assessment for the project (which biases the 
        decision toward the proposal that allows the logging project or 
        even a potentially more harmful project to be carried out)
  <bullet> Arbitrator's decision is binding, shall not be subject to 
        judicial review, and shall not be considered a major Federal 
        action (which would foreclose additional NEPA review even if an 
        objector or intervenor's new proposal is selected that has 
        additional impacts not previously analyzed and disclosed in the 
        Environmental Assessment for the original project)
Sec. 6: Sets up Revenue Sharing System Linked to Commodity Extraction
  <bullet> Provides that 25% of the revenues derived from covered 
        projects will be distributed to counties
  <bullet> Reestablishes the discredited 25 percent revenue sharing 
        system that was eliminated over a decade ago with the creation 
        of Secure Rural Schools (SRS) program, which provides direct 
        payments to counties without linking to timber receipts
  <bullet> Allows some counties to ``double dip'' since in addition to 
        the 25% revenue sharing payments that counties would receive 
        from covered projects under S. 1966, some counties would still 
        also receive their payments under the Twenty-Five Percent Fund 
        Act of 1908
                         why we oppose s. 1966
    Institutes Lawless Logging.--This bill replaces judges with 
arbitrators who are prohibited from considering whether a project 
complies with the law. An arbitrator can only confirm or adopt a 
proposal based solely on compliance with the announced purpose and need 
for logging. As under the notorious 1995 supplemental appropriations' 
Salvage Rider (applicable through Dec. 1996), timber sales would not be 
required to comply with bedrock protections of the public interest, 
including the National Environmental Policy Act, the Endangered Species 
Act, and years of locally and collaboratively developed land management 
plans under the National Forest Management Act.
    Eliminates Environmental Safeguards.--This bill also specifically 
attacks the informed public engagement and improved government 
decision-making promoted by NEPA. No matter how large, controversial, 
or damaging a logging proposal, it could only be reviewed in an 
environmental assessment--a document valid only for projects that do 
not have significant impacts--and only in a drastically cramped 
timeframe and without regard to most, if not all, reasonable 
alternatives to the agency's proposal. Moreover, the bill sets the 
stage for future endangered species' crises by relegating review of ESA 
issues to a meaningless self-consultation process, shutting out the 
government's own expert wildlife agencies.
    Damages Watersheds and Pollute Drinking Water.--Industrialization 
of public lands will damage watersheds and pollute drinking water, 
putting our drinking water supply at risk, as over 50% of fresh water 
supplies in the West come from federal forests. Intensive logging and 
other extractive practices dumps sediment into rivers, which can 
increase costs for local water utilities, cause erosion, and can alter 
the timing of water availability.\2\
---------------------------------------------------------------------------
    \2\ Restoring watersheds where possible from destructive logging 
can cost taxpayers--including counties--hundreds of millions of dollars 
a year in lost revenues and vital ecosystem services. For example, in 
1996, Salem, Oregon was forced to spend nearly $100 million on new 
water treatment facilities after logging fouled the Santiam River with 
mud and silt. Salem is not alone; up to 124 million people nationwide 
receive drinking water from national forest watersheds, with an 
estimated $4 to $27 billion annual value.
---------------------------------------------------------------------------
     Harms Businesses and Jobs that Depend on Functioning Forests.--The 
outdoor recreation industry directly supports 6.1 million jobs and 
contributes over $646 billion annually to the US economy, including 
$39.7 billion to state/local revenues.\3\ Damaging these resources will 
directly impact outdoor-related businesses that generate revenue for 
counties and employ a range of skilled workers including sport and 
commercial fisherman, hunters, and anglers. The U.S. Forest Service's 
most recent annual visitor survey showed that national forests 
attracted 166 million visitors in 2011, and that visitor spending in 
nearby communities sustained more than 200,000 full-and part-time jobs.
---------------------------------------------------------------------------
    \3\ Outdoor Industry Association, THE OUTDOOR RECREATION ECONOMY 
(2012), available athttp://www.outdoorindustry.org/images/
researchfiles/OIA_OutdoorRecEconomyReport2012.pdf?167.
---------------------------------------------------------------------------
    Liquidates our Natural Heritage and is the Wrong Approach to 
Address County Funding.--We understand and sympathize with the tight 
budgets that many local governments are facing. However, this 
shortsighted proposal may cost taxpayers more than the revenue it 
generates and result in counties receiving smaller payments while also 
decimating the public forest land that communities rely on. It would 
reestablish the discredited county revenue sharing scheme that was 
eliminated over a decade ago because of its disastrous economic and 
ecological impacts. It also abandons our nation's vision of and 
commitment to a strong system of national safeguards to preserve 
America's natural heritage.
    Economics Don't Make Sense.--Increased federal expenditures may be 
required in order for the Forest Service to comply with and implement 
the bill's requirements to offer for harvest up to 25% of each National 
Forest's ``Logging Emphasis Areas.'' Moreover, it fails to provide a 
long-term, sustainable funding solution for our rural communities, and 
will likely result in counties receiving far less in annual payments 
than they have received under the Secure Rural Schools program, the 
current law that provides direct payments to counties without mandated 
logging requirements. The CBO score on the similar House bill H.R. 
1526--which also required that 25% percent of timber revenues be 
distributed to counties (from the bill's higher logging mandate of at 
least 50% of forest areas each year)--confirmed that such payments 
would average just over $50 million annually, which is far less than 
the approximately $350 million/year that counties have received 
annually under SRS.\4\ You simply cannot cut enough to make up for what 
the counties are receiving now under SRS.
---------------------------------------------------------------------------
    \4\ See http://www.cbo.gov/sites/default/files/cbofiles/
attachments/hr1526.pdf. Moreover, the previous iteration of H.R. 1526 
(H.R. 4019, 112th Congress) would have resulted in over half of the 
states receiving less revenue share payments as compared to their 
payments under the Secure Rural Schools Act even while having to 
decimate their National Forests with substantially increased levels of 
logging. For example, New Mexico's national forests would have had to 
increase logging by 1219% from 2010 cut levels to meet H.R. 4019's 
revenue target but would havereceived 75% less in funding. Similar 
results exist for Utah, Colorado, Nevada, and a number of other 
states.Headwaters Economics, CAN MANDATED TIMBER HARVESTS SAVE COUNTY 
PAYMENTS? AN ANALYSIS OF THE DRAFT FEDERAL FOREST COUNTY REVENUE, 
SCHOOLS, AND JOBS ACT 3, 7 (Feb. 16, 2012), available at http://
headwaterseconomics.org/wphw/wp-content/uploads/
CountyPayments_House_Analysis_Feb2012.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
Statement of Michael Anderson, Senior Resource Analyst, The Wilderness 
                                Society
    I am writing in response to a critical statement that you made 
about The Wilderness Society's written testimony during the February 6 
hearing of the Senate Energy and Natural Resources on S. 1966, the 
National Forest Jobs and Management Act of 2014. Specifically, you 
stated that The Wilderness Society was spreading ``misinformation'' 
about S. 1966 by incorrectly claiming that the bill would require 
logging across ``tens of millions of acres'' when in fact the bill 
would only require logging of 7.5 million acres.
    To clarify, our testimony correctly states that S. 1966 would 
require logging of 7.5 million acres located within approximately 47 
million acres of designated ``Forest Management Emphasis Areas.'' The 
statement in the conclusion of our testimony that the bill ``would 
require a massive increase in logging and other mechanical treatments 
across tens of millions of acres of national forest land in the West'' 
was referring to the 47 million acres of Forest Management Emphasis 
Areas, not the 7.5 million acres that are specifically required to be 
treated.
    Thank you bringing this issue to our attention, and we look forward 
to working with you and others on the committee to develop national 
forest legislation that addresses the needs of the forests and society.
                                 ______
                                 
    I am writing in response to a critical statement that you made 
about The Wilderness Society's written testimony during the February 6 
hearing of the Senate Energy and Natural Resources on S. 1966, the 
National Forest Jobs and Management Act of 2014. Specifically, you 
stated that The Wilderness Society was spreading ``misinformation'' 
about S. 1966 by incorrectly claiming that the bill would require 
logging across ``tens of millions of acres'' when in fact the bill 
would only require logging of 7.5 million acres.
    To clarify, our testimony correctly states that S. 1966 would 
require logging of 7.5 million acres located within approximately 47 
million acres of designated ``Forest Management Emphasis Areas.'' The 
statement in the conclusion of our testimony that the bill ``would 
require a massive increase in logging and other mechanical treatments 
across tens of millions of acres of national forest land in the West'' 
was referring to the 47 million acres of Forest Management Emphasis 
Areas, not the 7.5 million acres that are specifically required to be 
treated.
    Thank you bringing this issue to our attention, and we look forward 
to working with you and others on the committee to develop national 
forest legislation that addresses the needs of the forests and society.
                                 ______
                                 
Statement of Jim D. Neiman, Vice President/CEO, Neiman Enterprises, Inc
    Thank you for this opportunity to submit comments on S. 1966, ``The 
National Forest Jobs and Management Bill''.
    Neiman Enterprises owns 4 sawmills and a pellet plant within the 
Forest Service's Rocky Mountain Region, i.e., Colorado, South Dakota 
and Wyoming. We are a family business and are proud of recently 
celebrating our 78th year in business. We set high standards for our 
work, and have successfully undertaken the process to become a 
Certified Participant in the Sustainable Forestry Initiative, which 
means our operations are audited every three years against a set of 
rigorous standards. We employ almost 500 people, plus we contract with 
approximately 230 independent logging and trucking contractors. We 
depend very heavily on timber from the national forests for our supply 
of raw materials. Finally, I was recently honored to be selected by 
Governor Mead to participate and to serve as co-chair of the Wyoming 
Forest Task Force.
    I am delighted that Senator Barrasso has introduced S. 1966 and am 
pleased to offer my full support for the bill. S. 1966 will not change 
any of the decisions already made in the forest plans. What S. 1966 
will do is increase the Forest Service's ability to implement those 
decisions faster and more efficiently. S. 1966 will help increase the 
pace and scale of management, improve the health of the national 
forests, strengthen rural communities by providing opportunities for 
new jobs and economic diversity, improve the quality and diversity of 
wildlife habitat, and reduce the potential for devastating insect 
epidemics and fires, and the degraded water quality and other resource 
damage associated with catastrophic fires. Too often, naysayers hold up 
recreation and timber management as diametrically opposed; that does 
not match what I've seen over the last 50 years, especially in the 
Black Hills NF, where timber management co-exists with thriving 
wildlife populations, tremendous outdoor recreation opportunities, and 
other multiple use programs.
    Only 21% of the national forest lands in the Rocky Mountain Region 
(excluding the Nebraska NF and the various national grasslands) have 
been designated as suited timberlands in the forest plans. For 
comparison, 24% of the national forest lands in the Rocky Mountain 
Region are designated Wilderness. In FY 13, the total number of acres 
harvested in the entire 193 million acres of the National Forest System 
was 209,289 acres, nowhere near the level of harvest necessary to begin 
to address the forest health and long-term management needs of the 
national forests. For a Wyoming example, the 3.4 million acre Bridger 
Teton NF has 279,000 acres of suited timberlands; however, during the 
past 5 years, there were only 792 acres of timber harvest, an average 
of 158 acres per year, on the entire Forest.
    According to the Forest Service, between 65 and 82 million acres of 
national forest lands are in need of treatment to address forest health 
challenges such as insect epidemics and the risk of catastrophic fire. 
Just last month, the Forest Service released the 2013-2027 National 
Forest Insect and Disease Assessment, which predicted that without 
remediation, 25% or more of standing live basal area will die on 71.7 
million forested acres over the next 15 years due to insects and 
diseases.
    In a cruel irony, the very companies that could be used to restore 
these forests are suffering from a lack of access to timber. The forest 
products industry in the Rocky Mountain Region is comprised of private 
and family owned timber businesses. These businesses rely heavily on 
federal forests for their supply of logs. Even though the Region 
includes 7 million acres of infested, dying and dead forests needing 
critical management, the amount of timber acreage the Forest Service is 
able to sell falls far short of the 52,000 acres that we, as an 
industry, need to survive. In the midst of the worst ecological crisis 
facing our forests, where active forest management is desperately 
needed, our industry is facing a very real potential for failures and 
shutdowns.
    Part of the reason the current bark beetle epidemics have been so 
devastating in the Rocky Mountain Region is that the Forest Service was 
unable to complete NEPA analysis and sale layout before the bark 
beetles had moved through the analysis areas, devastated the forests, 
and moved on to new areas. I strongly support S. 1966 as a means of 
reducing the Forest Service's costs, shortening their timelines, and 
making them more efficient in order to increase the pace and scale of 
national forest management and restoration. I urge the Committee and 
the Congress to promptly consider and pass this important and timely 
bill.
    Thank you for your consideration.
                                 ______
                                 
      Statement of National Wild Turkey Federation, Edgefield, SC
    The National Wild Turkey Federation would like to commend you for 
your introduction of the National Forest Jobs and Management Act of 
2014. As the lead conservation organization for the preservation of 
upland habitat, we are supportive of your efforts to increase active 
forest management on our nation's National Forests. Timber harvest and 
the associated positive benefits to wildlife have been underutilized in 
recent decades. The National Forest Jobs and Management Act of 2014 
(NFJMA) will serve to streamline project planning and the 
implementation process to provide wildlife management on the ground in 
a more efficient manner. Active forest management--including thinning, 
prescribed burning, and other management tools--is key to forest 
health, and is necessary for producing suitable wildlife habitat.
    NWTF is supportive of the legislation, but we believe it would be 
more useful and comprehensive if the bill were amended to delete 
Section 3(4)(B)(ii) from the proposed draft. This section excludes 
National Forests east of the 100th meridian from the innovative project 
planning processes outlined in NFJMA. Like western forests, eastern 
National Forests are in desperate need of commercial timber harvest to 
create young forest habitats that are critical to a wide variety of 
both game and non-game species. We respectfully request your 
consideration of that change.
    Thank you again for introducing this important legislation and for 
providing NWTF the opportunity to provide comment.
                                 ______
                                 
     Statement of Adam Cramer, Executive Director, Outdoor Alliance
    Outdoor Alliance is a coalition of five national, member-based 
organizations representing the human powered outdoor recreation 
community. The coalition includes Access Fund, American Canoe 
Association, American Whitewater, International Mountain Bicycling 
Association, and Winter Wildlands Alliance and represents the interests 
of the millions of Americans who paddle, climb, mountain bike, and 
backcountry ski and snowshoe on our nation's public lands, waters, and 
snowscapes. Many of these people have located their homes, families, 
and businesses near US Forest Service lands specifically for the 
abundant and predictable recreational opportunities offered by those 
multi-use lands.
    It is with this lens that we view Senate Bill 1966, the ``National 
Forest Jobs and Management Act.'' S.1966 would legally require 
significantly more timber harvest than currently occurs, with limited 
analysis and opportunities for review. We feel that this bill would 
impact human-powered recreation and related businesses in the following 
ways:

  <bullet> The geographical footprint of this bill would upset the 
        current balance between recreation, timber harvest, 
        conservation, and other multiple use values. The bill would 
        mandate logging on 2.5 times more US Forest Service land than 
        is currently logged. These multi-use areas are home to high 
        quality mountain biking, paddling, backcountry skiing and 
        climbing opportunities that could be degraded by road building 
        and other timber harvest related activities.
  <bullet> The increase in mandatory logging would require staffing and 
        budgets be shifted away from recreational projects like trail 
        building, river access area construction, monitoring, and the 
        creation of modern management plans. These types of projects 
        provide significant benefits to visitors and regional 
        economies, and the US Forest Service already struggles to take 
        advantage of these opportunities without the added workload of 
        S.1966.
  <bullet> S.1966 short-cuts portions of the National Environmental 
        Policy Act process that are vital to protecting recreational 
        values on National Forests. First, limiting the scope of 
        analysis to ``direct effects'' overlooks indirect and 
        cumulative impacts that can significantly diminish the 
        recreational values of an area. Second, limiting the scope of 
        analysis to only two alternatives could and likely would 
        exclude nuanced solutions that maintain multiple values 
        including recreation and timber harvest.
  <bullet> S.1966 takes away a meaningful appeal and litigation 
        opportunity that is needed to protect businesses and the 
        quality of life in gateway communities. Logging projects that 
        destroy or diminish significant recreational assets could be 
        allowed or even required under S.1966. Commercial outfitters, 
        local gear stores, and recreational enthusiasts that are 
        impacted by these proposed projects would have an arbitration 
        process significantly weighted against them rather than the 
        more objective hard look of an administrative appeal. If and 
        when they lose in arbitration, legal recourse is significantly 
        diminished by S.1966.

    Our organization does not oppose logging on multiple use lands, and 
we recognize and appreciate the diverse values our National Forests can 
bring to our citizens. The Forest Service has a tough job ensuring that 
multiple and very important uses and benefits are maintained, not the 
least of which is the delivery of clean drinking water, conservation of 
fish and wildlife, provision of outdoor recreation, and the harvest of 
forest products. The Forest Service attempts to balance these uses, and 
S.1966 would upset that balance and give one competing use an unfair 
and unnecessary advantage. The result would almost certainly be impacts 
to recreation and other valuable uses.
    I hope you will take into account the impacts of S. 1966 on the 
millions of Americans who have centered their lives and businesses 
around skiing, mountain biking, paddling, and climbing on National 
Forest lands.
                                 ______
                                 
    Statement of Steven K. Kline, Director of Government Relations, 
              Theodore Roosevelt Conservation Partnership
    The Theodore Roosevelt Conservation Partnership (TRCP) is a 
national sportsmen's conservation organization working to guarantee all 
Americans quality places to hunt and fish. We are writing to express 
concern about S. 1966, the National Forest Jobs and Management Act. We 
cannot support this legislation as proposed, but we are open to 
considering ways to improve the management of America's national 
forests.
    The TRCP supports active management projects on our national 
forests, and we believe that it is strategically important for 
America's sawmill infrastructure to be maintained. We do not, however, 
support the approach that is proposed in S. 1966 to address America's 
national forest management issues.
    Scaled and sited appropriately, an increase in mechanical treatment 
on our national forests can meet four important goals: provide a supply 
of timber, improve fish and wildlife habitat, protect communities from 
wildfire and enhance ecosystem function and resiliency. S. 1966, 
however, emphasizes only one of those four goals.
    S. 1966 would require the Forest Service to increase timber harvest 
significantly, going so far as to mandate acreage requirements and a 
specific timeframe. However, this increase in timber production would 
be required without any significant increases in funding to the US 
Forest Service. Given that the agency currently faces an incredibly 
tight budget, this mandate would shift dollars away from other critical 
forest management activities.
    The legislation also includes a dramatically scaled-back National 
Environmental Policy Act (NEPA) review process for proposed Forest 
Management Emphasis Areas. TRCP understands that the NEPA process has, 
in some cases, been a barrier to legitimate timber harvest, but changes 
to the NEPA review process should not be considered lightly.
    While we do not support many of the specifics in this legislation, 
the TRCP does recognize the need to increase active management 
activities on America's national forests. The current paradigm works 
for no one, and solutions are necessary. We are ready and willing to 
participate in further discussions about this important issue and 
identifying ways to improve the management and health of our national 
forests.
                                 ______
                                 
          Statement of Lisa McGee, Staff Attorney and Program 
                          Director, Lander, WY
    On behalf of the Wyoming Outdoor Council, I appreciate the 
opportunity to offer written testimony regarding Senator Barrasso's 
Senate Bill 1966, the ``National Forest Jobs and Management Bill.'' 
Founded in 1967, the Outdoor Council is the state's oldest independent 
conservation organization. We work to protect Wyoming's environment and 
quality of life for future generations. Our goal is to develop 
productive and lasting solutions for managing natural resources through 
collaborative engagement with stakeholders and decision makers.
    Senator Barrasso's bill came as a surprise to many in Wyoming and 
in particular to some of us who have been asked to serve on Governor 
Matt Mead's Forest Task Force. As co-chair of this Task Force, I have 
been charged with leading a collaborative process, the goal of which is 
to achieve consensus recommendations regarding forest management 
through the engagement, contribution, and participation of a diverse 
group of stakeholders.
    In contrast to the efforts of the Task Force to work from the 
``ground-up'' and to ensure our recommendations respect the myriad 
multiple uses on the national forests in Wyoming, SB 1966 would appear 
to mandate a ``top-down'' approach, one that would prioritize one use 
above all others.
    As I understand it, SB 1966 would require the Forest Service to 
undertake commercial logging and other mechanical treatments on at 
least 7.5 million acres of national forest land over a 15-year period. 
This amounts to an annual average of 500,000 acres per year--more than 
doubling the number of acres currently treated. The bill also creates 
an unfunded mandate to achieve this target with the result that the 
Forest Service would be required to divert already scarce resources 
away from its multiple-use management activities and obligations.
    Not only is the bill's timber harvest mandate potentially damaging 
to forest resources, it is also unlikely to result in a net increase in 
jobs. SB 1966 fails to acknowledge current economic drivers in Wyoming 
and other western states. In Wyoming alone, tourism and recreation are 
multi-billion dollar industries, second only to mineral development. 
This bill threatens to damage established and sustainable jobs that 
rely on the Forest Service's multiple use mandate. Many of the national 
forests in Wyoming--particularly the Bridger-Teton and Shoshone in the 
greater Yellowstone area--already create and sustain diverse and 
lasting employment opportunities.
    Responsible timber harvest is a valid use on our national forest 
lands. Prioritizing this one use and single industry, however, at the 
potential expense of other resources, values, uses and industries as SB 
1966 does, is problematic. Although there may be opportunities for 
small sawmills to re-establish themselves in communities surrounding 
the national forests in Wyoming, this should not result from a broad-
brush congressional mandate to increase logging. Improvements to forest 
management are best achieved on a forest-by-forest basis and with the 
participation of local communities and diverse stakeholders.
    I urge the Senate Energy and Natural Resources Committee to reject 
this bill. Thank you for your consideration.



                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
